<html>
<title> - OVERSIGHT OF MOTOR CARRIER SAFETY EFFORTS</title>
<body><pre>[Senate Hearing 111-892]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-892
 
               OVERSIGHT OF MOTOR CARRIER SAFETY EFFORTS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 28, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
65-003                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e087908fa08395939488858c90ce838f8dce">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

FRANK R. LAUTENBERG, New Jersey,     JOHN THUNE, South Dakota, Ranking 
    Chairman                             Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BYRON L. DORGAN, North Dakota        JIM DeMINT, South Carolina
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 28, 2010...................................     1
Statement of Senator Lautenberg..................................     1
Statement of Senator Thune.......................................     2
    Prepared statement...........................................     3
Statement of Senator McCaskill...................................    84

                               Witnesses

Ferro, Hon. Anne S., Administrator, Federal Motor Carrier Safety 
  Administration, U.S. Department of Transportation..............     4
    Prepared statement...........................................     6
Hersman, Hon. Deborah A.P., Chairman, National Transportation 
  Safety Board...................................................    14
    Prepared statement...........................................    15
France, Francis (Buzzy), President, Commercial Vehicle Safety 
  Alliance.......................................................    29
    Prepared statement...........................................    31
Gillan, Jacqueline S., Vice President, Advocates for Highway and 
  Auto Safety....................................................    39
    Prepared statement...........................................    41
Osiecki, David J., Senior Vice President, Policy and Regulatory 
  Affairs, American Trucking Associations, Inc...................    58
    Prepared statement...........................................    60
Spencer, Todd, Executive Vice President, Owner-Operator 
  Independent Drivers Association................................    69
    Prepared statement...........................................    71

                                Appendix

Hutchison, Hon. Kay Bailey, U.S. Senator from Texas, prepared 
  statement......................................................    89
Owings, Stephen, President and Co-Founder, Road Safe America, 
  prepared statement.............................................    89
Response to written questions submitted to Hon. Anne S. Ferro by:
    Hon. Frank R. Lautenberg.....................................    94
    Hon. Mark Pryor..............................................    97
    Hon. Kay Bailey Hutchison....................................   101
    Hon. John Thune..............................................   102
Response to written questions submitted to Hon. Deborah A.P. 
  Hersman by:
    Hon. Frank R. Lautenberg.....................................   106
    Hon. Mark Pryor..............................................   118
    Hon. Tom Udall...............................................   122
    Hon. John Thune..............................................   123
Response to written question submitted to Francis (Buzzy) France 
  by:
    Hon. Frank R. Lautenberg.....................................   126
    Hon. Mark Pryor..............................................   126
Response to written question submitted to Jacqueline S. Gillan 
  by:
    Hon. Frank R. Lautenberg.....................................   136
    Hon. Mark Pryor..............................................   136
    Hon. John Thune..............................................   139
Response to written question submitted to David J. Osiecki by:
    Hon. Frank R. Lautenberg.....................................   140
    Hon. Mark Pryor..............................................   141
Response to written question submitted to Todd Spencer by:
    Hon. Frank R. Lautenberg.....................................   142
    Hon. Mark Pryor..............................................   143


                      OVERSIGHT OF MOTOR CARRIER 
                             SAFETY EFFORTS

                              ----------                              


                       WEDNESDAY, APRIL 28, 2010

                               U.S. Senate,
         Subcommittee on Surface Transportation and
            Merchant Marine Infrastructure, Safety, and Security,  
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:46 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Frank 
Lautenberg, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, everybody, for being here. 
Thank you, Senator Thune, for being here. I want to welcome 
everyone to today's hearing as we continue this Subcommittee's 
work on truck and bus safety.
    On an early Friday morning last month, a tractor trailer in 
Kentucky unexpectedly left the lane of the highway it was 
driving down, crossed the median, and veered toward oncoming 
traffic. The out-of-control truck soon struck a van head on. 
The van was carrying 15 members of an extended family on their 
way to a relative's wedding. Ten of the passengers onboard that 
van died, including parents and children. The 45-year-old truck 
driver, who is believed to have fallen asleep behind the wheel, 
was also killed. It was Kentucky's worst highway crash in more 
than 20 years, but it was not an isolated incident.
    The fact is that when a car crashes with a large truck, the 
results are often fatal. Crashes with large trucks along our 
highways cause an average of 14 Americans to die on the 
highways every single day. Just think, big trucks account for 
only 3.5 percent of all registered vehicles on our roads, yet 
they are involved in more than 11 percent of all of the motor 
vehicle crash deaths.
    And make no mistake, our economy relies on trucks. They 
provide a valuable service and we want them to operate and 
continue to help our economy, but we want them to do it safely. 
In fact, New Jersey is home to the biggest port on the East 
Coast which relies on trucks to transport goods. As important 
as trucks are, we have to remember that these vehicles share 
the roads with our families and they are more widespread than 
ever before.
    Between 1980 and 2000, highway capacity in our country 
increased by less than 2 percent, but during roughly the same 
period, the number of miles traveled by trucks grew by nearly 
100 percent. That is from 1980 to the year 2000.
    Since 2000, the number of large trucks on our highways has 
increased by more than a million newly registered vehicles. As 
more trucks clog our highways, we have to make sure that they 
are safe. Double- and triple-trailer trucks do not belong on 
our highways. Yet, a loophole in our laws allows them to 
endanger the public. We need to close that loophole and block 
these long, overweight trucks from using our national highway 
system. But we also need to make sure that truck drivers are 
alert and driving safely.
    While the Department of Transportation has taken some steps 
recently to increase safety, including moving to ban texting 
while driving, we need to do more. It is essential that we take 
the danger posed by tired truck drivers seriously.
    In the last Congress, we brought to light the flaws in 
hours-of-service regulations that were imposed by the Bush 
administration. Those regulations allow drivers of large trucks 
to remain behind the wheel nearly 30 percent longer each week, 
pushing them to the brink of fatigue. These regulations were so 
egregious that the court struck them down not once but twice. 
The Obama Administration has made the right move by initiating 
a new rulemaking on driver hours.
    But I want to be clear. When this process is over, we 
cannot wind up with the same flawed regulations that the last 
Administration designed. And I do not mean that as a political 
statement. I am simply saying that we have got to improve 
safety on our roads.
    A key way to enforce hours-of-service rules, combat driver 
fatigue, and hold drivers accountable is with electric on-board 
recorders, known as EOBRs. A new rule was recently issued by 
the Federal Motor Carrier Safety Administration that is going 
to require some trucks and buses to have EOBR. While this 
proposal is a modest improvement over what has been suggested, 
these new rules still only affect 1.3 percent of all trucking 
companies. It is infinitesimally small. And that is far short 
of the universal installation which the National Transportation 
Safety Board has placed on its Most Wanted List. Electronic on-
board recorders should be installed on every truck and bus to 
protect all drivers on the roads, whether they are driving a 
truck, a bus, or a family car.
    I look forward to working with our witnesses and my 
colleagues on the Committee to create common-sense solutions so 
that our trucking industry is safe, our economy keeps moving, 
and our families are protected.
    I call on my colleague, Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. Thank you for 
holding today's hearing.
    I am pleased that with this hearing we are beginning our 
work to reauthorize the Federal Motor Carrier Safety 
Administration. The highway bill, which is the traditional 
vehicle for reauthorizing this agency and the National Highway 
Traffic Safety Administration, is already past due. I hope that 
we will soon begin drafting the motor carrier safety title so 
that we are fully prepared when the other authorizing 
committees have completed their work and are ready to go to the 
floor.
    I think it is also important to reflect today on what has 
been accomplished since FMCSA was established in 1999. 
Significant progress has been made in improving truck safety. 
Through 2008, the rate of fatalities involving large trucks per 
100 million vehicle miles traveled has declined by 28 percent, 
a greater decline than that of passenger vehicles over the 
period. The rate of injuries in crashes involving large trucks 
has fallen by 29 percent. The work of FMCSA, the industry, and 
this committee have all contributed to these positive results.
    While FMCSA has experienced some rocky periods, I believe 
the agency has turned a corner. I expect there will be a fair 
amount of discussion this morning about the agency's CSA 2010 
initiative, but it is refreshing to be in the position of 
questioning the agency about this important new initiative 
rather than to be chastising the FMCSA Administrator for being 
behind in over 30 rulemaking and report requirements, which was 
the case when Congress last reauthorized the agency. I commend 
the current Administrator, as well as the past two 
Administrators, John Hill and Annette Sandberg, for the 
progress being made.
    The Commerce Committee made an important first step on 
commercial vehicle safety last December when it reported the 
Motor Coach Enhanced Safety Act. While all of the motorcoach 
safety provisions may not be practical for the trucking 
industry, given its much larger number of trucking companies 
and drivers, the bill is a good start and can serve as a guide 
in terms of the safety issues that need to be addressed in the 
trucking industry.
    Some contentious issues will certainly be before us today 
as we work to develop comprehensive reauthorization 
legislation. I hope, Mr. Chairman, that we will be able to work 
through the difficult issues and achieve constructive solutions 
that will promote safety without imposing undue burdens on an 
industry that is so vital to the health of the American 
economy.
    Thank you, Mr. Chairman, and I look forward to hearing from 
our witnesses.
    [The prepared statement of Senator Thune follows:]

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota

    Thank you, Mr. Chairman, and thank you for holding today's hearing. 
I am pleased that, with this hearing, we are beginning our work to 
reauthorize the Federal Motor Carrier Safety Administration (FMCSA). 
The highway bill, the traditional vehicle for reauthorizing this agency 
and the National Highway Traffic Safety Administration (NHTSA), is 
already past due. I hope that we will soon begin drafting the motor 
carrier safety title, so that we are fully prepared when the other 
authorizing committees have completed their work and are ready to go to 
the floor.
    I think it is also important to reflect today on what has been 
accomplished since F-M-C-S-A was established in 1999. Significant 
progress has been made in improving truck safety. Through 2008, the 
rate of fatalities involving large trucks per 100 million vehicle miles 
traveled has declined 28 percent, a greater decline than that of 
passenger vehicles over the period. The rate of injuries in crashes 
involving large trucks has also fallen, by 29 percent. The work of 
FMCSA, the industry, and this Committee have all contributed to these 
positive results.
    While FMCSA has experienced some rocky periods, I believe the 
agency has turned a corner. I expect there will be a fair amount of 
discussion this morning about the agency's ``CSA 2010'' initiative. But 
it is refreshing to be in the position of questioning the agency about 
this important new initiative, rather than to be chastising the FMCSA 
Administrator for being behind in over 30 rulemaking and report 
requirements, which was the case when Congress last reauthorized the 
agency. I commend the current Administrator, as well as the past two 
Administrators, John Hill and Annette Sandberg, for the progress being 
made.
    The Commerce Committee made an important first step on commercial 
vehicle safety last December when it reported the Motorcoach Enhanced 
Safety Act. While all of the motorcoach safety provisions may not be 
practical for the trucking industry given its much larger number of 
trucking companies and drivers, the bill is a good start and can serve 
as a guide in terms of the safety issues that need to be addressed in 
the trucking industry.
    Some contentious issues will certainly be before us today and as we 
work to develop comprehensive reauthorization legislation. I hope, Mr. 
Chairman, that we will be able to work through the difficult issues and 
achieve constructive solutions that will promote safety, without 
imposing undue burdens on an industry that is so vital to the health of 
the American economy.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses.

    Senator Lautenberg. Thank you, Senator Thune.
    And now Ms. Anne Ferro, the Administrator of the Federal 
Motor Carrier Safety Administration. This is your first time 
before the Committee since your confirmation. We welcome you. 
We are anxious to know what has happened since you took charge, 
and we look forward to hearing you. Ms. Hersman, the 
Chairperson of the National Transportation Safety Board. We 
thank you both for sharing your time and knowledge with the 
Committee. We do have a 5-minute limit. We apply the brakes 
gently, but firmly. So, Ms. Ferro, if you might begin.

        STATEMENT OF HON. ANNE S. FERRO, ADMINISTRATOR,

          FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION,

               U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Ferro. Mr. Chairman, thank you very much for the 
opportunity to be here, and Ranking Member Thune, thank you.
    Before I get started, I would like to quickly talk about 
the final gap in my team-building and introduce Bill Bronrott, 
our new Deputy Administrator with the Federal Motor Carrier 
Safety Administration. He was sworn in yesterday, and now that 
he has signed the paper, I know he is going to stay. So we are 
very pleased to have him on board.
    I am very grateful for the opportunity to address the range 
of efforts underway by the Federal Motor Carrier Safety 
Administration to eliminate severe crashes and fatalities 
involving trucks and buses.
    During my confirmation hearing last September, Mr. 
Chairman, you said that ``every year for the past decade, 
nearly 5,000 people have died and 125,000 were injured in 
crashes involving a large truck.'' That is 50,000 individuals 
over the course of a decade who did not get home to their loved 
ones. That is a constant reminder for me and what drives me and 
ensures that I am dedicating my vision to achieving our safety 
mandate and reducing, eventually eliminating, severe crashes 
involving commercial motor vehicles.
    Through a strategic focus on research, regulations, 
enforcement, grants to States and public outreach, FMCSA's 
workforce is committed to fulfilling our mandate. It is my job 
as Administrator to set a strategic framework that places the 
highest priority on safety, and that framework is shaped by 
three core principles: raising the bar to enter the industry, 
maintaining a high safety standard to stay in the industry, and 
ensuring that high-risk behaviors and high-risk operators are 
removed from our roads and highways. These principles apply 
whether we are talking about a motor carrier company, a driver, 
a vehicle, a service provider, household goods provider.
    I would like to share a few examples of the work that we 
have underway that works within and supports this framework.
    First, with regard to raising the bar to enter the motor 
carrier industry, a couple of key examples of new and ongoing 
initiatives. We recently strengthened the New Entrant Safety 
Assurance Program to identify startup truck and bus companies 
who are deficient in key areas that must be addressed in order 
to continue operations.
    Additionally, about 18 months ago, we implemented a vetting 
program to weed out unsafe motorcoach and household goods 
carriers who reincarnate to avoid sanctions. Since its start, 
about a third of the 2,600 applicants we have received through 
this vetting program, applicants for operating authority, have 
been either dismissed, denied, or withdrawn. In the future, 
with system improvements, we plan to expand this vetting 
program to hazardous materials carriers and eventually to all 
carriers applying for authority.
    With regard to the second principle, maintaining a high 
safety standard to stay in the industry, again CSA 2010 
absolutely is our agency's new safety fitness determination and 
compliance program and it fulfills in a significant way the 
concept and principle of maintaining a high standard. It 
consists of three core components: a new rating system, safety 
fitness determination rulemaking, and a new intervention 
process. Combined, these three measures will accelerate 
corrections to safety problems before the crash occurs. The 
program represents a move from the current one-size-fits-all 
compliance review to a dynamic, targeted examination of high-
risk factors, and those are unsafe driving, fatigued driving, 
driver fitness, crash history, vehicle maintenance, improper 
loading of cargo, and drugs and alcohol.
    Our work in the context of ensuring the industry maintains 
high standards continues. To accomplish this goal, as you 
mentioned, Mr. Chairman, we have published a final rule that 
requires carriers with serious patterns of hours-of-service 
violations to install electronic on-board recorders. Work is 
already underway to develop a broader mandate to ensure that 
EOBRs are applied uniformly across the hours-of-duty status for 
carriers.
    Critical to this whole concept of maintaining a high 
standard is the hours-of-service rule. As you know, FMCSA is 
undertaking a new rulemaking on this vitally important 
operating factor. Late last year, we set in play a process to 
collect and receive information and perspective both through an 
open docket, as well as listening sessions around the country. 
The process has given us a wide range of perspectives to 
incorporate when examining research we are using to develop the 
rule.
    With regard to high-risk behavior, two key measures I want 
to highlight. First is the Department and our administration's 
aggressive focus on distracted driving. Under the leadership of 
Secretary LaHood, FMCSA very recently issued a proposed rule to 
ban texting for commercial motor vehicle drivers. We will soon 
follow with a proposed rule on cell phone use.
    The second is a proposed rule to create a drug and alcohol 
test clearinghouse to mandate stricter reporting requirements 
on CDL holders who test positive for drugs and alcohol or who 
refuse the test.
    On a final note, Ranking Member Thune, again with regard to 
reauthorization, I look forward to discussing reauthorization 
and FMCSA's programs when Congress considers the 
reauthorization of surface transportation funding.
    In my travel around the country in these first few months, 
I have heard firsthand the budget constraints facing States and 
the importance of Federal funding to achieving strong 
commercial vehicle safety enforcement. The work of FMCSA comes 
together in the field, both at our division level and at the 
roadside, and we must support our frontline staff in this 
regard, both with tools and resources.
    So with all of this to report and more, I believe we are 
on, in fact, the path to significant progress in setting the 
bar high for motor carrier safety. The employees of FMCSA share 
my sense of urgency and they share my commitment to work with 
you on the many important challenges we face.
    With that, Mr. Chairman, I will conclude my remarks and 
look forward to taking any questions.
    [The prepared statement of Ms. Ferro follows:]

Prepared Statement of Hon. Anne S. Ferro, Administrator, Federal Motor 
    Carrier Safety Administration, U.S. Department of Transportation

    Chairman Lautenberg, Ranking Member Thune, and members of the 
Subcommittee, thank you for inviting me to appear before you today to 
give an overview of the priorities and programs of the Federal Motor 
Carrier Safety Administration (FMCSA), the successes we have had in 
enhancing safety on our Nation's highways, and our continuing 
challenges as we strive to significantly reduce severe and fatal 
crashes involving commercial motor vehicles.

Introduction
    During my confirmation hearing to be Federal Motor Carrier Safety 
Administrator last September, Chairman Lautenberg pointed out that 
``[e]very year for the past decade, nearly, 5,000 people died and 
125,000 were injured in crashes with a large truck. That's nearly 14 
people a day, or 14 families torn apart by horrible, and often 
avoidable accidents.'' Each one of these fatalities and injuries 
reflects a tragic loss, pain, suffering, or hardship and is truly 
unacceptable. As the head of the Agency responsible for reducing these 
fatality and injury rates, I do not waiver in my commitment to prevent 
and eliminate these avoidable motor carrier crashes. Under the strong 
leadership of Secretary LaHood, Deputy Secretary Porcari, and with the 
dedication and support of every man and woman who works for FMCSA, we 
are steadfast in achieving the Agency's mission to improve and secure 
motor carrier safety.

Core Priorities
    As I will describe in further detail, FMCSA has a number of 
initiatives and programs underway aimed at achieving our mission. As 
the new Administrator, it is my job to set a strategic framework in 
which to prioritize our responsibilities and clearly focus our efforts 
and resources on a vision of eliminating severe and fatal crashes 
involving commercial vehicles. FMCSA must:

        1. Raise the safety bar to enter the industry;

        2. Require operators to maintain high safety standards to 
        remain in the industry; and

        3. Remove high-risk operators from our roads and highways.

    This strategic framework applies to companies, drivers, brokers, 
and service-providers alike. To achieve the best outcome within this 
framework, FMCSA must improve its program and rule-development 
processes, its stakeholder relationships, and the health of the 
organization.
    While recognizing the important safety work that remains to be 
accomplished, I would like to point to some of the recent safety 
improvements in motor carrier safety:

  <bullet> Total miles traveled by all vehicles has grown significantly 
        over the past 10 years, most significantly for large trucks and 
        buses--there has been a 16 percent increase in miles traveled 
        by these vehicles from 1998 to 2008. In addition, the number of 
        large trucks and buses registered has increased 17 percent over 
        this time period.

  <bullet> Even with the continued growth in commercial vehicle 
        traffic, the most recent data available show that our Nation's 
        highways experienced their lowest number of fatalities (4,525 
        in 2008) from crashes involving large trucks and buses since 
        fatal crash data collection began in 1975.

  <bullet> Fatalities from large truck or bus crashes have dropped for 
        3 years in a row, a decline of 15 percent from 2006 to 2008.

  <bullet> Safety improvements have been realized not only in terms of 
        fatal crashes, but also in injury crashes. In 2008, 113,000 
        people were injured in crashes involving large trucks and 
        buses, the lowest number of persons injured in these crashes 
        since 1988, the first year of injury crash data collection.

  <bullet> The number of people injured in large truck and bus crashes 
        declined 10 percent from 2006 to 2008.

    The reduction in severe and fatal crashes involving commercial 
motor vehicles comes about through the dedication and hard work of many 
people represented by the stakeholders in this room. We are broadening 
the participation of these stakeholders on our Motor Carrier Safety 
Advisory Committee (MCSAC) to improve the transparency of the input we 
receive about our programs. However, we can and must do more. FMCSA's 
employees are passionate about saving lives. With clear priorities and 
productive stakeholder relationships, I assure this Committee and the 
public that we are on a path to demonstrate the effectiveness of our 
passion better than ever.

Overview of FMCSA
    FMCSA's primary mission is to prevent commercial motor vehicle 
(CMV)-related fatalities and injuries. We achieve this mission through 
a mix of programs, rules, and resources that together exert direct and 
indirect influence over approximately 500,000 actively registered 
commercial motor carriers and 7 million commercial driver licensees. 
Our direct influence is made possible by FMCSA's workforce of 1,100 
employees, almost 900 of whom are in our field operations utilizing a 
suite of strong laws, programs, and resources.
    Indirectly, we achieve our mission by making it a priority for 
licensing and law enforcement agencies in 50 States and the District of 
Columbia through grants, laws, education and partnerships. State 
commercial vehicle police and inspectors, Department of Motor Vehicles 
(DMV) employees and examiners, public service commissions, our 
employees in the field, and employers are the people closest to 
preventing or enabling an unsafe carrier or driver from operating.
    The range of FMCSA's authority, programs and activities includes:

  <bullet> Commercial Drivers Licenses: FMCSA develops standards to 
        test and license CMV drivers and maintain the Commercial Driver 
        License Information System. Through grants and guidelines 
        States carry out and administer these programs.

  <bullet> Data and Analysis: FMCSA collects and disseminates safety 
        performance and crash data to improve motor carrier and 
        motorcoach safety.

  <bullet> Regulatory Compliance and Enforcement: FMCSA directs an 
        aggressive compliance and enforcement program to improve safety 
        performance and remove high-risk carriers from the Nation's 
        highways through reviews of the motor carrier's compliance with 
        safety and economic regulations.

  <bullet> Research and Technology: FMCSA works closely with the other 
        modes within DOT on research and technology projects to 
        identify best practices and new technologies that improve the 
        safety of motor carrier operations, CMVs, and drivers.

  <bullet> Safety Assistance Grants: FMCSA provides financial 
        assistance to conduct roadside inspections, traffic enforcement 
        and other CMV safety programs. These grants promote motor 
        vehicle, motorcoach and motor carrier safety and regulatory 
        uniformity.

  <bullet> Other Activities: FMCSA supports the development of uniform 
        reciprocal motor carrier safety requirements and procedures 
        throughout North America. It participates in international 
        technical organizations and committees to learn about the best 
        practices in motor carrier and motorcoach safety throughout 
        North America and the rest of the world. It enforces 
        regulations, ensuring safe highway transportation of hazardous 
        materials and enforces statutory and regulatory consumer 
        protection provisions regarding the transportation and delivery 
        of household goods in interstate transportation.

    A discussion of current developments in FMCSA's programs, rules, 
and resources follows.

Programs
Comprehensive Safety Analysis (CSA) 2010
    The CSA 2010 initiative, the Agency's new operational enforcement 
business model, is a critical and far-reaching component in addressing 
the Agency's priorities and meeting its goals. CSA 2010 represents a 
move from the current one-size-fits-all compliance review model. Once 
implemented, it could help FMCSA achieve a greater reduction in large 
truck and bus crashes and fatalities and injuries by enabling the 
Agency and our State partners to analyze the safety performance of a 
much larger population of motor carriers.
    CSA 2010 will allow more comprehensive review, analysis, and 
restructuring of FMCSA's current safety fitness determination process 
and compliance and enforcement programs. The overall goal is to lead 
FMCSA to a more effective and efficient operational model--one that 
will have a greater impact on large truck and bus safety while better 
using Agency resources. This new operational model includes four major 
elements: (1) measurement, (2) intervention, (3) safety fitness 
determination, and (4) information technology.
    The Agency is planning to begin nationwide CSA 2010 deployment 
before the end of 2010. At that time, FMCSA plans to replace its 
current Safety Status Measurement System (SafeStat) with the new 
Carrier Safety Measurement System (CSMS) and send more comprehensive 
information on unsafe motor carriers to roadside inspectors. Through 
CSMS, FMCSA will focus on 7 key behaviors that are linked to CMV crash 
risk:

  <bullet> Unsafe Driving

  <bullet> Fatigued Driving

  <bullet> Driver Fitness which includes licensing and medical 
        compliance standards

  <bullet> Crash History

  <bullet> Vehicle Maintenance

  <bullet> Improper Loading and Cargo

  <bullet> Controlled Substances--Drugs and Alcohol

    This new measurement system will allow the Agency to identify more 
high risk carriers based on improved safety performance data than under 
the previous system.

New Entrants to the CMV Industry
    FMCSA recently significantly strengthened its New Entrant Safety 
Assurance Program by raising the standard for successfully completing 
the new entrant safety audit. The Agency identified 16 safety 
regulations for which a violation by a new entrant carrier would result 
in an automatic failure of the safety audit. Any new entrant that fails 
the safety audit must submit a Corrective Action Plan (CAP) in order to 
continue to operate in interstate commerce. FMCSA also closely monitors 
the new entrant during the initial 18-month period of operation and, if 
certain violations are discovered during a roadside inspection, the new 
entrant will be subject to an expedited action to correct the 
identified safety deficiencies. Compliance with the New Entrant rule 
has been required for just over 3 months and the statistics on the new 
entrant safety audits to date show:

  <bullet> 4,808 New Entrant Carriers underwent safety audits

  <bullet> 2,184 New Entrant Carriers failed the safety audit

  <bullet> FMCSA has received approximately 632 Corrective Action Plans 
        (CAP) to date from new entrant carriers.

Vetting--Passenger and Household Goods Carrier
    FMCSA has made significant progress in identifying motorcoach 
carriers that operate illegally and place passengers at risk. After the 
tragic August 2008 fatal motorcoach crash in Sherman, Texas, FMCSA 
initiated its passenger carrier vetting program to examine in detail 
the history and background of new applicants for passenger operating 
authority to ensure they conform with FMCSA's safety fitness policy. In 
addition, the vetting process allows FMCSA to discover reincarnated, or 
``chameleon,'' passenger carriers before such carriers are authorized 
to engage in for-hire interstate transportation. The Agency 
subsequently expanded the program to include interstate household goods 
carriers. FMCSA has added additional personnel to participate in this 
labor intensive process, which has proven valuable as FMCSA received 
over 2,600 applications for operating authority and 879 have had their 
applications dismissed, denied or withdrawn. FMCSA is exploring the 
resources needed to expand the vetting program to hazardous materials 
carriers seeking FMCSA operating authority and eventually to all 
applicants for authority.
    FMCSA still faces challenges keeping these carriers off the roads, 
however. Unfortunately, although our vetting program denied the 
application for operating authority from the motorcoach company 
involved in a crash that killed 6 people near Phoenix, Arizona, on 
March 5, FMCSA's rejection of the application did not stop the carrier 
from operating illegally. FMCSA's investigation of this carrier is 
continuing, however, the Agency responded swiftly to the carrier's 
actions. Working with the Department of Justice, FMCSA was able to get 
the carrier to enter into a consent decree on the day of the crash in 
which it agreed to immediately cease all interstate and international 
passenger service. The following day, FMCSA obtained an order from a 
Federal District Judge further enforcing the consent decree and making 
any violations subject to the court's contempt powers and associated 
criminal and civil penalties. The Agency is examining its current 
authorities to determine if more is needed to prevent unsafe or illegal 
carriers from operating after authority is denied.

Motorcoach Safety
    On April 30, 2009, Secretary LaHood ordered a full departmental 
review of motorcoach safety and the development of a departmental 
Motorcoach Safety Action Plan. The review considered recommendations 
from the National Transportation Safety Board (NTSB) and other 
transportation stakeholders. On November 16, 2009, the Department 
released an Action Plan that contains 7 priority action items derived 
from that review. FMCSA is responsible for implementing 4 of these 
items: (1) initiating rulemaking to require electronic on-board 
recording devices on all motorcoaches to better monitor drivers' duty 
hours and manage fatigue, (2) initiating rulemaking to propose 
prohibiting texting and limiting the use of cellular telephones and 
other devices by motorcoach drivers, (3) enhancing oversight of 
carriers attempting to evade sanctions and of other unsafe motorcoach 
companies, and (4) establishing minimum knowledge requirements for 
passenger transportation authority applicants.
    In addition, FMCSA has increased the number of compliance reviews 
(CRs) conducted on motorcoach companies. In FY 2005, FMCSA and our 
State partners conducted 457 motorcoach company CRs. The FMCSA 
increased this number to 646 in FY 2006. The FMCSA conducted 1,304 
motorcoach company CRs in FY 2007, which more than doubled the previous 
period's efforts. In FY 2008, the Agency completed 1,307 CRs. The FMCSA 
completed 1,286 motorcoach company CRs in FY 2009. Given that there are 
approximately 3,100 motorcoach companies in the United States, FMCSA 
conducted CRs on about one-third of the industry during each of the 
past three Fiscal Years.
    The FMCSA requires State agencies to include a formal motorcoach 
inspection program in their Commercial Vehicle Safety Plan in order to 
receive grant funding through the Motor Carrier Safety Assistance 
Program (MCSAP). As a result of this initiative, the number of 
motorcoach inspections increased annually for the last several years. 
In Fiscal Year 2005, States inspected 12,991 motorcoaches and in FY 
2009 inspected 28,957 motorcoaches.

Compliance with Americans with Disabilities Act (ADA)
    In late 2008, the Agency sent informational letters to authorized 
over-the-road bus companies and over 100 disability stakeholder 
organizations about the Over-the-Road Bus Transportation Accessibility 
Act of 2007 (OTRBTAA). In compliance with the OTRBTAA, in February 
2009, FMCSA and the Department of Justice executed a Memorandum of 
Understanding that defines the respective enforcement efforts of both 
agencies for accessibility requirements of the ADA.
    In March 2009, FMCSA began conducting ADA Reviews (ADARs) to 
investigate the regulatory compliance of over-the-road bus companies. 
As of February 23, 2010, FMCSA had conducted 33 ADARs on large and 
small fixed route over-the-road bus companies. FMCSA had initially 
targeted large fixed route companies for ADARs because this industry 
sector transports the largest number of passengers. No major violations 
have been discovered to date.

Commercial Enforcement of Household Goods (HHG)
    The FMCSA regulates household goods carrier and broker compliance 
with motor carrier safety regulations, financial responsibility 
requirements and commercial regulations. Our authority provides 
protection to consumers during interstate moves by defining the rights 
and responsibilities of consumers, household goods carriers and 
brokers.
    In FY 2009, FMCSA Safety Investigators conducted 557 HHG reviews; 
responded to 2,127 consumer complaints, many of which were 
satisfactorily resolved by HHG staff; and maintained a consumer based 
``Protect Your Move'' website (www.protect
yourmove.gov). FMCSA issued an enforcement policy identifying and 
targeting the top 100 household goods carriers for compliance reviews. 
These carriers are generally those that receive the most consumer 
complaints, although some have also been identified as unsafe or as 
operating while their authority has been inactivated. For the last 2 
years, FMCSA field staff have conducted strike forces on household 
goods carriers that have been identified as unsafe and the subject of 
various consumer complaints. In FY 2009, the strike force activity 
concluded, having completed 224 targeted compliance reviews that 
resulted in 50 enforcement cases.
    The Government Accountability Office recently published its final 
report on the HHG moving industry stating that progress has been made 
in enforcement, but indicating that increased focus on consumer 
protection is needed. The report identified the enforcement tools used 
to regulate the HHG industry, noting that FMCSA conducted 629 HHG 
reviews in FY 2008. The report also identifies a provision in the Safe, 
Accountable, Flexible, Efficient Transportation Equity Act: A Legacy 
for Users (SAFETEA-LU) that permits State regulatory agencies and State 
Attorneys General to bring Federal consumer protection actions against 
interstate HHG carriers that has not been implemented by States.

Pre-employment Screening
    FMCSA recently launched the initial phase of its Pre-employment 
Screening Program (PSP) to provide motor carriers with access to crash 
and inspection data found in FMCSA's Motor Carrier Management 
Information System (MCMIS) on drivers they are seeking to hire. The 
driver must provide his or her prior written consent to have 
information released to the motor carrier. The program is expected to 
be rolled out next month.

Safety Belt Use
    Safety belts save lives and FMCSA is committed to promoting and 
educating CMV drivers on the importance of using them. In March, FMCSA 
announced that safety belt use for CMV drivers has improved. New data 
show that 74 percent of commercial truck and bus drivers currently use 
their safety belts, an improvement from the 65 percent of drivers who 
were using safety belts in 2007. It is important, however, to note the 
key research findings that show there is work yet to be done:

  <bullet> In States where not wearing a safety belt is a primary 
        offense, 78 percent of CMV drivers and their occupants used 
        safety belts, compared to a 67 percent usage rate for CMV 
        drivers and their occupants in States with weaker belt use 
        laws.

  <bullet> CMV drivers for regional or national fleets showed higher 
        safety belt use at 78 percent, versus 64 percent for 
        independent owner-operators.

  <bullet> Safety belt use rates for CMV drivers and their occupants 
        were highest at 79 percent in the West, compared with 75 
        percent in the South, 68 percent in the Midwest, and 64 percent 
        in the Northeast.

Driver Medical Standards--Programs
    The FMCSA's medical program promotes the safety of America's 
roadways through the development and implementation of medical 
qualification standards that ensure physical qualifications of 
interstate truck and bus drivers. The Agency receives important advice 
and recommendations concerning the physical qualifications and 
standards for CMV drivers from its Medical Review Board (MRB), a 
Federal Advisory Committee Act committee. FMCSA staff reviews MRB 
recommendations in developing regulatory options for future 
rulemakings. In the meantime, FMCSA is phasing in new regulatory 
requirements issued in December 2008 to combine the medical 
certification process with the commercial driver's license (CDL) 
issuance and renewal process. The rule requires interstate CDL holders 
and those applying for a CDL to operate heavy trucks and buses in 
interstate commerce to provide a copy of the medical certificate to the 
State licensing agency as proof the individual is medically qualified 
to drive commercial vehicles in interstate commerce.
    Later this year, FMCSA expects to issue a final rule to establish a 
National Registry of Certified Medical Examiners. This rulemaking would 
establish minimum training and testing requirements for all healthcare 
professionals that issue medical certificates for interstate truck and 
bus drivers.

Rulemaking
Hours of Service for Truck Drivers
    Regulating the number of hours commercial drivers may work has been 
a Federal Government responsibility for 75 years, beginning with the 
Interstate Commerce Commission (ICC). Through the years, there have 
been three reforms of the rules, the most notable of which was the 
April 2003 rule, when FMCSA made significant revisions. The 2003 rule 
limited driving to 11 hours within a 14-hour, non-extendable window 
after coming on duty following 10 consecutive hours off duty (known as 
the 11-hour rule). Although the rules concerning weekly limits for on-
duty time were unchanged, drivers were allowed to restart the weekly 
limit calculation after they took 34 consecutive hours off duty (known 
as the 34-hour restart provision). The rule also extended the requisite 
off-duty time from 8 to 10 hours, providing drivers more time for 
restorative rest.
    As this Subcommittee is well aware, FMCSA's efforts to craft 
revised hours of service (HOS) regulations for CMV drivers has been an 
arduous process and has resulted in court challenges. In October 2009, 
FMCSA entered into a settlement agreement with parties that had 
challenged the rule and agreed to undertake a new rulemaking.
    One of my top priorities as Administrator has been to elicit the 
views of the many individuals and entities affected by this rule and 
for the Agency to craft an HOS rule that provides the best framework 
for managing fatigue and making our roads as safe as possible.
    To that end, in December 2009, FMCSA tasked its MCSAC with 
providing the Agency with a list of ideas and concepts that should be 
considered in drafting a HOS rule. In January, FMCSA took steps to 
encourage all interested parties to help the Agency identify new 
research and perspectives. Specifically, the Agency posted the MCSAC's 
meeting notes, opened the HOS public docket and held a series of public 
``listening sessions'' around the country. Over 3,500 people 
participated in the listening sessions--in person, by phone, or web--to 
provide a broad range of comments, ideas, information, and relevant 
research the Agency might consider in developing a Notice of Proposed 
Rulemaking (NPRM). We are committed to using all of the information we 
have received to propose a rule that addresses the concerns of our 
stakeholders and presents the safest option. FMCSA intends to publish 
its NPRM later this year and issue a Final Rule no later than July 
2011.

Electronic On-Board Recorders (EOBRs)
    On April 5, 2010, the Agency took another step toward reducing the 
number of fatigue related crashes by publishing a final rule mandating 
the use of EOBRs by carriers that have violated the hours-of-service 
rules. This action will reduce the likelihood of falsified or 
incomplete records of duty status.
    The final rule follows up on the January 2007 NPRM but broadens the 
remedial directive to require installation of EOBRs on many more 
carriers. It represents a significant step forward in response to 
Congressional concerns about the 2007 NPRM, the NTSB Most Wanted Safety 
Recommendation concerning EOBRs, and the public comments we received in 
response to the proposal. The final rule establishes: (1) a new 
performance-oriented standard for EOBR technology; (2) a mandate for 
certain motor carriers to use EOBRs to remediate regulatory 
noncompliance (a remedial directive); and (3) incentives to promote 
voluntary EOBR use by all carriers. The rule will result in 
approximately 5,700 motor carriers being required to use EOBRs each 
year after the first full year of implementation.

Distracted Driving
    Since the Department's historic Distracted Driving Summit last 
fall, FMCSA has played an active role in supporting Secretary LaHood's 
efforts in bringing to bear all the tools at DOT's disposal to address 
this critical safety issue. FMCSA completed its ``Driver Distraction in 
Commercial Vehicle Operations'' study and released the final report on 
October 1, 2009. The purpose of the study was to investigate the 
prevalence of driver distraction in CMV safety-critical events (e.g., 
crashes, near-crashes, unintended lane departures). The study included 
over 200 truck drivers and 3 million miles of data. The dataset was 
obtained by placing video recorders on vehicles and monitoring the 
behavior of real drivers driving in real-world situations.
    The study concluded that drivers who engage in texting took their 
eyes off the road for an average of 4.6 seconds out of the 6 seconds 
prior to a safety-critical event. At 55 miles per hour, this means that 
the driver is traveling the length of a football field, including the 
end zones, without looking at the road and is 23 times more likely to 
have a safety critical event than drivers who do not text while 
driving. Because of the safety risks associated with texting while 
driving, FMCSA took expedited action. The Agency published regulatory 
guidance in the Federal Register on January 27 regarding the 
applicability of current regulations to texting by commercial motor 
vehicle drivers. The regulatory guidance clarified that truck and bus 
drivers operating in interstate commerce who text while driving 
commercial vehicles may be subject to civil or criminal penalties of up 
to $2,750. FMCSA followed up on the regulatory guidance by publishing a 
NPRM with an explicit prohibition against texting on April 1, 2010. The 
NPRM also provides driver disqualification penalties that would enable 
FMCSA and its State partners to take unsafe drivers off of the road.
    As part of our effort to get the maximum amount of public 
participation and collaboration in the texting rulemaking, the 
Department announced an unprecedented partnership with Cornell 
University. The Cornell e-Rulemaking Initiative (CeRI) partnership will 
make the Federal regulatory process more accessible to the public 
through its ``Regulation Room,'' an online public participation 
environment where people can learn about and discuss proposed Federal 
regulations and provide effective feedback to the Department. This is 
an important step toward keeping President Obama's promise of opening 
government to more effective public citizen participation.

Drug and Alcohol Database
    FMCSA is currently drafting a proposed rule that would mandate 
reporting requirements to identify CDL holders who test positive for 
drugs or alcohol or otherwise fail to comply with drug and alcohol 
testing requirements. The system will also track a driver's compliance 
with the return-to-duty requirements of the Department's workplace drug 
and alcohol testing programs.

Uniform Carrier Registration Plan and Agreement (UCR)
    The UCR is a fee program established under SAFETEA-LU as a means to 
provide States with funds equivalent to the revenue they collected 
under a previous, State-only program known as Single State Registration 
System (SSRS). Many States use UCR fee revenue to pay for motor carrier 
enforcement programs.
    The UCR law requires FMCSA to set a fee schedule based upon a 
recommendation by a governing board composed largely of State and motor 
carrier industry members. The fee schedule must be projected to provide 
approximately $108 million in revenue to the 41 participating States.
    The UCR Board proposed a change in the 2010 fee schedule prompting 
a rule-making cycle that has encountered a series of delays. The rule 
was published on April 27. The States now have the authority they need 
to begin collecting fees for calendar year 2010 to support important 
motor carrier safety programs to protect the traveling public.

Resources
Motor Carrier Safety Assistance Program
    MCSAP grants provide financial assistance to States to help them 
reduce the number and severity of CMV involved crashes, fatalities, and 
injuries through consistent, uniform, and effective CMV safety 
programs. It uses crash and fatality rates as critical performance 
measures. One of the strengths of MCSAP is its performance-based 
structure. Although FMCSA limits spending eligibility and sets 
performance goals in a range of areas based on the Agency's targeted 
safety program elements, our State partners have the flexibility to mix 
and match a range of strategies that they believe will be most 
effective in reducing their CMV fatality and crash rates based on 
specific needs of their State. States conduct compliance reviews, 
safety audits, roadside inspections, and other programs to improve CMV 
safety. While FMCSA provides guidance and direction in a number of 
areas based on analyses of nationwide safety data, we do not dictate a 
prescriptive program for each State expecting them to produce a 
completed, effective plan of action. In FY 2009, MCSAP lead agencies or 
sub-grantees employed 13,300 certified CMV inspectors almost 11,000 of 
which had traffic enforcement authority. FY 2010 funding for MCSAP is 
$212,000,000.

Commercial Driver's License (CDL) Improvement Program
    FMCSA works closely with the American Association of Motor Vehicle 
Administrators (AAMVA) and the States to improve CDL driver history 
record (DHR) data quality and the timely exchange of conviction, 
withdrawal, and other DHR data elements. Through a phased 
implementation of electronic edit checks that prevent the movement of 
bad data from one State to another, and a battery of matrices and 
reports that notify States of their compliance with the requirements 
for accurate, complete, and timely exchange of information, FMCSA 
continues to ensure that the data elements critical to the success of 
the CDL program are improving.
    FMCSA has expanded fraud prevention through a grant-funded update 
of the AAMVA Fraudulent Document Recognition training for frontline 
State driver licensing agency employees. The Agency also assisted the 
Department of Transportation's Office of the Inspector General in 
investigating fraudulent CDL practices throughout the country. 
Recently, FMCSA provided grant funds to help enhance and increase usage 
of the Fraud Emergency Warning System maintained by AAMVA, which allows 
for real-time alerts to State driver licensing agencies on the 
potential for fraudulent activities and suspicious documents.
    To ensure that States are making continuous improvements in their 
compliance with the CDL program requirements, in the coming months, 
FMCSA will deploy the Automated Compliance Review System. This web-
based system will provide real-time tracking of State compliance 
issues. It will also allow FMCSA to generate reports that document 
outstanding compliance issues at the State or national level. Through 
this increased reporting, FMCSA can focus its oversight efforts and 
provide targeted outreach and education to assist States with specific 
compliance issues.

Data Quality
    FMCSA relies on high quality data for identifying CMV safety 
issues, assessing individual carrier safety performance, and allocating 
enforcement and compliance resources. The Agency has developed, an 
online system, known as DataQs, that allows motor carriers, commercial 
drivers, State agencies, FMCSA staff, and the general public, to 
request a review of the accuracy of Federal and State data collected by 
FMCSA. With the implementation of CSA 2010, which relies heavily on 
high quality data, and the initiation of the Pre-employment Screening 
Program, which, as described above, provides drivers' crash and 
inspection data to prospective employers, it is important that DataQs 
is effective in resolving data issues quickly and responsively. To 
assist responsible agencies in meeting data quality requirements, FMCSA 
is developing a DataQs operational procedures guide.

New Technologies
    FMCSA is continuously developing and researching new technologies 
that improve commercial vehicle safety. Such technology resources 
include applications that help avoid a crash, prevent rollovers, and 
warn of lane departures. The technologies improve CMV operations, limit 
technical and mechanical road failures, and reduce the probability of 
crashes involving CMVs. Examples of FMCSA's technology resource 
development include the following programs and activities:

        Commercial Vehicle Information Systems and Networks (CVISN)--
        FMCSA plans to implement an electronic credentialing function. 
        Electronic credentialing will allow carriers to submit various 
        credentials, including International Registration Plan and 
        International Fuel Tax Agreement credentials, to States for 
        automated electronic processing via Web-based or computer-to-
        computer solutions. States that implemented e-credentialing 
        have reported noticeable benefits.

        Onboard Safety System Testing Program--FMCSA has partnered with 
        motor carriers to test and evaluate several onboard safety 
        systems and identified those systems that showed promise for 
        having the greatest impact on reducing crashes.

        New Technologies Evaluated at the CMV Roadside Technology 
        Corridor--In partnership with the Tennessee Department of 
        Safety, Tennessee Department of Transportation, University of 
        Tennessee, and the Oak Ridge National Laboratory, the Agency 
        created the Commercial Motor Vehicle Roadside Technology 
        Corridor in Tennessee. The goal of the Corridor is to provide a 
        test bed for existing, new, and emerging truck and bus safety 
        and enforcement technologies and concepts. Currently, the 
        partnering agencies are evaluating a fully automated inspection 
        station screening device--(Smart Infrared Inspection System 
        (SIRIS)--that uses temperature measurements derived from 
        infrared cameras to identify trucks with potential brake, tire, 
        or hub defects.

        Creating Opportunities, Methods, And Practices To Secure Safety 
        (COMPASS): Business Improvement And Information Technology 
        Modernization Program--The COMPASS information technology 
        modernization effort is a multi-year, FMCSA-wide initiative to 
        improve data accessibility, data quality, system flexibility, 
        and business processes. COMPASS and CSA 2010 are closely 
        integrated efforts within FMCSA. The Agency plans to issue 
        incremental releases of COMPASS as legacy systems are replaced; 
        these releases will be closely aligned with the roll-out of the 
        new CSA measurement system (CSMS) later this year.

Conclusion
    In summary, over the course of the Agency's past 10 years, there 
have been encouraging results in declining numbers of severe crashes 
and fatalities involving commercial vehicles thanks to the dedicated 
work and commitment of FMCSA's employees and stakeholders. Yet, we are 
not satisfied with the progress to-date. We cannot justify or explain 
away the CMV crashes that take lives not ready to leave this earth and 
destroy the fabric of their families' joy. With the strategic framework 
and expectations I outlined at the beginning of my presentation and the 
foundation of programs, rules and resources described herein, we are 
poised to achieve more significant gains in saving lives than ever 
before.
    Thank you for inviting me to discuss the FMCSA's current work and 
future programs. I would be pleased to respond to any questions you may 
have.

    Senator Lautenberg. Thank you very much.
    Now, Ms. Hersman, we look forward to hearing from you.

  STATEMENT OF HON. DEBORAH A.P. HERSMAN, CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Ms. Hersman. Thank you. Good morning, Chairman Lautenberg, 
Ranking Member Thune. Let me begin by thanking the Committee 
for its hard work on the Motor Coach Enhanced Safety Act which 
addressed many of our recommendations to improve crash-
worthiness and the safety of motorcoaches.
    It goes without saying that no carrier wants to have an 
accident, but we recognize that the economic pressures in the 
motor carrier industry can create conditions where safety is 
just not guarded as vigilantly as it should be. That is why the 
American people need comprehensive and consistent oversight of 
the industry.
    The Safety Board believes that the two factors that have 
the greatest impact on safe motor carrier operations are the 
condition of the vehicles and the performance of the drivers. 
Let me begin by telling you about an accident that demonstrates 
how these rules play out.
    In 1995, a motorcoach rolled over in Indianapolis causing 2 
fatalities and 13 injuries. The NTSB's investigation concluded 
that the motorcoach was operating with only 50 percent braking 
efficiency. A postaccident compliance review of the company's 
vehicles put all 10 out of 10 vehicles out of service. The 
investigation revealed that just a year before the accident, 
the company had been reviewed, and even though 63 percent of 
the vehicles met out-of-service criteria, FMCSA had given that 
operator an overall rating of satisfactory.
    The Safety Board believes that an unsatisfactory rating in 
either the vehicle or the driver performance area should be 
sufficient to place a carrier out of service. We have called 
upon FMCSA to fix this deficiency since 1999, and it has been 
on our Most Wanted List of Transportation Safety Improvements 
every year for the last decade.
    We also identified FMCSA's ineffective compliance review 
system as contributing to the probable cause of a motorcoach 
fire that killed 23 elderly passengers near Wilmer, Texas, in 
2005. Now, 5 years after that tragedy, the old rules have not 
changed.
    We have also called on FMCSA to help prevent fatigue-
related accidents. Our studies show that fatigue is the most 
commonly cited probable cause or factor in fatal-to-the-driver 
crashes. In 2004, a fatigued truck driver ran into a stopped 
queue of traffic in a work zone near Chelsea, Michigan. A post-
accident compliance review revealed that 20 percent of the 
carrier's driver records were falsified. Yet, the motor carrier 
continued to operate under a conditional rating.
    We have found the no hours-of-service rule is inadequate 
unless it is enforceable. We saw in the Chelsea accident, and 
our investigations repeatedly find, that some drivers falsify 
their paper log books or keep two sets of log books, and some 
motor carriers do not closely monitor their drivers' compliance 
with the rules. That is why since 1977 the Safety Board has 
advocated the use of electronic on-board recorders for all 
drivers.
    Our Most Wanted List also advocates the use of technology 
to reduce the likelihood or severity of an accident, 
improvements to the medical oversight program for CDL holders, 
and recommends that cell phone use be prohibited for passenger-
carrying CDL holders.
    For the last several years, FMCSA has been working on a 
complex set of programs called Comprehensive Safety Analysis 
2010, or CSA 2010. We have been told that it will address many 
of our concerns associated with oversight and enforcement. 
While we commend FMCSA for its efforts to address a wide range 
of critical safety issues, CSA 2010 is an ambitious program 
with milestones that will be difficult to meet. In 2007, NTSB 
recommended that the FMCSA immediately proceed with incremental 
rule changes even while moving toward the long-term CSA 2010 
implementation. If incremental steps had been made along the 
way, it is possible that fatal accidents could have been 
prevented.
    Mr. Chairman, Ranking Member Thune, when we commute to 
work, when we load our families in our cars for a trip, we must 
be able to trust that the trucks and the buses that are 
operating on the roadways next to us are safely designed, 
carefully maintained, and expertly operated. Right now, much 
more needs to be done to improve motor carrier safety on our 
roads and highways.
    Thank you, and I will be happy to respond to your 
questions.
    [The prepared statement of Ms. Hersman follows:]

      Prepared Statement of Hon. Deborah A.P. Hersman, Chairman, 
                  National Transportation Safety Board

    Good morning, Chairman Lautenberg and members of the Subcommittee. 
Thank you for the opportunity to appear before you today on behalf of 
the National Transportation Safety Board (NTSB) regarding oversight of 
motor carrier safety. I am privileged to represent the men and women of 
the NTSB, who work tirelessly to improve the safety of the traveling 
public. As you know, the NTSB is charged with investigating major 
transportation accidents, including highway accidents, determining 
their probable cause, and making recommendations to prevent similar 
accidents from happening again. We frequently recommend changes in 
highway or vehicle design, driver training, occupant protection, and 
regulatory oversight.
    Every day, there are thousands of accidents on our Nation's 
highways, resulting in tens of thousands of fatalities each year. 
Historically, accidents involving large trucks comprise approximately 
10 percent of the fatalities on our highways.
    Today, I will highlight some specific issues of concern regarding 
the safety of trucks and buses.
Motor Carrier Safety Oversight
    No carrier wants to have an accident, but strong economic forces 
sometimes create an environment in which safety is not always every 
carrier's priority. That is why we need comprehensive and consistent 
oversight of the motor carrier industry.
    The two most important factors related to safe motor carrier 
operations are the condition of the vehicles and the performance of the 
drivers. Current rules prevent the Federal Motor Carrier Safety 
Administration (FMCSA) from putting carriers out of service with an 
unsatisfactory rating in only one of the 6 rated factors. They must be 
unsatisfactory in 2 factors. In other words, they could be 
unsatisfactory in either the vehicle or driver areas and still be 
allowed to operate. The NTSB believes that an unsatisfactory in either 
category should be sufficient cause to place a carrier out of service. 
We have been asking the FMCSA to fix this deficiency since 1999.
    The NTSB raised this deficiency as the result of our investigation 
of an accident involving a motorcoach that had only 50-percent braking 
efficiency. The motorcoach rolled over in Indianapolis, Indiana, 
killing 2 passengers and injuring 13. A post-accident compliance review 
of the motor carrier by the FMCSA resulted in 10 out of 10 vehicles 
being placed out of service. Clearly, the motor carrier had some issues 
with its vehicle maintenance prior to the accident. It had been 
inspected nine times between 1987 and 1995. In 1994, even though 63 
percent of the vehicles met the out-of-service criteria, the carrier 
received a ``conditional'' rating for the vehicle factors and, because 
all the other factors were rated ``satisfactory,'' it was given an 
overall rating of ``satisfactory.'' Thus, with the blessing of the 
FMCSA, the carrier was able to continue to operate with unsafe 
vehicles.
    The NTSB recommended that the FMCSA do something relatively simple: 
change the safety fitness rating methodology so that adverse vehicle- 
or driver performance-based data alone would be sufficient to result in 
an overall ``unsatisfactory'' rating for a carrier.\1\ To date, the 
FMCSA has not acted on this recommendation. As a result, the NTSB added 
this recommendation to our Most Wanted List of Transportation Safety 
Improvements in 2000.
---------------------------------------------------------------------------
    \1\ Safety Recommendation H-99-6.
---------------------------------------------------------------------------
    Two years after the Indianapolis accident, a truck with poorly 
maintained brakes collided with a school bus near Mountainburg, 
Arkansas, killing three students. Our investigation found that, prior 
to the accident, the FMCSA considered the motor carrier 
``satisfactory'' but postaccident, it was rated ``conditional'' 
overall. The motor carrier profile report showed it had had 29 roadside 
inspections in the previous 12 months, which resulted in 4 out-of-
service vehicles (14 percent), all with out-of-adjustment brakes. In 
the NTSB's view, 14 percent of a fleet with bad brakes should not be 
considered ``satisfactory.'' As a result, the NTSB reiterated our 1999 
recommendation.
    The Board revisited this recommendation to the FMCSA in a number of 
subsequent accidents:

  <bullet> In 2002, a five-fatality motorcoach rollover accident 
        occurred near Victor, New York, involving a carrier that had 
        received a favorable compliance review rating despite a long 
        and consistent history of driver- and vehicle-related 
        violations.

  <bullet> In 2004, a fatigued tractor-trailer driver ran into a 
        stopped queue of traffic in a construction zone near Chelsea, 
        Michigan. A postaccident compliance review by the FMCSA 
        revealed a 20-percent falsification rate of drivers' logs, yet 
        the FMCSA allowed the motor carrier to continue to operate with 
        a ``conditional'' rating.

  <bullet> In 2005, 23 elderly passengers died in a motorcoach fire 
        near Dallas, Texas, caused by the motor carrier's poor 
        maintenance of the vehicle's wheel bearings. The Texas 
        Department of Public Safety (DPS) and the FMCSA both identified 
        numerous driver and vehicle safety violations prior to the 
        accident, but they did not shut the carrier down. The FMCSA 
        gave the carrier a ``satisfactory'' rating. At the time, the 
        Texas DPS had no authority to force the motor carrier to cease 
        operations. (They do now.) As a result, the NTSB not only 
        reiterated the 1999 recommendation, our report cited the 
        FMCSA's ineffective compliance review system as contributing to 
        the probable cause of the accident.

  <bullet> In 2007, seven passengers died in a motorcoach accident 
        involving Bluffton University students in Atlanta, Georgia. A 
        postaccident compliance review by the FMCSA rated the carrier 
        ``satisfactory.'' However, the NTSB's investigation found that 
        the driver failed to properly record hours-of-service 
        information for the trip and that the motor carrier had 
        numerous earlier driver-related violations.

    Just last year, the NTSB completed its investigation of a 2008 
motorcoach rollover accident near Victoria, Texas. Again, we found that 
the FMCSA safety rating methodology did not provide adequate oversight 
of the motor carrier and its leasing partners. The NTSB reclassified 
the 1999 recommendation as ``unacceptable'' because we believe the 
FMCSA has not made the necessary changes to take problem carriers off 
the road.

CSA 2010
    To address its oversight shortfalls, the FMCSA has initiated a 
complex set of programs called the ``Comprehensive Safety Analysis 
2010,'' or ``CSA 2010.'' CSA 2010 is based on the development of new 
performance-based systems for determining motor carrier and driver 
safety. These changes are long overdue. However, we are concerned 
whether the final implementation of CSA 2010 will make the changes 
necessary to take problem motor carriers off the road.
    The FMCSA should have made incremental changes to its compliance 
review process while developing more sweeping changes to its oversight 
program through CSA 2010 or some other means. In fact, we issued a 
recommendation to that effect in 2007.\2\ The FMCSA's current efforts 
represent a comprehensive review of the process of determining the 
safety of commercial motor carriers, and the agency should be commended 
for that effort. However, CSA 2010 is an ambitious program with 
milestones that will be difficult to meet. In fact, just this month, 
the FMCSA announced that the start of CSA 2010 will be delayed, with 
some portions postponed until 2011. In the meantime, motor carriers 
continue to operate with poor management of their drivers and vehicles, 
which will lead to more accidents.
---------------------------------------------------------------------------
    \2\ Safety Recommendation H-07-3: ``To protect the traveling public 
until completion of the Comprehensive Safety Analysis 2010 Initiative, 
immediately issue an Interim Rule to include all Federal Motor Carrier 
Safety regulations in the current compliance review process so that all 
violations of regulations are reflected in the calculation of a 
carrier's final rating.''
---------------------------------------------------------------------------
Hours of Service
    The NTSB's interest in the fatigue of commercial drivers goes back 
more than 30 years. In the 1990s, the NTSB conducted two safety studies 
\3\ that found that fatigue was the most frequently cited probable 
cause or factor in crashes with driver fatalities. The studies also 
found that the most important factors influencing fatigue-related 
crashes were the amount of sleep a driver received and whether the 
driver was engaging in ``split-sleeps'' (that is, multiple short sleep 
episodes rather than one continuous 8-hour period).
---------------------------------------------------------------------------
    \3\ (a) Fatigue, Alcohol, Drugs, and Medical Factors in Fatal-to-
the-Driver Heavy Truck Crashes, Safety Study NTSB/SS-90/01 (Washington, 
D.C.: NTSB, 1990); (b) Factors that Affect Fatigue in Heavy Truck 
Accidents, Safety Study NTSB/SS-95-01 (Washington, D.C.: NTSB, 1995).
---------------------------------------------------------------------------
    Based on these studies, the NTSB recommended that the FMCSA use 
science-based principles to revise the hours-of-service rule, ensure 
that the rule would enable drivers to obtain at least 8 hours of 
continuous sleep, and eliminate sleeper berth provisions that allow for 
the splitting of sleep periods. In September 2005, the FMCSA issued a 
final rule with a provision that drivers using a sleeper berth must 
take at least 8 consecutive hours in the sleeper berth, plus 2 
consecutive hours either in the sleeper berth, off duty, or in any 
combination thereof.

          Recent Investigations of Accidents Involving Fatigue
------------------------------------------------------------------------

------------------------------------------------------------------------
    1997     Slinger, WI                  (8-fatality passenger van/
                                           tractor-trailer collision;
                                           fatigued truck driver)
------------------------------------------------------------------------
    2000     Jackson, TN                  (1-fatality tractor-trailer
                                           collision with parked state
                                           police vehicle; fatigued
                                           truck driver)
------------------------------------------------------------------------
    2004     Sulphur Springs, TX          (5-fatality multi-vehicle
                                           collisions during road
                                           closure;
                                          fatigued truck driver)
------------------------------------------------------------------------
    2004     Chelsea, MI                  (1-fatality tractor-trailer
                                           collision in work zone;
                                           fatigued truck driver)
------------------------------------------------------------------------
    2004     Turrell, AR                  (15-fatality motorcoach
                                           rollover accident; fatigued
                                          motorcoach driver)
------------------------------------------------------------------------


     Recent Investigations of Accidents Involving Fatigue--Continued
------------------------------------------------------------------------

------------------------------------------------------------------------
    2005     Lake Butler, FL              (7-fatality tractor-trailer/
                                           sedan/school bus collision;
                                          fatigued driver)
------------------------------------------------------------------------
    2005     Osseo, WI                    (5-fatality motorcoach
                                           collision with overturned
                                           tractor-
                                          trailer; fatigued truck
                                           driver)
------------------------------------------------------------------------
    2008     Victoria, TX                 (1-fatality motorcoach
                                           rollover accident; fatigued
                                          motorcoach driver)
------------------------------------------------------------------------
    2008     Mexican Hat, UT              (9-fatality motorcoach
                                           rollover accident; fatigued
                                          motorcoach driver)
------------------------------------------------------------------------

    In September 2008, following completion of investigations into 
fatigue-related accidents that occurred in Osseo, Wisconsin; Lake 
Butler, Florida; and Turrell, Arkansas; the NTSB asked the FMCSA to 
develop a plan to deploy technologies in commercial vehicles to reduce 
fatigue-related accidents,\4\ and to develop a methodology to assess 
the effectiveness of the fatigue management plans implemented by motor 
carriers.\5\ The 2008 motorcoach accident in Victoria, Texas, again 
demonstrated the serious nature of fatigue-related accidents and the 
need for both in-vehicle technologies and effective fatigue management 
programs. Upon completion of its investigation of this accident, the 
NTSB urged the FMCSA to continue to work on these recommendations.
---------------------------------------------------------------------------
    \4\ Safety Recommendation H-08-13.
    \5\ Safety Recommendation H-08-14.
---------------------------------------------------------------------------
    Citing many of the accidents mentioned above and several others 
from other modes of transportation in which drivers, pilots, and train 
engineers had undiagnosed obstructive sleep apnea, in October 2009, the 
Board issued recommendations on obstructive sleep apnea to the FMCSA. 
In particular, we recommended that the FMCSA: (1) require drivers with 
a high risk for obstructive sleep apnea to obtain medical certification 
that they have been appropriately evaluated and, if necessary, 
effectively treated for that disorder,\6\ and (2) provide guidance for 
commercial drivers, employers, and physicians about identifying and 
treating individuals at high risk of obstructive sleep apnea.\7\
---------------------------------------------------------------------------
    \6\ Safety Recommendation H-09-15.
    \7\ Safety Recommendation H-09-16.
---------------------------------------------------------------------------
Electronic On-Board Recorders for Hours of Service
    No hours-of-service rule is adequate unless it is enforceable. In 
our investigations, the NTSB has repeatedly found that some drivers 
falsify their paper logbooks or keep two sets of books, and some motor 
carriers do not closely monitor their drivers' compliance with the 
rules. To address these problems, since 1977, the NTSB has advocated 
the use of electronic on-board recorders (EOBRs) to allow better 
monitoring of hours-of-service and driver fatigue.
    In 2007, the NTSB asked the FMCSA to require EOBRs for hours-of-
service monitoring for all interstate commercial carriers following our 
investigation of an accident in Chelsea, Michigan. Also in that year, 
the FMCSA issued a proposed rulemaking for on-board recorders. However, 
the rule mostly promotes voluntary installation of EOBRs, and it only 
requires installation for carriers with serious patterns of hours-of-
service violations. The NTSB is concerned that the FMCSA and law 
enforcement authorities will have a difficult time identifying such 
pattern violators without this technology. We are convinced that the 
only way on-board recorders can help stem hours-of-service violations 
is if they are mandated for use by all operators. Therefore, in 2008, 
the NTSB added EOBRs to its Most Wanted List.
    EOBRs have the potential to efficiently and accurately collect and 
verify the hours-of-service of all commercial drivers. A universal and 
mandatory requirement for EOBRs will create a level playing field for 
compliance with hours-of-service rules that will ultimately make our 
highways safer for all drivers.

New Entrant Motor Carriers
    In 2002, the Board investigated an accident involving a tractor-
semitrailer collision with a Greyhound bus in Loraine, Texas, which 
resulted in three deaths. At the time, the FMCSA had essentially no 
review or follow-up of new entrant motor carriers. To become a motor 
carrier, the owner of a trucking company merely had to fill out an 
online form and pay a small fee to receive operating authority from the 
FMCSA. In this case, our investigation revealed that when the trucking 
company owner submitted his application, he lied about his knowledge of 
the regulations, about having systems in place to comply with the 
regulations, and about a drug conviction for possession of large 
amounts of marijuana the year prior to his application. He also did not 
maintain any records on his drivers or vehicles, did not have a drug 
and alcohol program, and did not conduct background checks of his 
drivers. Further, he knowingly dispatched the accident driver, who did 
not have a commercial driver's license or medical certificate.
    The NTSB recommended that the FMCSA require new motor carriers to 
demonstrate their safety fitness prior to obtaining new entrant 
operating authority.\8\ In response to this recommendation, the FMCSA 
developed the New Applicant Screening Program under which a new motor 
carrier operating in interstate commerce is subject to an 18-month 
safety monitoring period and receives a safety audit sometime after its 
first 3 months of operation but before it completes 18 months of 
operation.
---------------------------------------------------------------------------
    \8\ Safety Recommendation H-03-2.
---------------------------------------------------------------------------
    In 2008, the FMCSA began its New Entrant Safety Assurance Program, 
under which the agency identified 16 regulations that are essential 
elements of basic safety management controls necessary to operate in 
interstate commerce and made a carrier's failure to comply with any of 
the 16 regulations an automatic failure of the safety audit. 
Additionally, if certain violations are discovered during a roadside 
inspection, the new entrant is subject to expedited actions to correct 
these deficiencies.
    Unfortunately, unscrupulous motor carriers use the new entrant 
program to evade an enforcement action or an out-of-service order by 
going out of business and then reincarnating themselves, as if they are 
a brand new motor carrier. The NTSB found that this had occurred with a 
motor carrier involved in an accident in 2008, when a motorcoach ran 
off a bridge and rolled over in Sherman, Texas, killing 17 passengers. 
After losing its authority to operate because of an unsatisfactory 
compliance review rating, the motor carrier applied for operating 
authority under a new name as a new entrant. The NTSB concluded that 
the FMCSA processes were inadequate to identify the carrier as a 
company that was simply evading enforcement action. The NTSB issued a 
recommendation to the FMCSA to evaluate the effectiveness of its New 
Applicant Screening Program.\9\
---------------------------------------------------------------------------
    \9\ Safety Recommendation H-09-21.
---------------------------------------------------------------------------
    The NTSB found additional deficiencies with the FMCSA's new entrant 
program during its investigation of a 2008 accident in which the driver 
fell asleep and the motorcoach overturned in Victoria, Texas, killing 
one person. The FMCSA failed to notice that the accident carrier 
reincarnated into a new carrier shortly after the accident. As a 
result, the NTSB issued three recommendations to the FMCSA that ask the 
agency to develop methods to identify reincarnated carriers and seek 
authority to deny or revoke their operating authority.\10\
---------------------------------------------------------------------------
    \10\ Safety Recommendations H-09-34 through -36.
---------------------------------------------------------------------------
Medically Unqualified Commercial Drivers
    The NTSB has investigated many accidents involving commercial 
drivers with serious preexisting medical conditions that had not been 
adequately evaluated. A driver's medical conditions are not always 
causal to an accident, but finding these undocumented and unevaluated 
conditions in commercial drivers is of significant concern to the NTSB. 
The most tragic example of this issue was the 1999 Mother's Day 
motorcoach accident in New Orleans, Louisiana, in which a motorcoach 
driver lost consciousness while driving on an interstate highway, left 
the roadway, and crashed into an embankment, killing 22 passengers and 
injuring 21. The driver had multiple known serious medical conditions, 
including kidney failure and congestive heart failure, and was 
receiving intravenous therapy for 3-4 hours a day, 6 days a week.
    The Board recommended that the FMCSA develop a comprehensive 
medical oversight program to address the need to:

  <bullet> Ensure that examiners are qualified and know what to look 
        for;

  <bullet> Track all medical certificate applications;

  <bullet> Enhance oversight and enforcement of invalid certificates; 
        and

  <bullet> Provide mechanisms for reporting medical conditions.\11\
---------------------------------------------------------------------------
    \11\ Safety Recommendations H-01-17 through -24.

    The NTSB specified the development of a comprehensive and 
systematic oversight program, because a piecemeal approach to the 
problem may result in deficiencies that will continue to permit 
unqualified drivers to operate on the Nation's highways. Because of its 
critical importance and the lack of substantive progress by the FMCSA 
on the recommendations, this issue was placed on our Most Wanted List 
in 2003.
    In response, the FMCSA took two important steps. In November 2008, 
the FMCSA proposed a rule that would require all medical examiners who 
conduct medical examinations of interstate commercial motor vehicle 
drivers to complete training on physical qualification standards, pass 
a test to verify an understanding of those standards, and maintain 
competence by periodic training and testing. If adopted, the rule will 
help ensure that the medical examiners are properly qualified to 
evaluate the fitness of commercial drivers. In addition, the FMCSA has 
hired its first medical officer, a physician with occupational medical 
experience, to provide the necessary expertise to guide its efforts in 
establishing a comprehensive medical oversight system.
    In December 2008, the FMCSA issued a final rule requiring 
interstate commercial drivers to provide a current original or copy of 
their medical examiner's certificate to their state drivers' licensing 
agency. This rule is an important improvement because law enforcement 
officials at the roadside will be able to determine whether a driver 
possesses a current medical certificate and will be able to take 
appropriate action if the driver does not. The NTSB thus was able to 
close two of its eight recommendations on this issue in ``acceptable'' 
status.\12\
---------------------------------------------------------------------------
    \12\ Safety Recommendations H-01-22 and -23.
---------------------------------------------------------------------------
    We are encouraged by the FMCSA's hiring of a medical officer, 
because it indicates that the FMCSA appreciates the importance of this 
issue to improving highway safety. I have personally met with the FMCSA 
Medical Officer, who has an excellent background to deal with these 
issues, and I think this step represents substantial progress.
    Although the FMCSA continues to work to address medical issues, 
much remains to be done. For example, the national registry of 
certified medical examiners should include a tracking mechanism for 
driver medical examinations. This step would reduce the current 
practice of drivers ``doctor shopping'' to find one who will sign their 
medical forms. Likewise, the FMCSA's medical oversight program should 
establish a mechanism to review medical certificates, beyond the 
examiner evaluating the driver, to identify and correct the 
inappropriate issuance of medical certification. Finally, the FMCSA has 
taken no action to establish a system for reporting medical conditions 
that develop between examinations.

Cell Phone Use
    Driver distraction may be one of the least understood causes of 
traffic accidents. Recent interest in the effect of cell phone use and 
the use of other personal electronic devices while driving has prompted 
numerous studies. The explosive growth of text-messaging while driving 
has prompted several states and the Federal Government to restrict such 
activity.
    Most would agree that texting while driving is unsafe. In fact, 
Virginia Tech has shown that texting increases the risk of an accident 
by 23 times. However, the problem is much bigger than texting. If you 
dial a phone number or reach for the phone while you are driving, you 
are taking your eyes off the road. You may be able to do this and get 
away with it hundreds or even thousands of times, but 1 day, you will 
look down at your cell phone at just the wrong moment and become an 
accident statistic. When the driver of an 80,000-pound tractor-trailer 
or a motorcoach carrying 55 passengers looks away from the road at the 
wrong instant, the results can be catastrophic.
    The NTSB investigated a passenger car accident in February 2002 in 
Largo, Maryland, in which an inexperienced 20-year-old driver lost 
control of her high-profile, short-wheelbase vehicle on the Capitol 
Beltway. She was talking to her boyfriend, who was speeding in another 
vehicle ahead of her. She lost control of her vehicle and crossed over 
the median, striking a minivan and killing all four of its occupants 
and herself. The cause of the accident was a combination of 
inexperience, unfamiliarity with the vehicle, speed, and distraction 
caused by use of a handheld wireless telephone. As a result, the NTSB 
recommended that the applicable states prohibit holders of learner's 
permits and intermediate licenses from using wireless communication 
devices while driving, and that they add driver distraction codes to 
traffic accident investigation forms.\13\
---------------------------------------------------------------------------
    \13\ Safety Recommendations H-03-8 and -9.
---------------------------------------------------------------------------
    In 2004, we investigated an accident in Alexandria, Virginia, in 
which an experienced motorcoach driver, who was having a heated 
conversation on his hands-free cell phone, failed to move to the center 
lane and struck the underside of an arched stone bridge on the George 
Washington Parkway. Our investigation found that the driver had 
numerous cues to change lanes at the appropriate time. In fact, the 
driver was familiar with the road and was following another bus that 
had moved to the center lane. Yet, this driver did not notice the well-
marked signage as he approached the arched stone bridge. The accident 
was clearly caused by this driver's cognitive distraction, due to his 
conversation on his cell phone. The NTSB recommended that the FMCSA and 
the 50 states enact laws to prohibit cell phone use by commercial 
drivers while driving a passenger-carrying commercial vehicle or school 
bus. \14\ We also recommended that motorcoach associations, school bus 
organizations, and unions develop formal policies to prohibit cell 
phone use by commercial drivers, except in emergencies.\15\
---------------------------------------------------------------------------
    \14\ Safety Recommendations H-06-27 and -28.
    \15\ Safety Recommendation H-06-29.
---------------------------------------------------------------------------
    Last fall, we participated in the U.S. Department of 
Transportation's (DOT) Distracted Driving Summit, which addressed the 
dangers of text-messaging and other driving distractions. During the 
summit, Secretary LaHood announced a plan to initiate rulemaking that 
would consider banning texting altogether and would restrict the use of 
cellular telephones by truck and interstate bus operators. A notice of 
proposed rulemaking was issued this month. While a ban on texting is 
definitely a step in the right safety direction, it does not satisfy 
our recommendation to prohibit the use of cellular telephones by 
drivers of passenger-carrying motorcoaches or school buses. The NTSB 
believes that cell phone use can be just as dangerous as text-
messaging, because it is a cognitive distraction for the driver.

Motorcoach Passenger Protection
    Progress in the area of improving the protection for motorcoach 
passengers has been disappointing. We continue to investigate 
motorcoach accidents in which passengers are thrown from their seats, 
striking hard objects within the vehicle, and in which they are ejected 
out the windows. In 1999, we recommended that the National Highway 
Traffic Safety Administration (NHTSA) develop performance standards for 
motorcoach occupant protection systems and require newly manufactured 
motorcoaches to have such systems.\16\
---------------------------------------------------------------------------
    \16\ Recommendations H-99-47 and -48.
---------------------------------------------------------------------------
    In the 11 years since we issued these recommendations, we have 
investigated more than 30 motorcoach accidents that have caused 140 
fatalities and 1,070 injuries.\17\ These accidents have included 259 
ejections. NHTSA has not established any meaningful occupant protection 
standards for motorcoaches, and last year, the NTSB identified NHTSA's 
lack of action in this area as contributing to the probable cause of 
the nine-fatality motorcoach accident in Mexican Hat, Utah. Shortly 
thereafter, Secretary LaHood directed several of the modal 
administrations within DOT, including the FMCSA, NHTSA, the Federal 
Highway Administration (FHWA), the Research and Innovative Technology 
Administration (RITA), and the Pipeline and Hazardous Materials Safety 
Administration (PHMSA), to develop a Motorcoach Safety Action Plan. The 
NTSB is hopeful that this initiative will lead to meaningful 
improvements in the safety protections provided to motorcoach 
passengers.
---------------------------------------------------------------------------
    \17\ Some of the major investigations include the following 
accidents: 1999 New Orleans, LA (22 fatal, 21 injured, 10 ejected); 
2002 Loraine, TX (3 fatal, 29 injured); 2002 Victor, NY (5 fatal, 41 
injured, 6 ejected); 2003 Hewitt, TX (5 fatal, 29 injured, 15 ejected); 
2003 Tallulah, LA (8 fatal, 6 injured, 1 ejected); 2004 Turrell, AR (15 
fatal, 15 injured, 30 ejected); 2005 Osseo, WI (5 fatal, 35 injured, 1 
ejected); 2007 Atlanta, GA (6 fatal, 28 injured, 12 ejected); 2008 
Victoria, TX (1 fatal, 46 injured, 1 ejected); 2008 Mexican Hat, UT (9 
fatal, 42 injured, 50 ejected); and 2008 Sherman, TX (17 fatal, 39 
injured, 4 ejected).
---------------------------------------------------------------------------
Motorcoach Roof Strength
    Structural integrity of a motorcoach is as important to the safety 
of passengers as occupant protection systems. The NTSB has recommended 
that NHTSA develop performance standards for motorcoach roof strength 
that provide maximum survival space for all seating positions and that 
take into account current typical motorcoach window dimensions.\18\ We 
have also recommended that NHTSA revise window glazing requirements for 
newly manufactured motorcoaches.\19\ The roof strength recommendations 
were added to the NTSB's Most Wanted List in 2000. Because of inaction 
by NHTSA on improving roof strength and window glazing, the NTSB 
reclassified all of these recommendations as ``unacceptable response'' 
in 2009.
---------------------------------------------------------------------------
    \18\ Safety Recommendations H-99-50 and -51.
    \19\ Safety Recommendation H-99-49.
---------------------------------------------------------------------------
Motorcoach Passenger Egress
    Most motorcoaches in the United States have emergency egress 
windows. However, in a 1999 study on Selective Motorcoach Issues, the 
NTSB found that passengers had difficulty in opening emergency windows 
and keeping them open during evacuations. Consequently, in 1999, we 
recommended that NHTSA require window exits and other emergency exits 
not at floor level to be designed so that they are easy to open and to 
keep open during an emergency evacuation, when a motorcoach is either 
upright or at unusual attitudes.\20\ This recommendation is on our Most 
Wanted List.
---------------------------------------------------------------------------
    \20\ Safety Recommendation H-99-9.
---------------------------------------------------------------------------
Motorcoach Fire Protection
    Although injuries or fatalities resulting from motorcoach fires are 
relatively uncommon, fires on motorcoaches are very common (about one 
motorcoach is lost to fire per day). The importance of fire detection 
and suppression came to the forefront of everyone's attention when 
elderly motorcoach passengers perished near Dallas, Texas, in 2005 
during the evacuation from Hurricane Rita. As a result of that 
investigation, the NTSB asked NHTSA to evaluate current emergency 
evacuation designs of motorcoaches and buses.\21\ The evaluation should 
take into account acceptable egress times for various postaccident 
environments, unavailable exit situations, and the current aboveground 
height and design of window exits to be used in emergencies by all 
potential vehicle occupants. The NTSB also asked NHTSA to develop early 
warning detection systems to monitor the temperature of wheel well 
compartments in motorcoaches and buses, and to evaluate the need for a 
Federal Motor Vehicle Safety Standard to require fire detection and 
suppression systems on motorcoaches.\22\
---------------------------------------------------------------------------
    \21\ Safety Recommendation H-07-8.
    \22\ Safety Recommendations H-07-6 and -7.
---------------------------------------------------------------------------
Event Data Recorders
    Event data recorders are a proven technology. They record critical 
vehicle movements and driver inputs. Such information greatly helps in 
accident reconstruction, leading to better accident prevention 
initiatives. Since 1997, the NTSB has issued six recommendations and 
participated in or hosted five public forums on the use of data 
recording devices in highway transportation.
    Following the 2003 pedal misapplication accident in a Santa Monica, 
California, farmers' market, which resulted in 10 fatalities and 63 
injuries, we recommended that NHTSA make event data recorders mandatory 
on newly manufactured light-duty vehicles.\23\ Most manufacturers now 
provide these devices.
---------------------------------------------------------------------------
    \23\ Safety Recommendation H-04-26.
---------------------------------------------------------------------------
    Specific to school buses and motorcoaches, the NTSB recommended in 
1999 that NHTSA require school buses and motorcoaches manufactured 
after January 1, 2003, to be equipped with on-board recording systems 
that record a number of vehicle parameters.\24\ We reiterated the 
recommendations in 2008, following the seven-fatality motorcoach 
accident involving Bluffton University students in Atlanta, Georgia.
---------------------------------------------------------------------------
    \24\ Safety Recommendations H-99-53 and -54.
---------------------------------------------------------------------------
New Crash Avoidance Technologies
    Since 1995, the NTSB has advocated collision warning systems and 
adaptive cruise control to prevent accidents. In 2001, as part of a 
study on Technology for the Prevention of Rear-End Collisions, the NTSB 
investigated nine commercial vehicle rear-end collisions in which 20 
people died and 181 were injured. Common to all nine accidents was the 
degraded perception of traffic conditions ahead by the driver in the 
rear. The NTSB recommended that NHTSA issue performance standards for 
adaptive cruise control and collision warning systems for new 
commercial vehicles.\25\
---------------------------------------------------------------------------
    \25\ Safety Recommendations H-01-6 and -7.
---------------------------------------------------------------------------
    In 2003, the NTSB investigated a multivehicle accident near 
Hampshire, Illinois, in which a tractor-trailer failed to slow for the 
stopped or slow-moving traffic on the approach to the Interstate 90 
toll plaza. The tractor-trailer driver was distracted and the tractor-
trailer struck the rear of a specialty bus, killing 8 passengers and 
injuring 12. As a result, the Board reiterated the above 
recommendations. In 2007, these important safety recommendations were 
added to our Most Wanted List. They were reiterated in 2008, in the 
NTSB's report on a five-fatality motorcoach and tractor-trailer 
accident in Osseo, Wisconsin, as well as a seven-fatality tractor-
trailer/sedan/school bus collision in Lake Butler, Florida, and a 15-
fatality motorcoach rollover accident in Turrell, Arkansas.
    Electronic stability control is standard in most automobiles today. 
As a result of the Osseo accident investigation, the NTSB recommended 
that NHTSA determine whether equipping commercial vehicles with 
collision warning systems with active braking and electronic stability 
control systems would reduce commercial vehicle accidents, and if so, 
require their use on commercial vehicles.\26\
---------------------------------------------------------------------------
    \26\ Safety Recommendation H-08-15.
---------------------------------------------------------------------------
    In many commercial vehicle tires, a small loss of air can degrade 
tire carrying capacity and cause sufficient heat build-up to result in 
tire failure. In 2008, a motorcoach became uncontrollable after a tire 
failure and plunged off a bridge near Sherman, Texas, resulting in 17 
fatalities. NHTSA now requires the installation of tire pressure 
monitoring systems on passenger cars and light trucks weighing 10,000 
pounds or less. As a result of the Sherman accident, the NTSB 
recommended that all commercial vehicles weighing over 10,000 pounds be 
equipped with tire pressure monitoring systems,\27\ to help avoid 
crashes caused by tire failures.
---------------------------------------------------------------------------
    \27\ Safety Recommendation H-09-22.
---------------------------------------------------------------------------
Closing
    Many of the issues discussed today have been around for decades, 
and much is left to be done to improve highway safety. Immediate action 
is needed so that when we load our children into our cars and get out 
on the highway, we are surrounded by trucks and buses that are safely 
designed, carefully maintained, and expertly operated.
    Mr. Chairman, this completes my statement, and I will be happy to 
respond to any questions you may have.

    Senator Lautenberg. Ms. Ferro, your agency recently issued 
a final rule regarding EOBRs, and while the rule was an 
improvement to the previous administration's proposed rule, it 
captures a very small percentage, just over one percent, of all 
carriers on the road today. The NTSB has called for EOBRs, as 
we heard, on all commercial motor vehicles. Why has your agency 
not issued a more comprehensive EOBR mandate for all carriers 
on the road?
    Ms. Ferro. With regard to the current rule that we just 
achieved final status on, it was clear from the original notice 
of proposed rulemaking several years ago that we were 
constrained in how broad we could make the current rule. It was 
a very challenging discussion internally because, as you have 
seen, through our indications both in our rulemaking website, 
as well as my comments today, we are pressing ahead with a 
broader mandate across all carriers.
    But it was very important to me, if we had the opportunity, 
to implement a tool today that could get at the behavior of 
high-risk carriers, those violating hours-of-service rules most 
egregiously, that we needed to deploy the tool as soon as 
possible. It was clear to me that the opportunity to develop a 
universal rule, while in play now, would not have been in place 
as quickly as this one. So while Chairman Hersman spoke about 
incremental achievements, this is incremental, but it was very 
important that we get it in place.
    Senator Lautenberg. It is hard to accept a condition that 
threatens people on the road when we can do something about it. 
And the mandatory use of EOBRs, as we heard, is included in the 
NTSB's list of Most Wanted Safety Improvements.
    Are there any more safety risks that will remain for trucks 
that do not fall within the FMCSA's new rule?
    Ms. Ferro. The rule that is under development today----
    Senator Lautenberg. Yes.
    Ms. Ferro.--that we expect to have a draft by the end of 
the year?
    I am not sure how to answer that question, but I will be 
happy to follow up with regard to any other risks.
    Senator Lautenberg. OK, please do. And, Ms. Hersman, we 
might ask you the same thing.
    The NTSB has found that fatigue is a primary factor in 30 
to 40 percent of large truck crashes. How does the current 
hours-of-service rule contribute to driver fatigue?
    Ms. Hersman. There are many challenges associated with 
fatigue. The Safety Board has specifically made recommendations 
about the enforcement of the current hours-of-service rule. In 
many of our accidents, we find that the rules are not being 
observed, whether it is through pressures to get loads there on 
time or economic pressures that the drivers feel to continue to 
drive additional miles.
    There are challenges for roadside inspectors. One of the 
concerns that we have is that in roadside inspections, which 
are conducted every year, we see about a 7 percent out-of-
service rate for drivers who have not kept accurate logs, 
falsified logs, or do not possess logs at all. This has 
remained fairly static, and what this says to me is that this 
is the cost of doing business, and people are violating these 
rules on a regular basis. We do not see that same hours-of-
service violation in other transportation industries. In the 
aviation industry, in the railroad industry, there is 
accountability on the part of the carriers for their drivers' 
hours or their workers' hours. We do not see the same in the 
trucking industry.
    Senator Lautenberg. Well, in fairness, we have seen fatigue 
in the aviation industry as well, and the consequences are very 
serious.
    Ms. Hersman. We certainly see fatigue in all modes of the 
transportation industry, but the violations of the hours-of-
service are not there. Pilots, when they have reached their 
duty-day limit, go off-duty. The company is responsible for 
making sure that happens.
    Senator Lautenberg. They are supposed to. We have to watch 
them all.
    Ms. Ferro, last fall your agency entered into an agreement 
to drop the Bush Administration's hours-of-service rule and 
undertake a new rulemaking. What have you done to base this new 
rule on sound science?
    Ms. Ferro. We must base our work on sound science and sound 
research, Mr. Chairman.
    The settlement agreement requires us to have an NPRM to the 
Office of Management and Budget by July of this year, and we 
are well on pace to achieve that.
    Our work in getting to the point of submitting that NPRM 
has included a nationwide process both of an open docket to 
solicit as much new research or comment or perspective that we 
may not have already had or been aware of, as well as listening 
sessions around the country. We do have some research in place 
that we are using, in fact, to analyze the rule, analyze our 
findings. And the rule that we produce in July will be based on 
that.
    Senator Lautenberg. Ms. Ferro, in your testimony you 
highlighted the Comprehensive Safety Analysis 2010, or CSA 
2010, as a new enforcement tool that can help your agency meet 
its safety goals. The NTSB has described this new tool as an 
ambitious program with milestones that are going to be 
difficult to meet. The program has already been delayed and may 
not be ready until next year. When will CSA 2010 be ready for 
implementation? Do you have the tools and resources for the 
program to be put in place effectively?
    Ms. Ferro. Two points in that regard. It is an ambitious 
program, and for that very reason, I challenged our team to say 
we must roll this out to succeed, and significant change is 
achieved through incremental processes, much like Chairman 
Hersman mentioned. Consequently, we are rolling out the program 
in components starting today, actually several weeks ago, with 
the initiation of the preview of the data set forth in the 
basics that I described focusing on driver fatigue, driver 
safety, vehicle maintenance, and some of the other components. 
Those components for all carriers are on display today to each 
individual carrier. That part of the system is moving forward.
    Late this Fall, we will be rolling out the rating system as 
the complementary component of the system that is up and 
running today.
    Following that will be the safety fitness determination 
rule, the waiver letter process, and the change management 
process that engages our investigators and inspectors, as well 
as our law enforcement partners, in a series of intervention 
actions that go from warning letter, to targeted intervention, 
to full compliance intervention review.
    So that schedule is covering a 12-month period. Again, it 
includes systems, rule, State rollout. So we are very much on 
track with regard to an implementation schedule designed to 
succeed.
    Senator Lautenberg. In my earlier remarks, I pointed out 
that fatalities occur each and every day. That is common 
knowledge.
    Ms. Ferro. That is right.
    Senator Lautenberg. And so there is an urgency to all of 
these things.
    Ms. Ferro. There is.
    Senator Lautenberg. I ask you to move things along as 
rapidly and, of course, as efficiently as you can.
    Ms. Ferro. Yes, sir.
    Senator Lautenberg. Ms. Hersman, four recommendations on 
the NTSB's Most Wanted List are directed at FMCSA, and since 
1992, the agency has been cited for 13 unacceptable responses 
to recommendations from NTSB investigators.
    In the past year, has there been any progress with FMCSA 
toward resolving these recommendations?
    Ms. Hersman. I will say that we see a lot of good 
discussion and some plans to accomplish many of our 
recommendations. One of our frustrations is that many of these 
recommendations were issued over a decade ago. So, even though 
there is a good discussion that is taking place, what we really 
want to see is a little less talk and a lot more action. We 
want these things to be completed and accomplished.
    There are a few things that the FMCSA has done. One that I 
pointed out in my testimony was the integration of the medical 
certificate and a CDL when drivers go to renew their license. 
That is an issue that we focused on as far as medical 
certification is concerned, and has been completed. The FMCSA 
has initiated action in a number of other issue areas, but the 
regulatory process is slow and they have not yet completed 
action in those areas.
    I am referring to issues like the medical review board that 
was instituted at the direction of this committee in 
legislation. One of our concerns about that is we have made 
recommendations addressing sleep apnea. We know that truck 
drivers often are sedentary, and that they may have high body 
mass index and thus are more susceptible to sleep apnea than 
the general population. Their own medical review board, in 
January of 2008, made recommendations about what needed to be 
done to address the problem of sleep apnea, and we are still 
waiting on their response to those issues.
    I think progress has been made in certain areas, but what 
we want to see is completion.
    Senator Lautenberg. I thank you. And I commend you each for 
picking up the pace and making sure that we move along with 
these things.
    As I look at the situation--I discussed it with my team--
the fact that EOBRs are not compulsory really as part of 
original equipment is unacceptable. EBORs have got to be 
encouraged in some way, and we must do whatever we can do to 
move these things along. It is a safety step that ought to be 
taken.
    Senator Thune, I have taken more time.
    Senator Thune. It is quite all right. You are the Chairman, 
Mr. Chairman.
    FMCSA's budget justification for Fiscal Year 2011 includes 
a description of the agency's safety goals for 2009 through 
2011, and there are seven different safety goals that are 
mentioned, including goals for reducing fatal crashes involving 
large trucks and buses and improving seat belt use by truck 
drivers. In every instance, however, the actual results in 2008 
actually exceed the goal for 2009, and in most instances, 
actual 2008 results exceed the goals for 2010 and 2011.
    I guess my question is, why has the agency not set more 
aggressive goals for itself and for truck safety improvements?
    Ms. Ferro. Well, I think that is a very fair question, 
particularly as we are laying the groundwork today both for our 
strategic planning, as well as our reauthorization goals. So I 
would agree. We need to set stronger stretch goals.
    The reason we achieved some of those gains in the past 
couple years I would attribute to some rather aggressive 
management and focused attention on both the efficiency and 
effectiveness of the actions that the FMCSA staff and 
leadership at that time were taking.
    But I would agree with you that we need to be sure we are 
looking at those numbers and setting more aggressive goals 
going forward. The 2011 budget was framed up before I came on 
board, so I did not have a hand in that.
    Senator Thune. FMCSA has indicated that good quality data 
is critical to the success of CSA 2010. Since quality data has 
been such a problem under the existing rating system, the 
SAFESTAT, what is FMCSA doing to safeguard carriers from being 
unfairly targeted, subject to intervention, and receiving an 
unsatisfactory score as a result of incorrect safety data?
    Ms. Ferro. Well, it's along the lines of what gets measured 
gets done. Several years ago, FMCSA--I want to say early in 
2000--began a very concerted effort, in working with our State 
partners, to ensure that the data quality on the inspection 
reports, out-of-service and violation reports, as well as 
compliance reviews, was on a steady path of improvement. And I 
will say today that close to 98-99 percent of the State data 
that we are receiving achieves that high quality, green status. 
It is a continuing effort. It is an area where we must never 
lose our focus, and it is an area that both CVSA, as well as 
our own division administrators, are focused on.
    CSA 2010 puts a stronger spotlight on the importance of 
data quality for the roadside enforcement officer or inspector, 
and so to that end, it makes it, again, an even surer outcome 
that the data we are achieving are both consistent, as well as 
on the improvement path.
    That being said, there are some system issues we need to 
address that will allow us to ensure consistent implementation 
of certain data in those fields coming forward, and CVSA very 
recently submitted recommendations in that regard.
    Senator Thune. From August 2008 to October 2009, the number 
of states that were rated good in terms of data quality rose 
from 31 states to 41 states. South Dakota was one of the states 
to show an improvement. I guess the question--and you have 
touched on it a little bit--is how do you measure data quality 
and how high is the bar for the states to get to that next 
level.
    Ms. Ferro. Well, if I might, I would like to follow up on 
the record with a more thorough answer for you. It is an area 
through a program called the SADIP grants, S-A-D-I-P, that we 
are focused both on evaluating, as well as setting very key 
measures for. I do not have that information with me at this 
time, but I would like to follow up for the record.
    Senator Thune. Do you know how implementation of CSA 2010 
will differ with regard to the nine states that still only have 
a poor or fair data quality designation?
    Ms. Ferro. Well, again, it is rolling number as we continue 
to evaluate data quality, and I will say that today that data 
is on preview. The opportunity for carriers to request a review 
of the data entered on certain violation reports if, in fact, 
they think it was the wrong carrier or the wrong vehicle, the 
wrong driver is going on today as we speak, which was a part of 
the purpose of the preview, not to change the violation, not to 
impact that, but to ensure the quality of the data that is on 
their record. So again, it is an accountability feature in the 
CSA 2010 program, combined with our data query process that 
works through our agency to the law enforcement entity that 
issued the violation. So, again, on that kind of continuous 
loop piece, we expect continuous improvement in those States 
that are showing some areas of problems.
    Senator Thune. Is it possible that certain carriers who are 
considered safe under the current system would not be 
considered safe under CSA 2010, and if that were to happen, how 
would you intend to work with those carriers to bring them into 
compliance?
    Ms. Ferro. No, I do not believe that any carrier will be 
falsely accused of being unsafe for data quality because these 
are continuous points of data. These are carriers that are 
receiving inspections or violations or interception points 
throughout the country in their travels, and so I would say 
across the board, given the quality of the data we have today 
and the continuous improvement path, that given the averages 
that CSA 2010 identifies using that very recent data, we will 
have a process of accurately identifying unsafe carriers, that 
it will not be distorted by some inconsistencies. That does not 
mean we can let up our focus on continued improvement in the 
data quality.
    Senator Thune. Ms. Hersman, what recommendations do you 
have for further improving CSA 2010?
    Ms. Hersman. CSA 2010, as I mentioned, is an ambitious 
undertaking and we certainly want to see it succeed.
    One of the things that I believe would be very helpful for 
the general public, as well as for people who are 
participating, is for FMCSA to clarify the purpose and goals of 
CSA 2010, and how they are going to be achieved and to identify 
the milestones that will be necessary to meet. I think that it 
is important for this committee and perhaps other oversight 
entities, such as the IG and GAO to periodically review their 
progress to make sure those milestones are being achieved as 
they implement this program.
    Senator Thune. I understand this hearing is primarily 
focused on examining the Federal role in motor carrier safety, 
but the states also have an important role to play. I guess the 
question is, are there areas where NTSB believes that the 
states could be doing more?
    Ms. Hersman. With respect to inspections and?
    Senator Thune. Just with respect to the whole, I guess, 
subject of motor carrier safety. There is a responsibility, 
obviously, at the Federal level and I guess the states are also 
an important and integral part of that sort of partnership. The 
questions is, do you see a more expansive role or something 
more that the states could be doing in the area of motor 
safety?
    Ms. Hersman. Absolutely. There are several areas where 
FMCSA really has to rely on the States. Certainly one of those 
areas is the State inspectors. I know you are going to hear 
from CVSA next. They are the ones who conduct the roadside 
inspections--the source of all the data--and so they are 
extremely critical to the effectiveness of CSA 2010.
    I can tell you that through some of our accident 
investigations, we have found deficiencies. I will mention a 
couple of accidents that we investigated in Texas. States have 
some challenges with respect to registration and authorization 
of entities who are authorized to provide motor carrier 
operations. We have investigated accidents where we found 
noncompliant vehicles that enter the U.S. They have entered 
through Mexico, they do not meet Federal motor vehicle safety 
standards and they have been registered in the states 
inappropriately. FMCA needs to do a better job with that 
oversight.
    Also making sure that the PRISM program is adopted 
nationwide would be extremely effective. One of the issues that 
Administrator Ferro talked about was chameleon carriers. What 
we see with chameleon carriers is they are bad operators who 
get put out of business and then they reincarnate. In accidents 
we investigated where a chameleon carrier was involved, the 
husband typically will be the CEO of the company. That company 
will get shut down. They will reopen the company at the same 
address under the wife's name and operate with the very same 
vehicles that they just got put out of service for operating. 
Under the PRISM program, the license plates of those vehicles 
are pulled. When someone comes to re-register again, checks can 
be made to ensure that it is not the same company, not the same 
vehicles, and not essentially a shell for what it used to be. 
The PRISM program is certainly something that we think the 
states could administer.
    There are also some self-inspection programs. We 
investigated an accident in Texas involving a motorcoach where 
there was a retread front tire on the steering axle of the bus. 
You cannot have retread tires on the steering axle. This 
motorcoach had passed inspection just weeks before the 
accident. It was not clear when the retread tire had been put 
on, but the State only authorized them to charge $63 for the 
commercial vehicle inspection. How good of an inspection are 
you going to get of a bus or a truck for $63? It is critically 
important for the states to have good oversight and perhaps 
even for FMCSA to look at the states to see if they are doing 
an effective job with their oversight responsibilities.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Thank you both. We will keep the record 
open for additional questions. As I continue my quest, wearing 
another committee hat, to limit the expansion of ever-larger 
trucks on the highway system--we look at that as a threat to 
those traveling on the same highways. So we will be doing that 
as well.
    I thank you each for your testimony.
    Now Francis France, President of the Commercial Vehicle 
Safety Alliance; Jackie Gillan, Vice President of the Advocates 
for Highway and Auto Safety; Mr. David Osiecki, Senior Vice 
President for Policy and Regulatory Affairs for the American 
Trucking Association; and Todd Spencer, Executive Vice 
President, Owner-Operator Independent Drivers Association. 
Thank you all for being here.
    Welcome all, and we will start with the same admonition to 
keep your testimony as close to 5 minutes as you can. Mr. 
France, you are the first and we look forward to hearing from 
you.

        STATEMENT OF FRANCIS (BUZZY) FRANCE, PRESIDENT, 
               COMMERCIAL VEHICLE SAFETY ALLIANCE

    Mr. France. Mr. Chairman, members of the Subcommittee, 
thank you for holding this hearing and inviting CVSA to 
testify.
    I am Buzzy France, President of CVSA, and I am currently an 
Administrative Officer with the Maryland State Police.
    CVSA represents State, provincial, and Federal officials 
responsible for administration and enforcement of commercial 
motor carrier safety laws in the U.S., Canada, and Mexico.
    First, we urge Congress to pass a long-term transportation 
bill. We fully support CSA 2010 and give credit to FMCSA for 
moving it forward. However, CSA 2010 will require States to 
expend more resources to implement it, just as it will FMCSA. 
We hope that FMCSA will be sensitive to the needs of the States 
in this regard.
    EOBR technology and hours-of-service issues are very 
closely linked. We believe a universal mandate of EOBRs should 
come first so we can ensure a more reliable method of assessing 
compliance and enforcement of hours-of-service. This should 
happen before making a determination of whether to change the 
current hours-of-service rules.
    Also, a comprehensive rule should contain important 
technical considerations, such as interoperability, data 
security, driver identification, tampering, uniformity, 
standard interface for law enforcement, and proper 
certification for EOBR devices.
    Now let me address CVSA's reauthorization priorities. More 
flexibility of State grant programs is needed, along with 
increased funding. Also, we recommend changing the match in the 
MCSAP program from 80/20 to 90/10 in recognition of the 
increasing difficulty States are having in coming up with the 
match money.
    Maintenance of Effort is handcuffing state safety efforts. 
The MOE requirements, as they currently exist, are a 
significant problem for states and must be revised. The way it 
exists now presents in many cases a disincentive for states to 
develop new, innovative approaches to commercial vehicle safety 
plans. While the basic component of MOE is simple and fair, its 
implementation has flaws.
    Flexibility also should be given and authorized through 
FMCSA to give them the means to waive MOEs under certain 
circumstances.
    Existing safety exemptions must be reviewed and the process 
for granting and reviewing them, as specified in the statute, 
must be adhered to.
    The proliferation of motor carrier exemptions is out of 
control. They are eroding safety and weakening enforcement 
efforts at roadside. The exemptions provided in SAFETEA-LU, 
allowing a total hours-of-service exemption for utility service 
vehicles' drivers beyond a declaration of emergency and 
expanding the agricultural hours-of-service exemptions beyond 
the original intent of such exemptions must be repealed. These 
industries must reapply for these exemptions under procedures 
outlined in section 31315, Title 49 of the U.S. Code.
    All other safety exemptions, whether granted by statute or 
by regulation, should similarly be received accordingly. This 
process would be no different than that which the Pipeline and 
Hazardous Materials Safety Administration exercises with 
respect to the HM special permits and approvals.
    As a way to get started, we recommend the IG of DOT conduct 
a study of the exemption process at FMCSA, just as the IG did 
with PHMSA.
    Why spend time developing hours-of-service rules and 
developing a comprehensive rule for EOBRs to monitor drivers' 
hours-of-service if significant segments of the industry are 
exempt from the hours-of-service. Fatigue is not caused by the 
product hauled or the service provided, but it is caused by the 
time spent by drivers behind the wheel and their time on task. 
Exemptions are a privilege. They are not a right.
    Increased truck size and weight should not be allowed until 
more safety data is available. The data is intensifying, yet 
still lack the fundamental safety data to make major policy 
decisions. I believe there is an opportunity to do this by 
strengthening the two pilot programs provided for Maine and 
Vermont in the 2010 appropriations bill. Four months after the 
bill was signed, the FHWA and State enforcement officials have 
begun to conduct meaningful criteria for these pilots. CVSA has 
submitted 20 separate recommendations we believe should be 
considered for the pilot programs. Until there is meaningful 
data for these pilots, as well as additional safety research, 
we oppose any similar pilot programs in other states.
    More efforts are needed to ensure safety for passenger 
carrying motor carriers. CVSA supports many of the provisions 
offered in Senate bill 554 that was reported out of the 
Commerce Committee on December 17, 2009. We do have a few 
concerns with the bill, particularly with respect to unfunded 
mandates and time tables on research and rules, as well as the 
State preemption issue. In our written statement, we have 
offered more specific recommendations.
    More emphasis on safety technology will save lives. We 
strongly support Senate bill 1582, the Commercial Motor 
Vehicles Advanced Safety Technology Tax Act of 2009. It 
provides tax incentives for motor carriers to purchase four 
basic technologies, brake stroke monitoring systems, vehicle 
stability systems, lane departure warning systems, and 
collision warning systems. These are tested and proven 
technologies.
    We also believe a new study of heavy vehicle brake systems 
is needed. We recommended NTSB be authorized, along with 
provisions of adequate resources, to update their 1992 study to 
accurately quantify the magnitude of the brake adjustment and 
deficiency brake problems today relative to heavy trucks.
    This concludes my statement, Mr. Chairman, and I thank you 
again for allowing me to come here and speak before this 
committee.
    [The prepared statement of Mr. France follows:]

       Prepared Statement of Francis (Buzzy) France, President, 
                   Commercial Vehicle Safety Alliance

    Mr. Chairman, members of the Subcommittee, thank you for holding 
this important hearing and for inviting CVSA to testify.
    I am Francis (Buzzy) France, President of CVSA, and Administrative 
Officer with the Maryland State Police.
    CVSA is an organization of state, provincial and Federal officials 
responsible for the administration and enforcement of commercial motor 
carrier safety laws in the United States, Canada and Mexico. We work to 
improve commercial vehicle safety and security on the highways by 
bringing Federal, state, provincial and local truck and bus regulatory, 
safety and enforcement agencies together with industry representatives 
to solve problems and save lives. Every state in the United States, all 
Canadian provinces, the country of Mexico, and all U.S. Territories and 
Possessions are CVSA members.

Long Term Transportation Bill Is Needed to Continue the Downward Trend 
        in Crashes and Deaths
    First, there is some good news to report. The large truck fatality 
rate dropped by 12.3 percent in 2008, and is down 20.8 percent since 
2005. There were more than 1,000 fewer deaths in 2008 from large truck 
crashes than there were in 2005. I believe significant credit for this 
goes to the more than 12,000 commercial vehicle inspectors in North 
America who are working hard each and every day. Credit for this 
success also goes to the many responsible members of the truck and bus 
industries who are mindful every day of the need to keep our highways 
safe.
    However, there still were 4,229 deaths in trucks and 307 in buses 
in 2008, so we still have plenty of work to do in our march toward zero 
deaths on our roadways.
    The downturn in the economy certainly has played a role in this, 
and my fear is that as it begins to recover, as thankfully it looks to 
be the case, we will not have adequate resources to maintain these 
numbers, much less improve upon them.
    A critical step for ensuring there are adequate resources in place 
today and in the future is for the Congress to pass a long term 
Transportation bill as soon as possible. Solutions to many of the 
issues I will discuss this morning can only happen through enactment of 
a long term transportation bill. We look forward to working with this 
committee on highway and commercial motor vehicle safety policies to be 
included in the bill, and we are pleased that you are signaling the 
beginning of this process by holding this hearing today.
    Before I do that, I want to comment on issues that you identified 
in your letter inviting us to testify.

CSA 2010
    We support CSA 2010 and give credit to FMCSA for moving it forward. 
It offers significant promise to transform compliance and enforcement 
activities to be more ``surgical'' in nature and to allow for more 
proactive safety interventions with motor carriers, which will 
ultimately save more lives. It also is consistent with one of CVSA's 
major reauthorization priorities--to streamline the compliance review 
process to make it more effective, as well as to establish a better 
safety rating process for motor carriers. The CSA 2010 experience thus 
far through the 9 pilot states shows that is it having a positive 
impact and is being received well by both enforcement and industry. We 
fully understand why FMCSA recently announced that they are modifying 
their timelines for implementing this program and fully support their 
doing so. A program of this size and scope needs careful planning, as 
well as input from all affected parties. Throughout his process FMCSA 
has been listening to us and others, and we appreciate them doing so.
    However, CSA 2010 will require the states to expend more resources 
to implement it, just as it has required the FMCSA to expend additional 
resources. We fully understand why FMCSA requested an additional $20 
million beyond SAFETEA-LU authorized limits for its Fiscal Year 2011 
budget for the purpose of rolling out CSA 2010. We do not understand 
why FMCSA is not seeking additional funding for the states as well. 
States will need to add additional personnel, upgrade their information 
systems, upgrade their processes and resources for data challenges, and 
conduct more training to make CSA 2010 a success. We would recommend 
that FMCSA direct at least a part of the $20 million they are seeking 
to the states, or find other sources of funding, such as the High 
Priority grant program, to help the states. We realize this is an issue 
for the Appropriations Committee but, nevertheless we wanted to bring 
this issue to your attention.

Electronic On-Board Recorders and Hours of Service
    Mr. Chairman, in our view, the policy decisions made with respect 
to EOBR technology and Hours-of-Service regulations are closely linked. 
We are cognizant of the Secretary of Transportation's directive to the 
FMCSA to re-open the existing hours-of-service rules to try and make 
improvements. We have been and will continue to be committed to 
participating in that process and ultimately to enforce whatever the 
final outcome may be.
    However, we believe universal mandate of electronic logging 
technology is critical so we can ensure a more reliable method of 
assessing compliance and enforcing hours-of-service, whatever the 
ultimate outcome of the rules might be. We advocated this position at 
the May 2007 hearing you chaired on the subject of EOBR's. Adoption of 
such a rule must also contain critically important technical 
considerations such as interoperability, data security, driver 
identification, tampering, uniformity, standard interface for law 
enforcement, and proper certification of EOBR devices. In our judgment, 
the EOBR rule recently issued by FMCSA does not go far enough. It falls 
short of a universal mandate and does not do enough in the areas 
identified above. While we are aware that FMCSA has publicly stated 
that another EOBR rule is forthcoming, we would suggest that 
legislation will be needed to ensure a future rule will meet the 
ultimate goal of being able to accurately reflect a driver's records of 
duty status through the use of electronic logging devices--and one that 
is enforceable--on all commercial motor vehicles.
    As for the hours-of-service regulations, we would suggest that 
taking measures such as mandating electronic logging devices and a 
supporting documents rule should be in place for several years, as well 
as the collection and evaluation of more performance data on compliance 
rates and crashes, before revisiting the regulations. Every time there 
is a change in the hours-of-service rules it significantly impacts 
enforcement. The first challenge is for all of the states to adopt the 
new rule. Most states can do so administratively or through automatic 
adoption, but a number of them have to do it through an abbreviated 
legislative process and in a few cases during their normal legislative 
process. In some cases it can take up to 3 years. This coupled with 
education and outreach efforts, changes to software and training 
necessary with any rule of such significance, make this a challenge to 
the enforcement community. I am not saying that enforcement is not up 
to the task, because we are. But it is important to get it right with 
respect to what the best hours-of-service regime should be. The last 
several years we have seen several changes with respect to the rules 
and going through such changes is not an easy task. The last item I 
will note is as we go through this process we should consider 
harmonizing the rules with respect to those in Canada.

Regulatory and Policy Issues With Respect to FMCSA That Need 
        Resolution before Reauthorization
    Before I discuss these issues, let me say that the new FMCSA 
Administrator, Anne Ferro, has been on the job for barely 6 months. The 
matters I am about to discuss in most cases precede Administrator 
Ferro's arrival on the job. Let me also say that in this short period 
Administrator Ferro has been reaching out to CVSA as I know she has 
done with other safety partners. When she makes important safety 
decisions, whether we all agree with them or not, I think we can be 
certain that she has listened to as many people as possible and has 
studied the issues carefully. The enforcement community knows that in 
Administrator Ferro we have a strong safety voice in this 
Administration and in the Department of Transportation. We appreciate 
that. I will tell you from our experience with her thus far that she 
has been doing an outstanding job.

Regulatory Responsiveness and Timeliness
    We all know that regulatory responsiveness and timeliness has been 
a problem at FMCSA. While there has been significant improvement in 
some areas, more improvement is needed. Since 2007, CVSA has filed 13 
petitions for rulemaking with FMCSA that are still pending.

Regulatory Guidance and Policy Memos Issued by FMCSA
    We appreciate that FMCSA may have the best of intentions in issuing 
a Regulatory Guidance and Enforcement Policy Memorandums in its 
attempts to clarify existing rules, be responsive and assist with their 
enforcement. However, there is no substitute for rule changes. A recent 
example of this was the Regulatory Guidance prohibiting texting for 
commercial vehicle drivers. We support the goal of banning texting 
while driving for everyone, but I must point out that such guidance is 
not a substitute for a rule and states have no authority to enforce 
guidance as opposed to a rule. Generally speaking, if guidance is 
issued with respect to a rule, there likely is a problem with the rule 
that needs to be fixed. In the case with the texting ban, there was no 
existing rule. We do appreciate the Agency recently issuing a Notice of 
Proposed Rulemaking on this subject, but we still do not have a rule. 
Another recent example was the Regulatory Guidance issued on March 1 
allowing states to send out UCR registration notices reflecting the old 
2007-2009 fee structure. Again, we appreciate the intent behind this, 
but it did not provide the regulatory authority to actually collect the 
old fees and opens the door for a potential legal challenge.
    The same holds true for Policy Memos issued by FMCSA that direct 
state enforcement agencies to make changes in their enforcement 
practices. Such policy memos need to be consistent with regulations and 
if they are not, the rules need to be changed.
    This is not just important for enforcement, but for industry as 
well. They need to be sure to know what the rules are so they are able 
to comply with them.
    I will now discuss our Reauthorization issues.

CVSA Major Reauthorization Issues

More Flexibility in State Grant Programs Is Needed Along With Increased 
        Funding
    With commercial motor vehicle traffic projected to increase 
significantly over the next 5 to 10 years, increases in education, 
compliance and enforcement efforts are needed to reduce crashes and 
fatalities from their existing levels and, overall funding levels and 
programmatic flexibility must be increased significantly for states to 
make the necessary level of effort to achieve reductions. Many states 
believe that as funding levels of takedowns and state grant programs 
are increased, they are done so at the expense of the basic Motor 
Carrier Safety Assistance Program (MCSAP) and take away the flexibility 
of states to meet changing safety priorities. This also greatly 
increases the administrative and accounting burdens on states, which in 
turn takes away from their ability to use the funding for efforts that 
will directly impact safety.
    Several recommendations are offered:

  <bullet> There are currently seven existing categorical state grant 
        programs including the Motor Carrier Safety Assistance Program 
        (MCSAP). There are differing schedules and application 
        processes and the time-frame for the use of the grant money is 
        too short.

  <bullet> There should be one uniform application date and the clock 
        should not start running on the time for use of the grant money 
        until the day the state receives the grant, and the grant 
        period should be changed to 3 years.

  <bullet> The existing six state grant programs outside of MCSAP 
        should be reconfigured into five new programs: Enforcement, 
        Education, Incentive, Technology, and Driver.

  <bullet> The total funding for the entire grant programs should be 
        increased from the current $300 million annually to a minimum 
        of $340 million in the first year and indexed over the life of 
        the bill.

  <bullet> The current match levels of 80/20 should be changed to 90/
        10. As the overall funding levels for the grant programs 
        increase, the required amount for the match goes up as well, 
        and that becomes problematic for many states particularly under 
        current economic conditions.

  <bullet> Costs to conduct the New Entrant program (now a $29 million 
        takedown from the core MCSAP program) should be pulled out of 
        MCSAP and the funding to the states for this program should be 
        covered by the establishment of a new carrier registration fee. 
        Funding to the states for this program should be maintained at 
        100 percent and eligible expenses should include not just the 
        safety audits but also education and awareness activities, 
        materials and training. Since the New Entrant program is 
        resource intensive, we recommend that states be allowed the 
        flexibility to contract with and use certified third-party 
        auditors to conduct new entrant safety audits should they 
        choose to do so. We understand that FMCSA has received a 
        request on behalf of one of the states to conduct a pilot 
        program for the use of third-party auditors. We endorse this 
        idea and hope that FMCSA will act favorably on the request.

Maintenance of Effort Requirements Must Be Revised
    The Maintenance of Effort (MOE) requirements as they currently 
exist are a significant problem for the states and must be revised. The 
way it exists now presents in many cases a disincentive for many states 
to develop new and innovative approaches to their commercial vehicle 
safety and enforcement programs. While the basic concept of MOE is 
simple and fair, its implementation has flaws:

        It preserves the ``relative'' CMV safety efforts among the 
        states and the ``ratcheting up'' effect serves as a 
        disincentive for states to invest more in CMV safety. It does 
        not incent innovative and efficient strategies;

        It preserves uneven and non-uniform programs from state to 
        state rather than promoting uniformity and equality from state 
        to state; and

        As MOE currently is structured it is not based on risk and 
        performance nor is it outcome-based. It is input and funding 
        based.

    With the passage of SAFETEA-LU in 2005, the MOE base period was 
changed to a sliding three-year period beginning with 2001-2003, and 
its scope was amended to include enforcement on CMVs without an 
inspection as well as traffic enforcement on passenger vehicles when 
they affected safe CMV operations.
    There are two primary problems this system created. First, states 
have no incentive to do anymore than what is necessary to meet their 
Federal obligation since any expenditures above and beyond their MOE 
only serves to further increase that obligation in future years. 
Therefore, a state is better off investing only what it must to meet 
its MOE requirements and nothing more. However, this issue is 
complicated by the fact that in many states the amount of Federal 
funding has not kept pace with the needs of states. When this occurs 
states have two choices. They can make up the difference and continue 
to run the program at the same level causing their MOE to increase, or 
they can reduce the scope of the program. A state that chooses to cut 
its program will not see its MOE rise but will not be able to sustain 
its current enforcement program.
    The formula specified in the House Reauthorization bill already 
considered by the Highways and Transit Subcommittee is a step in the 
right direction, but needs to go further. That bill provides a standard 
MOE formula for all of the safety grant programs including MCSAP. The 
formula is based on a 3-year average prior to the date of enactment the 
bill and is fixed. The MOE would then be in effect for the life of the 
bill.
    In an ideal world MOE would be eliminated. While the MOE concept 
makes sense, many states contribute much more state dollars to their 
commercial vehicle safety programs than the 20 percent MCSAP match 
requires. MOE is a good approach to newer Federal-state funding 
programs as it is there to help ensure Federal dollars are not used to 
replace state dollars. The MCSAP is now a mature program and all of the 
states have had and will continue to have robust programs.
    Flexibility also should be authorized for FMCSA on this issue to 
give them the means to waive MOE under certain circumstances. 
Currently, many of the states are in very difficult budget situations 
and giving FMCSA this authority will help relieve pressure on the 
states to meet their MOE requirements. Consideration also should be 
given to an activity-based approach to MOE rather than a financial-
based approach. We urge the Committee to take a hard look at addressing 
this issue and to work with FMCSA, CVSA and the states to come up with 
an appropriate solution in the next Bill.

Existing Safety Exemptions Must Be Reviewed And the Process for 
        Granting and 
        Reviewing Them As Specified in Statute Must be Adhered To
    The proliferation of motor carrier safety exemptions is out of 
control and the process for granting them must be reformed. They are 
eroding safety and weakening enforcement efforts at the roadside.
    The most blatant examples can be found in SAFETEA-LU which provided 
a total hours-of-service exemption for all utility service vehicle 
drivers beyond those periods covered by a declaration of state or 
national emergency and greatly expanded the agricultural hours-of-
service exemption well beyond its original intent of providing relief 
to farmers during very defined periods of time in the planting and 
harvesting seasons.
    These statutory exemptions must be repealed in the next 
Transportation bill and both the agricultural and utility industries 
must re-apply for these exemptions under the Federal regulatory process 
outlined in Section 31315 of Title 49, U.S. Code. This process requires 
proof that the exemption would provide a level of safety equivalent to, 
or greater than, the level achieved without such an exemption. It also 
requires that such exemptions be monitored to ensure that safety 
performance is maintained. If it is not, then the exemption can be 
revoked. Statutory exemptions do not afford the appropriate regulatory 
agency the ability to exercise proper oversight.
    These, and all other safety exemptions, whether granted by statute 
or by regulation, according to Section 31315, must be reviewed by FMCSA 
every 2 years and either re-issued or withdrawn based on the safety 
data available. This process would be no different than that which the 
Pipeline and Hazardous Materials Safety Administration (PHMSA) 
exercises with respect to hazardous materials special permits and 
approvals.
    Mr. Chairman, as a way to get started, we recommend that the 
Inspector General (IG) of the Department of Transportation conduct a 
study of the exemption process within FMCSA just as the IG has recently 
conducted with respect to PHMSA's administration of the hazardous 
materials safety permit program. We understand the House T & I 
Committee has requested from FMCSA a list of all safety exemptions 
going back to the 1950s and that most certainly this information should 
be included in the IG study.
    Why spend time developing an hours-of-service rule yet continue to 
allow significant segments of the trucking industry to be exempted from 
the rule? Why spend time developing a comprehensive rule on EOBR's if 
there is no need to track the record of duty status of a significant 
number of drivers in various segments of the industry? Fatigue is not 
caused by the product hauled or service provided but is caused by the 
time spent by drivers behind the wheel and their time on task.
    I will offer a brief example of how this is impacting on ``real 
world'' operations. Recently CVSA's Executive Director took a call from 
a driver, and I have included below the text of the e-mail he sent to 
me summarizing the discussion:

        ``I just took a call from a Utility Service Driver pleading for 
        help in rolling back the HOS exemption. He told me in some 
        cases him and other drivers in his company have worked 16-18 
        hours per day and up to 120 hours in 7 days during emergencies. 
        After these emergencies they are given 8 hours off and asked to 
        return to work. In these 8 hours he has to drive home (he lives 
        1 hour from his work location), as well as take care of any 
        other personal items, allowing him about 4 hours of sleep. He 
        said often times when he hears stories of drivers being tired 
        and getting in crashes their company covers up for the 
        problems. He told me the story of the ``mystery deer'' that 
        always seems to run in front of their drivers when they are out 
        working. He also indicated that they have asked for their union 
        to support them and they have been unwilling to do so, and the 
        company he works for has no policy on fatigue. He said at least 
        under the old rules they could get a 24 hour reprieve after an 
        emergency. Now they get no break either after an emergency or 
        at any other time.''

    We understand FMCSA has recently taken positive action in this 
regard with one of the states where the exemption issue was a concern. 
This particular state had a regulatory incompatibility that was not 
acted upon within the 3 year time-frame afforded under the MCSAP. A 
letter was sent to the State encouraging them to act upon the 
incompatibility or else they were at risk of losing MCSAP funds. The 
state acted and the end result was they came into compliance. This is 
an example of where the regulatory agency exercised their authority on 
this issue and it worked--when statutory exemptions are in place there 
is no recourse for FMCSA. It handcuffs FMCSA and they have no means to 
exercise their authority or monitor these motor carriers for compliance 
and as a result safety is compromised. This is in our view not just 
unacceptable, it is irresponsible.
    Exemptions are a privilege, not a right.

Increased Truck Size And Weight Should Not Be Allowed Until More Safety 
        Data Is Available And More Funding is Needed for Size And 
        Weight Enforcement
    The truck size and weight issue is very much in the forefront as 
preparation begins for the next Transportation bill.
    CVSA does not support enacting any significant legislative or 
regulatory changes to truck size and weight until such time as we have 
a more uniform, methodical and science-based approach to evaluate the 
safety, infrastructure and environmental costs and benefits through 
carefully constructed pilot programs. This has not been done and as a 
result we have a patchwork system of regulations, exemptions, and 
permit programs that present a challenge for enforcement as well as for 
industry to maintain compliance.
    CVSA advocates a stronger Federal role in facilitating a framework 
for research, policy and performance based regulations and enforcement 
for truck size and weight operations. We did not support Section 194 of 
the 2010 DOT Appropriations bill that provided for truck size and 
weight exemptions (above the national limit of 80,000 lbs.) on sections 
of the Interstate Highway System in Maine and in Vermont as it was 
written. These were described as 1 year ``pilot'' programs but neither 
the statutory or report language provided meaningful criteria on how 
the pilots should be carried out except to direct the two states to 
work with the Secretary of Transportation to determine the impact on 
safety, road durability, commerce, and energy use. We understand the 
economic reason for these state pilots, but safety should be an equal 
priority.
    Four months after the pilots began, the Federal Highway 
Administration has begun to work with our state enforcement 
representatives in those two states to set up meaningful criteria for 
these pilot programs. What hopefully will now be included in the 
criteria, and what we told Secretary LaHood in a letter, are 20 
separate recommendations that are necessary for any pilot program. 
Among them are that motor carriers must be selected to participate in 
the pilot based on a proven track record of superior safety performance 
and that states participating in the pilot must be fully compliant with 
Federal Motor Carrier Safety Regulations (FMCSR). It happens that Maine 
receives only 50 percent of its annual MCSAP Federal funding from FMCSA 
because it provides exemptions from driver hours-of-service regulations 
for all motor carriers operating within 100 air miles from their place 
of business. We believe as a condition for participating in the pilot, 
Maine should revoke this exemption and become fully compliant.
    Until there is meaningful data from these pilots, we oppose any 
more similar pilot programs in other states. We have expressed these 
concerns to the House and Senate Transportation Appropriations 
Subcommittees because we understand they are already being pressed to 
extend the pilots to other areas of the country in the 2011 Fiscal 
Year. A string of pilots would in all reality be a ``backdoor'' process 
to changing the national truck size and weight laws.
    Another important component of the size and weight issue is 
enforcement. The state safety enforcement agency is charged with the 
responsibility of enforcing the Nation's size and weight laws, but may 
only use MCSAP funds for such enforcement activity when it is tied to 
an inspection. More comprehensive size and weight enforcement must 
extend beyond that limitation and depends upon funding from the Federal 
Highway Administration (FHWA). While a number of state enforcement 
agencies do receive the FHWA funding and support through their state 
DOTS for overall size and weight enforcement, others have difficulty in 
making the necessary agency linkages for such funding support. CVSA's 
Size and Weight Committee is working with FHWA on this issue and we 
will come back to this Committee with more detailed recommendations to 
assist in resolving this problem. One recommendation to consider is 
allowing labor for size and weight enforcement to be an eligible 
expense under the Federal-aid highway program in Title 23. Currently 
this funding eligibility does not exist.

More Efforts Needed to Ensure Safety for Passenger Carrying Motor 
        Carriers
    While historically the transportation of passengers by motorcoach 
has been a very safe form of transportation, recent events have caused 
this to become a more front and center safety issue. On the whole, the 
industry takes great pride in their safety commitment and performance 
as they should. However, there is tremendous competition in the 
industry and there are a number of rogue operators that do not respect 
safety and are cutting corners in order to generate business. We 
believe there are some steps that can and should be taken to ensure 
that this form of transportation remains as safe as it can be and more 
resources are made available to the appropriate Federal and state 
agencies for effective oversight, monitoring and enforcement.
    CVSA supports many of the provisions offered in Senate Bill 554 
that was reported out of the Commerce Committee on December 17, 2009. 
We do have a few concerns with the bill, particularly with respect to 
unfunded mandates and timetables on research/rules, as well as the 
state preemption issue. The following information offers more specifics 
on our policy positions on this issue.
    Part 350 of the FMCSR should provide more specifics in terms of 
what activities are eligible under the MCSAP for motorcoach compliance 
and enforcement programs, as well as what elements should be contained 
in a state's Commercial vehicle Safety Plan. In this regard, FMCSA 
should be cognizant of the states' needs for resources and training as 
new motorcoach oversight and safety requirements are instituted. As 
part of legislative and regulatory modifications, it should be made 
clear that roadside inspection and periodic inspection data on all 
buses and school buses (for both inter and intrastate operations) need 
to be submitted to FMCSA and maintained in MCMIS to be accounted for in 
establishing the motor carrier's safety fitness rating. Congress needs 
to authorize and appropriate the necessary resources for these efforts.
    Safety belts should be required on all school buses and 
motorcoaches. NHTSA and FMCSA need to collaborate on standards for OEM 
and retrofit design and installation requirements. Congress needs to 
direct a study to examine the costs and benefits associated with 
retrofitting all in-use buses with seat belts, and take the findings 
and costs into consideration when (assuming the cost-benefit is to the 
positive for benefits) the mandate is put in place for retrofits.
    Occupant protection and crashworthiness and avoidance standards 
need to be pursued for items like window glazing to minimize ejection 
through portals in the roof or sides of the vehicle, fire prevention 
and suppression systems, roof strength and crush resistance, collision 
warning systems, rollover stability systems, lane departure warning 
systems and brake stroke monitoring systems. While measures to improve 
bus design and occupant protection should be identified, the specifics 
of how to implement them should be left to the appropriate regulatory 
agency (NHTSA) for action. Incentives should be investigated as a 
potential option to help accelerate implementation.
    Passing of the New Entrant Safety Audit should be required as a 
condition of the carrier being issued their DOT registration/operating 
authority. As a part of the New Entrant requirements, consideration 
should be given to enacting minimum training standards for drivers as 
well as critical passenger motor carrier safety personnel.
    There needs to be stronger safety regulation on school buses used 
for charter transportation (and school transportation) as well as 
public transit buses used in charter transportation. Exemptions from 
safety regulations and oversight need to be minimized. States need to 
be provided with adequate resources to make sure they have the ability 
to conduct the proper amount of inspections and oversight.
    The provision in SAFETEA-LU prohibiting motorcoach inspections to 
be conducted roadside is overly restrictive and needs to be revisited. 
While most states work with origin and destination locations to do 
inspections on the premises or nearby before loading or after unloading 
passengers, in some cases (for various reasons) this does not always 
work effectively. In addition, while conducting motorcoach inspections 
roadside or at rest stops/weigh stations is not the preferred solution 
due primarily to the safety of the passengers, the outright restriction 
should not be in the law. States must be given flexibility to implement 
best practices and conduct inspections where they are most needed. 
Every effort should be made to minimize risk to the passengers.
    Brokers of passenger transportation services need to be regulated 
and subject to the same regulatory regime as are freight forwarders are 
for the trucking industry. There needs to be appropriate penalty 
provisions and enforcement oversight on brokers who fail to comply or 
who are negligent in their duties/responsibilities.
    Windshield mounted video monitoring systems that help assist with 
driver/operator safety need to be able to be installed in a fashion 
that do not impede the driver's ability to perform. Regulatory changes 
need to be enacted to account for new technologies and changes to 
windshield designs.
    Standards with respect to passenger carrying driver licensing, 
testing, training and certification need to be revisited and likely 
strengthened to make sure they are appropriate and effective.
    The ``Camioneta'' population (9-15 passenger vehicles and motor 
carriers) needs to be subject to a much stronger regulatory framework.
    All school buses and motorcoaches should be required to undergo 
periodic inspections (at least once annually) in accordance with Part 
396 of the FMCSR, and each state should be required to have an 
inspection infrastructure/program to support, deliver and oversee these 
inspections. This could be accomplished through the use of 3rd parties 
should the state choose to do so. Congress needs to authorize and 
appropriate resources to the states to establish these programs, but 
long term they should be self-sustaining and pay for themselves. The 
data resulting from these inspections needs to contained in a 
centralized database (MCMIS) to be used for analysis and also should be 
accounted for in the safety fitness determination of the motor carrier.
    CVSA also supports the Secretary's recent Motorcoach Safety Action 
Plan. Of CVSA's 17 Reauthorization recommendations with respect to bus 
and motorcoach safety, 11 of them are included in the Plan. In 
particular, the process the Secretary used in developing the plan was 
commendable and CVSA appreciates being involved in the process. We do 
have some concerns relative to whether resources are available in DOT 
to meet their projected timelines and funding being made available to 
states to deal with the potential mandates.
    FMCSA is making good strides in their efforts to increase their 
oversight of the industry and put in place programs for enhancing 
safety. In particular, the vetting process they have instituted is 
having very good success. CVSA fully supports this vetting process, and 
FMCSA should be afforded additional resources to help administer this 
process in the future and not just for motorcoach operators, but for 
ALL motor carriers. Proper due diligence at the front end when a motor 
carrier enters the business not only helps to ensure only responsible 
motor carriers are able to conduct business, it is important in 
identifying and taking appropriate action on ``chameleon'' carriers who 
are skirting the law.

More Emphasis on Safety Technology Will Save Lives
    The mission and goals of CVSA necessarily focus on better 
enforcement as the means to prevent crashes and save lives. At the same 
time, however, we also believe that greater use of safety technology 
will also help in reaching this goal. CVSA strongly supports Senate 
Bill 1582, and its companion bill in the House, H.R. 2024, the 
``Commercial Motor Vehicle Advanced Safety Technology Tax Act of 
2009.'' It would provide tax incentives for motor carriers to purchase 
four basic technologies: brake stroke monitoring systems; vehicle 
stability systems; lane departure warning systems; and, collision 
warning systems. These technologies have been tested and proven to 
work.
    As one example of the effectiveness of just one of these 
technologies, a DOT analysis has shown that 48 percent of accidents 
could be prevented by the use of collision warning systems.
    We support this legislation because we believe it is the quickest 
way to encourage more widespread use of this technology by the truck 
and bus industries. A mandated rule can take three to 5 years. Support 
for this bill does not preclude mandates in the future, but the 
incentive takes effect the day the bill is signed and we will start 
saving lives.

A New Study of Heavy Vehicle Brake Systems Is Needed
    The use of safety technology depends on continuing research of 
mechanical aspects of truck parts and equipment. FMCSA's Large Truck 
Crash Causation Study (LTCCS) indicated that deficient brakes were a 
factor in over 29.4 percent of the fatal crashes that they investigated 
and ranked brakes as the number one equipment-related cause factors 
associated with the crashes. In another recent study of the LTCCS data 
sponsored by FMCSA, a brake out of service condition increased the odds 
of the truck being assigned the critical reason in the crash by 1.8 
times. In rear-end and crossing paths crashes, brake violations, 
especially related to adjustment, increased the odds of the truck being 
the striking vehicle by 1.8 times.
    And the most recent compilation of statistics from CVSA's Operation 
Air Brake Program indicate of the more than 2.19 million brake systems 
inspected, 17 percent were placed out of service for brake-related 
defects.
    Yet the last comprehensive study of brake system issues was 
conducted by the National Transportation Safety Board back in 1992. 
Despite the overall advancement of technology and enhanced enforcement 
activities since 1992, there is still evidence that poorly adjusted or 
defective brakes still pose a serious threat to highway safety. We 
recommend that the NTSB be authorized along with the provision of 
adequate resources to update this 18-year old study to accurately 
quantify the magnitude of the brake adjustment and deficient brake 
problems today relative to heavy trucks.

Additional Reauthorization Issues
    While I have spent a good deal of time today in outlining our major 
motor carrier safety issues as we all know there is no one silver 
bullet to reduce truck and bus fatalities and crashes. There are 
multiple approaches that can be taken to improve truck and bus safety 
and I want to take this opportunity to briefly review other steps that 
can be taken to help us achieve our safety goals.
    A single point of carrier registration, credentialing and safety 
data access should be established. There are at least six different 
credentialing and registration processes at the Federal level for motor 
carriers, not to mention various intrastate permits and authorities. 
They are the UCR, U.S. DOT #, Operating Authority, Hazmat permitting, 
Proof of Insurance, IFTA and IRP. The last 10 years has seen tremendous 
growth in technology development and deployment and the government 
needs to keep pace by establishing a web portal with FMCSA that 
combines the common data elements from each of these six programs. 
Helping to streamline and standardize the data entry process will help 
FMCSA and the states to have cleaner and more accurate data at the 
point the carrier enters into the system, which will then serve to 
assist in all aspects of compliance and enforcement.
    The distinction between inter and intrastate commerce should be 
eliminated. These distinctions have resulted in a complicated web of 
applicable regulations, exemptions and inconsistent enforcement 
practices.
    Education and outreach efforts are a critical element in addressing 
safety problems and creating a safety conscious culture. CVSA 
recommends additional funding be provided to states for these purposes 
over and above the basic safety grant programs to supplement basic 
compliance and enforcement strategies. Funding should remain at 100 
percent and states should be encouraged to undertake new and innovative 
e outreach and awareness initiatives.
    FMCSA needs to be provided legislative authority to establish and 
fund national drug and alcohol testing clearinghouse, well as the 
authority to close down fraudulent drug testing laboratories.

    Senator Lautenberg. Thank you for your testimony.
    Ms. Gillan, good to see you and we look forward to hearing 
from you.

      STATEMENT OF JACQUELINE S. GILLAN, VICE PRESIDENT, 
             ADVOCATES FOR HIGHWAY AND AUTO SAFETY

    Ms. Gillan. Thank you, Senator Lautenberg, and I really 
appreciate the opportunity to testify this morning on motor 
carrier safety issues. You will have to bear with me because 
many of the points that I will raise this morning have already 
been addressed, both in your statement and in the statement of 
Chairwoman Hersman.
    While Advocates welcomes the news about fewer truck crash 
deaths and injuries, it still means that we need to move 
forward with an overdue and unfinished motor carrier safety 
agenda that needs to be adopted if we are really serious about 
achieving significant, steady, and sustained reductions in 
truck crashes and deaths and injuries.
    In my statement, I have a chart which shows, going back 40 
years, overall dips in highway fatalities, and they always 
coincide with periods of economic downturn. So we are concerned 
that this reduction that we have experienced now is going to be 
temporary and will certainly go back up as soon as the economy 
rebounds.
    Another map that we put in our testimony shows that in the 
last 10 years, there have been over 55,000 deaths as a result 
of truck crashes, and this is both unnecessary and 
unacceptable. Some of the issues that are included in my 
testimony will go a long ways toward reducing deaths and 
injuries related to truck crashes.
    My statement for the record that I submitted is very long 
and detailed, and I would really like to just spend the next 
few minutes highlighting some of the critical issues that we 
believe that the Federal Motor Carrier Safety Administration 
needs to address, as well as leaders in Congress.
    Large, heavy trucks are dangerous, destroy our roads and 
bridges, and are dramatically overrepresented each year in 
severe crashes, particularly fatal crashes. A major step 
forward in truck safety is to enact S. 779, the Safe Highways 
and Infrastructure Protection Act sponsored by you and other 
members of this committee. The bill will stop the deadly race 
in States for bigger, heavier, and longer trucks, and this 
legislation is supported by over 75 safety, consumer health, 
environmental, and law enforcement groups.
    Let me now turn to FMCSA's performance as a safety 
regulator and identify where congressional oversight and 
actions are still needed. As you heard from Chairwoman Hersman, 
there are many, many recommendations that NTSB has made to 
FMCSA concerning the safety of carriers and drivers. In most 
cases, the agency has given no response, the response was 
unacceptable, or the response was minimally adequate. And we 
feel that Congress should direct FMCSA to fulfill all of the 
major outstanding NTSB safety recommendations.
    Driver fatigue is still a serious problem in the trucking 
industry, and there are two important strategies for addressing 
it. One is advancing a safe hours-of-service rule, and the 
other is to improve enforcement by requiring electronic on-
board recorders. The current hours-of-service rule has been 
overturned by the U.S. Court of Appeals in two back-to-back, 
unanimous decisions and in each case the court opinion was a 
scathing rebuke of the agency's legal reasoning. I am pleased 
to report this morning that the long-running dispute is on hold 
while a new rule is being developed, and we hope that this new 
rule will be issued by August 2011.
    It has been 15 years since Congress directed the Secretary 
to address electronic on-board recorders (EOBRs). We have 
waited too long for this technology, and it is time for 
Congress to act and mandate universal use of EOBRs.
    Keeping unsafe drivers and unsafe carriers off the road is 
critical. There are many rulemakings that Congress has directed 
FMCSA to implement concerning minimum requirements for new 
entrants, and the need to implement a proficiency examination, 
and an entry-level driver training standard. None of these 
rules have been issued or, if they have, they have been weak 
and we believe ineffective. The agency still has not issued a 
final rule requiring sufficient behind-the-wheel driver 
training.
    Another factor that must be considered is FMCSA still does 
not get tough on motor carrier violators. The agency evades the 
imposition of stiff penalties that would deter companies from 
violating safety rules.
    And as has been mentioned before in earlier testimony, we 
know the tragic consequences of unsafe and unscrupulous motor 
carrier and motorcoach companies that shut down one day and 
open for business the next. Unfortunately, there are hundreds 
of these so-called reincarnated companies that are still 
operating illegally and with impunity in the United States, and 
FMCSA needs to develop a new process for stopping this 
dangerous practice each and every time.
    Let me conclude by saying creation of the new Federal 
agency 10 years ago by Congress to oversee motor carrier and 
motorcoach safety has not resulted in the rigorous oversight 
and enforcement that Congress directed and the public expected. 
We are hopeful that CSA 2010 will help address some of these 
problems. However, it will still be necessary for Congress to 
conduct strong oversight and provide clear direction to this 
agency in legislation if we expect any significant progress in 
reducing truck crash deaths and injuries.
    Thank you very much for your leadership and we look forward 
to working with you on advancing motor carrier safety.
    [The prepared statement of Ms. Gillan follows:]

      Prepared Statement of Jacqueline S. Gillan, Vice President, 
                 Advocates for Highway and Auto Safety
              Fatalities in Crashes Involving Large Trucks
                 55,377 total fatalities from 1998-2008
Sources: Fatality Analysis Reporting System, National Highway Traffic 
Safety Administration; Advocates for Highway and Auto Safety

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          U.S. Recession Periods and Motor Vehicle Fatalities
          Chart shows correlation between U.S. recessions and 
                 motor vehicle fatalities, 1971-2008.*

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       Year and Recession Period
       *Motor vehicle fatality data only available through 2008.
    Sources: The National Bureau of Economic Research, http://
www.nberorg/cycles/cyclesmain.html; Fatality Analysis Reporting System 
(FARS), National Highway Traffic Safety Administration

Introduction
    Good morning Chairman Lautenberg, Ranking Member Thune, and members 
of the Senate Subcommittee on Surface Transportation and Merchant 
Marine Infrastructure, Safety, and Security. I am Jacqueline Gillan, 
Vice President of Advocates for Highway and Auto Safety (Advocates). 
Advocates is a coalition of public health, safety, and consumer 
organizations, and insurers and insurer agents that promotes highway 
safety through the adoption of safety policies and regulations, and the 
enactment of state and Federal traffic safety laws. Advocates is 
celebrating 20 years as a unique coalition dedicated to improving 
traffic safety by addressing motor vehicle crashes as a public health 
issue.
    This Subcommittee has been responsible for many of the motor 
carrier safety improvements that have been accomplished over the years, 
including establishment of a uniform commercial driver license (CDL) 
program, mandates for U.S. Department of Transportation (DOT) action on 
numerous safety rulemakings, strong oversight of the Federal Motor 
Carrier Safety Administration (FMCSA) plans and programs and recently, 
full Committee approval of the Motorcoach Enhanced Safety Act.
    I welcome this opportunity to appear before you today to emphasize 
that there is still an unfinished safety agenda that needs your 
attention and your leadership.
    I cannot emphasize enough the critical role that this Subcommittee 
and Congress must play in leading our Nation to a safer, more rational 
use of its transportation resources. It will take leadership by 
Congress to implement a national, uniform approach to truck size and 
weights on our federally-assisted National Highway System in order to 
enhance safety and protect highway infrastructure; to stop enactment of 
piecemeal special interest exemptions from crucially important Federal 
safety requirements; and finally, to get the Federal regulatory safety 
agency, the FMCSA, off the sidelines and actively back on the field to 
improve motor carrier and highway safety.

The Annual Death Toll from Large Truck Crashes Remains Unacceptable
    Over the decade from 1998 through 2007, the number of people killed 
in truck-involved crashes has averaged 5,145 fatalities.\1\ In 2008, 
one of every nine people killed in a traffic crash was a victim of a 
large truck crash.\2\ Annual deaths in large truck crashes are 
disproportionately represented in our annual traffic fatality data, 
with large truck deaths still accounting for about 11-12 percent of all 
annual highway fatalities, although large trucks are only three to 4 
percent of registered motor vehicles.
---------------------------------------------------------------------------
    \1\ Large Truck and Bus Crash Facts 2007, FMCSA-RRA-09-029, Federal 
Motor Carrier Safety Administration (FMCSA) (Jan. 2009).
    \2\ Traffic Safety Facts--Large Trucks, DOT HS 811 158, National 
Highway Traffic Safety Administration (NHTSA) (2009).
---------------------------------------------------------------------------
    Large, heavy trucks are dramatically overrepresented each year in 
severe crashes, especially fatal crashes. Although truck crash 
fatalities have declined in 2007 and 2008, this reduced death toll is 
strongly linked with a major decrease in truck freight demand, 
including substantially reduced truck tonnage starting in the latter 
part of 2007 and continuing through 2009.\3\ Industry reports over the 
last several months have verified this decline in freight tonnage. The 
American Trucking Associations (ATA), for example, reported that for-
hire tonnage fell in June 2009 by 13.6 percent over the freight 
transported in 2008, and freight analysts do not believe that the 
decline will stop until the second half of 2010 at the earliest.\4\ 
This is consistent with previous tonnage declines associated with 
economic recessions.
---------------------------------------------------------------------------
    \3\ See, e.g., http://www.glgroup.com/News/Leading-Indicator--2008-
North-America-Freight-Market--Truck-Build-Numbers-Down--2009-Predicted-
To-Be-Worse-With-2010-30689.html, demonstrating 7 consecutive quarterly 
declines in truck freight tonnage through the third quarter of 2009. 
Also see, http://www.ttnews.com/articles/
basetemplate.aspx?storyid=22609, ``ATA's Costello Hopeful Freight 
Levels Have Bottomed Out,'' Transport Topics, Aug. 27, 2009, and a 
similar, earlier report in Transport Topics, March 2, 2009.
    \4\ Freight Tonnage Continues to Decline, Martin's Logistics Blog, 
Aug. 3, 2009. http://logistics.about.com/b/2009/08/03/freight-tonnage-
continues-to-decline.htm. Also see, e.g., http://www.glgroup.com/News/
Leading-Indicator--2008-North-America-Freight- Market--Truck-Build
-Numbers-Down--2009-Predicted-To-Be-Worse-With-2010-30689.html, 
demonstrating 7 consecutive quarterly declines in truck freight tonnage 
through the third quarter of 2009. Also see, http://www.ttnews.com/
articles/basetemplate.aspx?storyid=22609, demonstrating 7 consecutive 
quarterly declines in truck freight tonnage through the third quarter 
of 2009. Also see, http://www.ttnews.com/articles/
basetemplate.aspx?storyid=22609, ``ATA's Costello Hopeful Freight 
Levels Have Bottomed Out,'' Transport Topics, Aug. 27, 2009, and a 
similar, earlier report in Transport Topics (March 2, 2009).
---------------------------------------------------------------------------
    In terms of annual fatalities, I have attached to my testimony a 
chart that shows the strong relationship between economic recessions 
and declines in total highway deaths since 1971.\5\ As pointed out by 
several authorities, including the Honorable David Strickland, 
Administrator of the National Highway Traffic Safety Administration 
(NHTSA), which collects and analyzes national fatality data, the 
unprecedented decline in deaths and injuries among all types of motor 
vehicles over the last few years is strongly linked to the recent 
downturn in the economy.\6\ Just as personal travel will likely 
increase as the economy continues to improve, freight traffic will also 
resume its upward trend, which means more truck miles of travel each 
year that will likely translate into an increase in truck fatalities.
---------------------------------------------------------------------------
    \5\ U.S. Recession Periods and Motor Vehicle Fatalities, 1971-2008, 
Advocates for Highway and Auto Safety (2010).
    \6\ ``While these latest trends are encouraging, we do not expect 
them to continue once the country rebounds from its current economic 
hardships.'' Administrator Strickland emphasized that with an improving 
economy, more driving will result with high crash risk exposure. Budget 
Estimates Fiscal Year 2011, Statement from the Administrator, at 1-2, 
National Highway Traffic Safety Administration (Jan. 2010).
---------------------------------------------------------------------------
    While the safety community welcomes the news of recent declines in 
truck crash fatalities it is not a reason to delay, defer or discard 
pushing forward with a strong motor carrier safety agenda. Aside from 
the distinct likelihood that truck deaths will increase as the economy 
and freight transportation improve, the fact is that the fatality rate 
for large trucks continues to outstrip the rate for light vehicles and 
passenger cars. In 2008, the fatality rate for occupants of passenger 
cars stood at 0.92 deaths per 100 million vehicle miles traveled (VMT) 
while the large truck fatality rate was 1.79 deaths per 100 million 
truck VMT--about double that of passenger cars.\7\ The overall national 
traffic fatality rate for all traffic crashes was reported at 1.25 
deaths per 100 million VMT.\8\
---------------------------------------------------------------------------
    \7\ Traffic Safety Facts 2008, DOT HS 811 170, NHTSA (2010).
    \8\ Id.
---------------------------------------------------------------------------
    Several years ago, in a stealth move that appeared in FMCSA budget 
submissions to Congress, FMCSA attempted to camouflage the actual truck 
fatality rate by merging it with the much lower fatality rate for buses 
and motorcoaches. The agency then further diluted the very high large 
truck fatality rate by measuring the combined rate not against 100 
million truck VMT, or even against the total VMT of all commercial 
motor vehicles, but against the much more generous figure of all annual 
VMT for all vehicles--even including motorcycles. As a result, rather 
than state the traditional rate as 1.79 deaths per 100 million truck 
VMT for 2008, FMCSA now boasts a rate of just 0.160 fatalities per 100 
million VMT, which is an order of magnitude smaller and, conveniently, 
already exceeds the agency's ambitious 2011 target for fatality 
reduction.\9\ This statistical claim distorts the traditional and fair 
means of measuring the truck fatality rate solely based on a truck 
exposure measure (truck VMT), and masks the extraordinary over-
representation of large trucks in annual fatal crashes. It's amazing 
that the agency believes that Congress will be deceived by this shell 
game with numbers to mask the extraordinarily high large truck fatality 
rate.
---------------------------------------------------------------------------
    \9\ Budget Estimates Fiscal Year 2011, at I-1, FMCSA (Jan. 2010).
---------------------------------------------------------------------------
Recommendation:
  <bullet> FMCSA should be required to accurately assess and publicly 
        release the large truck fatality rate by reporting the total 
        number of truck-involved fatal crash deaths measured against 
        annual truck vehicle miles traveled.

The Safe Highways and Infrastructure Protection Act (SHIPA) Will 
        Improve Safety, Protect Infrastructure, Conserve the 
        Environment, 
        Enhance Intermodalism
    It is up to Congress to take action now that will improve safety, 
protect the long-term national investment in our crumbling highway and 
bridge infrastructure while also protecting the environment and 
providing a more level playing field for intermodal freight 
transportation. We are at a crucial juncture in highway and motor 
carrier safety in this Congress.
    A pending bipartisan Senate bill, S. 779, the Safe Highways and 
Infrastructure Preservation Act of 2010, or SHIPA, sponsored by 
Chairman Lautenberg, has the potential, if enacted, to dramatically 
improve the safety landscape for all motorists, including truck 
drivers. SHIPA will stop the relentless cycle of demands and pressure 
imposed on the states by the trucking interests for increased tractor-
trailer lengths. If truck lengths are increased again beyond the 
industry ``standard'' of 53 feet, it would trigger a cascading effect 
of negative outcomes for safety, environmental protection, 
infrastructure protection, fuel use, the Highway Trust Fund, and a 
balanced, national transportation freight strategy.\10\
---------------------------------------------------------------------------
    \10\ Companion bill in the House of Representatives is H.R. 1619, 
introduced by Rep. James McGovern (D-MA).
---------------------------------------------------------------------------
    SHIPA is crucial for curtailing the growth of large trucks and 
their expansion to more and more highway miles off the Nation's 
Interstate system. One of the two main objectives of the legislation is 
to freeze the length of truck trailers at a maximum of 53 feet. 
Promoters of much bigger, heavier trucks, such as supporters of current 
H.R. 1799,\11\ would allow trucks weighing up to 97,000 pounds and more 
throughout the country and melt the 1991 freeze on longer combination 
vehicles (LCVs),\12\ while using the specious argument that trucking 
will become safer because bigger, heavier trucks mean fewer trucks on 
the road. Increases in truck size and weights have never resulted in 
fewer trucks. In fact, allowing super-sized heavy trucks on more 
highways will make our roads and bridges more dangerous, not safer, and 
there will be more, not fewer, trucks than ever before.
---------------------------------------------------------------------------
    \11\ Safe and Efficient Transportation Act of 2008, introduced by 
Rep. Michael Michaud (D-ME).
    \12\ Title 23 U.S.C.  127(d).
---------------------------------------------------------------------------
    Unfortunately, Federal law since the 1982 Surface Transportation 
Assistance Act \13\ mandates certain minimum truck sizes, weights, and 
configurations, but does not restrict the length of trailers and semi-
trailers in truck combinations.\14\ This has had two particularly 
pernicious consequences.
---------------------------------------------------------------------------
    \13\ P. L. No. 110-53.
    \14\ Title 23 U.S.C.  127.
---------------------------------------------------------------------------
    First, the states are pressured endlessly by the special interests 
to increase the length of the semi-trailers used with combination 
trucks. This has resulted in the standard semitrailer increasing in 
length to 45 feet in the 1960s and 1970s, to 48 feet by the time the 
1982 STAA was enacted, to 53 feet by the end of the 1990s, with many 
states now allowing 57 feet, and a few states even permitting 59- and 
60-foot long trailers.
    Second, increasing the volume of a trailer triggers the argument 
that some commodities in shorter trailers fall beneath the Federal axle 
and gross weight limits on the Interstate highway system in Federal law 
\15\ or even the higher maximum weight limits allowed in many states on 
their non-Interstate highways. This claim is turned into an incessant 
drum beat to raise weight limits in order to take advantage of the 
increased volume of the bigger, longer trailers. This strategy is 
carried out simultaneously at both state and Congressional levels to 
pressure both Federal and state lawmakers. This is the upward 
``ratcheting'' that special interests have been so successful at for 
decades.
---------------------------------------------------------------------------
    \15\ Id.
---------------------------------------------------------------------------
    The main argument advanced for the supposed advantages of longer, 
heavier trucks is that it will result in fewer trucks. Nothing is 
further from the truth. Since 1974, every time truck sizes and weights 
have been increased by state or by Federal mandate, the result has been 
more trucks than ever before.\16\ In fact, from 1972 to 1987 alone, the 
number of for-hire trucks increased by nearly 100 percent.\17\ During 
this era, an increasing number of states adopted longer, wider, heavier 
trucks and trailers on their state highways and also interpreted their 
Interstate grandfather rights more liberally to grant more overweight 
permits to extra-heavy trucks.\18\
---------------------------------------------------------------------------
    \16\ For example, the states began to allow bigger, heavier trucks 
on their non-Interstate highways in the early 1970s. The Federal-Aid 
Highway Act in 1978, Pub. L. 95-599 (Nov. 6, 1978), authorized the 
states to allow substantial increases in truck weights on Interstate 
highways and bridges. Subsequently, the Surface Transportation 
Assistance Act of 1982 (1982 STAA), Pub. L. 97-424 (Jan. 6, 1983), pre-
empted state size and weight restrictions both on and off the 
Interstate systems by enacting new, higher Federal size and weight 
limits. Those new limits applied to a designated National Network 
consisting of several hundred thousand miles of interconnected, primary 
highways, most of which had never had any Federal control on truck size 
and weight. Many states gave up fighting after this sweeping act of 
Federal preemption and simply extended the new, higher weight and size 
limits to all or most of their highways. Many other exemptions from the 
Interstate weight restrictions were enacted in the Surface 
Transportation and Uniform Relocation Assistance Act of 1987 (STURAA), 
Pub. L. 100-17 (April 2, 1987); the Truck and Bus Safety and Regulatory 
Reform Act of 1988, Pub. L. 100-690 (Nov. 18, 1988); and the Motor 
Carrier Safety Act of 1990,  15, Sanitary Food Transportation Act of 
1990, Pub. L. 101-500 (Nov. 3, 1990); and the Motor Carrier Safety Act 
of 1991, Title IV, Intermodal Surface Transportation Efficiency Act of 
1991 (ISTEA), Pub. L. 102-240 (Dec. 18, 1991).
    \17\ Truck Inventory and Use Survey, U.S. Bureau of the Census, 
1974, 1982, 1987.
    \18\ This increasingly liberal interpretation of grandfather rights 
in many states was the result of a major amendment in the 1982 STAA 
that excluded the Federal Highway Administration from overseeing and 
enforcing state weight limits on the Interstate highway system. The 
amendment allowed the states to determine for themselves the force and 
effect of their grandfather rights to vary axle and gross weights, and 
bridge load formulas, from the requirements of 23 U.S.C.  127.
---------------------------------------------------------------------------
    The result is predictable: trucks were bigger and heavier than ever 
before, and there were still more of them than ever before. The total 
increase in the number of trucks by 1992 was 128 percent over the 1972 
baseline.\19\ Longer, larger, heavier trucks kept multiplying. By 1997, 
the number of large trucks had grown to 174 percent more than 1972, and 
by 2002, the number of for-hire trucks had increased by 228 percent 
over the 1972 figure.\20\ According to the Federal Highway 
Administration (FHWA) the number of trucks on the road today is at 
least 250 percent or more over 1972 figures.\21\
---------------------------------------------------------------------------
    \19\ Truck Inventory and Use Survey, op. cit., 1992.
    \20\ Vehicle Inventory and Use Survey (formerly the Truck Inventory 
and Use Survey), U.S. Bureau of the Census (1997).
    \21\ Highway Statistics 2008, Federal Highway Administration (FHWA) 
(Jan. 5, 2010).
---------------------------------------------------------------------------
    The two actions of putting the lid on truck lengths and freezing 
existing state weight practices for the entire NHS are complementary 
and both are crucial to achieving SHIPA's goal. While SHIPA extends 
current state and Federal weight limits on the Interstate system to the 
non-Interstate highways on the National Highway System, it prohibits 
any further increases. This not only puts a ceiling on truck weights at 
their current levels, but it also recognizes and protects the states' 
existing grandfathered rights to allow certain differences in truck 
axle and gross weights than the maximum weight figure in Federal law. 
SHIPA also restores FHWA to its traditional position as steward of 
state and Federal size and weight limits for public safety and 
infrastructure protection.
Recommendation:
  <bullet> Congress should enact S. 779, the SHIPA bill.

Special Interest Exemptions Jeopardize Safety and Compromise 
        Enforcement
     Over the years, Congress has granted numerous statutory special 
interest exemptions from Federal safety regulations including 
exemptions from the maximum driving and on-duty limits, as well as the 
logbook requirements, for motor carriers under the hours-of-service 
regulations, and from commercial driver physical qualifications and 
medical examinations.\22\ These exemptions pose safety issues because 
they are untested and unproven deviations from established Federal 
safety requirements. Enactment of exemptions on a piecemeal basis 
bypasses careful investigation and findings on the impact of these 
exemptions on safety. In addition, it creates a patchwork quilt of 
disparate regulatory exemptions that make it nearly impossible for 
enforcement authorities to determine the status of exempt drivers and 
vehicles and to effectively enforce Federal safety requirements.
---------------------------------------------------------------------------
    \22\ See, e.g., Transportation Efficiency Act for the 21st Century 
(TEA-21), P.L. 105-178 (June 9, 1998) (eliminated major Federal safety 
regulations governing drivers of utility service vehicles); National 
Highway System Designation Act of 1995, P.L. 104-5 (Nov. 28, 1995) 
(exempted drivers transporting agricultural commodities and farm 
supplies from maximum driving time, maximum duty time, and minimum off-
duty time hours-of-service requirements, and allowed drivers of ground 
water well drilling rigs, of construction materials and equipment, and 
of utility service vehicles to use a 24-hour restart for each new work 
week rather than the minimum required layover time after a tour of 
duty).
---------------------------------------------------------------------------
    Advocates is gravely concerned that these exemptions detour from 
established safety requirements, are not based on research and 
scientific analysis, and pose increased safety risks for commercial 
operators and the public. Because they were established by statute 
rather than regulation, there has been no thorough examination of the 
safety consequences of these exemptions. It is time for the U.S. DOT to 
conduct a comprehensive evaluation of each exemption from safety rules.
    Fortunately, the mechanism for review of these types of exemptions 
already exists in Federal law. In 1998, Congress required U.S. DOT to 
review regulatory exemptions from safety requirements using reasonable, 
recognized screening criteria.\23\ Under this provision, many special 
interest exemption requests addressing motor carrier safety regulations 
are reviewed using the expertise of DOT and FMCSA, rather than the 
lobbying clout of special interests. The process enacted by Congress 
allows the agency to carefully consider the safety requirements and 
implications of a proposed exemption and to determine if the exemption 
poses a problem for law enforcement.
---------------------------------------------------------------------------
    \23\ TEA-21,  407, codified at 49 U.S.C.  31315(b).
---------------------------------------------------------------------------
    Even FMCSA itself openly decried the exemptions practice in its 
2000 proposed revision of the hours-of-service rule. The agency 
concluded that the existing multiple exemptions were not compatible 
with reform of the drivers' hours-of-service rule.\24\ These exemptions 
are also opposed by the Commercial Vehicle Safety Alliance (CVSA) 
representing state law enforcement officials who are charged with 
ensuring compliance with Federal motor carrier safety rules.
---------------------------------------------------------------------------
    \24\ 65 FR 22540 (May 2, 2000). See, e.g.: ``The FMCSA has found no 
sleep or fatigue research that supports any of the current exceptions 
or exemptions, including the 24-hour restart provisions authorized by 
the NHS Act.'' Id. at 25559.
---------------------------------------------------------------------------
    Congress has also granted similar special interest exemptions for 
truck size and weight limits. Most recently, Maine and Vermont have 
been granted special legislative exemptions as ``pilot programs,'' 
which allow the operation of 100,000-pound trucks on the northern 
section of Maine's I-95 to the Canadian border, and of 120,000-pound 
trucks on all of Vermont's Interstate highways.\25\ These exemptions 
were adopted despite reams of reliable evidence concerning the adverse 
safety effects and increased infrastructure damage that such 
excessively heavy combination trucks inflict on roads and bridges.
---------------------------------------------------------------------------
    \25\ Sections 194(a) and 194(d), Fiscal Year 2010 Transportation, 
Housing, and Urban Development Consolidated Appropriations Act of 2009, 
P.L. 111-117 (Dec. 16, 2009).
---------------------------------------------------------------------------
    Safety organizations opposed these and other size and weight 
exemptions that have been enacted. Granting special interest requests 
for specific exemptions from the Federal axle, and both gross and 
bridge formula weight limits in Federal highway law undermines national 
uniformity, subjects roads and bridges to super-heavy weights that 
accelerate highway and bridge deterioration, and constitutes a serious 
and unacceptable threat to the traveling public who must operate their 
small passenger cars next to these unstable, overweight combination 
trucks.
    Even U.S. DOT severely criticized the statutory adoption of 
exemptions only a few years ago because of the harm it does both to 
highway safety and infrastructure protection. In a massive 2004 study 
of the effects of overweight and extra-long tractor-trailer trucks, DOT 
determined that LCVs damage bridges more severely than ``18-wheelers'' 
and could have substantially more serious safety consequences. U.S. DOT 
concluded that a patchwork quilt of size and weight exemptions for 
specific states undermined a coherent, national policy of size and 
weight limits.\26\
---------------------------------------------------------------------------
    \26\ Western Uniformity Scenario Analysis, U.S. Department of 
Transportation (April 2004).
    In recent years a number of ad hoc, State-specific exemptions from 
Federal truck size and weight laws have been enacted. For instance, 
TEA-21 contained special exemptions from Federal size and weight limits 
in four States, Colorado, Louisiana, Maine, and New Hampshire. The 
Department does not support this kind of piecemeal approach to truck 
size and weight policy. It makes enforcement and compliance with truck 
size and weight laws more difficult, it often contributes little to 
overall productivity, it may have unintended consequences for safety 
and highway infrastructure, and it reduces the willingness to work for 
more comprehensive solutions that would have much greater benefits.
    Id. at XI-3.
---------------------------------------------------------------------------
Recommendations:
  <bullet> U.S. DOT and FMCSA should be required to review all existing 
        statutory exemptions from the Federal motor carrier safety 
        regulations to determine whether they are safe and enforceable, 
        have contributed to increased risk of deaths and injuries, and 
        to make recommendations to Congress about exemptions that pose 
        an increased public safety risk.

  <bullet> All exemptions from motor carrier safety regulations should 
        be subject to U.S. DOT and FMCSA review under  31315.

  <bullet> Legislation should be adopted, similar to 31315, that 
        requires U.S. DOT and FMCSA to evaluate all requests for truck 
        length exemptions.
A Decade of Failed Leadership, Inadequate Oversight and Ineffective 
        Safety Rules
    Let me turn now to an analysis of FMCSA's performance and an 
appraisal of its first decade as a Federal agency. The agency was 
established in 2000 with motor carrier safety as its primary mission 
and highest priority.\27\ Over its first 10 years the agency compiled a 
poor track record that was at odds with its safety mission. FMCSA 
exhibited a stark failure of leadership and oversight of the motor 
carrier industry, an inability to issue effective safety regulations, 
and an inadequate enforcement policy.
---------------------------------------------------------------------------
    \27\ The Motor Carrier Safety Improvement Act of 1999 (MCSIA), P.L. 
106-159 (Dec. 9, 1999), codified at 49 U.S.C.  113(b).
---------------------------------------------------------------------------
    While we continue to hope that FMCSA can finally be turned into an 
effective force for motor carrier safety under its new leadership, 
congressional direction, oversight and guidance will continue to be 
needed in order to improve the performance of the agency.

                     FMCSA Safety Oversight Issues

    Failure to Implement NTSB Safety Recommendations: One strong 
indication of FMCSA's job performance is whether the agency has 
implemented the numerous motor carrier safety recommendations issued by 
the National Transportation Safety Board (NTSB). Since it began issuing 
recommendations in 1968, NTSB has repeatedly called for commonsense and 
urgent safety actions by FMCSA and its predecessor agency, FHWA. NTSB 
has issued dozens of recommendations that address vehicle operating 
systems, equipment, commercial drivers, and motor carrier company 
safety administration and oversight. However, many of the 
recommendations were finally closed out in exasperation by NTSB because 
there was no response, the response was unsatisfactory, or the response 
was minimally adequate.
    The NTSB's current list of ``Most Wanted Transportation Safety 
Improvements'' includes a number of safety recommendations for 
commercial motor vehicles.\28\ NTSB has again placed two of the four 
FMCSA recommendations in the ``Acceptable Response, Progressing 
Slowly'' (yellow) category and two in the ``Unacceptable Response'' 
(red) category. The two recommendations that were deemed unacceptable 
have remained on the list as Code Red responses since 2008. One of 
these unacceptable responses on the 2010 Most Wanted List continues to 
indicate NTSB's long-term frustration with the U.S. DOT's failure to 
require electronic on-board recorders to corroborate commercial driver 
compliance with Federal hours-of-service limits.\29\
---------------------------------------------------------------------------
    \28\ Available at http://www.ntsb.gov/recs/mostwanted/
Federal_issues.htm. The current, 2010 Most Wanted Transportation Safety 
Improvements for motor carriers include the following issues:
      <bullet> Prohibit Cell Phone Use by Motorcoach Drivers: 
Acceptable Response Proceeding Slowly
      <bullet> Require Electronic Onboard Data Recorders to Maintain 
Accurate Carrier Records on Driver Hours of Service: Unacceptable 
Response.
      <bullet> Improve the Safety of Motor Carrier Operations: Action 
Needed by FMCSA.
      <bullet> Prevent Medically Unqualified Drivers from Operating 
Commercial Vehicles: Action Need by FMCSA.
      <bullet> Prevent Collisions by Using Enhanced Vehicle Safety 
Technology: Acceptable Response, Proceeding Slowly.
      <bullet> Enhance Protection for Motorcoach Passengers: Action 
Needed by NHTSA.
    \29\ For the past 30 years, the Safety Board has advocated the use 
of on board data recorders to increase HOS compliance. In 1977, the 
Board issued its first recommendation on the use of on board recording 
devices for commercial vehicle HOS compliance, in response to FHWA's 
withdrawal of an advance notice of proposed rulemaking (NPRM) 
concerning the installation of tachographs. NTSB then urged FHWA to 
mandate the use of on board recorders in NTSB's 1990 safety study, 
Fatigue, Alcohol, Drugs, and Medical Factors in Fatal-to-the-Driver 
Heavy Truck Crashes after concluding that on board recording devices 
could provide a tamper-proof mechanism to enforce the HOS regulations. 
That request for a mandate has been re-issued periodically by NTSB 
since 1990. Since 2007, NTSB has raised the need for an EOBR mandate to 
its Most Wanted List.
---------------------------------------------------------------------------
    Another example of the agency's failure to adopt reasonable NTSB 
recommended safety measures includes preventing motor carriers from 
operating if they are found to have violated either mechanical safety 
standards or driver safety standards. NTSB has listed the agency's 
failure to adopt this recommendation as an ``Unacceptable Response.'' 
\30\ Currently, FMCSA will consider a stop operations order for a motor 
carrier only if it finds certain violations of both mechanical and 
driver safety standards. A violation of only one of the two categories 
will not result in a stop operations order from the agency.
---------------------------------------------------------------------------
    \30\ According to NTSB:
    The NTSB reiterates Safety Recommendation H-07-3 and both 
reiterates and reclassifies Safety Recommendation H-99-6 to the Federal 
Motor Carrier Safety Administration * * * Change the safety fitness 
rating methodology so that adverse vehicle or driver performance-based 
data alone are sufficient to result in an overall unsatisfactory rating 
for a carrier. (H-99-6).
    www.ntsb.gov/recs/letters/2009/H09_32_41.pdf. (Jan. 4, 2010).
---------------------------------------------------------------------------
Recommendation:
  <bullet> Congress should direct FMCSA to fulfill major NTSB safety 
        recommendations on the current Most Wanted List and review and 
        adopt previously issued NTSB motor carrier safety 
        recommendations that have not yet been implemented.
    FMCSA Has Failed to Monitor and Ensure the Adequacy of State Motor 
Carrier Safety Inspection Programs: The Secretary of Transportation is 
required to prescribe standards for annual inspection of motorcoaches 
and of trucks greater than 10,000 pounds gross vehicle weight in 
interstate commerce, or approve state inspection programs that are 
equally effective.\31\ FMCSA last publicly addressed the state 
inspection system in a 2001 Federal Register notice indicating that 25 
states have approved periodic inspection programs for trucks.\32\
---------------------------------------------------------------------------
    \31\ 49 C.F.R. Part 396; MCSIA, 210, codified at 49 U.S.C.  
31142.
    \32\ 66 FR 32863 (June 18, 2001). See also prior notice issued by 
the FHWA, 63 FR 8516 (Feb. 19, 1998).
---------------------------------------------------------------------------
    More recent public information does not exist. A recent examination 
of the FMCSA website revealed that there were no entries on state truck 
and motorcoach inspection programs, nor was there information on the 
current status of state compliance with the vehicle inspection and 
repair requirements, including any updated listing of states that may 
have instituted periodic commercial motor vehicle inspection programs 
since 2001.
    FMCSA has no reports that are publicly available evaluating how 
comprehensive the commercial motor vehicle inspection program may be in 
each of the 25 states. Our information is that no audits have been 
performed and that none are planned. Timely information on state truck 
and motorcoach inspection programs--whether they are still current and 
how well and how often they inspect commercial motor vehicles for 
safety compliance--is not available to the public on FMCSA's website.
    Furthermore, while FMCSA allows motor carriers to ``self-inspect'' 
and annually certify that the mechanical inspection has been performed, 
it appears that the agency does not conduct routine audits to evaluate 
a representative sample of these state self-inspection programs.
    It should be stressed that the minimum period for the required 
inspection is only once a year.\33\ Since it is well known that 
inspection of commercial motor vehicles needs to be much more intensive 
and frequent than for personal or light motor vehicles, a once-a-year 
inspection regime is clearly no guarantee of safe trucks and 
motorcoaches. While reputable carriers may conduct more frequent 
inspections, others may not. Many companies even in states that have 
inspection programs can come into compliance just for an annual 
inspection, only to allow major mechanical and safety features of their 
vehicles to fall into dangerous disrepair soon after passing the annual 
inspection.
---------------------------------------------------------------------------
    \33\ 49 U.S.C.  31142.
---------------------------------------------------------------------------
    Although commercial motor vehicles are subject to random roadside 
inspections, they can go for long periods of time without being stopped 
for an inspection. Relying on roadside inspections to detect mechanical 
defects that pose threats to public safety is simply too late--those 
vehicles should never have been on the road from the start.
    One example of the serious consequences that can occur as a result 
of weak oversight of state-run, state-approved, and company self-
inspections involves the deadly 2008 Sherman, Texas motorcoach crash in 
which 17 people died and 39 were injured. The motorcoach was operated 
by Angel Tours, Inc., which had been stopped from operating by FMCSA 
just weeks earlier, but continued to operate under the name Iguala 
Busmex.
    Among other Federal violations, the NTSB's investigation of the 
crash found that the proximate cause of the crash was a failure of one 
of the retreaded tires on the front steering axle of the motorcoach. 
The retreaded tire failed, destabilizing the motorcoach, making it 
difficult to control, and facilitating its crash into the overpass 
guardrail. NTSB speculated that either the tire was not inspected 
properly by an extremely perfunctory pre-trip inspection, or that the 
tire was punctured in route to its destination. NTSB found that the 
motorcoach had been inspected by a Texas state government-certified 
private inspection company.\34\ The private inspection cost $62.00, but 
failed to detect a number of mechanical defects including the retreaded 
tires on the steer axle, under-inflated tag-axle tires, wrong tax-axle 
wheels mounted, and a grossly contaminated brake assembly.
---------------------------------------------------------------------------
    \34\ The company name is ``Five-Minute Inspection, Inc,'' R. 
Accetta, Motorcoach Run Off Bridge and Rollover Sherman, Texas, August 
8, 2008, PowerPoint Presentation, Office of Highway Safety, NTSB, Oct. 
30, 2009. http://www.ntsb.gov/events/2009/sherman-tx/introduction.pdf.
---------------------------------------------------------------------------
    The Texas commercial motor vehicle state inspection program was 
approved by FMCSA in 1994. NTSB investigators concluded that there was 
no FMCSA quality control evaluations of agency-approved state programs, 
and no state oversight of the certified inspection companies.
    We commend the Senate Commerce, Science and Transportation 
Committee for approving S. 554, the ``Motorcoach Enhanced Safety act of 
2009,'' originally introduced by Senators Brown (D-OH) and Hutchison 
(R-TX). This legislation, when enacted, will address some of the 
inspection oversight concerns with respect to motorcoaches. Similar 
action is needed regarding state inspection programs for trucks.

Recommendations:
  <bullet> Congress should direct FMCSA to establish specific standards 
        for state-authorized, state-operated inspection programs to 
        determine how well they meet the requirements of the Federal 
        Motor Carrier Safety Regulations.

  <bullet> Congress should direct FMCSA to conduct annual inspections 
        of a sample of state-authorized or -operated truck inspection 
        programs to determine their effectiveness .

  <bullet> Congress should direct FMCSA to audit motor carrier self-
        inspection programs in each state to determine how well trucks 
        are being inspected and maintained for safe mechanical 
        condition.

                        FMCSA Regulatory Issues

    Electronic On-Board Recorders--A Case Study of Bureaucratic 
Bungling: It has been 15 years since Congress in 1995 directed the 
Secretary of Transportation to address the issue of Electronic On-Board 
Recorders (EOBRs).\35\ After all this time, FMCSA has only recently 
produced a weak and ineffective EOBRs regulation which the agency 
itself admits will apply to less than one percent of motor 
carriers.\36\
---------------------------------------------------------------------------
    \35\ Sec. 408 of the Interstate Commerce Commission Termination Act 
of 1995, P.L. 104-88 (Dec. 29, 1995).
    \36\ Electronic On-Board Recorders for Hours-of-Service Compliance, 
Final Rule, 64 FR 17208 (Apr. 5, 2010).
---------------------------------------------------------------------------
    There is strong support for EOBRs from many quarters. At a hearing 
before this Subcommittee held May 1, 2007, on the topic of EOBRs,\37\ 
Senator Lautenberg said in his opening statement: ``We need electronic 
on-board recorders in every truck on the road to ensure the safety of 
our truck drivers and our families who travel on the highways.''  \38\ 
Similar sentiments were expressed by the President of CVSA.\39\ The 
current Chair of NTSB, Deborah Hersman, has also repeatedly emphasized 
the need for a U.S. DOT requirement for EOBRs on all commercial motor 
vehicles.\40\ As noted above, NTSB is resolute in continuing to list an 
EOBR mandate on its Most Wanted list and to deem the agency's response 
``Unacceptable.''
---------------------------------------------------------------------------
    \37\ U.S. Senate Committee on Commerce, Science and Transportation. 
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security. Electronic On-Board Recorders 
(EOBR's) and Truck Driver Fatigue Reduction. 110th Cong. Washington: 
May 1, 2007.
    \38\ Sen. Lautenberg, Frank. Statement to the U.S. Senate Committee 
on Commerce, Science and Transportation. Subcommittee on Surface 
Transportation and Merchant Marine Infrastructure, Safety, and 
Security. Electronic On-Board Recorders (EOBR's) and Truck Driver 
Fatigue Reduction. 110th Cong. Washington: May 1, 2007.
    \39\ ``EOBR technology is proven. More than 50 countries have 
mandated Electronic Data Recorders for driving and standby time 
recording and/or speed and distance recording.'' Captain John E. 
Harrison. Statement to the U.S. Senate Committee on Commerce, Science 
and Transportation, Subcommittee on Surface Transportation and Merchant 
Marine Infrastructure, Safety, and Security. Electronic On-Board 
Recorders (EOBR's) and Truck Driver Fatigue Reduction. 110th Cong. 
Washington: May 1, 2007.
    \40\ Chairman Deborah Hersman, statement to the Transportation and 
Infrastructure Committee, Subcommittee on Highways and Transit, Motor 
Carrier Safety: The Federal Motor Carrier Safety Administration's 
Oversight of High Risk Carriers, 110th Cong. Washington: July 11, 2007.
---------------------------------------------------------------------------
    Yet, FMCSA's response is an extraordinarily weak rule that will 
require only about 5,700 motor carriers to install and use EOBRs--but 
only after an hours of service (HOS) violation is discovered in the 
course of a Compliance Review (CR). This criterion immediately produces 
an extremely limited population of truck and motorcoach companies. 
Because FMCSA annually conducts CRs on only 2 percent of motor carriers 
registered with the agency, the chances of being caught violating HOS 
requirements are very remote, and the detection of violations will be 
based on examination of logbooks recording duty status, which are 
widely known to be regularly falsified by a large percentage of 
commercial drivers to conceal violations.
    The rule has other serious defects, including the following:

  <bullet> The EOBR Global Positioning System (GPS) function will 
        record only at 60 minute intervals rather than at 1 minute 
        intervals--a serious problem that allows carriers to evade 
        fixed weigh stations, use illegal hazardous materials routes, 
        and traverse bridges posted for reduced loads, without 
        detection.

  <bullet> Carriers required to install and use EOBRs will not have to 
        provide certain supporting record of duty status (RODS) 
        documents--which reduces the documentation that enforcement 
        personnel need to determine whether drivers using sleeper 
        berths complied with minimum off-duty time.

  <bullet> The EOBRs default to ``on-duty not driving status'' when a 
        commercial vehicle has been stationary for only 5 minutes. This 
        allows time during intermittent vehicle movement in traffic 
        congestion or while waiting in loading dock lines, to be 
        recorded as non-driving time. As a result it will extend the 
        driver's shift beyond the maximum 11 consecutive hours allowed 
        by regulation.

  <bullet> EOBRs will not collect speed data thereby reducing the 
        deterrent effect on speeding by commercial drivers and 
        undermining the effectiveness of speed limit enforcement by 
        public authorities.\41\
---------------------------------------------------------------------------
    \41\ It also undermines the safety management of carriers by 
reducing critical information about whether their trucks and 
motorcoaches are illegally speeding. Under current FMCSA regulation, 
AOBRs are required to record vehicle speeds, so this policy choice by 
FMCSA is weaker than the current agency rule.

  <bullet> FMCSA thoroughly fails to address the need for specific 
        fail-safe controls to ensure that EOBRs are tamper-proof, and 
        are protected with adequate, security control measures to limit 
---------------------------------------------------------------------------
        access only to appropriate users.

    Although FMCSA has indicated that another, expanded rule may be 
under consideration,\42\ it appears that the timetable on any further 
action has already slipped from this year into next.
---------------------------------------------------------------------------
    \42\ Motorcoach Safety Action Plan, U.S. Department of 
Transportation, DOT HS 811 177, November 2009.
---------------------------------------------------------------------------
    It is time for Congress to act. As mentioned before, this Committee 
has approved a comprehensive motorcoach safety bill that includes a 
mandatory requirement for EOBRs on all motorcoaches.\43\ The House of 
Representatives has also included an EOBRs requirement for all 
commercial motor vehicles in the Transportation and Infrastructure 
Committee's draft Surface Transportation Authorization Act.\44\ 
Advocates supports both of these measures.
---------------------------------------------------------------------------
    \43\ S. 554,  12(a).
    \44\ See  4036, Surface Transportation Authorizing Act of 2009, 
House Committee on Transportation and Infrastructure, Committee Print, 
available at http://transportation.house.gov/.
---------------------------------------------------------------------------
Recommendations:
  <bullet> Congress should pass the Motorcoach Enhanced Safety Act of 
        2009 mandating EOBRs on all passenger-carrying commercial motor 
        vehicles under FMCSA jurisdiction.

  <bullet> Congress should enact legislation requiring the FMCSA to 
        issue a universal EOBR regulatory requirement for all other 
        commercial motor vehicles in interstate commerce.

    Truck Driver Hours of Service and Fatigue: I am pleased to be able 
to testify today that the long running dispute over the truck driver 
HOS rule is on hold while a new rule is developed. This does not mean 
that we have relaxed our opposition or vigilance regarding the serious 
safety failings of the current HOS rule. However, we believe that the 
quickest way to improve safety and to get a better rule issued is to 
work with the new Administration to produce a rule that advances public 
safety and not only productivity.
    The federal commercial driver HOS rule is of critical importance to 
truck safety. The HOS rule governs truck driver working hours, setting 
maximum limits for on-duty work time, the number of continuous hours of 
driving and work hours allowed per shift, weekly driving hours, and the 
minimum required off-duty rest time. Countless studies, and the 
National Truck and Bus Safety Summit of 1995, have concluded that 
excessive driving and work hours, and inadequate rest time, lead to 
driver fatigue which plays a substantial role in large truck crashes.
    The current, unsafe HOS rule adopted in 2003 substantially 
increased maximum daily and weekly driving and working hours for 
truckers.\45\ Driving time for each shift was increased to 11 from 10 
consecutive hours of driving. Driver fatigue from this excessively long 
driving shift is increased further by allowing an additional three or 
more hours in each shift for other work including the loading and 
unloading of trucks.
---------------------------------------------------------------------------
    \45\ Hours of Service of Drivers; Drivers Rest and Sleep for Safe 
Operations; Final Rule, 68 FR 22455 (Apr. 28, 2003).
---------------------------------------------------------------------------
    The danger posed by these provisions to the health and safety of 
truck drivers and the motoring public are made even worse by the weekly 
``restart'' provision. The restart undermines what previously was a 
``hard number'' 60-hour weekly driving cap (70 hours for drivers on an 
8-day schedule). Instead, the rule permits drivers to reset their 
accumulated weekly driving hours to zero at any point during the work 
week after taking only a 34-hour off-duty break, and then start a new 
tour of duty. This permits drivers who use the restart provision to 
cram an extra 17 hours of driving into their schedule each week, 
actually operating their trucks for a total of 77 hours in seven 
calendar days instead of the previous limit of 60 hours. Drivers 
operating on an 8-day schedule can drive an extra 18 hours--a total of 
88 driving hours instead of the previous limit of 70-hours.
    The restart permits companies to squeeze these excessive ``bonus'' 
driving hours out of drivers. Instead of having a full weekend of 48 or 
more hours off duty for rest and recovery, which was required under the 
previous HOS rule, the restart permits motor carriers to compel drivers 
to cash in their rest time for extra driving hours. This dramatically 
increases truck driver crash risk exposure, yet FMCSA rationalized this 
dramatic increase in daily and weekly driving and work hours as just as 
safe as the previous HOS rules when drivers had more end-of-week rest 
time.
    The current HOS rule was issued by FMCSA despite the findings of 
fact by the agency, and its predecessors, that crash risk significantly 
increases after eight consecutive hours of driving and that long 
driving and work hours promote driver fatigue. FMCSA also failed to 
properly take into account driver health impacts and scientific 
findings showing that more driving and working hours are dangerous and 
lead to an increased risk of crashes, especially among workers in 
industries with long hours of shiftwork who have little opportunity for 
rest and recovery. Advocates meticulously documented the science 
showing that the agency's selective use of research findings was 
designed to justify a regulatory outcome prior to any studies FMCSA 
marshaled to justify its expansion of driver working and driving hours.
    These concerns were echoed by the U.S. Court of Appeals in two 
separate, unanimous decisions that vacated the current HOS rule and 
remanded the rule to the agency for changes. In each case, the Court 
questioned the basis for the agency's decision-making in allowing 
longer driving hours despite the safety threat, adverse health effects 
and the increased crash risk posed by the rule, indicating that the 
current HOS rule was not based on sound reasoning.\46\ And despite back 
to back judicial decisions overturning the rule in each case, FMCSA 
refused to make changes to the maximum daily and weekly driving and 
work hours allowed by the rule.
---------------------------------------------------------------------------
    \46\ Owner-Operator Independent Drivers Ass'n v. FMCSA, 494 F.3d 
188 (D.C. Cir. 2007); Public Citizen v. FMCSA, 374 F.3d 1209 (D.C. Cir. 
2004).
---------------------------------------------------------------------------
    On December 19, 2007, this Subcommittee held a hearing on the HOS 
rule. The record of that hearing documents the safety concerns about 
the HOS rule and its precarious legal status. In 2008, the FMCSA 
nevertheless defiantly reissued the same flawed HOS rule for a third 
time and, in 2009, Advocates, Public Citizen, the Truck Safety 
Coalition and the International Brotherhood of Teamsters filed a third 
lawsuit challenging the rule.\47\
---------------------------------------------------------------------------
    \47\ Petition for Review, filed March 2009, Public Citizen et al., 
v. FMCSA, No. 09-1094 (D.C. Cir.)
---------------------------------------------------------------------------
    In an effort to expedite the issuance of what safety advocates hope 
will be a new, safer HOS rule, and to allow the new administration to 
determine the right course on this issue, safety and labor 
organizations agreed to hold the lawsuit in abeyance while FMCSA 
develops a new rule. Under the terms of the settlement the agency has 
agreed to forward a draft proposed rule to the Office of Management and 
Budget by the end of this coming July and, after taking public comment, 
to issue a new final rule by August, 2011.\48\
---------------------------------------------------------------------------
    \48\ Id., see Settlement Agreement dated Oct. 26, 2009 and Order 
dated March 3, 2010.
---------------------------------------------------------------------------
Recommendation:
  <bullet> The Committee should continue rigorous oversight of the 
        activity and efforts of FMCSA to comply with the HOS legal 
        settlement and to issue a new rule that enhances the health and 
        safety of truck drivers and the traveling public.
    FMCSA's New Entrant Motor Carrier Program Lacks Critical 
Safeguards: In the Motor Carrier Safety Improvement Act of 1999 
(MCSIA),\49\ the law that established the FMCSA, Congress directed the 
new agency to establish minimum requirements to ensure that new motor 
carriers are knowledgeable about the Federal motor carrier safety 
standards (FMCSRs).\50\ It also required consideration of the need to 
implement a proficiency examination.\51\ National safety organizations 
called on the agency to require, prior to making a grant of temporary 
operating authority, a proficiency examination to determine how well 
new entrant motor carriers understand and are capable of complying with 
the FMCSRs and Hazardous Materials Regulations (HMRs), and whether they 
can exercise sound safety management of their fleet, drivers, and 
operations.
---------------------------------------------------------------------------
    \49\  P.L. 106-159 (Dec. 9, 1999).
    \50\ Section 210 of MCSIA added 49 U.S.C.  31144(g) which directed 
the establishment of regulations requiring each owner or operator with 
new operating authority to undergo a safety review within 18 months of 
starting operations.
    \51\ MCSIA,  210(b).
---------------------------------------------------------------------------
    FMCSA's new entrant final rule lacked many important aspects of 
appropriate agency oversight of new truck and motorcoach companies, 
especially the need to mandate an initial safety audit of new carriers 
before awarding them temporary operating authority, and performing a CR 
at the end of the probationary period of temporary operating authority 
with an assigned safety rating.\52\ Advocates and other safety 
organizations strongly urged FMCSA to adopt these and other stringent 
oversight and enforcement mechanisms as part of the new entrant 
program. However, these suggestions were ignored or summarily rejected.
---------------------------------------------------------------------------
    \52\ 73 FR 76472 (Dec. 16, 2008).
---------------------------------------------------------------------------
    Because the agency rule did not implement the statutory directives 
in the MCSIA, and rejected other reasonable safeguards for new 
entrants, Advocates filed a petition for reconsideration with the 
agency on January 14, 2008.\53\ The petition emphasized that the final 
rule contains no data or other information demonstrating that the new 
entrant review procedure adopted by FMCSA will improve the operating 
safety of new entrants through their knowledge about and compliance 
with the FMCSRs and HMRs. The petition also pointed out that the rule 
did not include an evaluation of the merits of a proficiency 
examination for new entrants, even though the MCSIA required the agency 
to consider the need for such an examination.
---------------------------------------------------------------------------
    \53\ Advocates for Highway and Auto Safety, Jan. 14, 2008, 
``Petition for Reconsideration Filed with the Federal Motor Carrier 
Safety Administration Regarding the Order Issued on New Entrant Motor 
Carriers Safety Assurance Process, 49 CFR Parts 365, 385, 386, and 390, 
73 Federal Register 76472 et seq., December 16, 2008.''
---------------------------------------------------------------------------
    FMCSA granted Advocates' petition in part as the basis for issuing 
an advance notice of proposed rulemaking (ANPRM) asking for preliminary 
data, views, and arguments on the need for a proficiency 
examination.\54\ While this appears to be a positive step, FMCSA 
continues to insist that its efforts to determine the capabilities of 
new entrants are adequate, and that the agency has fulfilled the 
statutory direction to ensure that applicants for the new entrant 
program are ``knowledgeable about applicable safety requirements before 
being granted New Entrant authority.'' \55\ In fact, the agency has no 
verification of a new entrant's knowledge of or capability to comply 
with the FMCSR and HMR because it doesn't ask for any demonstration by 
the applicant. The only way to ensure that high-risk carriers are not 
allowed to start operating is to test their knowledge, and check their 
equipment and drivers to prevent them from threatening public safety.
---------------------------------------------------------------------------
    \54\ New Entrant Safety Assurance Process; Implementation of 
Section 210(b) of the Motor Carrier Safety Improvement Act of 1999, 
advance notice of proposed rulemaking, 74 FR 42833 (Aug. 25, 2009).
    \55\ Id. at 42834 (emphasis supplied).
---------------------------------------------------------------------------
    In addition, careful safety evaluation of new entrant applicant 
motor carriers before the start of operations and prior to an award of 
temporary operating authority will help the agency screen for 
``chameleon'' or ``reincarnated'' motor carriers. These are companies 
that, as discussed below, went out of business or were forced to cease 
operations, but return under the guise of being ``new entrants''. They 
conceal the fact that they actually are continuing operations with the 
same officers and equipment under a false identity.
Recommendations:
  <bullet> Congress should explicitly require the FMCSA to adopt a 
        proficiency examination to determine how well a new entrant 
        knows the FMCSRs and HMRs, and how capable it is to conduct 
        safe operations.

  <bullet> Congress should mandate that FMCSA conduct a pre-
        authorization safety audit of new entrant motor carriers to 
        determine the quality of their safety management, drivers, and 
        equipment before awarding temporary operating authority.

    Nineteen Years After Congress Ordered Entry-Level Driver Training 
Standards, FMCSA Still Has Not Issued a Rule Requiring Behind-the-Wheel 
Driver Training: Congress originally directed the FHWA to establish 
training standards for entry-level drivers in 1991.\56\ There followed 
a long and tortured history of intermittent rulemaking and two 
lawsuits, the first for failing to issue a rule,\57\ and the second for 
issuing an entirely inadequate, illegal final rule in 2004.\58\ In the 
second case, the U.S. Court of Appeals rendered a judgment against the 
FMCSA, taking the agency to task for not issuing a training standard 
that included an on-the-road, behind-the-wheel training component.
---------------------------------------------------------------------------
    \56\ ISTEA,  4007(a).
    \57\ See settlement agreement dated February, 2003, In Re Citizens 
for Reliable and Safe Highways v. Mineta, No. 02-1363 (D.C. Cir. 2003).
    \58\ Advocates v. FMCSA, 429 F.3d 1136 (D.C. Cir. 2005).
---------------------------------------------------------------------------
    FMCSA reopened rulemaking with a new proposed rule published on 
December 26, 2007,\59\ 16 years after the original, legislated deadline 
for agency action. While the proposed rule represents a minimal 
improvement over the unacceptable final rule it is seriously flawed.
---------------------------------------------------------------------------
    \59\ 73 FR 73226 (Dec. 26, 2008).
---------------------------------------------------------------------------
    First, the FMCSA reduced, without explanation, the minimum number 
of hours of instruction recommended by the 1985 Model Curriculum,\60\ 
from the 320 hours or more of instruction to only 120 hours. Second, 
the agency provides no justification in the proposal of the content of 
the curriculum or the minimum number of hours of instruction that would 
be required by the proposed curriculum. Third, the agency requires the 
same curriculum for drivers of motorcoaches as for drivers of straight 
trucks. Moreover, all curriculum content is indexed to truck driving, 
with no specific training and skills for motorcoach operators such as 
responsibilities for passenger safety management including emergency 
evacuation and combating fires.
---------------------------------------------------------------------------
    \60\ Model Curriculum for Training Tractor-Trailer Drivers, FHWA 
1985.
---------------------------------------------------------------------------
    Finally, FMCSA's proposal impermissibly restricts the scope of the 
entry-level driver training in two ways. First, it restricts the 
mandatory training to operators of interstate trucks, buses, and 
motorcoaches that have commercial drivers licenses (CDL). Nothing in 
the law itself or the legislative history indicates any intent by 
Congress to exempt entry-level CDL holders who operate exclusively in 
intrastate commerce from driver training.\61\ Second, the proposed rule 
applies only to entry-level drivers with a CDL. Again, there is nothing 
in the law itself, or the statutory history, permitting FMCSA to 
exclude entry-level drivers of commercial vehicles who do not have or 
need a CDL from the training required for other commercial drivers.\62\
---------------------------------------------------------------------------
    \61\ The original legislation creating the commercial driver 
license (CDL) explicitly required that CDLs must be issued to both 
interstate and intrastate commercial drivers. FMCSA has no statutory 
basis for the unilateral exclusion of intrastate CDL holders from 
required entry-level driver training. In addition, Congress has 
specifically emphasized the need for greater uniformity in motor 
carrier safety regulation in Sec. 203 of the Motor Carrier Safety Act 
of 1984.
    \62\ The provision in the Intermodal Transportation Efficiency Act 
of 1991 and accompanying legislative history cannot be construed to 
abbreviate the scope of required entry-level training only to drivers 
of commercial motor vehicles who also have CDLs.
---------------------------------------------------------------------------
    FMCSA's weak rulemaking proposal is inadequate and fails to improve 
the knowledge and operating skills of entry-level commercial motor 
vehicle drivers.

Recommendation:
  <bullet> Congress should direct FMCSA to require a more comprehensive 
        driver training curriculum and include all entry-level 
        commercial motor vehicle drivers regardless of whether they 
        have CDLs or operate in interstate commerce.

                        FMCSA Enforcement Issues

    Compliance Safety Analysis 2010--Unknown and Untested: FMCSA has 
argued that enforcement rigor will be substantially increased when its 
new enforcement methodology, Comprehensive Safety Analysis 2010 
(CSA2010), is fully implemented. Because CSA2010 for the first time 
will apply real-time roadside inspection data to motor carrier 
oversight and enforcement, there is some reason to believe that this 
may improve the agency's currently limited, bureaucratic approach to 
motor carrier compliance reviews and enforcement interventions. But, at 
the present time, most of the information needed to assess how 
effective CSA2010 could be is incomplete and not available to the 
public.
    FMCSA has not finished its nine state pilot-testing of the new 
system. When reports on the pilot tests are completed, and released for 
public review and comment, a preliminary evaluation will be possible. 
Although FMCSA currently is encouraging motor carriers to assess how 
they rate using trial evaluations of their safety management 
performance, the results of these tests also will not be available to 
the public until later this year.\63\
---------------------------------------------------------------------------
    \63\ 75 FR 18256 (April 9, 2010).
---------------------------------------------------------------------------
    The General Accountability Office (GAO) has stated that it could 
not evaluate the quality of FMCSA's overall CSA2010 effort until the 
major actions associated with the operational tests of the new system 
were completed in June 2010.\64\
---------------------------------------------------------------------------
    \64\ GAO letter to Senator Frank Lautenberg dated Dec. 20, 2007GAO-
08-242R, at 9, Motor Carrier Safety (Dec. 20, 2007).
---------------------------------------------------------------------------
    In addition, the agency is still conducting a feasibility study on 
using police accident reports to determine motor carrier crash 
accountability before the crash data are entered into the new Carrier 
Safety Management System (CSMS) that is to replace the existing Safety 
Status Measurement System (SafeStat). Until this analysis is completed, 
the agency will continue to follow its current policy under SafeStat: 
the crash data will be displayed publicly, but the CSMS assessment of a 
motor carrier's crash history will not.\65\ At this time, critical 
information about the findings of the feasibility study, its direction 
or emphasis, and how police accident report data would be weighted or 
entered into the calculus of the CSMS to determine safety performance 
ratings is not available.
---------------------------------------------------------------------------
    \65\ Id. at 18258.
---------------------------------------------------------------------------
    In the meantime, until CSA2010 is implemented incrementally in all 
states through 2011, FMCSA will still conduct safety fitness audits 
using traditional CRs. As a result, any definitive evaluation of the 
effectiveness of CSA2010 will not be possible until the full system is 
implemented.
    It is important to note, however, several safety concerns regarding 
a bias that is built into the agency's new CSMS, on which CSA2010 
relies, that will skew the resulting enforcement efforts. The new 
system will still not ensure that mechanical problems will have parity 
with driver violations for stopping dangerous carriers from operating 
unsafe trucks or motorcoaches. FMCSA's decision to place heavy emphasis 
on driver behavior as the core principle behind CSA2010 \66\ ignores 
the fact that mechanical defects are dramatically under-reported.
---------------------------------------------------------------------------
    \66\ See, 71 FR 61131 (Oct. 17, 2006). Also see, 
www.csa2010.fmcsa.dot.gov. Primary data sources available to 
researchers and enforcement authorities contain very little information 
on vehicle mechanical condition, but lots of detailed information about 
driver condition and behavior. In addition, available crash data 
systems are not designed to support any analysis of how mechanical 
defects played a role in CMV crashes. All well-known crash data sets, 
such as the Fatality Analysis Reporting System (FARS), the General 
Estimates System (GES), and state crash files maintained and sent to 
FMCSA as part of each state's requirements under its State Enforcement 
Plan to qualify for Motor Carrier Safety Improvement Program (MCSAP) 
funds, are based on police reports. These data sets, unsurprisingly, 
contain very low percentages of various mechanical defects as 
contributing to reported crashes.
    Officers on crash scenes do not engage in forensic work to detect 
mechanical failures. Police crash reports concentrate overwhelmingly on 
supposed driver errors or violations as the proximate reasons for the 
crash occurrences. If a report does contain mechanical or equipment 
failure information, it probably will involve an obvious, catastrophic 
failure and not deterioration of vehicle performance in key operating 
systems that cannot be detected by enforcement personnel at the crash 
scene. This disregard of mechanical defect involvement in CMV crashes 
is even more likely in injury or property-damage-only crashes.
    Empirical data highlights the paradox of the radical under-
reporting of CMV mechanical defects: roadside inspections, such as the 
annual Commercial Vehicle Safety Alliance (CVSA) Roadcheck repeatedly 
and consistently show high rates of mechanical defects and out of 
service orders issued for such defects. For example, CVSA's Roadcheck 
2009 found an average of 1.12 vehicle violations in every roadside 
inspection, and 26.1 inspected trucks were placed out of service for 
mechanical/equipment violations. http://www.cvsa.org/news/2009--
press.aspx. Severe under-reporting of mechanical defects that 
contribute to crashes has been borne out by several investigations. 
(Massie and Campbell 1996). It is clear that without special, in-depth 
studies keying on mechanical defects, crash data sets available for 
research cannot accurately identify the role of mechanical problems 
contributing to large truck crashes.
---------------------------------------------------------------------------
    Studies \67\ show that of the nearly 1,000 truck crashes 
investigated by FMCSA, fully 55 percent of them had one or more 
mechanical problems, and almost 30 percent had at least one condition 
that would trigger an out of service (OOS) order, that is, a directive 
to the truck and driver to stop operating. It was also found that just 
a brake OOS violation increased the odds of a truck being assigned the 
critical reason for precipitating the crash by 1.8 times. The 
implications are clear: FMCSA's approach to using its new enforcement 
metrics in CSA2010 will result in an unbalanced, excessive emphasis on 
driver as opposed to vehicle violations.
---------------------------------------------------------------------------
    \67\ A. McCartt, et al., ``Use of LTCCS Data in Large Truck 
Underride Study,'' Insurance Institute for Highway Safety, Society of 
Automotive Engineers 2010 Government/Industry Meeting, Washington, 
D.C., Jan. 26-29, 2010.
---------------------------------------------------------------------------
    One consequence of the heavy emphasis on driver behavior over 
vehicle mechanical violations will be that, in practice, the agency is 
not accommodating NTSB's recommendation that violations of either 
mechanical or driver requirements alone should trigger a stop 
operations order.\68\
---------------------------------------------------------------------------
    \68\ [To FMCSA] ``Change the safety fitness rating methodology so 
that adverse vehicle and driver performance-based data alone are 
sufficient to result in an overall unsatisfactory rating for the 
carrier'' NTSB Rec. H-99-66, Feb. 26, 1999.
---------------------------------------------------------------------------
    The over-emphasis on driver behavior over mechanical defects has 
another collateral consequence when it comes to hours-of-service 
enforcement. Because of the current necessity to rely on the use of 
driver logbooks that are so often falsified that they are known as 
``comic'' books, violations of HOS rules are often missed in roadside 
inspections. A high percentage of drivers are able to repeatedly 
conceal hours-of-service violations by manipulating the entries in 
their logbooks. Even with supplementary documents available to law 
enforcement, such as toll and fuel receipts, truck drivers can still 
make their logbooks entries appear to be valid. If the CSMS is overly 
reliant on driver violations, and enforcement personnel remain unable 
to accurately detect this major source of violations, then the data and 
accuracy of CSA2010 will be questionable, and its capability to 
adequately address ongoing driver and carrier violations will be 
suspect.
    For this reason, Advocates reiterates the need for Congressional 
action to direct FMCSA adoption of a universal EOBR regulatory 
requirement. Only the use of EOBRs can address this potential problem 
in the CSA2010 approach.
    However, Advocates also regards the overwhelming emphasis on driver 
issues, not mechanical issues, for measuring compliance and rating 
motor carrier safety performance as a critical flaw of CSA2010.
Recommendations:
  <bullet> FMCSA should be directed to re-evaluate the imbalanced 
        approach to motor carrier violations in CSA2010 that relies too 
        heavily on driver behavior.

  <bullet> Congress should direct the GAO to assess:

    <ctr-circle> the accuracy and deterrent value of safety performance 
            findings generated by CSMS;

    <ctr-circle> the progress of CSA2010 and whether the effort is 
            proceeding in the right direction;

    <ctr-circle> whether safety performance will be evaluated in a more 
            timely and meaningful manner than the current Compliance 
            Review regime; and

    <ctr-circle> whether the system will detect a much higher 
            percentage of dangerous motor carriers that either need 
            major and immediate reforms to their safety management or 
            to stop operating.

    FMCSA Still Not Imposing Maximum Penalties Allowed by Law: FMCSA 
still avoids getting tough with motor carrier violators and we hope 
there will be a change with the new leadership. The agency still evades 
the imposition of tough penalties that would send a message to all 
truck and motorcoach companies that the agency means business. Congress 
indicated in the agency's authorizing law that civil penalties had not 
been sufficiently used to deter violations.\69\ Stiffer penalties than 
are currently levied against offending motor carriers would provide a 
strong deterrence to prevent other companies from committing serious 
violations.
---------------------------------------------------------------------------
    \69\ MCSIA,  3(2).
---------------------------------------------------------------------------
    FMCSA administers civil penalties allowed under the civil penalties 
section of the transportation code.\70\ Despite the fact that this 
section has been amended a number of times in an effort to strengthen 
the legally allowed penalties, the statute affords the agency 
considerable discretion in setting the amount of penalties to be 
imposed and requires at the threshold only modest maximum penalties. 
Motor carriers--the trucking, motorcoach, and bus companies--are liable 
for a maximum penalty of $10,000 for each offense, while the motor 
carrier employees who are actually responsible for committing the 
violations are subject to no more than a fine of $2,500 per 
offense.\71\
---------------------------------------------------------------------------
    \70\ 49 U.S.C.  521(b).
    \71\ Id. at  521(b)(2)(A).
---------------------------------------------------------------------------
    Historically, the agency has through its policies and 
interpretations limited the penalties it has imposed. For example, 
Congress made it clear in the agency's enabling legislation that FMCSA 
was supposed to assess maximum financial penalties for commission of 
certain acute or chronic motor carrier safety regulatory violations 
after the commission of two offenses or a pattern of violations.\72\ 
However, the GAO found that the agency did not assess maximum fines for 
a pattern of violations.\73\ The same GAO report also found that the 
agency misinterpreted the statutory basis for imposing maximum fines, 
assessing maximum fines only after a third violation rather than 
following a second violation.
---------------------------------------------------------------------------
    \72\ MCSIA,  222 states:

    (b) Establishment--The Secretary--* * *
    (2) shall assess the maximum civil penalty for each violation of a 
law referred to in subsection (a) by any person who is found to have 
committed a pattern of violations of critical or acute regulations 
issued to carry out such a law or to have previously committed the same 
or a related violation of critical or acute regulations issued to carry 
out such a law.
    \73\ Motor Carrier Safety: Federal Agency Identifies Many High-risk 
Carriers but Does not Assess Maximum Fines as often as Required by Law, 
GAO-07-584, Aug. 2007.
---------------------------------------------------------------------------
    Even after FMCSA corrected its policy,\74\ the modified enforcement 
policy is not as tough as it looks. A number of roadblocks keep the 
agency from imposing maximum penalties for a ``pattern'' of violations. 
First, a ``pattern'' of violations must be those that occur when the 
FMCSA discovers two or more critical and/or acute violations in each of 
three or more different regulatory parts (i.e., a minimum of six acute 
and/or critical violations). In practice, the agency again restricted 
the assessment of monetary penalties to fewer violators.
---------------------------------------------------------------------------
    \74\ 74 FR 14184 (Mar. 30, 2009).
---------------------------------------------------------------------------
    Second, the revised policy again limits maximum penalties for a 
pattern of violations only if the carrier has had prior ``contact'' 
with FMCSA or a state enforcement authority.\75\ This means that a 
previous CR had been carried out or that the carrier had undergone a 
new entrant motor carrier exit audit (performed before FMCSA accords 
permanent operating). But FMCSA specifically excludes the more numerous 
roadside inspections as the basis for providing the necessary prior 
contact even though the driver and carrier clearly are informed about 
violations of safety rules and regulations.
---------------------------------------------------------------------------
    \75\ Id. The information is contained in a prefatory note inserted 
into the updated Recommendations for Executive Action section of the 
Aug. 28, 2007, GAO study. This later insert is itself undated, but it 
cites FMCSA's March 2009 supplemental policy published in the FR on 
assessing maximum fines that revises the agency's characterization of a 
``pattern of violations'' and what violations constitute a ``two 
strikes'' ruling by the agency.
---------------------------------------------------------------------------
    A third condition is that FMCSA must also judge that it is 
reasonably likely that previous contact with the agency, through a CR 
or a new entrant safety audit, ``alerts'' the carrier to FMCSA's 
enforcement and regulatory jurisdiction over certain motor carrier 
violations. This in itself is a startling criterion because it directly 
implies that the agency may not be able to impose civil penalties for 
violations, even repeat violations, on motor carriers who are or claim 
to be unaware that their interstate operations fall under FMCSA's 
jurisdiction. This means that the carrier has never been adequately 
informed of its responsibilities as an interstate motor carrier, or of 
the agency's authority to impose penalties. Ensuring that every motor 
carrier, starting with new entrants, is aware of this information and 
the agency's power to impose penalties for rule violations should be a 
routine agency responsibility and failure to do so is appalling and 
unacceptable.
    One aspect of the new policy is even less demanding than previous 
policy. Under the previous fines provision, proposed maximum penalties 
could not be settled for less than the amount assessed. However, under 
the new policy, all penalties, including patterns and two repeated 
violation penalties may be settled with FMCSA suspending a part of the 
assessed penalty for a variety of reasons. Also, the criteria for 
assessing maximum penalties are limited. Maximum penalties will be only 
applied in cases where an acute, not a critical, violation is 
discovered during an investigation within 6 years of a previously 
closed case that contained a finding of violation of a critical or 
acute regulation in the same FMCSRs and/or HMRs part. Violations of 
different parts of the FMCSRs or HMRs do not count.
    These examples of enforcement policies show that even when FMCSA 
obeys the letter of the law, it can find a way to use agency discretion 
to undermine both the standards for imposing fines as well as the 
amount of the fines themselves.
    Finally, FMCSA admits in its updated study on the effectiveness of 
monetary penalties that it cannot determine whether the changed penalty 
structure and amounts of fines have a beneficial effect on motor 
carrier violation rates and on motor carrier safety.\76\ Part of the 
problem is that the agency has imposed substantially different amounts 
of fines from year to year. Even after the maximum penalty amount was 
increased, average nonrecordkeeping penalties plummeted from $5,066 in 
2000 to $2,938 in 2006.\77\ The latter figure is only a little more 
than 29 percent of the maximum permitted by law. It is clear that 
raising penalty ceilings in Federal legislation while allowing broad 
agency discretion in the amounts of penalties actually imposed does not 
ensure that violations trigger stiff penalties or promote deterrence.
---------------------------------------------------------------------------
    \76\ FMCSA states in its study of civil penalties:
    [I]t was determined during the original analysis that it is not 
possible to isolate the effects of the revisions to the civil penalty 
schedule on carrier behavior from other elements of the CR program or 
other FMCSA programs (e.g., the roadside inspection program). Other 
actions that could be taken against a carrier as a result of a CR 
include: placing a carrier out of service (OOS) for reasons other than 
nonpayment of fines, and determining that a carrier is unfit to 
operate. Also, it is not possible to isolate the effects of TEA-21 
penalty revisions from other civil penalty revisions that follow in 
later years. Therefore, the 2004 study focused primarily on the impact 
of the changes in the revised civil penalty schedule on the dollar 
amount of the fines assessed to the carrier and on the number of 
violations assessed.
    Analysis of FMCSA's Revised Civil Penalties (1995-2006): A Follow-
up Study, FMCSA, U.S. Department of Transportation, Aug. 2009, at v.
    \77\ Id., Table 4, at 11.
---------------------------------------------------------------------------
Recommendations:
  <bullet> Congress should request a GAO study of FMCSA's imposition of 
        penalties for motor carrier safety violations to determine:

    <ctr-circle> whether the current higher maximum penalty amounts are 
            actually deterring motor carriers from committing 
            violations;

    <ctr-circle> the extent to which FMCSA has reduced or compromised 
            penalty amounts in a manner that results in lower penalties 
            per violation and per motor carrier;

    <ctr-circle> the extent to which motor carriers regard current 
            levels of imposed penalties as acceptable costs of doing 
            business rather than as a deterrent; and

    <ctr-circle> whether setting statutory minimum required penalties 
            is necessary and appropriate, and to recommend such minimum 
            amounts.

    FMCSA Does Not Have a Reliable Method to Detect Illegally 
``Reincarnated'' or ``Chameleon'' Motor Carriers from Restarting 
Operations under a False Identity: At present, it is simply unknown 
what is the number of illegally operating carriers that have restarted 
their trucking and motorcoach companies as new entrants to mask prior 
operations, and to avoid paying large fines and complying with out of 
service orders.
    It has become increasingly apparent that FMCSA's methods of 
detecting whether a motor carrier is legitimately registered with the 
agency and has legal operating authority are unreliable and unsafe. 
Thousands of motor carriers subject to heavy fines from repeated, past 
violations and even given stop operations orders sink out of sight and 
then re-appear as supposed new entrants seeking registration and 
initial operating authority from FMCSA.
    In 2008, the horrific crash of a motorcoach in Sherman, Texas, 
resulted in the deaths of 17 passengers and injuries to the driver and 
the other 38 passengers. As referenced previously in this testimony, 
the motorcoach was operated by Angel Tours, which had been stopped from 
operating by FMCSA just weeks prior to the crash but continued to 
operate under the new name Iguala Busmex. Angel Tours had an extremely 
poor safety record and had been ordered by the agency to cease 
operations.\78\
---------------------------------------------------------------------------
    \78\ Highway Accident Report--Motorcoach Run-Off-The-Bridge and 
Rollover, Sherman Texas, Aug. 8, 2008, NTSB/HAR-09/02, http://
www.ntsb.gov/publictn/2009/har0902.htm.
---------------------------------------------------------------------------
    The NTSB investigation found that the numerous safety violations of 
the motorcoach and its drivers were a continuation of the company's 
exceptionally poor safety record when it registered with FMCSA as a new 
company. NTSB determined that FMCSA processes for vetting new entrant 
carriers through the use of its New Applicant Screening Program were 
inadequate for identifying the motorcoach company as an operation that 
had deceptively re-incorporated--a ``reincarnated'' or ``chameleon'' 
carrier--to evade agency enforcement actions. That failed screening 
process had allowed hundreds of motorcoach and trucking companies to 
escape detection as illegal, new motor carriers.
    In a separate study, GAO tried to determine the number of 
motorcoach carriers registered with FMCSA as new entrants in FY 2007 
and FY 2008 that are substantially related to previous companies or 
are, in fact, the same companies that have ``reincarnated'' themselves 
as new operations. GAO found 20 motorcoach companies that had 
reappeared as new companies from old companies, representing about 9 
percent of 220 interstate motorcoach companies that FMCSA placed out of 
service during those two Fiscal Years. (These 220 companies are part of 
the approximately 4,000 motorcoach companies registered with FMCSA in 
FY 2008.) According to GAO, this percentage is probably an 
underestimation of the number of ``chameleon'' carriers in operation 
that have disguised their prior, unsafe operations to hide their 
reincarnation from the agency.
    FMCSA officials admitted to GAO that until the 2008 motorcoach 
crash in Sherman, Texas, reincarnating was easy to do and hard to 
detect. In fact, five of the 20 carriers identified by GAO were still 
operating in May 2009, and GAO referred them to the agency for 
investigation. GAO also found another 1,073 trucking companies that 
appeared to be reincarnated ``chameleon'' carriers, which FMCSA had not 
detected.\79\ Although FMCSA has instituted a new process for detecting 
such carriers, GAO has not evaluated its effectiveness.
---------------------------------------------------------------------------
    \79\ Motor Carrier Safety: Reincarnating Commercial Vehicle 
Companies Pose Safety Threat to Motoring Public--Federal Safety Agency 
Has Initiated Efforts to Prevent Future Occurrences, GAO-09-924, July 
2009.
---------------------------------------------------------------------------
    A follow-up study is badly needed to determine whether FMCSA's new 
procedures for detecting ``reincarnated'' carriers has made substantial 
inroads on the number of illicit trucking and motorcoach companies 
currently operating as new companies.
Recommendations:
  <bullet> Congress should direct FMCSA to require the principal 
        officers of each new entrant motor carrier to declare, on the 
        new entrant application, under penalties for perjury, that the 
        new entrant is not a reincarnated or previously operating motor 
        carrier with a different DOT registration number;

  <bullet> GAO should conduct a follow up investigation to assess 
        whether the FMCSA's new process for detecting ``reincarnated'' 
        carriers is effective.
Conclusion
    Creation of a new Federal agency to oversee motor carrier and 
motorcoach safety has not resulted in the rigorous oversight and 
enforcement that Congress directed and the public expected. Safety 
goals are not met but merely changed, rulemakings are routinely 
overturned in legal challenges because of faulty reasoning and illegal 
underpinnings, enforcement is sporadic and weak, and unsafe carriers 
and drivers continue to operate with near impunity. Every year 
thousands are killed and over 100,000 injured in truck crashes, every 
month on average there is a serious motorcoach crash, and every day 
tough safety regulations to combat driver fatigue, improve enforcement 
and train new commercial drivers are delayed. While we hope the new 
leadership team at DOT will set this agency on a new course, it will 
still be necessary for Congress to conduct constant oversight and 
provide clear direction to this agency if we expect any strong and 
sustained progress in reducing deaths and injuries. Advocates thanks 
you for your leadership and looks forward to working with you on 
advancing motor carrier safety.

    Senator Lautenberg. Thank you very much.
    Mr. Osiecki?

 STATEMENT OF DAVID J. OSIECKI, SENIOR VICE PRESIDENT, POLICY 
  AND REGULATORY AFFAIRS, AMERICAN TRUCKING ASSOCIATIONS, INC.

    Mr. Osiecki. Chairman Lautenberg, my name is Dave Osiecki, 
and I am the Senior Vice President for Policy and Regulatory 
Affairs for the American Trucking Associations.
    Mr. Chairman, we share your goal of keeping unsafe and 
unqualified operators off the road. My remarks will summarize 
my extensive written statement.
    At the outset, it is important to note that the trucking 
industry has made great strides and is the safest it has ever 
been. In 2008, the latest year for which data is available, the 
number of injuries and fatalities in truck-involved crashes 
reached their lowest level since the USDOT began keeping 
records. There were 1,166 fewer fatalities in 2008 than in 
1998, remarkable progress in light of the trucking industry 
operating 1.3 million additional trucks and 31 billion more 
miles in 2008 compared to 1998. I will also add that is the 
year just prior to FMCSA's creation.
    While this is excellent progress, we know we can do more. 
Improving motor carrier and highway safety is about 
understanding the behaviors that cause crashes and addressing 
the factors that raise crash risk. Future programs and 
Government-issued rules will only succeed to the degree that 
they address causation and actual crash risk. This should be a 
litmus test for new rules, programs, and new countermeasures.
    On the CSA 2010 initiative, ATA also shares its goals. It 
is a far more sophisticated system and one that we have 
encouraged. Conceptually it is very good because it is based on 
mainly on safety performance and it measures specific driver-
related behaviors. It is intended to better focus limited 
enforcement resources and it will provide real-time carrier 
safety performance ratings. ATA has a number of recommendations 
to further improve it.
    Number one, we are urging the agency to make crash 
accountability or causation determinations on truck-involved 
crashes before entering them into a carrier's profile. In other 
words, hold carriers and drivers accountable for crashes they 
cause.
    Number two, vehicle miles traveled in lieu of the number of 
trucks should be used as a carrier's exposure measure.
    And number three, FMCSA should focus on using actual 
citations and not unadjudicated warnings in the system. These 
changes will help FMCSA better target carriers and drivers most 
in need of Government intervention.
    Turning to hours of service, the rules are working and they 
should be retained virtually unchanged. The rules have been in 
place for 6 years now, and we all have the benefit of real-
world safety and operational data. Comparing 2008 to 2003, the 
year before the rules went into effect, there were 807 fewer 
fatalities in 2008 and 32,000 fewer injuries. This progress was 
made in 2008 versus 2003, even with more than one million 
additional large trucks on the road operating an additional 10 
billion miles. By providing a longer off-duty period between 
work shifts, the rules have provided greater opportunities for 
more restorative rest for drivers.
    ATA is seeking one of hours-of-service rule change, though. 
The rigid sleeper berth rule should be modified to allow 
limited flexibility. This would encourage greater use of 
circadian-friendly naps which promote safety and driver health.
    On the electronic on-board recorder issue, ATA supports the 
policy approach of targeting noncompliant companies with a 
remedial directive. It is a good first and incremental step and 
will allow FMCSA and the industry to capture additional data on 
the benefits of these devices to inform future regulatory 
actions on this issue.
    Moving beyond Government initiatives, ATA has developed its 
own safety agenda. All of our recommendations are included in 
my written statement, but I would like to briefly highlight 
three.
    Number one, ATA recommends a return to a national maximum 
speed limit of 65 miles per hour for all vehicles.
    Number two, the speed of all large trucks manufactured 
after 1992 should be electronically limited, or governed in the 
industry parlance, at a maximum speed not to exceed 65 miles 
per hours.
    And number three, ATA recommends 50-State implementation of 
FMCSA's selective traffic enforcement program, known as 
ticketing aggressive cars and trucks. It targets risky 
operating behaviors of both passenger and commercial vehicle 
drivers.
    ATA fully recognizes the political challenges over the 
years of enacting a national speed limit. However, if our 
Government does not have the political will to more effectively 
address speed and aggressive driving on our Nation's highways, 
we will continue to have a huge gap in our national highway 
safety strategy.
    A few final thoughts. A singular reliance on enforcement of 
rules, given the size and diversity of the trucking industry, 
will not allow us to achieve our shared safety goals. FMCSA 
should not just focus on regulations. It should develop tools 
and resources that help foster safety. Using the stick is 
clearly necessary for some, and ATA supports its use when 
appropriate. Using the carrot is far more effective for the 
majority. Government, working with industry, can facilitate a 
more effective approach by providing safety management tools 
like a drug and alcohol test results clearinghouse and a driver 
conviction notification system. These and other tools will help 
carriers more actively manage safety. We fully support Senator 
Pryor's Safe Road Act, S. 1113, which would establish a drug 
and alcohol results clearinghouse. Promoting a more active 
safety management approach will facilitate even greater safety 
improvements.
    Mr. Chairman, that concludes my remarks, and I thank you 
for the opportunity to testify.
    [The prepared statement of Mr. Osiecki follows:]

 Prepared Statement of David J. Osiecki, Senior Vice President, Policy 
      and Regulatory Affairs, American Trucking Associations, Inc.

Introduction
    Chairman Lautenberg, Senator Thune, members of the Subcommittee, my 
name is Dave Osiecki, and I am the Senior Vice President of Policy and 
Regulatory Affairs for the American Trucking Associations (ATA). ATA is 
the national trade association for the trucking industry, and is a 
federation of affiliated state trucking associations, conferences and 
organizations that together have more than 37,000 motor carrier members 
representing every type and class of motor carrier in the country. 
Thank you for the opportunity to testify.
    Mr. Chairman, today I will speak about the trucking industry's 
recent safety accomplishments and the remarkable long-term improvement 
in the industry's safety record. I will also talk about the need for a 
fundamental change in the government's approach to truck safety if we 
are to make further, significant safety gains. To bring about further 
meaningful improvements in truck safety, as a truck safety community, 
we need to move beyond the compliance and enforcement model to a more 
proactive safety management model.
    I will also discuss ATA's views on FMCSA's oversight programs such 
as CSA 2010 and rulemakings such as hours of service. Finally, I will 
introduce ATA's progressive safety agenda which, if adopted, will 
provide the tools to help the industry move beyond the current model to 
a more comprehensive safety management model that will help us achieve 
even more significant safety gains.

The Industry's Safety Record
    The trucking industry is the safest it has ever been and continues 
to get even safer. For example:

  <bullet> The truck-involved fatality rate has decreased 66 percent 
        since 1975, the first year the USDOT began keeping records.

  <bullet> Over the past decade alone, the truck-involved fatality rate 
        has dropped by 32 percent.

  <bullet> In actual numbers, there were 1,166 fewer fatalities in 2008 
        than in 1998--remarkable progress in light of the trucking 
        industry operating 1.3 million additional trucks and 31 billion 
        more miles in 2008 (compared to 1998).

  <bullet> The truck-involved injury rate has decreased 58 percent 
        since 1988, the first year USDOT began keeping records.

  <bullet> Over the past decade alone, the truck-involved injury rate 
        dropped by 39 percent.

  <bullet> In 2008, the truck-involved fatality and injury rates fell 
        to their lowest levels since USDOT began keeping statistics.

  <bullet> More importantly, in 2008, the number of injuries and 
        fatalities in truck-involved crashes reached their lowest ever 
        levels since USDOT began keeping records.

  <bullet> Comparing 2008 to 2003 (the year before the new hours-of-
        service rules became effective) there were 807 fewer fatalities 
        in 2008 (a 16 percent decrease), and 32,000 fewer injuries (a 
        26 percent decrease).
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Even with this excellent safety progress, some may try to minimize 
these accomplishments by telling this Committee, and the public, that 
large trucks are significantly over involved in fatal crashes. Should 
some organizations make this statement, it is inaccurate and extremely 
misleading. Allow me to explain.
    Some industry and government critics use truck registration figures 
as a measure of exposure, not truck mileage, which is the commonly 
accepted measure. Further, they choose not to point out that trucks 
have overall crash rates less than half that of other vehicles. 
Admittedly, when they do occur, truck crashes are generally more severe 
than light vehicle crashes, due to size and weight differences between 
large trucks and passenger vehicles. It is important to understand that 
trucks are not more likely to be involved in a crash, but truck crashes 
are slightly more likely to result in a fatality when they do occur. 
This is the case not because trucks are less safe, as some would have 
you believe, but due to Newtonian physics.

Necessary Steps for Continued Improvement
    ATA and the trucking industry is proud of its safety progress and 
we believe it is, at least in part, the result of many safety 
initiatives ATA has fought for--and achieved--over the past decades 
including mandatory drug and alcohol testing, the commercial driver's 
license program, and well-reasoned hours-of-service regulations based 
on sound science. Yet, truck safety is about more than regulations. It 
is about understanding the factors that create crash risk and the 
behaviors and events that precipitate (i.e., cause) crashes. It is 
about programs, countermeasures and preventive actions that truly 
address those risks and behaviors. Future FMCSA rules and programs will 
only succeed to the degree to which they focus on and address crash 
risk and causation.
    Later in this statement, following discussion of four current FMCSA 
initiatives, I will address the future steps ATA believes are necessary 
in order to make significant highway safety progress going forward.
Truck Safety Oversight--Current FMCSA Initiatives
    ATA appreciates this opportunity to offer its views on some of 
FMCSA's current truck safety oversight initiatives, specifically:

  <bullet> Comprehensive Safety Analysis (CSA) 2010

  <bullet> Hours of Service

  <bullet> Electronic Logging

  <bullet> New Entrant Carriers

1. Comprehensive Safety Analysis (CSA) 2010
    ATA generally supports the CSA 2010 initiative since: (1) it is 
primarily based on safety performance and behaviors rather than 
compliance with paperwork requirements; (2) focuses limited enforcement 
resources on specific areas of deficiency (rather than comprehensive 
on-site audits); and (3) will eventually provide real-time, updated 
safety performance measurements. In addition, FMCSA plans to employ 
root-cause analysis of safety problems during its interventions with 
carriers. In concept, CSA 2010 is very good and could have a positive 
impact on truck safety. However, the devil is in the details of this 
program, and ATA has a number of concerns with, and recommendations to 
improve, ``the details.''
    ATA has numerous improvement recommendations, but we are focused on 
the three outlined below. ATA believe changes and improvements in these 
three key areas will have the greatest impact on motor carriers and 
highway safety in general. ATA's intent in highlighting these areas and 
making the corresponding recommendations for improvement is to help 
ensure that relatively safe carriers are not selected for interventions 
and, more importantly, to ensure that unsafe carriers are selected.
    A. Risk Exposure Measurement--Power Unit Count vs. Vehicle Miles 
Traveled--With respect to carrier exposure, ATA's principle concern is 
that FMCSA is planning to use a count of each carrier's power units 
(i.e., number of trucks) as the measure of risk exposure rather than 
the total number of miles these vehicles travel. As a result, carriers 
who employ greater utilization of their trucks will have more true 
exposure to crashes and other safety related events, but will be 
compared to carriers who have less exposure--though the same number of 
trucks. This problem is especially acute for trucking companies that 
utilize team drivers to move expedited freight since their trucks 
travel more miles and, as a result, have more exposure to adverse 
safety events. ATA has been and will continue to urge FMCSA to use 
vehicle miles traveled as the exposure measure in CSA 2010.
    B. Crash Accountability--In measuring safety performance, CSA 2010 
considers all DOT-defined crashes in the scoring and ranking 
calculations--including those crashes for which the motor carrier and 
professional driver could not reasonably be held accountable. This is a 
significant problem in the system since many truck crashes are two 
vehicle crashes that are initiated by the actions of the driver of the 
other (non-commercial) vehicle involved. Accordingly, a carrier 
involved in a number of crashes for which it was not responsible is 
judged by CSA 2010 to be just as unsafe as a like-sized carrier who was 
involved in the same number of crashes--but caused them. ATA has been 
and will continue to urge FMCSA to make crash accountability 
determinations on DOT-recordable crashes, and use motor carrier-
accountable crashes in CSA 2010. This process should be in place prior 
to full-scale implementation.
    C. Warnings for Moving Violations--CSA 2010 counts all moving 
violations reported on roadside inspection reports, regardless of 
whether or not a citation was ultimately issued to the commercial 
driver for the violation. This presents several problems. First, since 
these are merely warnings, there is no due process procedure for 
drivers to challenge these violations. Second, in some states law 
enforcement officers must have probable cause in order to stop a truck 
and conduct a vehicle inspection. In these states, it is common 
practice for enforcement officials to stop trucks for very minor 
speeding offenses (e.g., 3 mph over the limit), and issue warnings as 
justification to conduct inspections. As a result, carriers operating 
in probable cause states are disproportionately impacted and are very 
likely to have worse driver violation scores than carriers who operate 
elsewhere. ATA is urging FMCSA to focus on using citation data in the 
system and discard ``warnings.''
    ATA has identified a number of additional problems with respect to 
how the proposed methodology will function. ATA's underlying concern is 
that the system will not reliably target truly unsafe carriers for 
intervention. However, we are generally supportive of the program since 
it focuses on performance-based information and strives to use the 
agency's limited resources to more efficiently impact unsafe motor 
carriers.

2. Hours of Service
    The current hours-of-service rules should be retained virtually 
unchanged. ATA's position is based on three primary tenets:

  <bullet> The current hours-of-service rules have provided more 
        restorative rest for commercial drivers. This has had a 
        positive impact on highway safety and has improved compliance 
        with the regulations;

  <bullet> Modifying the interdependent components of the rules in any 
        substantial way would likely negatively impact highway safety 
        by disrupting the circadian-friendly sleep patterns the current 
        rule has helped to establish; and

  <bullet> Changes in the rules that reduce productivity would have 
        significant economic consequences, upsetting the equilibrium 
        mandated by Congress and achieved by the current rules.

    While it was mentioned above, the excellent safety progress made by 
the trucking industry while operating under these new rules is worth 
repeating. Comparing 2008 to 2003 (the year before the new hours-of-
service rules took effect) there were 807 fewer fatalities in 2008 (a 
16 percent decrease), and 32,000 fewer injuries (a 26 percent 
decrease). In addition, in 2008 there were 49 fewer truck occupant 
fatalities (a 7 percent decrease) than in 2003. This progress was made 
in 2008 (versus 2003) with more than a million additional large trucks 
on the road operating almost 10 billion additional miles.
    In addition to this safety progress, the data and analysis the 
agency has developed over the past nearly 10 years on driver alertness 
and hours of service supports retention of the current rule, with one 
exception. ATA believes, as do the overwhelming majority of 
professional drivers, that FMCSA should modify the current sleeper 
berth provision (49 CFR, 395.1 (g)) to allow for additional, limited 
flexibility that will ultimately improve driver alertness and 
subsequently improve highway safety. Additional flexibility in the 
sleeper berth rule would encourage the use of short rest breaks which 
would promote safety and driver health by:

  <bullet> Encouraging circadian friendly naps (e.g., naps in the 
        afternoon);

  <bullet> Promoting shorter continuous driving periods;

  <bullet> Helping to reduce highway congestion; and

  <bullet> Increasing operational flexibility.

    Giving drivers limited flexibility based on their use of the 
sleeper berth would give them a useful tool to manage fatigue, avoid 
times of highway congestion, rest when they feel tired, and otherwise 
take actions that would improve the quality of the driving job. 
Research conducted since the current rules were issued suggests that 
such limited flexibility would ultimately further improve highway 
safety.
    On April 22, 2010, ATA filed extensive hours-of-service comments 
with FMCSA and, following today's hearing, we plan to share these with 
the Committee as further information.
3. Electronic Logging \1\
---------------------------------------------------------------------------
    \1\ The FMCSA refers to such devices as ``electronic on-board 
recording devices'' (EOBRs). However, this term is commonly used to 
describe comprehensive fleet management systems that do far more than 
simply monitor hours-of-service compliance. To distinguish these more 
comprehensive systems from the ones that FMCSA intended to address in 
this final rule, ATA uses the term ``electronic logging devices'' to 
describe devices that merely track hours-of-service compliance.
---------------------------------------------------------------------------
    ATA has, for years, supported a requirement that seriously non-
compliant carriers be mandated to install electronic logging devices. 
We applaud FMCSA's recently released final rule on this matter since it 
does just that. ATA also supports meaningful incentives for safe and 
compliant carriers to voluntarily adopt use of the devices. 
Unfortunately, the incentives offered in the final rule are weak, at 
best, and will do little to incent voluntary adoption of the devices.
    In our comments to the agency's proposed rule in 2007, ATA offered 
many suggestions for incentives FMCSA could offer that would be 
effective in promoting voluntary adoption. These incentives included 
scheduling flexibility that would allow carriers to extend the 14-hour 
on duty period up to 2 hours for rest and meal breaks, and additional 
flexibility for drivers using the split sleeper berth provision in the 
regulations. However, FMCSA seemed to dismiss these suggestions since 
there were neither acknowledged nor mentioned in the final rule.
    We also have some concerns with the technical and performance 
specifications for these devices as laid out in the final rule. For 
instance, the process for assigning driver identification numbers could 
lend itself to fraud. Further, the rule does not provide for a strong 
certification program to ensure that the devices are compliant and 
tamperproof. Finally, the design specifications require that the 
devices operate in such a wide temperature range that manufactures will 
have to make fairly radical, costly design changes for their devices to 
meet the new requirements.
4. New Entrant Carriers
    Oversight of new motor carriers is an important FMCSA function. ATA 
believes that new motor carrier owners, both interstate and intrastate, 
should be required to satisfactorily complete a safety training class 
before commencing operation. Further, safety training curricula should 
meet uniform standards nationwide. Finally, ATA believes FMCSA's 
initial safety inspection of a new motor carrier should be conducted 
within 6 months of when a carrier initiates operations, rather than in 
the current 18 month timeframe.

Crash Causation and Prevention
    FMCSA only regulates part of the highway safety equation: 
commercial motor vehicles. Yet the single largest factor impacting 
truck safety is the behavior of other motorists. Approximately 85 
percent of truck crashes involve other vehicles. Since FMCSA does not 
regulate the operation of all vehicles, it is encumbered in its efforts 
to reduce truck-involved crashes.
    As mentioned earlier, to truly be effective in improving commercial 
motor vehicle safety, FMCSA must address the primary causes of crashes. 
FMCSA's own research shows that in the majority of large truck/
passenger vehicle crashes, the driver of a passenger vehicle was the 
sole party cited for a related factor (e.g., speeding, failure to 
yield).\2\ Numerous additional studies have analyzed crash data and 
arrived at the same conclusion.
---------------------------------------------------------------------------
    \2\ Department of Transportation: Federal Motor Carrier Safety 
Administration, Report to Congress on the Large Truck Crash Causation 
Study, (2006).
---------------------------------------------------------------------------
    For instance, a University of Michigan Research Institute (UMTRI) 
study of 8,309 fatal-car truck crashes examined driver factors in these 
crashes and found that car drivers made errors in 81 percent of these 
crashes and trucks drivers 26 percent. Some would have you believe that 
these figures are slanted because in most instances the truck driver 
survives the collision to ``tell his side of the story.'' However, the 
same study looked at crashes where both drivers survived (but there was 
some other resulting fatality). The result: the driver error 
proportions for these crashes were very similar to the entire sample.
    In 2002, the AAA Traffic Safety Foundation sponsored research 
similar to the aforementioned UMTRI study. The AAA study analyzed more 
than 10,000 fatal car-truck crashes that occurred between 1995 and 
1998. This study, too, found car drivers to be disproportionately coded 
for related factors (e.g., speeding, failure to yield) in these 
crashes. Specifically, 80 percent of the car drivers had been 
attributed a related factor by the investigating officer while 27 
percent of truck drivers had been attributed a related factor in these 
events.\3\
---------------------------------------------------------------------------
    \3\ AAA Foundation for Traffic Safety, Identifying Unsafe Driver 
Actions that Lead to Fatal Car-Truck Crashes, Washington, D.C., (2002).
---------------------------------------------------------------------------
    In addition, two recent studies conducted by the Virginia Tech 
Transportation Institute (VTTI) collected data on 210 car/truck 
incidents using both video and non-video data. The evidence, much of it 
video, showed that 78 percent of these incidents were initiated by car 
drivers, while the remaining 22 percent were initiated by truck 
drivers.\4\
---------------------------------------------------------------------------
    \4\ Virginia Tech Transportation Institute, A Descriptive Analysis 
of Light Vehicle-Heavy Vehicle Interactions Using In Situ Driving Data, 
(2006).
---------------------------------------------------------------------------
    Since meaningful solutions to commercial motor vehicle safety 
require a focus on the primary causes of crashes, FMCSA should direct 
even more resources toward awareness, education and traffic enforcement 
programs to address the role of passenger vehicles in car/truck 
crashes. In light of the agency's statutory limitation on regulating 
only commercial motor vehicles, the agency must continue find new and 
creative ways to address this part of the truck-involved crash problem. 
FMCSA's ``Ticketing Aggressive Cars and Trucks'' program is one such 
program, albeit a small program, aimed directly at the high risk 
behaviors--those that cause crashes--of both car and truck drivers. 
This program that has been evaluated and shown to be effective. As a 
result, FMCSA should work to implement it as part of each state's motor 
carrier safety assistance program.
    Another means FMCSA has to impact truck-involved multi-vehicle 
crashes is to give motor carriers the tools to avert them. For example, 
regulatory or enforcement-related incentives to adopt crash avoidance 
technologies will give motor carriers the means to better prevent such 
crashes.
    As a matter of practice, the trucking industry holds itself to a 
very high standard with respect to crash accountability. Trucking 
companies evaluate each crash not merely to establish fault, but to 
determine if the crash could have been prevented in any way. In other 
terms, they must determine if the driver could have taken any action to 
have averted the crash. If the motor carrier finds that the accident 
was preventable (based on a set of uniformly accepted industry 
criteria), then the driver is held responsible for the crash. FMCSA's 
Safety Rating Methodology employs this same standard. Any crash that is 
preventable is counted against the carrier in FMCSA's Safety Rating 
Methodology.\5\
---------------------------------------------------------------------------
    \5\ 49 C.F.R., Part 385, Appendix B, Section II, Subsection B, (e).
---------------------------------------------------------------------------
    This is worthy of note because motor carriers recognize that the 
key to reducing crashes is finding ways to prevent them, regardless of 
fault. Congress and FMCSA must adopt this approach as well. In order to 
further reduce commercial motor vehicle crashes, as a community, we 
must recognize the scope of the problem, understand the primary causes 
of these crashes, and have the political will to put programs in place 
that address all parts of the truck safety equation.

The Regulatory Compliance and Enforcement Model
    Using the regulatory compliance and enforcement model in the future 
as the primary means to impact truck safety will yield limited returns, 
since it only addresses one of the many essential elements of an 
effective safety program. ATA recognizes that this model is necessary, 
and we support it. However, this model alone will be insufficient to 
achieve maximum results. Other safety interventions and 
countermeasures, beyond regulatory compliance, can address the main 
causes of crashes even more directly. Taking a broader approach to 
safety, that is, moving beyond a compliance and enforcement model, will 
enable even greater safety improvements.
    This broader approach must embrace a variety of solutions. 
Government and industry together can facilitate various active safety 
interventions, and in fact, some of these interventions depend on 
government and industry action in order to be implemented. In ATA's 
view, the most innovative and effective future oversight programs will 
be the ones that provide motor carriers with the tools to support 
carrier-based safety improvements.
    Here are some examples of FMCSA's current approach to truck safety 
oversight and how a broader approach to addressing true crash risk and 
the behaviors could be more effective.

Hours of Service
    The current hours-of-service rules are good rules and have 
facilitated safety improvements. As described above, ATA supports these 
rules. ATA is concerned, though, that FMCSA is too focused on 
regulating time on task (driving hours) as the principal tool to 
prevent fatigue-related crashes. Crash statistics show that the vast 
majority of fatigue-related crashes occur in the first 8 hours of 
driving (i.e., where the actual risk is), not at the end of the 
driver's shift, where relative risk may be higher but actual risk is 
miniscule. In light of this fact, focusing on driving hours and, more 
specifically, focusing on differences in risk between driving in the 
9th, 10th or 11th hour of a shift, largely misses the point.
    From the medical community ATA has learned that drivers with 
certain health issues and poor sleep hygiene habits are far more likely 
to suffer from chronic drowsiness. We also know that time of day, 
specifically the body's natural circadian rhythms, plays a greater role 
in driver alertness than time on task. FMCSA could more effectively 
address fatigue-related crashes by incenting carriers to implement 
wellness programs, to install alertness monitoring systems, and to 
develop fatigue management programs that help drivers understand and 
better manage circadian rhythms.

Drug and Alcohol Test Clearinghouse
    The current drug and alcohol testing regulations have helped to 
ensure that alcohol and drugs play a very limited role in commercial 
motor vehicle crashes. However, there is a well-known loophole in the 
current testing program that is being exploited by some drug-abusing 
drivers. When a driver moves from one trucking company to another, some 
``positive'' drug and alcohol test results are not being discovered by 
the hiring company because these ``positive'' results and the driver's 
work history are self-reported, and not centrally tracked.
    To close this loophole, ATA has, for more than a decade, advocated 
the development of a clearinghouse for positive drug and alcohol test 
results, so that drivers cannot evade the consequences of their actions 
by ``job-hopping,'' intentionally mis-communicating their work 
histories, or otherwise failing to remove themselves from service. 
However, until very recently, neither FMCSA nor the U.S. Department of 
Transportation's drug and alcohol policy office seemed to share ATA's 
urgency to create such a database, but instead focused its resources on 
verifying that motor carriers comply with minimum required random 
testing rates.

The Safety Management Model
    Today's safety professionals see compliance with safety rules and 
regulations as a single component of a more comprehensive safety 
management program. The most effective programs are founded on the 
principle that the best way to reduce accidents is to focus on 
individual behaviors that create the greatest risk. Most crashes are 
the result of personal judgments and poor decisions, not compliance or 
non-compliance with a regulation.
    If every driver were motivated by avoidance of government-imposed 
consequences, then the compliance and enforcement model would be 
adequate. Yet, individuals respond not only to rules, but to a sense of 
personal responsibility, personal enrichment and formal recognition. In 
other words, people generally respond better to the carrot versus the 
stick. Understanding this key principle, FMCSA could employ creative 
initiatives such as a formal recognition of safe drivers in its safety 
monitoring systems, advocating a special CDL designation for drivers 
with exemplary safety records, and the like.
    The National Safety Council promotes 14 Elements of a Successful 
Safety and Health Program. Of note, though, is that only one of these 
elements is directly related to regulatory compliance. In addition, 
FMCSA's own Motor Carrier Safety Advisory Committee has identified 20 
non-regulatory safety practices that can improve commercial motor 
vehicle safety. In short, both of these groups recognize that 
compliance alone is insufficient for maximum safety.
    To be even more effective in its mission, FMCSA should be creative 
in evaluating how it can provide tools and resources that will foster 
truck safety. For instance, FMCSA could gather and promote the most 
common and effective risk avoidance strategies employed by motor 
carriers. Also, the agency, with the backing of Congress, should 
develop programs that incent carriers to adopt advanced safety 
technologies such as collision mitigation systems, lane departure 
warning systems, electronic stability control and emergency warning/
braking systems.
    Another example is the development of an employer notification 
system. Under FMCSA's current compliance and enforcement model, safety 
investigators verify that motor carriers have obtained motor vehicle 
records on each of their drivers annually. Sometimes these records 
reflect violations that occurred as much as eleven months prior. To 
provide more timely information, ATA has advocated a nationwide 
employer notification system that would promptly alert a motor carrier 
each time one its drivers had been convicted of a moving violation or 
the like. Access to such timely information would go a long way toward 
helping motor carriers swiftly address problem behaviors before they 
impact safety.

ATA's Safety Agenda
    The highway system is the workplace of millions of hard-working, 
professional truck drivers. As such, it is ATA's role to take a 
leadership position in making our workplace safer. To that end, ATA has 
developed an aggressive safety agenda with the goal of further reducing 
the number of motor vehicle fatalities and injuries. The agenda is 
comprised of multiple recommendations that address the performance of 
both commercial and passenger vehicle drivers, safer vehicles, and 
motor carrier performance. These recommendations are as follows:

        1. ATA supports the safe use of technologies and encourages 
        drivers and/or motor carriers to consider a range of policies 
        and safeguards intended to reduce, minimize and/or eliminate 
        driver distractions that may be caused by the increased use of 
        electronic technologies (e.g., global positioning systems, 
        cellular phones, etc.) during the operation of all types of 
        motor vehicles. ATA strongly encourages and recommends that 
        manufacturers of these devices, vehicle manufacturers, 
        policymakers, motor carriers and organizations representing 
        motor carriers and the motoring public promote and adopt 
        awareness, training, and safety policies on the use of such 
        technologies--unless required by current laws or regulations--
        during the operation of a motor vehicle on our Nation's 
        highways.

        2. ATA recommends creation and implementation of national 
        performance-based commercial driver's licensing testing 
        standards that are more rigorous than current state standards. 
        CDL testing standards should be uniform across states and 
        oversight of third party testing entities should be 
        strengthened. Compliance monitoring of state CDL programs 
        should also require strict state compliance with the enhanced 
        Federal CDL standards. The existing Federal penalty should be 
        used to ensure state compliance with the new Federal testing 
        standards.

        3. ATA supports a study to evaluate the cognitive functioning 
        and behaviors of individuals between ages 18 and 25 that could 
        be used to establish criteria for graduated commercial driver 
        licensing.

        4. ATA recommends creation of more long-term truck parking as 
        well as smarter parking in places where there is an identified 
        shortage of parking.

        5. ATA recommends a national, maximum 65 mph speed limit for 
        all motor vehicles.

        6. ATA supports strategies to enhance the use of seat belts, 
        such as primary seat belt laws in all states; incentives and 
        penalties to motivate states to pass primary seat belt laws; 
        audible reminders for seat belt use in commercial vehicles; 
        contrasting colors for seat belts so law enforcement can 
        quickly identify non-users; state adoption of the failure to 
        wear a seat belt defense; and denial of workers compensation 
        for drivers who fail to use seat belts. ATA recommends 
        exploring incentives and penalties that will motivate states to 
        pass primary seat belt laws.

        7. ATA recommends 50-state implementation of an education and 
        enforcement program, such as Ticketing Aggressive Cars and 
        Trucks, that targets the risky operating behaviors of both 
        passenger and commercial motor vehicle drivers.

        8. ATA supports enforcement using red light cameras and 
        automatic speed enforcement for all vehicles deployed in high-
        risk zones, such as high-crash intersections, school zones and 
        work zones, to reduce crash rates. Motor carriers must receive 
        timely access to data and photos of the power unit and the 
        driver. ATA opposes deployment of enforcement technology for 
        the purpose of revenue generation.

        9. ATA supports graduated drivers licensing for non-commercial 
        teen drivers and wants to ensure states have good, uniform 
        standards for graduated driver licensing.

        10. ATA affirms that members support .08 g/dl. or less as the 
        legal limit for blood alcohol content (BAC) for passenger 
        vehicle drivers and .04 g/dl. or less as the legal limit for 
        commercial drivers (CDL holders). Further, ATA supports 
        alignment with leading safety advocates on alcohol safety 
        topics such as administrative license revocation, ignition 
        interlock devices, and open container laws.

        11. Although ATA does not have a position on setting speed 
        limiters or engine control modules (ECMs) for passenger 
        vehicles, ATA recommends that states consider setting the speed 
        limiters on the vehicles of drivers with certain driving 
        convictions.

        12. The speed of all electronically governed class 7 and 8 
        trucks manufactured after 1992 used in commerce should be 
        governed at a maximum speed not to exceed 65 mph. Speed 
        limiters on newly manufactured class 7 and 8 trucks should be 
        made more tamperproof.

        13. ATA supports crashworthiness standards for newly 
        manufactured class 7 and 8 trucks, and a relative scale against 
        which to measure a truck's crashworthiness.

        14. ATA supports a mandatory national employer notification 
        system and recommends development of a standard protocol 
        specifying type, format, and frequency of information required 
        to be transmitted from the states. Violations/offenses to be 
        reported to the states should also be standardized. States 
        should be required to fully participate in this national system 
        and provide information in a timely fashion. The retention 
        period for violations/offenses on a driver's motor vehicle 
        record should be left to the state's discretion.

        15. ATA recommends creation of a national clearinghouse for 
        positive drug and alcohol test results (this has been ATA 
        policy since 1999). Prior to hiring an employee, employers 
        would be required to check with the clearinghouse for an 
        applicant's failed tests and previous refusals to test.

        16. ATA supports creation of the National Registry of Certified 
        Medical Examiners provided the certification requirements are 
        not unduly burdensome, the supply of examiners is sufficient in 
        all areas of the country, and the system allows for information 
        sharing among examiners.

        17. ATA recommends following, shepherding, and stewarding the 
        safety benefits of the Driver Information Resource (DIR). ATA 
        recommends carriers access this data for drivers and that they 
        access this data prior to hiring a driver.

        18. ATA recommends new motor carrier owners, both interstate 
        and intrastate, be required to satisfactorily complete a safety 
        training class before commencing operation. Safety training 
        curricula should meet uniform standards nationwide. The Task 
        Force also recommends that the Federal Motor Carrier Safety 
        Administration (FMCSA) safety inspection be conducted at 6 
        months rather than at the current 18 months. Further, the Task 
        Force recommends requiring new carriers to attach proof of 
        training to their application for a DOT number.

    For more details on each of our18 recommendations, see: http://
www.truck
line.com/Newsroom/Policy%20Papers/Safety%20Task%20Force%20Report.pdf
    ATA feels strongly that these recommendations should be acted on 
quickly, since they will have a certain, positive impact on highway 
safety. To that end, we are hopeful that these recommendations will be 
a component of the safety title of upcoming highway reauthorization 
legislation.
    However, if such legislation continues to be delayed due to other 
legislative priorities, we urge Congress to act expeditiously on a 
separate safety bill that incorporates these items, so that critical 
improvements to highway safety will not be delayed.

Conclusion
    Mr. Chairman, thank you for the opportunity to offer our views on 
how collectively we can further improve truck and highway safety. As I 
mentioned at the beginning of my testimony, the trucking industry is 
justifiably proud of its recent safety accomplishments as well as its 
excellent long-term safety improvement. While as an industry we will 
strive to continue this safety progress, it will be incremental at best 
if we don't have the political will to change the fundamental 
government approach to truck safety oversight.
    We must move beyond the current regulatory compliance and 
enforcement model as the primary means to improve truck safety. 
Instead, we must move toward an active safety management model that 
more directly attacks the main causes of crashes. This new model must 
be based on understanding the factors that create crash risk and the 
behaviors and events that precipitate crashes. It must also focus 
resources on giving motor carriers tools, like a drug and alcohol 
clearing house and an employer notification system, that will help 
motor carriers more effectively facilitate truck and highway safety 
improvement.

    Senator Lautenberg. Thank you.
    Mr. Spencer?

                   STATEMENT OF TODD SPENCER,

                   EXECUTIVE VICE PRESIDENT,

         OWNER-OPERATOR INDEPENDENT DRIVERS ASSOCIATION

    Mr. Spencer. Good morning, Mr. Chairman, Ranking Member 
Thune, and very distinguished members of the Subcommittee. 
Thank you for inviting me to testify on matters that are 
extremely important to our Nation's small business trucking 
professionals and professional truck drivers.
    I have been involved with trucking for more than 30 years, 
first as a driver and then as an owner-operator, and now as a 
representative for small business trucking professionals. I am 
currently the Executive Vice President of the Owner-Operator 
Independent Drivers Association, headquartered in Grain Valley, 
Missouri, just outside Kansas City.
    The majority of trucking in this country is small business, 
as 96 percent of all carriers have less than 20 trucks in their 
fleet, and 86 percent of the carriers have fleets of just six 
or fewer trucks. In fact, one-truck motor carriers represent 
nearly half of the total number of motor carriers operating in 
the United States. These small business motor carriers have an 
intensely personal and vested interest in highway safety as any 
safety-related incident may not only affect their personal 
health, but it could put them out of business. As such OOIDA 
sincerely desires to see further improvements in highway safety 
and significant progress toward the highway safety goals of 
this subcommittee and the Department of Transportation.
    I want to begin my comments by commending the Federal Motor 
Carrier Safety Administration and Administrator Ferro for 
holding the recent public hours-of-service listening sessions 
and for reaching out to drivers for their real-world 
perspective on what is needed and what is not. I hope the 
agency heard clearly that drivers need flexibility when they 
need to rest and flexibility to accommodate the unpredictable 
and grossly inefficient schedules of shippers and receivers. 
Some of those trucking stakeholders seem to delight in wasting 
drivers' time, and some large receivers have turned their 
unloading docks into profit centers. Drivers are not looking 
for more hours to work. They simply want to be productive and 
paid for the hours that they do work. That will not happen 
until all entities in the supply chain are accountable for 
their actions.
    We also believe that FMCSA's 2010 initiative could be a 
much better way to trigger safety audits than we have had in 
the past where large carriers with far from the best safety 
practices might not be audited for a decade or more. CSA 2010 
is a ways from being fully implemented, but it may end up as a 
particularly effective use of FMCSA's resources.
    We see virtually the opposite with the agency's new entrant 
audit program. The current congressional directive is that 
every new carrier be audited within 18 months of their being 
granted operating authority. I believe there are some 40,000 
new authorities granted each year. That means 40,000 new audits 
regardless of how safe motor carrier operations may be. We see 
this as a tremendous waste of the agency's scarce resources. We 
do not believe that any carrier, broker, or freight forwarder 
should be able to apply for and receive operating authority 
without thorough screening to verify that they will operate 
safely and in compliance with all applicable laws and 
regulations.
    While a cursory review is currently required by 
regulations, it is not effective. The bad guys know that. 
Unscrupulous carriers and brokers have been free to flaunt the 
safety rules and scam small and mid-sized carriers out of 
hundreds of thousands of dollars with little fear of 
repercussions. When it starts getting hot, they simply go out 
of business or apply for a new operating authority under a 
different name. Clearly thorough scrutiny by FMCSA needs to 
take place before an operator is allowed to begin.
    The first step toward achieving more improvements to 
trucking industry safety is a commitment by FMCSA to vigorously 
enforce all existing regulations governing motor carriers, as 
well as freight brokers and other transportation 
intermediaries. While we talk continuously about safety in the 
trucking industry, historically there has been an acceptance of 
the poor safety practices of large motor carriers. Similarly, 
there has been a lack of oversight of freight brokers and other 
transportation intermediaries that allows many dishonest 
entities to take advantage of small business carriers, forcing 
those truckers into choosing between safety and making enough 
money to support their families. It must be recognized that in 
trucking, economics and safety go hand in hand from the 
equipment aspect where a driver is unable to pay for repairs to 
his truck because he was not properly compensated despite 
delivering a load on time and in good order to unrealistic 
delivery schedules that put drivers in the position of driving 
while fatigued or violating hours-of-service regulations.
    FMCSA has jurisdiction over regulations that may be 
perceived as outside the safety purview, but in reality, 
regulations such as those governing lease agreements, loading/
unloading of trucks, and transportation intermediaries have a 
tremendous impact on safety. Those regulations are often 
directly related to the driver's bottom line.
    Unfortunately, since its inception, the FMCSA has placed 
little priority on enforcing these regulations being viewed as 
solely economic. In fact, in most instances, the agency has 
done little, if anything, to enforce those rules. This has 
resulted in a trucking industry where drivers and small players 
are regularly preyed on by dishonest entities who have little 
fear of recourse or reprisal from the trucker they are 
essentially defrauding or the Government agency expected to 
oversee them.
    There is a chain of responsibility in safety, and FMCSA, in 
addition to being given the authority to properly govern it, 
must be given the resources to adequately enforce existing 
regulations. Enforcement priorities that ignore the 
relationship between highway safety and coercive demands of 
shippers, receivers, motor carriers, and freight brokers on 
drivers are impediments to our overall safety objectives. The 
demands and expectations of trucking stakeholders on drivers 
are far more influential on safety than any inspection scheme 
or schedule of fines that Congress or FMCSA may devise.
    Unless those economic issues are addressed, drivers who 
become disqualified from driving for violations and other 
safety regulations will simply be replaced by new, less 
experienced drivers facing the same economic pressures. It is 
only by addressing the underlying economic concerns that we 
will begin to see significant improvements to highway safety.
    Thank you.
    [The prepared statement of Mr. Spencer follows:]

     Prepared Statement of Todd Spencer, Executive Vice President, 
             Owner-Operator Independent Drivers Association

    Good morning Chairman Lautenberg, Ranking Member Thune and 
distinguished members of the Subcommittee. Thank you for inviting me to 
testify on matters that are extremely important to our Nation's small 
business trucking professionals and professional truck drivers.
    My name is Todd Spencer. I have been involved with the trucking 
industry for more than 30 years, first as a truck driver and an owner-
operator, and then as a representative for small-business trucking 
professionals. I am currently the Executive Vice President of the 
Owner-Operator Independent Drivers Association (OOIDA).
    OOIDA is a not-for-profit corporation established in 1973, with its 
principal place of business in Grain Valley, Missouri. OOIDA is the 
national trade association representing the interests of independent 
owner-operators and professional drivers on all issues that affect 
small-business truckers. The more than 156,000 members of OOIDA are 
small-business men and women in all 50 states who collectively own and 
operate more than 200,000 individual heavy-duty trucks. The Association 
actively promotes the views of small business truckers through its 
interaction with state and Federal regulatory agencies, legislatures, 
the courts, other trade associations and private entities to advance an 
equitable business environment and safe working conditions for 
commercial drivers.
    The majority of trucking in this country is small business, as 96 
percent of all carriers have less than 20 trucks in their fleet and 86 
percent of carriers have fleets of just 6 or fewer trucks. In fact, 
one-truck motor carriers represent nearly half of the total number of 
motor carriers operating in the United States. These small business 
motor carriers have an intensely personal and vested interest in 
highway safety as any safety-related incident may not only affect their 
personal health, but also dramatically impact their livelihood. As 
such, OOIDA sincerely desires to see further improvements in highway 
safety and significant progress toward the highway safety goals of the 
Subcommittee and the U.S. Department of Transportation.
    The first step toward achieving significant improvements is a 
commitment by the Federal Motor Carrier Safety Administration (FMCSA) 
to vigorously enforce all existing regulations governing motor carriers 
as well as freight brokers and other transportation intermediaries. 
While we talk continuously about safety in the trucking industry, 
historically there has been an acceptance of the poor safety practices 
of large motor carriers. There has also been an acceptance of labor 
abuses and perpetual violations of existing leasing regulations by 
motor carriers which has lead to industry wide problems such as high 
driver turnover rates and the inability to keep safe, experienced 
drivers in the industry. Similarly, the lack of oversight of freight 
brokers and other transportation intermediaries allows many 
unscrupulous entities to regularly take advantage of small business 
motor carriers forcing those truckers into choosing between safety and 
making enough money to support their families.
    It must be recognized that in trucking, economics and safety go 
hand in hand. From the equipment aspect where a driver is unable to pay 
for repairs to his truck because he was not properly compensated 
despite delivering a load on time and in good order to unrealistic 
delivery schedules that put drivers in the position of driving while 
fatigued or violating hours-of-service rules. There is a chain of 
responsibility in safety and FMCSA, in addition to being given the 
authority to properly govern it, must be given the resources to 
adequately enforce existing regulations.
    In addition to committing to enforcement, Congress and the FMCSA 
must formulate new rulemakings or modifications to existing regulations 
that will have a meaningful impact on the trucking industry and highway 
safety such as ensuring that hours-of-service rules hold all industry 
stakeholders accountable for their actions and mandating training for 
entry-level truck drivers. Optimum trucking and highway safety can only 
be achieved by holistically developing a safety culture that 
acknowledges the perspectives of people behind the wheel and accounts 
for all industry stakeholders.

FMCSA
    OOIDA and the trucking professionals we represent are encouraged by 
FMCSA's recent efforts to reassess its enforcement activities and to 
expand its understanding of driver perspectives. For example, the 
considerable time and effort that the agency put into its public hours-
of-service listening sessions should be commended.
    However, OOIDA believes that over the past several years the 
limited resources of the FMCSA have been somewhat misdirected in a 
manner that diverts enforcement priorities away from efforts that would 
have a much greater impact on highway safety. For many years the 
agency's enforcement priorities have placed an increasing emphasis on 
targeting drivers while largely ignoring the enforcement of many 
regulations related to corporate motor carriers and transportation 
intermediaries. While some progress has been made, this model of 
enforcement has kept the trucking industry from achieving its full 
safety potential. To reach that potential FMCSA must seek to enforce 
all regulations under its authority and Congress must be willing to 
expand the agency's jurisdiction to encompass all industry stakeholders 
who influence and compromise safety.
    You simply cannot divorce safe operations and safety compliance 
from the economic realities that truckers must face every day. While 
truck drivers certainly should be held accountable for their actions, 
the same should be true for the stakeholders who often have more 
control over truckers' schedules and activities than the drivers 
themselves.
    The Department of Transportation and the FMCSA have jurisdiction 
over regulations that may be perceived as outside the ``safety'' 
purview, but in reality regulations such as those governing leasing 
agreements, loading/unloading of trucks and transportation 
intermediaries have a tremendous impact on safety. Those regulations 
are often directly related to a driver's bottom line. Unfortunately, 
since its inception the FMCSA has placed little priority on enforcing 
regulations perceived as being solely economic. In fact, in most 
instances the agency has done little if anything to enforce those 
rules. This has resulted in a trucking industry where drivers and small 
players are regularly preyed upon by dishonest entities who have little 
fear of recourse or of reprisal from the trucker they are essentially 
defrauding or the government agency expected to oversee them.
    Enforcement priorities that ignore the relationship between highway 
safety and the coercive demands of shippers, receivers, motor carriers 
and freight brokers upon drivers are impediments to our overall safety 
objectives. The demands and expectations of trucking stakeholders on 
drivers are far more influential on safety than any inspection scheme 
or schedule of fines that Congress or FMCSA may devise. Unless those 
economic issues are addressed, drivers who become disqualified from 
driving for violating hours-of-service rules and other safety 
regulations will simply be replaced by new, less experienced drivers, 
facing the same economic pressures. It is only by addressing underlying 
economic concerns that we will begin to see significant improvements to 
highway safety.

Detention Time
    The excessive, uncompensated time truckers spend waiting to be 
loaded or unloaded at shipping and receiving facilities represents one 
of the greatest examples of how lacking regulatory enforcement and 
economic pressures within the industry impact a trucker's ability to 
comply with safety regulations. Time spent waiting to be loaded or 
unloaded was repeatedly identified by drivers and small motor carriers 
at FMCSA's public listening sessions as a major factor that must be 
addressed in order to have effective hours-of-service rules. In 
addition, excessive time spent waiting to be loaded or unloaded plays a 
major role in drivers' continued opposition to the use of electronic 
on-board recorders for hours-of-service enforcement.
    Under current hours-of-service regulations, the daily 14-hour clock 
begins to tick for a truck driver when the driver performs any on-duty 
activity, including those duties related to loading and unloading. 
However, unlike other industrialized nations throughout the world, most 
U.S. based drivers are not compensated by the hour but rather based 
upon the number of miles driven. This translates into drivers' time 
having essentially no value, particularly to shippers and receivers. 
Shippers and receivers also fall outside of FMCSA's authority and are 
not held accountable for their actions related to hours-of-service 
regulations.
    Shippers and receivers routinely make truckers wait for 
considerable amounts of time before they allow them to load or unload 
their trucks and drivers routinely arrive at loading facilities with 
little or no idea how long they will be there. Known in the industry as 
``detention time,'' most shippers do not pay for this time and have 
little financial or regulatory incentive to make more efficient use of 
drivers' time. It is common for a driver to pull into a shipping or 
receiving facility with no idea of whether he or she will be there for 
2 hours or for 10. In certain industries, it is not unusual for drivers 
to wait up to 24 hours before receiving a load. During this waiting 
time, it is nearly impossible for a driver to rest. Often, the driver 
must wait in line or be ``on call,'' ready to take the load and make 
the ``just-in-time'' delivery.
    To give you an idea of how significant the detention time problem 
is--industry surveys have estimated upwards of 40 hours per truck per 
week is wasted waiting to be loaded and unloaded. In fact, as a part of 
the Motor Carrier Efficiency Study the FMCSA identified loading and 
unloading as the most cited inefficiency in trucking--costing the 
industry an estimated $3 billion per year and society over $6.5 billion 
annually.
    Not only is excessive time waiting to be loaded and unloaded 
uncompensated, but it essentially steals the time that drivers have 
under the hours-of-service rules to do the work for which they are 
paid--driving the truck.
    In addition to the monetary cost, in research conducted for the 
Department of Transportation, excessive detention is often cited as a 
contributor to hours-of-service violations as well as driver fatigue. 
Because a driver's time is not accounted for by shippers, drivers are 
regularly put in the compromising position of having to choose between 
meeting scheduling demands or complying with safety rules such as 
hours-of-service regulations. Research shows that often, because of 
economic necessity and the structure of the industry, drivers feel 
pressured to not keep an accurate log book or to drive while fatigued. 
For example, a comprehensive study on shippers' role in driver 
regulatory compliance noted that waiting for freight to be loaded/
unloaded can ``impede a driver's ability to effectively meet schedules 
and lead to violation of HOS, driver fatigue and loss of income by all 
parties involved . . .'' (A Qualitative Assessment of the Role of 
Shippers and others in Driver Compliance with Federal Safety 
Regulations, 1998).
    The General Accountability Office is currently conducting a related 
investigation into the potential operational inefficiencies and safety 
problems associated with commercial motor vehicles that are detained at 
loading docks. The GAO is seeking to learn to what extent detention 
time affects trucking industry operations and safety as well as what 
Federal actions could be taken to reduce the implications caused by 
detention times on trucking industry operations and safety.
    From OOIDA's perspective, if the time spent by drivers waiting to 
be loaded or unloaded is contemplated and if compensation for excessive 
detention time begins to be negotiated or if shippers and receivers are 
held accountable under FMCSA regulations, the trucking industry and the 
American public will benefit from more efficient freight movement and 
dramatically improved highway safety.

Hours-of-Service
    To say the least hours-of-service regulations are significant to 
the men and women who make their living behind the wheel of commercial 
motor vehicles. Those rules have a major impact on the daily lives of 
truckers whether they are engaged in activities related to their 
livelihood or at home with their families. Truckers have appreciated 
FMCSA's genuine interest in hearing their thoughts and concerns as the 
agency works toward a new hours-of-service rule.
    To achieve significant safety gains as well as reduce non-
compliance, the next hours-of-service rule must be more flexible to 
allow drivers to sleep when tired and to work when rested. The rules 
must encourage truck drivers to get off the road when they are tired 
and must not penalize them for doing so. As such, the most important 
factor to consider as the next hours-of-service rule is devised is that 
the overwhelming majority of truck drivers governed by the rule are 
compensated only for driving even though they are expected to perform 
non-driving, uncompensated work that can consume considerable and 
unpredictable amounts of their on-duty time.
    Under the current hours-of-service regulations the 14-hour clock 
begins whenever a driver performs any on-duty activity after taking a 
compliant minimum rest. The remaining 10 hours of a 24-hour day is 
supposed to be reserved for resting. There are general and 
administrative functions that are required of drivers such as 
completing paperwork, fueling, undergoing safety inspections and 
general maintenance that require daily on-duty, uncompensated time that 
counts against their 14-hour on-duty clock. To some extent drivers can 
predict and control those duties, but there are many other activities 
that occur regularly that are also uncompensated yet highly 
unpredictable.
    Physically loading or unloading vehicles, manually sorting and 
stacking freight and taking care of mechanical breakdowns are a few 
examples of these unpredictable, uncompensated activities that count 
against the 14-hour clock. In addition there are the delays from 
congestion, work zones, detours and inclement weather which reduce 
earnings potential because again, drivers are predominantly paid by the 
mile and must count this time against their 14-hour clock.
    Considering all that they are asked to do, it is easy to understand 
that drivers want to get in as much compensated driving time as 
possible each day. In a survey done by OOIDA of its members, 66 percent 
reported that they forego short rest breaks, naps and meals under the 
14-hour rule in order to perform as much compensated driving time as 
they can. In fact most drivers report that they seldom drive more than 
10 hours per day, but still feel compelled to continue driving when 
they would like to take a break to compensate for either planned duties 
or unpredictable delays.
    Significant reductions in driver fatigue and non-compliance will 
not be achieved until drivers are paid for all of their work and 
drivers face no economic downside for complying with the rules. If 
drivers were compensated for both their driving and non-driving on-duty 
work, they would have much less incentive to drive while fatigued. 
Additionally, they would have every incentive to record all of their 
on-duty time, and concerns with the accuracy of logbooks would 
disappear.

Electronic On-Board Recorders
    If Electronic On-Board Recorders (EOBRs) could prevent the 
manipulation of a driver's work schedule and respect drivers' privacy 
rights, OOIDA would consider supporting their use for hours-of-service 
reporting. But for now, OOIDA's opposition to EOBRs remains unchanged. 
OOIDA remains convinced that EOBRs are no more a reliable or accurate 
record of a driver's compliance with the hours-of-service regulations 
than paper log books. In our collective mind there remains no rational 
basis for the economic burden and unreasonable imposition to personal 
privacy presented by requiring drivers to be monitored by EOBRs.
    The theory behind the use of EOBRs for hours-of-service enforcement 
is that the devices will provide an accurate, tamper-proof record of a 
driver's duty status and therefore ensure compliance with the hours-of-
service rules which in turn will make for a safer trucking industry. 
This theory is undermined by the fact that EOBRs cannot capture, 
without the driver's input, data related to the time a driver spends 
conducting on-duty, non-driving activities. The hours-of-service rules 
require a record to be kept of both driving time and all non-driving 
work activity (waiting to load and unload, inspecting/repairing the 
truck, performing the loading and unloading, looking for the next load, 
receiving a dispatch, doing paperwork, performing compensated work at 
another job, etc.). Even though an EOBR can record how long someone has 
operated a truck, if the driver does not manually enter his non-driving 
work time into the EOBR, the EOBR will show the driver as available to 
drive when he is not under the hours-of-service rules. In fact, EOBRs 
will still permit someone performing compensated work for a person 
other than the motor carrier to drive, without showing a violation.
    The EOBR's reliance on driver input means they provide a no more 
accurate or tamper-proof record of a driver's hours-of-service 
compliance than paper log books. The substantial costs of EOBRs, costs 
that would be especially burdensome to small businesses, cannot be 
justified by any perceived improvement in compliance. The costs also 
include those to personal privacy. The truck cab is the home away from 
home of most long haul truck drivers. They sleep, eat and conduct 
personal business in the truck while not driving. They have a 
legitimate expectation of privacy that must be afforded to them.
    OOIDA is also certain that EOBRs will make it easier for motor 
carriers to harass drivers. Congress required FMCSA to ensure that such 
devices would not be used to harass truck drivers. Unfortunately, the 
EOBR rule that was recently issued seems to ignore this requirement. As 
the agency knows, it must ensure that its safety regulations do not 
have a deleterious effect on the physical condition of drivers. The 
only evidence on the record regarding the potential health effects of 
EOBRs are the studies that show that electronic monitoring of employees 
can increase the stress of workers. EOBRs can be used to exacerbate 
driver fatigue as carriers will be able to notice whenever a driver has 
stopped their truck during their on-duty time. Perhaps the driver has 
decided to take a break and get rest. Such breaks do not suspend the 
running of the 14-hour work-day under the HOS rules. The carrier will 
be able to instantly instruct the driver to return to the road and 
maximize his or her driving time. Carriers will also be able to 
instruct drivers, whenever they want, to log their on-duty, not-driving 
work as off-duty, thereby preserving their on-duty driving time. Both 
practices remove what little discretion drivers have today to resist 
the economic pressure discussed above.
    OOIDA encourages lawmakers to seek solutions to motor carrier 
safety issues that are much less intrusive and much more effective such 
as mandating comprehensive driver training, resolving problems at the 
loading docks, revising methods of driver compensation, creating more 
flexible hours-of-service rules, and providing adequate truck parking 
in those areas around the country where drivers who wish to rest cannot 
find such parking today.

Driver Training
    An adequately trained driver is the key to any advances in safety 
goals. To this end, OOIDA has consistently been a strong proponent of 
Federal Government efforts to develop and impose mandatory driver 
training and licensing requirements for entry-level truck drivers.
    At present, FMCSA regulations require entry-level drivers to be 
trained in only four subjects--driver qualifications, hours-of-service, 
driver wellness and whistle blower protection--all of them unrelated to 
the hands on operation of a commercial motor vehicle. The Notice of 
Proposed Rulemaking published in 2008 would expand the required 
training for Class A drivers to include a minimum of 44 hours behind 
the wheel training in addition to 76 hours of classroom training, 
nearly all of it involving subjects pertaining directly to the safe 
operation of a commercial motor vehicle. The rulemaking also proposes 
the accreditation of driver training schools offering entry-level 
courses as well as the establishment of standards for ensuring that 
instructors at such schools are qualified to teach those courses. The 
goal of these regulatory revisions is to enhance the safety of 
commercial motor vehicle operations on the Nation's highways.
    Based upon on our continuing, firm belief that minimum training 
requirements for entry-level drivers will improve highway safety for 
all motorists, private as well as commercial, OOIDA very much supports 
the FMCSA's proposal to establish minimum training requirements that 
require a specified amount of behind-the-wheel training for entry-level 
drivers. OOIDA also believes that the effectiveness of such a training 
program can be ensured only if all facilities providing entry-level 
driver training programs are accredited by independent agencies and the 
instructors providing the training are required to meet relevant 
qualification standards. Accordingly, OOIDA also supports the agency's 
proposal to regulate training providers.
    We sincerely hope FMCSA will soon move forward with its rulemaking 
on driver training.

CSA 2010
    There has been much misinformation communicated within the trucking 
industry concerning FMCSA's Comprehensive Safety Analysis 2010 
initiative or ``CSA 2010.'' Much of the information seems to have 
purposely distorted the basic goal of this initiative--improving 
highway safety.
    For too long, drivers seem to have been the sole focus of 
enforcement at roadside. The large motor carrier community actually 
encouraged this one dimensional view because it allowed them to shirk 
their shared responsibility for having adequate safety management 
practices in place.
    CSA 2010 will hold a motor carrier immediately responsible for 
actions of their drivers on the highway. Once the initiative is fully 
implemented, motor carriers' safety ratings will be tied to actual data 
from roadside inspections as opposed to the current practice where they 
may face an introspective review of their safety practices once in a 
decade--if even then.
    For motor carriers that choose to continue with business as usual 
through insufficient training of their new drivers and failure to 
implement genuine preventive maintenance programs on equipment for 
which they own, CSA 2010 will very quickly be able to determine their 
indifference to good safety management practices. This is a significant 
improvement over the current system which really amounts to a ``catch 
me if you can'' and ``catch and release'' enforcement model.

New Entrant Safety Assurance
    As a part of its Congressionally mandated efforts to beef up its 
New Entrant Safety Assurance efforts, FMCSA is conducting safety audits 
of new entrant motor carriers within 18 months of their being granted 
operating authority. OOIDA believes that instead of conducting safety 
audits well after the granting of operating authority, FMCSA should 
focus its limited resources on gathering information during the initial 
application process to determine an applicant's ability to comply with 
regulations. Prior to granting operating authority, FMCSA can derive 
plenty of data regarding an applicant's ability to perform safely and 
comply with regulations from evidence of work experience, training, 
and/or knowledge of the industry. FMCSA should also enhance current 
protest procedures to encourage industry stakeholders, including 
States, to provide data and other information that could lead to a more 
informed authorization process. This larger body of information could 
be checked against existing DOT databases to identify ``chameleon'' 
carriers and brokers as well as other problem applicants and to deny 
them new authorizations.
    OOIDA believes it is wrong to lump all new applicants together 
either for pre-qualification testing or later safety audit purposes. 
OOIDA's experience assisting its members to obtain their first 
operating authority has shown that the majority of these new applicants 
are experienced commercial motor vehicle drivers with excellent safety 
records. They are stable business owners who have for many years been 
driving a truck as an owner-operator or employee driver and have, 
throughout those years, learned much about applicable safety 
regulations and effective safety management procedures.
    There's a strong correlation between a carrier's future performance 
and its past accident record. Thus, FMCSA should expand the application 
form to collect information that will help the agency to identify those 
applicants with poor crash records.
    All owners (whether individuals, partners or shareholders) as well 
as key personnel, especially including, but not limited to, those who 
will be responsible for safety compliance and management should be 
identified. Their past training, experience, and work histories should 
be listed on the application. Applicants should also explain briefly 
why they left each employer or, if they were self-employed, why the 
business was shut down. This information should go back at least 5 
years, and should not be limited to trucking experience as all work 
experience will help determine whether the applicant possesses the 
character and integrity to conduct safe trucking operations. FMCSA 
might also consider requesting the applicant's recent tax returns and/
or contracts and agreements as confirmation of the veracity of 
information provided.
    FMCSA could also enhance this pre-qualification review process by 
modifying current protest procedures to take full advantage of third-
party information about applicants. FMCSA's current practice is to post 
in the Federal Register a summary of the application (49 C.F.R.  
365.109(b)), which contains only the applicant's name and address, its 
designated representative, assigned number, the date of filing, and the 
type of authority requested. Interested parties, including States who 
would have a direct interest in keeping applicants with poor driving 
and accident records from receiving new authority, then have only 10 
days to request the full application and file a formal protest.
    It is our understanding that well over one hundred applications for 
operating authority are filed with FMCSA each day. Thus, the ten-day 
review and protest period is far too short to allow stakeholders an 
opportunity to contribute in a meaningful way to the decisionmaking 
process.
    All names, businesses, and equipment identified in an application 
or by protesters could then be checked against the substantial pool of 
information currently collected in DOT's various computer databases, 
such as MCMIS, PRISM, and CDLIS, to confirm past performance and crash 
history. Certain types of information, such as evidence that the 
applicant is simply seeking to evade prior enforcement actions or out-
of-service orders, or has a history of the 16 types of violations that 
now result in denial of permanent authority when discovered in a safety 
audit, should result in automatic denial of new entrant authority.
    The proposed pre-qualification investigation is analogous to that 
currently conducted and effectively used by the Federal Maritime 
Commission in its licensing process for ocean transportation 
intermediaries. Applicants must demonstrate not only that they possess 
the ``necessary experience'' in related activities but the ``necessary 
character'' to render such services. 46 C.F.R.  515.11(a)(1) & 
515.14. Further, the Federal Maritime Commission investigates the 
accuracy of the information, the integrity and financial responsibility 
of the applicant, the character of the applicant and its qualifying 
individuals, and the length and nature of the applicant's relevant 
experience, before granting a license.
    Such a thorough pre-qualification review process should eliminate 
problem applicants long before the current application and safety audit 
procedure might find them.

Distracted Driving
    Professional truckers are the safest drivers on the road per 
vehicle miles traveled. They have a vested interest in highway safety 
as their lives and livelihoods quite literally depend on it. Every day 
on roadways across America, professional truckers witness drivers 
operating vehicles while engaged in activities that significantly 
impede their ability to attend to the task of driving safely. 
Experience has shown these professionals that in particular drivers 
sending text or e-mail messages while operating a vehicle are a 
significant hazard to themselves and other roadway users.
    OOIDA supports government efforts to prohibit motorists from 
sending text or e-mail messages while operating a moving vehicle. While 
we applaud the FMCSA for moving forward with a rulemaking to ban 
interstate operators from texting or e-mailing while driving, we do 
have some concerns as to whether this ban will be equitably levied on 
motor carriers utilizing fleet management devices. The current 
rulemaking makes an unfounded assumption that fleets utilizing on-board 
management systems do so responsibly.
    Many of OOIDA's members who drive for larger fleets tell us a 
different story. Our members inform us that it is common for them to be 
messaged during their driving hours and in many instances, their 
immediate response is required--which they do while their vehicle is in 
motion. For example, I recently spoke with a member who desired to take 
a short nap during the middle of his duty cycle and was repeatedly 
harassed via his on-board dispatch system to ``return to driving'' 
otherwise he would not make the delivery on-time. He was effectively 
kept by his motor carrier from getting the short nap he felt he needed 
in order to perform his driving duties safely.
    Most everyone understands the danger in ``texting'' with cell-
phones or other handheld communication devices while driving. However, 
the reading and sending of alpha-numeric script from a fleet dispatch 
system also needs to be specifically prohibited otherwise the intent of 
the proposed regulation will be undermined.

Conclusion
    We are encouraged by FMCSA's recent efforts to reassess its 
enforcement activities and to expand its understanding of driver 
perspectives. We hope that the agency and this subcommittee recognize 
that enforcement priorities that ignore the relationship between 
highway safety and the coercive demands of shippers, receivers, motor 
carriers and freight brokers upon drivers are impediments to safety 
objectives, that the demands and expectations of trucking stakeholders 
on drivers are far more influential on safety than any inspection 
scheme or schedule of fines that Congress or FMCSA may devise and that 
only by addressing underlying economic concerns that we will begin to 
see significant improvements to highway safety.
    OOIDA and the hardworking men and women who comprise our membership 
sincerely desire to see further improvements in highway safety and 
significant progress toward highway safety goals of the Subcommittee 
and the U.S. Department of Transportation. To reach the trucking 
industry's full safety potential FMCSA must seek to enforce all 
regulations under its authority and Congress must be willing to expand 
the agency's jurisdiction to encompass all industry stakeholders who 
influence and compromise safety.
    Thank you again, Chairman Lautenberg and Senator Thune, for the 
opportunity to testify before the Subcommittee. I look forward to the 
dialogue, and will be happy to answer any questions that you may have.

    Senator Lautenberg. Thank you each for your testimony.
    There is, obviously, a conflict of views here. Frankly, our 
responsibility is to get to the end of the game, and that is to 
keep the trucking industry going. It is a very important 
element in terms of our commercial enterprise in this country--
but at the same time, we ought to be able to do it in a safer 
manner than we have and reduce the risk to the ordinary 
passenger on our roads by all kinds of factors.
    Ms. Gillan--and I will ask the same question of Mr. 
Spencer--large trucks take longer to stop, have higher rates of 
rollover, and cause tremendous wear and tear on our crumbling 
transportation infrastructure. Yet, some propose relaxing the 
ban on large trucks that weigh more than 80,000 pounds or are 
longer than 53 feet on our interstate highway system.
    What might be the impact on safety if we were allowed these 
bigger trucks back on our interstate highway system? I will 
first ask Mr. Spencer.
    Mr. Spencer. We do not believe the answer to productivity 
or efficiency or environmental issues is to make trucks bigger 
and heavier. The reality for the people that drive them today 
is there is not even any training required to get behind the 
wheel of a big truck. A state will give you a commercial driver 
license with virtually--well, I mean, actually with no 
training. As long as you can basically drive around cones, 
somebody will turn you loose----
    Senator Lautenberg. Mr. Spencer, is there a consequence on 
safety if we get these bigger trucks on the road? Is it a 
factor that we ought to be looking at?
    Mr. Spencer. We do not think it is a good idea to go bigger 
and heavier. Again, trucks are hard enough to handle by 
seasoned, professional, experienced drivers, and the way our 
business works is those seasoned professionals are very much on 
the chopping block. They leave the industry because the rewards 
are not there. The fair treatment they desire is not there--to 
be replaced with new people that may have dire consequences.
    Senator Lautenberg. But yet, there are lots of people who 
enter the profession independently, obviously, when 86 percent 
of carriers have less than six vehicles. So lots of people go 
into the business despite the anomalies that you talk about and 
apparently make a living doing so.
    Mr. Spencer. Trucking is blessed, I suppose, and cursed 
with unbelievably high turnover. The economic situation that we 
have been dealing with for the past 3 years has taken many, 
many, many people off of our highways. See, the people that are 
attracted to owning their own truck, to actually being in 
business themselves, are not lazy folks. They are not looking 
for an easy buck. Many of them have 20, 25, 30 years of 
experience and millions of miles of safe drivers.
    Senator Lautenberg. Well, I know they take these jobs 
because they are available and because they think they can make 
a living.
    Ms. Gillan, I started the question with what happens to 
safety if we allow these larger trucks on our interstate 
highway system. What is the risk that we put on our citizens?
    Ms. Gillan. Senator, there is a tremendous risk in allowing 
trucks to get heavier and longer. There is no question about 
it. Right now, large trucks are overrepresented. One out of 
nine highway fatalities is a result of a crash with a truck. In 
fatal crashes involving a large truck and a passenger car, 98 
percent of the fatalities that result from those fatal crashes 
are the occupants of passenger cars.
    I think what is interesting about this debate right now and 
the legislation you have introduced is that it is not only the 
safety groups that are supporting your legislation, but the 
drivers themselves. The drivers know that these large, 
overweight trucks are difficult to handle. They are difficult 
to stop. Right now, it takes a fully loaded truck the length of 
a football field to come to a complete stop. Why would we 
possibly want to jeopardize the safety of drivers and the 
public by allowing bigger and heavier trucks? And there are 
plenty of studies, which I am happy to submit, showing that 
bigger trucks are more dangerous.
    Senator Lautenberg. I wanted to ask Mr. Osiecki about 
hours-of-service. You say that the rule should remain 
unchanged. It contradicts almost every safety organization's 
view of the NTSB and the Federal courts. Does the trucking 
association really believe that increasing driver time by 30 
percent is an effective solution to fatigue?
    Mr. Osiecki. What we believe is that the rules are working. 
The rules have been in place for about 6 years, a little longer 
than that. In large part, the rules are working based on the 
data and the safety data because the rules have provided 
additional rest time.
    One of the things about fatigue is time on task or time 
spent driving is not a very good predictor of fatigue. What is 
a much better predictor of fatigue is how well a person rests, 
how they rested most recently, their most recent extended, what 
they call anchor sleep period, and also time of phase, 
circadian rhythm factors. Time on task or time driving is a 
factor, but it is about fourth or fifth on the list.
    Senator Lautenberg. Are you going to give everybody some 
sleep consulting and medical exam to see their sleeping habits? 
Come on.
    Mr. Osiecki. We support better sleep disorder screening.
    Senator Lautenberg. And the companies will pay for it. ATA 
will recommend the companies pay for that kind of service.
    Mr. Osiecki. Yes, sir. There are some companies paying for 
it today. There are some companies that are not paying for it 
today. But the point is that there are probably more efficient 
and more effective ways to address fatigue in the industry, and 
one is sleep disorder screening. Another one is effective use 
of fatigue management systems or fatigue management programs at 
the fleet level, and that is a recommendation that NTSB has 
made recently.
    Ms. Gillan. Senator, could I just add something to that? 
The trucking industry likes to claim that the decrease in truck 
fatalities is somehow related to the hours-of-service rule, but 
they do not acknowledge that the first 2 years that the hours-
of-service rule was in effect, truck deaths went up. And there 
is conclusive research showing that after the eighth hour of 
driving, that the risk of a crash for a truck driver increases 
dramatically. So these hours-of-service allowing 11 consecutive 
hours of driving and a 34-hour restart which allows a driver to 
drive upwards of 77 hours in 7 days are clearly contributing to 
fatigue, and that is frankly why the courts overturned----
    Senator Lautenberg. Mr. France, what do you think? You see 
the results out there on the highways.
    Mr. France. The results right now that we are seeing over 
the last several years seem to substantiate the fact that the 
hours-of-service that we currently have on board with the 14-
hour operating rule where you can only operate 14 hours and 
then you have to get out from behind the wheel and making them 
take 10 hours off has substantially increased our safety factor 
on the highway.
    Senator Lautenberg. Are these things observed? Are they 
really enforced?
    Mr. France. Yes, sir. They are being enforced. The current 
rules that are in place right now for law enforcement at 
roadside--it is a fairly easily enforceable rule.
    Senator Lautenberg. Do you think you ought to extend the 
hours-of-service?
    Mr. France. To extend what we currently have?
    Senator Lautenberg. Yes.
    Mr. France. My feeling is yes.
    Senator Lautenberg. So you would allow more of the drivers 
to be on the road, behind the wheel, for longer hours.
    Mr. France. No, no longer than what we are doing now. I am 
comparing with what we have.
    Senator Lautenberg. I just want to be sure on that record.
    What is the electronic on-board recorder cost, Mr. Spencer?
    Mr. Spencer. The on-board recorder?
    Senator Lautenberg. Yes, the EOBR.
    Mr. Spencer. An on-board recorder is simply a----
    Senator Lautenberg. No. How much might it cost to install?
    Mr. Spencer. Oh, initial cost likely for an operator would 
be a couple thousand dollars up front; ongoing costs of 
hundreds of dollars every year based on what is being projected 
now what a requirement would be.
    Senator Lautenberg. I have different information on that.
    Do you know anything about that, Mr. Osiecki?
    Mr. Osiecki. Thank you, Mr. Chairman.
    The range is somewhere between $500 and $2,000 depending on 
the system, $500 obviously being on the very low end with a 
very minimally functional device, the $2,000 device and perhaps 
even a little bit higher than that----
    Senator Lautenberg. What does a truck cost on average? Is 
there an average?
    Mr. Osiecki. It is north of $100,000.
    Senator Lautenberg. North of $100,000?
    Mr. Osiecki. Yes.
    Senator Lautenberg. And it might cost 500 bucks or 
something close to that, some $500 or $1,000 to install an 
EBOR? Does it compare to having extra windshield wipers in 
places or sufficient horns or lights? They are all safety 
issues and safety factors, are they not? I mean, why should 
this not be mandatory on vehicles to make sure we know the 
rules are being observed? Mr. Osiecki?
    Mr. Osiecki. The challenge that ATA and the trucking 
industry have regarding a universal mandate for every vehicle 
is not necessarily the cost. It is really about is this the 
most effective safety-related technology that we can adopt in 
the industry. And the reason I say that is because the 
challenge that the industry has is the same challenge that the 
FMCSA has in moving toward a universal mandate. The agency 
itself has done field operational tests of numerous safety-
related technologies, lane departure warning systems, collision 
mitigation systems, electronic stability control, and more, and 
what they found is there is a true safety benefit and a return-
on-investment for making the investment on some trucks. That 
same set of studies and field operational test does not exist 
for electronic on-board recorders, and it does not exist 
because the data is not there to demonstrate the safety 
benefits. I am not saying it cannot work, that it will not 
work, but it is just not there. And that has been the challenge 
for fleets when they have to make an investment decision in 
technology and that has been the challenge for FMCSA in moving 
toward a universal mandate.
    Senator Lautenberg. Well, safety is the issue. As I said 
earlier, the trucking industry is central in our society and we 
want them to work effectively and to prosper as well. But the 
question of lives on the highways is a whole different thing 
when we look at the thousands of people that we lost over a 10-
year period--what was that, Ms. Gillan?
    Ms. Gillan. 55,000.
    Senator Lautenberg. 55,000 people. And we lost 58,000 in 
Vietnam. So it is a fairly substantial penalty that we pay for 
lack of safety.
    I am going to ask further questions later. I am running a 
little over time here. I call on Mr. Thune and then Senator 
McCaskill.
    Senator Thune. Thank you, Mr. Chairman.
    Mr. Osiecki, your written testimony is silent on the issue 
of truck size and weight, which is a safety issue as well as an 
economic one. What is ATA's position with respect to 
productivity in the next highway bill?
    Mr. Osiecki. Well, thank you, Senator.
    We certainly support an open debate on this issue. We think 
a ``just say no'' answer is not appropriate. We do support 
increased productivity for trucks. We support, certainly in the 
western States, a harmonization of longer-combination vehicles, 
or LCV, regulations at that regional level. We support a number 
of other more productive initiatives for a couple of reasons. 
We do not think safety and more productive trucks are mutually 
exclusive. We think that they can be used in harmony. They are 
harmonious. In fact, many fleets--in fact, many of the larger 
fleets in this country have demonstrated that over and over 
again with their use of LCVs and larger trucks. There are a 
host of types of configurations being used today that are being 
done safely.
    While some have suggested there are reams of studies and 
volumes of studies that indicate safety problems, really it is 
the reverse. The most recent Federal Highway Administration 
study indicated that LCVs or more productive trucks, are a 
safer vehicle when they are used in a controlled environment. 
The Ohio and Indiana situation is a good example where you have 
a lane and it is limited access. It is with operational 
controls. And the safety of those larger trucks are terrific. 
In fact, the safety record is more than 100 percent better. The 
crash rate is half of the typical truck configuration in that 
lane.
    So there are a lot of opportunities for safety. There are 
opportunities for environmental and economic benefits, but most 
importantly, we would not be advocating greater use more 
productive trucks if we did not think that they could be done 
in a safe and responsible way.
    Senator Thune. And is that pretty much a consensus position 
in the trucking industry?
    Mr. Osiecki. That is a terrific question. That has been a 
challenge, and in large part, I would say yes. There are 
pockets of the industry that do not necessarily agree with 
that, but the majority do, yes.
    Senator Thune. Are there provisions in the chairman's bill, 
his proposal, that ATA supports?
    Mr. Osiecki. That we do support?
    Senator Thune. Yes.
    Mr. Osiecki. For the most part, no, sir.
    Senator Thune. What is your view about the appropriate role 
for EOBRs in motor carrier safety?
    Mr. Osiecki. As I mentioned in my oral statement, as well 
as the written testimony, we think that the step that FMCSA has 
recently taken is a good first step. It is a good incremental 
step. It targets the noncompliant folks, and gets them into 
compliance. We can better develop the performance 
specifications for the devices. We can collect data as a result 
of this rule, and that data, we believe, can inform future 
rulemakings on this issue, perhaps moving toward a universal 
mandate. But again, the safety data is not there to justify 
that at this point.
    Senator Thune. Mr. Spencer, the new rule on EOBRs would 
only require carriers with a serious history of hours-of-
service violation to have them installed. Is your organization 
opposed to EOBRs even for carriers with a history of hours-of-
service violations?
    Mr. Spencer. No, we do not oppose the agency's actions in 
those areas. Obviously, if you have problems with violations, 
that can simply be just another penalty and perhaps a 
deterrent.
    But, you know, the point that I want to make on EOBRs is 
that there is no safety data to show that they enhance highway 
safety. They cannot tell if a driver is sleepy. They cannot 
tell if a driver needs to rest. They cannot tell whether a 
driver is off duty or whether he is physically handling 44,000 
pounds of cargo. They are no more reliable than the paper logs 
that they would replace.
    And to get to the issue of cost, absolutely they would have 
the greatest cost impediment on the small business people we 
represent, which are most of truckers in the country, including 
South Dakota and everywhere else. We think if we are going to 
ask people to spend thousands of dollars and a continuing cost, 
that there should be a safety benefit to them. It is simply not 
there.
    Senator Thune. Ms. Gillan, in your written testimony, you 
attribute the declines in truck crash fatalities to a decline 
in freight demand. Do you agree that the rate of fatal truck 
crashes, as measured per one hundred million miles of travel, 
has also declined, from 2008 compared to 2007, by about 12.2 
percent?
    Ms. Gillan. I agree that we have made some progress, 
Senator Thune, in reducing the fatality rate. It still remains 
the fact, though, that the truck fatality rate is still twice 
what the passenger vehicle fatality rate is. So while we have 
made some progress, is it enough? Absolutely not. And I think 
that we need to do more.
    And we also need to keep in mind that the fatality rate is 
based on 100 million miles of truck travel. Those are estimates 
by the agency. Reporting that information is voluntary by the 
states. So I think we always have to also look at the number of 
fatalities we have. Now, we have had a drop. As I said, in our 
testimony we have a chart showing that overall highway 
fatalities have dropped. That always happens in a recession. So 
we cannot let this drop in fatalities in any way take our eye 
off the ball of advancing truck safety.
    Senator Thune. While the rate is not satisfactory, I guess 
independent of the drop in freight as a result of the economic 
circumstances the country is in, but would you agree that at 
least the trend is in the right direction?
    Ms. Gillan. Yes, absolutely, and we support that and we 
want that to continue.
    Senator Thune. Your organization also contends that the 
hours-of-service rule that was adopted in 2003 is unsafe, and 
yet the rate of fatalities and injuries and crashes that 
involve large trucks steadily declining. What is the basis for 
that assertion that the rule is unsafe?
    Ms. Gillan. Well, the fatality rate is declining, but it 
does not have any relationship to the hours-of-service rule. I 
mean, to try to make that connection that for some reason 
allowing truck drivers now to drive 77 hours in a week has some 
way contributed to this drop--is absolutely supplied by 
Advocates and other safety groups would say absolutely not. 
When the courts overturned that rule in a scathing opinion, 
they questioned and criticized the agency.
    We have firm research showing that after 8 hours of 
driving, the risk of a crash increases dramatically. We have a 
whole body of research. We have an FAA that is working to 
reduce the number of hours of a pilot in the cockpit because of 
fatigue, and yet, in the trucking industry and over at FMCSA, 
we issued a rule that allows a truck driver to drive 77 hours 
in a week, which is almost a 30 percent increase over the old 
hours-of-service rule.
    So our group is very concerned about this. At a time where 
the Department of Transportation has identified transportation 
worker fatigue as a top priority, increasing the number of 
hours that a truck driver can drive and work is not the answer 
to addressing fatigue.
    Senator Thune. I guess the only observation I would make is 
that--and your assertion about hours of service being what it 
is--the numbers still--I would say independent of the decline 
in freight demand--you still have a substantial decline based 
on 100 million miles of travel in that one-year period. So at 
least the trend is in the right direction notwithstanding the 
hours-of-service issue.
    Ms. Gillan. And as I said earlier, Senator, the first 2 
years that the hours-of-service rule was in effect, truck crash 
deaths went up. So I guess if I thought that there was a 
connection, you could argue that the hours-of-service rule 
caused the increase in fatalities. However, in that case, the 
trucking industry said, oh, no, that is not the reason. So I 
think we have to separate those two issues.
    Senator Thune. One last question, Mr. Chairman, for Mr. 
France, and that is, what can be done to simplify and harmonize 
the Federal truck size and weight limits?
    Mr. France. To be honest with you, I cannot really speak to 
that because I do not have all the details. But as an 
association, we would be more than glad to get back with this 
committee with that information. Like I said, we support the 
fact that right now, until there is more data on board, we do 
not raise our size and weight limits on the highways because I 
do not think we are ready personally to do that.
    Senator Thune. OK, very good.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Thank you.
    Senator McCaskill?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman.
    I would like to look at the safety issue from the 
perspective--and, Mr. Spencer, I would like you to comment on 
this--about the practice in this industry to pay for miles 
driven as opposed to hours. Clearly that is contributing to 
this problem. Loading and unloading time is, in fact, 
uncompensated according to what I have learned from your 
testimony. Is that correct, Mr. Spencer?
    Mr. Spencer. That is correct. You know, I have tried to 
characterize--somewhat describe it as the problem it is. But I 
mean, there are drivers that lose 30, 40, 44 hours a week just 
waiting to get loaded or unloaded. Now, this is all 
uncompensated time. Then after putting in all of those hours, 
then they have to go out and try to drive. If the only way they 
get paid is for miles driven, then you can understand how long 
that workweek is.
    Senator McCaskill. Yes. I had never really thought about it 
from that perspective. I assume if you are waiting 10 or 14 
hours to load, you cannot take a nap during that period of 
time. Correct?
    Mr. Spencer. In most instances, you cannot do that. Again, 
this time is unpredictable. We have talked a lot about 
efficiencies, finding ways to make the industry more efficient. 
That is the most inefficient way to use human resources ever, 
and the problem is not getting better on its own and it is not 
going to get better on its own.
    We talk about safety. We talk about why do we have these 
people that work too long, that drive too hard, that drive too 
fast. Well, how do we pay them? We only pay for miles that they 
drive. Why do you think they want to do that?
    Senator McCaskill. Right. If the only way you get paid is 
to drive miles, then we are incentivizing the system to drive 
as many miles as possible as opposed to compensating drivers 
for the time they are spending working at their job. Right?
    Mr. Spencer. It makes all the sense in the world to me, and 
of course, the reality is--there are economic incentives or 
disincentives to wasting a driver's time. Well, the practice 
ceases. Drivers become much more efficient. Costs can even go 
down, costs to customers, to society. But again, it is doing 
things a little different than we have historically done it, 
but it is what we have to do.
    Senator McCaskill. Let me clarify. The loading and 
unloading time does not count toward the 14 hours?
    Mr. Spencer. It should if it is recorded as loading and 
unloading time.
    Senator McCaskill. But that is where somebody is going to 
fudge.
    Mr. Spencer. Because if a driver is not going to be 
compensated for that time, there is going to be a tremendous 
temptation----
    Senator McCaskill. Incentive to not count it.
    Mr. Spencer.--15 minutes.
    Senator McCaskill. And that electronic on-board recorder is 
not going to help you for your loading and unloading time.
    Mr. Spencer. Not in the least.
    Senator McCaskill. There is no way that the electronic on-
board recorder is going to be able to capture how many hours 
someone is spending before they get in the cab of that truck 
getting either loaded or unloaded?
    Mr. Spencer. It cannot tell the difference. The only thing 
it can tell is if the truck is moving.
    Senator McCaskill. Right.
    And, Ms. Gillan, what about that? What about us going to a 
compensation model for hours worked as opposed to miles driven 
as a step forward on safety?
    Ms. Gillan. Senator, Advocates does not have a position on 
that, but I work with a lot of the truck safety groups. 
Clearly, we have set up a situation, as you have aptly 
described, by paying truck drivers by the hours, not only do we 
encourage them to drive as far as they can, but also----
    Senator McCaskill. By the miles you mean.
    Ms. Gillan. By the miles, but also drive as fast as they 
can. And I think that if the compensation was changed and truck 
drivers were paid for overtime, if they were paid for loading 
and unloading the truck, that would be a significant step 
forward in addressing truck safety.
    Senator McCaskill. And, Mr. Osiecki, are you all opposed to 
paying by the hour as opposed to miles driven? It seems like to 
me we could avoid a lot of problems here because what we are 
doing is incentivizing unsafe conduct. We are incentivizing the 
way the system is set up.
    Mr. Osiecki. Thank you, Senator.
    I guess the first thing I would say is there is not a 
single silver bullet in the truck safety equation. It is not 
driver pay. It is not hours of service. It is not EOBRs. It is 
not one single thing.
    But getting to your question, we are not aware of any study 
that links a particular method of driver pay to improved safety 
outcome in the trucking industry. I am aware of one case study, 
and it is a fairly significant and large case study, that 
looked at a large truck-load company that raised driver pay, 
per-mile pay, and got an improved safety outcome as a result of 
raising driver pay, and they got it because it reduced their 
turnover rate. Drivers stayed with the company longer because 
they were getting compensated better, and that resulted in an 
improved safety outcome because historically older, more 
experienced drivers are better, safer drivers in this industry. 
So that is a case study that is meaningful.
    But in terms of method of pay, there is nothing that we are 
aware of out there that says a driver paid by the hour versus 
paid by the mile versus paid by the percentage of the load or 
any other method is better than the other.
    Senator McCaskill. You know, maybe because nobody wants to 
switch to paying by the hour, nobody has done that case study, 
and the drivers in this industry are the people who are paying 
these trucks to drive. I would certainly encourage someone to 
do that study because that would also contribute, I think, to 
less driver turnover because these folks are ground down by 
only being paid by how far and how quickly you go. The faster 
you go, the more miles you can drive within the set period of 
time.
    It just seems common sense would dictate that if we could 
look at paying hourly, because none of these people are lazy 
people--it is not like these drivers are, all of a sudden, 
going to put their feet up and not do the job. I just think it 
would be time--and I would encourage everyone who cares deeply 
about truck safety to try to motivate some carrier to look at 
payment by the hour as opposed to miles driven and do that case 
study. I just don't think there has been a motivation in the 
system to even study it because the money driving the system 
does not want it. That is what I think.
    Would you disagree with that assessment?
    Mr. Osiecki. No, I would not disagree but I would simply 
add that in the National Master Freight Agreement, there is 
actually a difference between over-the-road driver pay and 
local driver pay or pick up and delivery driver pay. Over-the-
road is paid by the mile. Local pick up and delivery are paid 
by the hour. And there is a reason for that. It is because of 
the differing operating environments do not allow a pick up and 
delivery driver to really make any money by the mile. He gets 
paid much more money being paid by the hour. The over-the-road 
makes more money getting paid by the mile. And I am not 
intimately familiar with the agreement, but I will tell you 
there is a distinction in the Teamsters agreement today which 
may form the basis for taking a look at this issue. But, again, 
there is not much there.
    As I remarked earlier, we really need to make policy 
decisions based on data, good data, good analysis, what causes 
crashes, what raises crash risk, and right now we do not have 
that in this arena.
    Senator McCaskill. Well, I would be happy to visit with the 
Teamsters about that. I think that everybody ought to cooperate 
and see if we could get a decent case study on paying by the 
hour because I think we are setting up a system for unsafe 
behavior just by the incentives that are inherent in it.
    One more question, if you do not mind, Mr. Chairman, to Ms. 
Gillan. Senator Thune asked Mr. France about a common-sense 
approach in terms of uniform lengths and weights for trucks on 
the interstate and national highway system. What about your 
perspective on that? I mean, would that not make it simpler 
just to have a uniform standard across the board?
    Ms. Gillan. Oh, absolutely, Senator. And that is why the 
safety groups are so strongly behind adoption of Senator 
Lautenberg's bill, which I know you have cosponsored.
    Senator McCaskill. Right.
    Ms. Gillan. In 1992, Congress passed legislation which put 
a freeze on the spread of triple-trailer trucks. That was a 
significant stop for truck safety where we allowed triple-
trailer trucks in the 12 States that already had them, but we 
prevented the spread across the United States. The legislation, 
S. 779, would do the same thing right now. Instead of letting 
the States race to increase weights and then come to Congress 
and say, oh, my gosh, you know, we have this patchwork quilt, 
we need to lift everybody's weights to 100,000 pounds, what 
that legislation does is say let us take a time out. Let us 
take a time out. We should not allow the weights on the 
interstate to go above 80,000. There is numerous research and 
data showing that they are dangerous. And that is what is 
important because if we do not call that time out right now, we 
will constantly be faced with different states wanting Congress 
to pass exemptions for them because they are unique, and then 
it puts pressure on other States. So that is why this 
legislation is really important and we really have got to stop 
that.
    Senator McCaskill. Thank you, Mr. Chairman. Thank you for 
your leadership on this issue.
    Senator Lautenberg. Thank you very much for your 
provocative thoughts.
    Living in New Jersey where I do, a lot of trucks used to 
come from the coal fields of Pennsylvania, and they would be 
individual operators trying to make as much money as they could 
and drive as far as they could to try and keep their families 
going. So the temptation on the other side is great.
    Mr. Osiecki, I have to thank you for your ringing 
endorsement of my bill.
    [Laughter.]
    Senator Lautenberg. I hear you talk the talk, but I am not 
sure I see walking the walk. What part does safety play in the 
agenda for the ATA? Do you think things are OK? Is that the 
general attitude?
    Mr. Osiecki. Thank you, Chairman.
    No. We have done pretty well. We can do better. We have a 
very extensive safety agenda that is not just about truck 
safety and not just about professional truck driver safety. It 
is really about highway safety because we all share the road, 
cars, trucks, SUVs, motorcycles. We really all do share the 
road. We drive the same interstates. And we can do better. We 
can reduce speed. We can limit the speed of trucks. We can 
better enforce our operating rules.
    Senator Lautenberg. I thought I heard you say increase the 
speed.
    Mr. Osiecki. No. We can reduce the speed.
    Senator Lautenberg. No. But did you not earlier say that in 
terms of a more efficient system, that we ought to increase 
speed limits to 65 miles an hour?
    Mr. Osiecki. We support a return to a national maximum 
speed limit of 65 miles an hour. And this is politically 
unpopular, but bringing the 80-mile-per-hour and the 75-mile-
per hour and the 70-mile-per-hour states back down to 65--and 
couple that with limiting large trucks to 65, electronically 
limiting those trucks so the trucks cannot go faster than that 
and then have greater enforcement of it. So that is a real 
issue in our highway safety strategy. It is a real gap. And it 
is not just about trucks. It is about all of us operating on 
our highway system, and we can do better.
    Senator Lautenberg. You are looking at 65 as a maximum.
    Mr. Osiecki. Yes, sir.
    Senator Lautenberg. Thank you all very much for your 
testimony.
    The record will be kept open. We will submit questions to 
you and would ask for your prompt response when you get a 
question. Thank you.
    [Whereupon, at 11:46 a.m., the hearing was adjourned.]


                            A P P E N D I X

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas

    I am very pleased that the Surface Transportation Subcommittee is 
holding today's hearing on motor carrier safety. The Commerce Committee 
reported legislation last December to address safety problems in the 
motorcoach sector of the motor carrier industry, but truck safety also 
requires our attention, oversight, and action.
    The good news is that the numbers in terms of fatalities and 
injuries involving large trucks are moving in the right direction. 
Between 1998 and 2008, there was a 16 percent increase in the number of 
registered large trucks, but the involvement rate for large trucks in 
fatal crashes declined 29 percent, and the involvement rate in injury 
crashes fell 36 percent. Still, nearly one in 9 fatalities on our 
highways in 2008 resulted from a crash involving large trucks, and when 
an accident between a passenger vehicle and a large truck occurs, the 
occupants of the passenger vehicle are most likely to be injured or 
killed.
    As we look ahead to reauthorizing the Federal Motor Carrier Safety 
Administration (FMCSA) as part of the next highway bill, this hearing 
will help us identify gaps and shortcomings in our truck safety 
programs. In this regard, I believe there is great commonality between 
the trucking and motorcoach industries. S. 554, the Motorcoach Enhanced 
Safety Act, for example, identifies new entrants and ``chameleon'' bus 
operators--operators taken out of service for safety violations who 
simply set up shop under another name--as carriers requiring 
significantly more scrutiny. The same holds true for the trucking 
industry, although the sheer number of new entrants annually in the 
trucking industry may dictate a somewhat different approach to the 
problem. Similarly, the motorcoach bill identifies a number of new 
technologies that could significantly contribute to motorcoach safety, 
including safety belts, electronic stability control, and advanced 
window glazing. While the specific types of technologies that could 
improve truck safety may be different, new technologies can certainly 
enhance truck safety, as the industry itself has acknowledged with 
respect to improved crashworthiness for cabs, lane departure warning 
systems, and collision avoidance systems.
    While today's hearing is focused on truck safety, I want to express 
my disappointment over the lack of progress being made at the 
Department of Transportation on its Motorcoach Safety Action Plan. Even 
though the Plan was issued just 5 months ago, FMCSA and the National 
Highway Traffic Safety Administration (NHTSA) are falling behind on a 
number of important initiatives. Of perhaps most concern is the delay 
in the Notice of Proposed Rulemaking (NPRM) to require seat belts on 
all motorcoaches. Originally scheduled for the first quarter of 2010, 
the NPRM has been delayed until the 3rd quarter of the year. These 
delays, which are not the first on these issues, are unacceptable, and 
make enactment of S. 554 in the near future even more essential.
    Thank you, Mr. Chairman. I look forward to working with you, 
Senator Thune, and Chairman Rockefeller on this and all of the safety 
programs that will be authorized in the next highway bill.
                                 ______
                                 
    Prepared Statement of Stephen Owings, President and Co-Founder, 
                           Road Safe America

    Class 7 and 8 trucks are involved in over 20 percent of all multi-
vehicle fatal crashes. About half of the 43,000 deaths occurring on our 
roads each year happen in single vehicle crashes, including nearly all 
of the crashes that kill professional truck drivers (approximately 1000 
truck drivers die on the job per year). Subtracting these 1000 deaths 
from the 5,500 total deaths per year involving heavy commercial trucks 
during the last decade means about 4,500 die in multi vehicle crashes 
involving large trucks annually. This reveals that the 3.5 percent of 
all vehicles that class 7 and 8 trucks represent are involved in over 
20 percent ( 4,500/21,500 total deaths in multi-vehicle crashes = 20.9 
percent) of all multi vehicle fatal collisions.
    Our organization has worked to reduce these statistics by 
recommending a number of logical changes, which have already been 
implemented in other ``first world countries'' around the globe.
    One is the call from NTSB for mandatory electronic logging. 
However, EOBRs as they have been implemented in this country do not 
appear to be the best approach. The system that is now being upgraded 
to its second generation in the EU does. It is a highly secure single-
purpose system that electronically logs time driven by each driver. Its 
simplicity makes it highly secure and accurate as well as inexpensive.
    Another crucial need is one that is nearly cost-free to the 
industry: requiring that every heavy commercial truck (class 7 & 8) 
manufactured since 1992, which is the year electronic speed limiters 
became standard equipment on all of these vehicles, program these 
devices to 65 mph or slower. Programming these devices to this speed, 
which is the average speed of all vehicles now on our highways, is not 
only safe, it's economical since the equipment is already on the trucks 
and the only cost is an incidental programming fee. Many leading 
companies already limit the top speed of their fleets to 65 mph or 
slower. They share that not only are their crashes, which their driver 
caused reduced along with all of the expenses associated with such 
events, but also they save money on fuel and maintenance since brakes, 
tires and engines all last longer at these top speeds. Please see 
attached letters of support from J.B. Hunt and Schneider National. 
Also, please note that Japan, Australia, the EU and recently the 
populous parts of Canada all have these requirements in place. The EU 
Governors are set at 56 mph. Interestingly, according to studies; 55 
mph is the most profitable top speed at which to operate a heavy truck 
. . .
    The insurance requirements for trucking firms must be brought up to 
date. They were set in 1980 and have stayed at those levels ever since. 
Please adjust them to reflect inflation during the past 30 years and 
require that they stay indexed to the CPI going forward. This one 
common sense change will go a long way toward getting reckless 
participants out of this inherently dangerous business and keeping 
``bad actors'' out going forward.
    We support the idea of tax credits for implementing safety 
technologies. We also think an attractive Federal loan program would be 
a great alternative to consider to stimulate the proliferation of the 
many amazing safety technologies now available.
    There is a need for substantial barriers down to car bumper levels 
around four sides of heavy commercial trucks, as are currently required 
in the EU. This will become even more important as we work toward 
better fuel mileage (and passenger vehicles get smaller).
    Passenger vehicle drivers need to be better educated on how to 
drive more safely around heavy trucks. All states should be required to 
do much more to educate drivers' license applicants about this. Also, 
the Federal DOT should fund educational communications campaigns 
targeting not only new applicants but also those who are already 
licensed, but are woefully ignorant of these life-saving techniques.
    Truck drivers should have standardized rigorous training before 
being allowed to drive heavy commercial trucks. Their CDL's should be 
graduated so that new drivers are ``brought along slowly.'' Also, there 
should be continuing education requirements as there are for so many 
other licensed professions.
    On the topic of allowing heavier trucks, the real issue is that 
truck driving has become less and less attractive as is reflected in 
the over 100 percent turnover each year at the average company. It is 
clear that as dangerous as the grim statistics show 80,000 lb. trucks 
to be 100,000 lb. trucks will be exponentially more so. The proponents 
of heavier trucks point to the EU as an example of heavier trucks 
running safely. However, they fail to mention that in the EU all heavy 
trucks are governed at 56 mph and drivers must be paid per hour for all 
hours worked including overtime. Drivers in the EU cannot drive nearly 
as many hours as here (average there can't exceed 45 hours per week). 
Their drive time is electronically tracked by their highly secure and 
accurate ``tachogram'' system. Also, every truck there has substantial 
barriers around all four sides down to European car bumper levels. Make 
all of these changes and we will support heavier trucks, assuming that 
our bridges and roads can support them.
    Finally, the ``elephant in the room'' in this industry is the 
economic dysfunction that exists. It was thrilling to hear Sen. 
McCaskill bring this up: paying truck drivers by the mile is clearly 
asking for the death and injuries that we experience each year in 
crashes involving these trucks. Truck drivers arguably have at least as 
much responsibility for public safety as do airline pilots. Yet even 
though the causes revealed in the recent Buffalo regional air crash 
(unhealthy, exhausted, poorly trained and poorly paid pilots) have been 
rampant problems in the trucking industry for decades, there has been 
nothing done to ensure that these drivers are treated like the 
professionals they are expected to be. At a macro level, much of the 
profit that was in the trucking industry has shifted to the shippers/
receivers and brokers. It has been done mainly ``on the backs'' of the 
truck drivers. Professional truck drivers provide an economic backbone 
service to our country. They should be healthy, alert, well-trained, 
and well-paid, including overtime after 40 total hours worked, 
including loading & unloading time. Some think that essentially paying 
truck drivers more for fewer hours worked will increase prices. We 
seriously question that argument (although saving lives and injuries 
should make the expense worth it to most Americans). Making the changes 
we call for would dramatically reduce the 400,000 crashes these 
vehicles have annually. When one calculates the consequential economic 
losses for the country including the lost productivity, wasted fuel and 
additional carbon in our air due to these massive traffic jams (it 
takes an average of 3.5 hours to clear a heavy commercial truck from 
the road) it is enormous. Add to this the medical, legal and liability 
expenses, as well as the wrecked equipment involved, and one has quite 
a bit of savings to more than offset the ``cost'' of paying 
professional drivers reasonably for the services they provide.
    Please consider these requests as they will result in safer drivers 
in safer trucks on safer roads for us all.
    Note: DuPre Logistics, a carrier in Louisiana, recently changed 
their pay to hourly with overtime. The resulting safety improvements 
are quite impressive (see attached article).
                                 ______
                                 
                                  J.B. Hunt Transport, Inc.
                                                   November 4, 2009
Stephen C. Owings,
President,
Road Safe America,
Atlanta, GA.

Dear Steve,

    J.B. Hunt Transport was proud be a co-petitioner with Road Safe 
America pursuing the mandated setting of an electronic speed Governor 
of all class 7 & 8 commercial motor vehicles (CMV) manufactured after 
1992. These vehicles have standard equipment allowing a maximum 
governed speed to be set.
    Given the fact standard specifications of Class 7 & 8 CMV provide 
the means to electronically govern truck speed, we believe the debate 
over the use of speed Governors should center around what the maximum 
governed speed should be, not whether or not existing technologies 
should be used.
    It does not make sense to roll a CMV off the assembly line that 
could weight up to 80,000 lbs when loaded and has a much greater 
stopping distance requirement than automobiles and place it on 
America's highways without a speed Governor set at a reasonable speed. 
What is a reasonable speed? 1 believe most Americans would agree that 
100 mph, 90 mph or even 80 mph is not reasonable.
    Setting a maximum governed truck speed will allow enforcement 
resources to be shifted from interstate highways to roadways with lower 
speed limits where accidents are more likely to be associated with 
driving too fast for conditions. The combination of a maximum governed 
truck speed and shifting of enforcement to higher risk areas could 
produce a further reduction in motor vehicle accidents and related 
fatalities and injuries.
    J.B. Hunt has governed our equipment for over 20 years and has 
recognized the benefits associated with safety, fuel economy, 
maintenance expense and the environment.
    Thank you for your continued efforts to bring attention to this 
issue.
            Sincerely,
                                         R. Greer Woodruff,
                              Sr. VP Corporate Safety and Security.
                                 ______
                                 
                                                  November 30, 2009
Memorandum for: Steve Owings, Road Safe America
From: Don Osterberg, Senior Vice President, Safety, Schneider National, 
            Inc.
Subject: Support for Speed Limiter Legislation/Regulations

    1. References:

        a. Virtual Speed Differentials Safety Impact for Interstate 
        Highways Using Fleet Data, Dr. Steve Johnson, University of 
        Arkansas, undated draft.

        b. Cost-Benefit Evaluation of Large Truck-Automobile Speed 
        Limit Differentials on Rural Interstate Highways, Mack-
        Blackwell National Rural Transportation Center (MBTC), November 
        2005.

        c. Empirical Study of Truck and Automobile Speed on Rural 
        Interstates: Impact of Absolute Speeds and Speed Differentials, 
        Dr. Steven Johnson, University of Arkansas, December 2007.

        d. Investigation of Speed related Truck Accidents from Large 
        Truck Crash Causation Study (LTCCS) Data, Dr. Steve Johnson, 
        University of Arkansas, December, 2007.

    2. Background: Schneider National, Inc., along with several others, 
petitioned the FMCSA to mandate that all large trucks be governed at a 
maximum speed of 68 MPH. Since that petition, we have revised our 
proposal that the maximum speed should be limited to no greater than 65 
MPH for all large trucks manufactured after 1993.
    3. Facts bearing on the issue:

  <bullet> What is irrefutable are the basics of kinetic energy physics 
        relevant to this issue. The kinetic energy (KE) to be 
        dissipated in a crash is the best proxy we have today for crash 
        severity. The formula for calculating KE is .5 mass X velocity 
        (speed) squared. Since speed is squared in the formula, its 
        effects are exponential.

  <bullet> Data from the Large Truck Crash Causation Study suggests 
        that speed was a causal factor in 26 percent of truck involved 
        fatalities. . .the highest of any single causal factor.

  <bullet> For those who argue that speed differentials are inherently 
        unsafe, studies have confirmed that even where speed limits are 
        uniform for large trucks and automobiles, and no speed limiters 
        are used, speed differentials occur. Studies have consistently 
        concluded that automobiles exceed posted speed limits by a 
        greater margin than do large trucks. The reasons for this are 
        many and varied, but on this point, the research is consistent 
        and compelling. Therefore, discussions of vehicles safely 
        traveling at the same speed is a theoretical--not a practical 
        argument.

    4. Our Experience:

        a. Safety: Since reducing the maximum speed of the Schneider 
        National company trucks, Schneider's overall roadway crash 
        rates have dropped by 26 percent. Specifically, rear-end 
        collision rates have dropped by 20 percent. The mean costs of 
        those rear-end collisions (severity proxy) have been reduced by 
        85 percent. Additionally, within our fleet we have both company 
        drivers and independent contractors. They all operate within 
        the same safety culture, led by the same leaders, incented with 
        the same bonus criterion, etc. . . What is different is that we 
        limit the maximum speed of our company trucks and not those of 
        our ICs. In analyzing our high-severity crash rates, our ICs 
        are over-represented (relative to company drivers by nearly 100 
        percent (IC represent 20 percent of our capacity, but are 
        involved in 40 percent of our high-severity crashes). This is 
        validation that higher speed leads to higher severity crashes.

        b. Fuel savings: Our testing has confirmed that for every 1 MPH 
        reduction in speed, MPG performance improves by .1. This effect 
        applied nationally will likely save billions of gallons of 
        diesel fuel, thus reducing carbon signatures dramatically.

    5. Conclusion: Schneider National, Inc. unequivocally supports 
limiting the speed of all large trucks. Doing so will save lives, 
reduce fuel consumption, and thus will have significant environmental 
benefits.
    6. If you have any questions, please contact me at 920-592-6000 or 
by e-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="335c4047564151564154577340505b5d565a5756411d505c5e1d">[email&#160;protected]</a>
                                       Donald A. Osterberg,
                                      Senior Vice President, Safety
                                               Schneider National, Inc.
                                 ______
                                 
                                           Truckinginfo.com
                                                     March 23, 2010

    2010 Truck Fleet innovators: Tom Voelkel, President/COO, Dupre 
                               Logistics

                   By Diana Britton, Managing Editor

    As a child, Tom Voelkel's parents instilled in him a strong work 
ethic. The current president and chief operating officer of Dupre 
Logistics got his first job, cutting grass, at age 8. ``I quickly 
learned I didn't want to make a living cutting grass,'' Voelkel says, 
laughing.
    After graduating from the University of New Orleans with a 
bachelor's in marketing, he went to work for the Lever Brothers 
Company, a subsidiary of Unilever, where he served 5 years in sales and 
sales management roles.
    ``Working for a big, national company wasn't really my forte,'' 
Voelkel says.
    He wanted to work for a smaller company, where he could see the 
impact he was making. He wanted to be part of building a small company 
from the ground up. So when Voelkel was offered a job with Dupre 
Logistics in 1983, he took his chance.
    Dupre was a small company at the time, with about $2.6 million in 
revenue, 34 employees, and a few trucks and trailers. Voelkel started 
as an operations manager, before being promoted to general manager and 
moving up through the ranks. ``We've grown the company, and everyone 
has grown with the company,'' he says.
    Dupre boasts $111 million in revenue for 2009, 1,000 employees, 700 
drivers and 70 mechanics.
    Dupre was launched in 1979 as a petroleum carrier with about five 
customers and grew to become a common carrier in Louisiana, where the 
company is based. In 1986, Dupre purchased an over-the-road truckload 
company. Shortly after, the company bought a food products carrier and 
an Arkansas petroleum company. Thanks to deregulation, the company was 
able to expand its reach geographically into Mississippi, Tennessee, 
Alabama, Texas, and Oklahoma. In the late '80s, the company launched a 
brokerage, and it started offering dedicated services in the mid-90s. 
About a year ago, Dupre purchased a small truckload company in the 
beverage business.
    Aside from these few acquisitions, Dupre has grown organically, 
Voelkel says.
Servant Leadership
    Dupre has been able to do this through its leadership and 
longstanding commitment to quality. Voelkel says people know they can 
count on Dupre, and this confidence helps the company stand out among 
other carriers. ``We work real hard to try to do the right things and 
do the right things right,'' he says.
    One thing Voelkel has strived to do right is leading the folks that 
make up Dupre Logistics. When he thinks about his favorite 
accomplishment, he thinks about the growth of the people in the 
organization, He looks back on how far they've come, from buying houses 
and having kids to seeing those children grow up and be successful 
adults.
    It's not a surprise that Voelkel's leadership style would be one of 
servant leadership. ``I believe you have to serve first before you 
lead,'' he says. ``The people aren't there for you; you're there for 
the people.''
    Dupre trains its leaders to adopt this ``servant leadership'' 
skillset. The company tries to keep that philosophy alive by holding a 
stewardship meeting once a month.
    One example of this servant leadership seems to be played out 
through the company's pay structure. The company compensates drivers by 
the hour, rather than by the mile. a system it says produces better 
schedules and safer drivers. The move was also part of a larger 
strategy to make Dupre a great place to work, Voelkel says.
    ``We saw a lot of inefficiencies in the trucking business that was 
put on the backs of the drivers,'' he says. For example, if there was 
congestion on the highway or if a customer delayed loading or 
unloading, ``the driver ate that.''
    ``If you get paid by the hour. you get paid for your time.''
    This pay structure also attracts higher quality drivers who want to 
stay--something that may give Dupre a leg up once the recovery shakes 
out and the driver shortage comes back with a vengeance. The company's 
driver turnover is less than 25 percent, and this figure includes 
promotions, retirements, and terminations, as well as those who quit.
Pushing the Envelope
    The hourly pay structure is not the only way Dupre has been pushing 
the envelope. Early on, the company saw technology as a way to 
differentiate itself. ``We keyed in to technology to make our services 
better,'' Voelkel says. You have to get out of your comfort zone.''
    Dupre has been using electronic log systems across its entire fleet 
since the summer of 2007. According to Voelkel, the system puts less 
work on the driver, and it holds both the driver and the dispatcher 
accountable to the number of hours a driver can work. Drivers have been 
able to focus more on their driving, rather than worrying about the 
complications and wasted time that comes with having to keep a paper 
log.
    Another technology Dupre has embraced is Advanced Predictive 
Analytics, a modeling system that aggregates data and presents 
potential accidents to the fleet's management team--before they happen. 
As a result, accidents have been reduced by 67 percent since 2004. The 
technology is through Fleet Risk Advisors.
    A driver identified in the bottom tier, who goes through the 
targeted risk management training, counseling, schedule adjustment or 
programs suggested by management, is 50 percent less likely to have an 
accident within the next month.
    ``This is a major factor in moving us closer to our vision of being 
the safest transportation and logistics company in North America,'' 
Voelkel says. ``Predictive modeling helps us see the future today and 
gives us the opportunity to create the future that we want tomorrow.''
    The primary objective of the Predictive Analytics implementation 
has been to combine historical data with the current month's 
operational data to predict the next month's safety performance. In 
order to accomplish this, computers capture data of a driver in over 
400 data elements. Data aggregation and pattern recognition technology 
is used to identify risk signatures of drivers, vehicles and schedules.
    Other recent developments at Dupre include adding SmartWay-
certified tractors to its fleet for better fuel mileage and 
implementing GreenRoad, a driving behavior improvement technology that 
continuously measures and analyzes maneuvers that most impact safe 
driving, fuel efficiency and emissions, focusing driver-specific 
feedback accordingly.
Preparing for the Upturn
    Voelkel describes the recession as having one foot on the 
accelerator and one foot on the brakes. You're trying to grow the 
company and be profitable while trying to pull back on spending. ``You 
cannot maximize profits when you do that.''
    For Dupre, navigating the downturn was about trying to find that 
balance between the accelerator and the brakes. ``It has been a brutal 
recession.''
    When the upturn comes around, Dupre will be prepared. According to 
Voelkel, the company has avoided cutting any muscle out of the 
organization during the downturn. It's actually adding to its sales 
force and building its operations bench strength. It has also geared up 
its information technology.
    Looking ahead, Voelkel says they just need to get through 2010, and 
2011 should be a pretty good year.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                           Hon. Anne S. Ferro

    Question 1. In an effort to stop distracted driving by truck and 
bus drivers, your agency has sought to impose penalties on truckers and 
bus drivers who text and drive. Since these penalties have been in 
place, how many commercial motor vehicle drivers have been subject to 
fines or penalized because of texting while driving?
    Answer. The Federal Motor Carrier Safety Administration (FMCSA) 
does not have data concerning the number of commercial motor vehicle 
(CMV) drivers who have been cited for texting while driving. The 
Agency's data collection systems have not been modified to gather such 
data because the enforcement activities would be coded under a general 
violation cite based on regulatory guidance, rather than an explicit 
Federal rule. On April 1, 2010, FMCSA issued a Notice of Proposed 
Rulemaking (NPRM) to put into place an explicit prohibition against 
texting while driving, which would include driver disqualification 
penalties in addition to civil penalties. When the Agency completes the 
notice-and-comment rulemaking process later this year, its data 
collection systems will be modified to provide a means for gathering 
violation data.
    On January 27, 2010, FMCSA published regulatory guidance in the 
Federal Register concerning texting by CMV drivers. The guidance 
explains that the Agency's current regulation prohibiting the use of 
equipment that decreases the safety of operation of commercial vehicles 
(49 CFR 390.17) may also be applied to CMV drivers' use of electronic 
devices for texting. A civil penalty of up to $2,750 may be issued for 
violations involving the use of electronic devices that decrease 
safety.

    Question 2. FMCSA and state law enforcement agency capabilities are 
dwarfed by the size of the motor carrier industry and, as a result, are 
only able to conduct compliance reviews on about 2 percent of carriers. 
What steps can your Agency take to leverage its limited resources to 
increase the motor carrier industry's compliance with Federal motor 
carrier safety regulations? Should Congress change the barriers to 
entry into the motor carrier industry to make sure that the safest 
drivers and companies are able to enter the market?
    Answer. FMCSA is nearing completion of its operational model test 
of the Comprehensive Safety Analysis (CSA) 2010 high-risk carrier 
identification and intervention system. CSA 2010 is a major 
restructuring of FMCSA's current safety fitness determination process 
and compliance and enforcement programs. The goal is to lead FMCSA to a 
more effective operational model--one that will have a greater impact 
on a larger number of truck and bus companies while optimizing Agency 
resources.
    The safety compliance review (CR) is currently the Agency's primary 
tool for ensuring compliance with the Federal Motor Carrier Safety 
Regulations (FMCSRs) and Hazardous Materials Regulations. However, 
while the CR program is effective, it requires a significant amount of 
our human resources, while assessing the safety performance of only a 
small fraction of the motor carrier industry--as you mention, less than 
2 percent. CSA 2010 is designed to help impact a larger segment of 
motor carriers and drivers through a broader array of compliance 
interventions, with the expectation of changing unsafe behavior 
earlier.
    The new CSA2010 operational model includes four major elements: (1) 
measurement, (2) intervention, (3) safety fitness determination, and 
(4) information technology. In February 2008, FMCSA launched a 30-month 
field test of the CSA 2010 Operational Model (Op-Model) with its State 
partners--Georgia, Colorado, New Jersey, and Missouri--using 
approximately 26 Federal and State investigators. Motor carriers 
domiciled in the four test States were randomly placed into a control 
or test group, with approximately 34,000 carriers in each group. 
Carriers in the test group receive the new CSA 2010 interventions using 
the new measurement system, while those in the control group receive 
CRs using the current FMCSA operational model.
    FMCSA added five States to the test in the spring and fall of 
2009--Minnesota, Montana, Kansas, Maryland, and Delaware. Throughout 
these States, the test is being run using the CSA 2010 new 
interventions and measurement system at 100 percent. The purpose of 100 
percent participation in the newest CSA 2010 test States is to identify 
any operational issues that might otherwise not become apparent in the 
four States that are running both the old and new business models.
    Preliminary results are largely positive with strong enthusiasm for 
CSA 2010 among the test States, as well as enthusiasm among other 
States that are eager to employ this new compliance and enforcement 
model.
    The Agency is planning to begin nationwide CSA 2010 deployment 
before the end of the year. Later this year, FMCSA plans to replace 
SafeStat with the new Safety Measurement System (SMS) and send more 
comprehensive information regarding the behavior of unsafe motor 
carriers to the roadside. Warning letters will be sent out to those 
carriers that reach the deficiency thresholds of the new SMS, and 
compliance review assignments will be prioritized based on the SMS 
results. As each State is trained, the new CSA 2010 interventions will 
be employed.
    The new SMS will work within the CSA 2010 operational model to 
monitor and quantify the safety performance of commercial motor 
carriers using information from the FMCSA's Motor Carrier Management 
Information System (MCMIS). Under CSA 2010, this data would include 
violations found during roadside inspections, traffic enforcement, and 
other types of interventions. The new SMS groups the data into 7 
Behavior Analysis and Safety Improvement Categories (BASICs): Unsafe 
driving, fatigued driving, driver fitness, controlled substances and 
alcohol, vehicle maintenance, cargo related, and crash history. In 
addition, the CSMS uses all safety-based inspection violations, not 
just out-of-service violations and selected moving violations (as in 
SafeStat), and uses risk-based violation ratings, where SafeStat does 
not.
    FMCSA is seeing up to a 35 percent increase in the number of motor 
carrier investigations (offsite, onsite focused, or onsite 
comprehensive) conducted using the new CSA 2010 approach versus the 
Agency's current business model.
    In addition to these efforts, I believe it would be helpful to have 
a discussion about providing the Agency some discretion about revising 
entry requirements into the industry. I have made raising the bar to 
entry into the industry to be one of my 3 pillars as the FMCSA 
leadership and I believe we should explore this as a mechanism to 
improve safety.

    Question 3. You recently held a series of public listening sessions 
on hours-of-service. Please summarize what FMCSA has learned from these 
sessions.
    Answer. FMCSA held five public listening sessions in January and 
March in Washington, D.C.; Dallas, TX; Los Angeles, CA; Davenport, IA; 
and Louisville, KY. The Davenport session was held adjacent to a large 
truck stop and the Louisville session was held at the Mid-America 
Trucking Show to encourage participation by drivers. The sessions were 
webcast, and e-mailed and phoned comments were submitted. Approximately 
300 individuals and organizations spoke at the sessions. Almost all of 
the speakers were drivers and carriers or associations representing 
them. Most of the drivers who spoke were in for-hire, long haul, truck 
load operations.
    With two exceptions, carriers, drivers, and industry associations 
supported the existing rule. The speakers strongly supported 11 hours 
of driving per duty period and the 34-hour restart. Carriers and 
industry associations stated that the 11 driving hours provided 
flexibility and that some carriers had redesigned routes and schedules 
to use it; changing to a shorter period would be costly. Drivers 
indicated that they use the restart frequently; when away from home, 
they may take no more than 34 hours off; at home, the restart is 
usually longer. A few drivers argued for a shorter restart (24 hours or 
less).
    Many, but not all, drivers objected to the fixed 14-hour driving 
window saying that it forced them to drive when they were tired because 
breaks were included in the calculation of the duty period. They also 
said that the rule made it hard to avoid congestion because they had to 
drive during rush hours. Under the pre-2003 rule, they could have 
pulled off the road and waited until congestion eased without cutting 
into their available duty hours. Drivers sought flexibility. 
Specifically, they asked FMCSA to make the 14-hour period cumulative 
(i.e., off-duty time would not be included in calculation of the 
driving window) or allow the driving window to be extended to 16 or 18 
hours. A few drivers supported the current 14-hour rule, stating that 
it prevented carriers and brokers from forcing them to log waiting time 
as off duty time so they could work longer days.
    Many drivers and carriers objected to the existing sleeper berth 
rule that allows 10 hours off duty to be taken in two periods, one of 8 
to 10 consecutive hours in the berth and the other of 2 or more hours, 
either in the berth or off duty; the shorter period is included in the 
calculation of the driving window. Team drivers in particular wanted 
the flexibility to be able to divide their 8-hour sleeper berth time 
into shorter periods (4 + 4 hours, 5 + 3 hours, etc.). Drivers who 
spoke on this issue asked that the shorter period not be included in 
the calculation of the duty period.
    Safety advocacy groups and the Teamsters generally supported the 
14-consecutive-hour provision, but opposed 11 hours of driving and the 
34-hour restart because these provisions allow long days of continuous 
work and up to 84 hours of work in 7 days. They urged FMCSA to consider 
the body of research on the effects of long hours on performance and 
health and to establish a 24-hour circadian schedule.
    Drivers also raised several issues that affect them, but are 
outside of FMCSA's statutory authority. The number of available areas 
where truck drivers can safely stop and rest, although never adequate, 
has been reduced in the last few years as some States have closed rest 
areas for budgetary reasons. Drivers stated that the lack of safe rest 
areas made it difficult for them to find a place to take their 10-hour 
off-duty period. A number of drivers also stated that the current 
methods of paying many drivers (by the mile or load) provide shippers 
with no incentive to load or unload a truck promptly. The independent 
owner operators and smaller carriers complained that they could spend 
30 to 40 hours a week waiting for shippers, time for which they are not 
paid. Finally, drivers stated that anti-idling laws adopted by some 
State and local governments to reduce pollution can make it difficult 
to sleep because they cannot run their air conditioning or heating.
    A complete transcript for each of the listening sessions has been 
placed in the rulemaking docket so that all interested parties may 
review the information.

    Question 4. The Advocates for Highway and Auto Safety claim that 
FMCSA's statistics for truck fatalities are artificially low because 
FMCSA merges the truck fatality rate with the much lower fatality rate 
for buses and motorcoaches. Does FMCSA believe that this is an accurate 
way to report this data? Why doesn't your agency report the total 
number of truck-involved fatal crash deaths measured against annual 
truck vehicle miles traveled?
    Answer. The Agency produces and publishes a variety of annual 
statistics for CMV fatality rates, including separate fatality rates 
for trucks and buses. This information can be found in our annual Large 
Truck and Bus Crash Facts publication available at http://
ai.fmcsa.dot.gov/CrashProfile/NationalCrashProfileMain.asp. The 
publication shows, for example, that in 2008, the large truck fatality 
rate (fatalities in truck crashes divided by truck miles of travel) was 
1.86 fatalities per 100 million truck miles traveled (Table 1). In that 
same year, the bus fatality rate (total bus fatalities divided by bus 
miles) was much higher at 4.32 fatalities per 100 million bus miles 
traveled (Table 20) The combined rate, using the fatality and vehicle 
miles of travel (VMT) information provided in the publication, is a 
truck and bus fatality rate of 1.93 fatalities per 100 million bus and 
truck miles traveled, which is higher (not lower) than the truck-only 
fatality rate of 1.86. Using data from other years produces similar 
results.
    In addition to the metrics just mentioned, FMCSA also produces 
other performance metrics, on an annual basis, such as all bus and 
truck crashes per all vehicle VMT, and all bus and truck fatalities per 
all vehicle VMT. These particular performance metrics are included in 
the Agency's annual Performance Budget Estimates Submission to 
Congress, and were specifically designed to be consistent with 
performance metrics used by the other modes of DOT. For example, for 
2008, the fatality rate for trucks and buses using all VMT was 0.152 
based on the latest data available. This rate represents a 10 percent 
improvement from 2007.

    Question 5. Most truck drivers are paid by the mile, which tempts 
drivers to drive longer than what is permitted under the Hours of 
Service regulations, especially if they are delayed at ports and 
loading facilities. As we work to reauthorize the Federal Motor Carrier 
Safety Administration, what additional steps should the Committee take 
to reduce this incentive?
    Answer. FMCSA acknowledges the influence that compensation has on 
employers' and drivers' decisions concerning work schedules. However, 
the Agency does not have sufficient information to assess the extent to 
which hours-based or mileage-based compensation may impact safety. It 
stands to reason that hours-based compensation would deter motor 
carriers from requiring or allowing drivers to work excessive hours but 
this disincentive to long work hours could be circumvented by employers 
offering low hourly wages. FMCSA believes the complex nature of wage 
discussions would require collaboration between Federal and State 
government agencies, transportation industry groups (including shippers 
and receivers), labor unions, and safety advocacy groups to identify 
factors that need to be considered in developing a plan to address the 
issue.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                           Hon. Anne S. Ferro

    Question 1. Last year I introduced S. 1113, the Safe Roads Act, to 
establish a national drug and alcohol testing database for employers to 
better select qualified drivers and avoid hiring employees with a drug 
or alcohol background.
    Under this law, the FMCSA would require medical review officers, 
employers, and other service agents to report positive results from 
FMCSA required drug or alcohol tests to the database and clearinghouse. 
Employers would be required to check the database prior to hiring a 
prospective employee. If a prospective employee has a positive result, 
an employer would not be allowed to hire the prospect unless he/she has 
not violated the requirements of the testing program or he/she has 
fully completed a return-to-duty program as required by the testing 
program. This law will also require privacy protections and employee 
rights of action. Do you support the establishment of a drug and 
alcohol test result clearinghouse? Does FMCSA have the authority to 
establish such a clearinghouse without Congressional guidance? Is FMCSA 
designing a database as part of CSA 2010 that could accommodate such a 
database?
    Answer. FMCSA believes the establishment of a drug and alcohol test 
result clearinghouse to improve the quality of drivers operating 
commercial motor vehicles on public roadways would likely bring about 
increased levels of compliance with the controlled substances and 
alcohol testing rules and thereby improve motor carrier safety.
    FMCSA technically has the authority to establish a drug and alcohol 
clearinghouse without Congressional guidance, but it lacks the 
compliance and enforcement authority necessary to effectively implement 
such a clearinghouse. The Agency lacks the authority to assess civil 
penalties against medical review officers, and other service agents, 
that fail to report drug and alcohol test results and driver recovery 
information to a central database. Existing authority to require 
service agent compliance with the regulations is limited to a Public 
Interest Exclusion (PIE), which is a 150-day administrative process to 
require a single service agent to comply. In establishing a new 
database with service agent reporting requirements, the Agency would 
focus its limited enforcement resources on problem drivers and 
employers who directly impact highway safety. Expanded civil penalty 
authority for service agents would provide for more effective and 
immediate enforcement; the general deterrent effect would promote 
service agents voluntarily compliance with the reporting requirements 
for the new database.
    FMCSA is actively engaged in drafting a notice of proposed 
rulemaking and designing a drug and alcohol database that, due to 
privacy and security considerations, will be separate and distinct from 
CSA 2010. Many of the violations that will be identified, through 
matching the drug and alcohol database with traditional roadside 
inspection and crash data, will be fed into CSA 2010 to improve the 
development of motor carrier and driver profiles. Data gathered through 
the drug and alcohol reporting process, will primarily be used to 
inform motor carrier employers of problem drivers. This will reduce the 
numbers of positive-tested drivers, who continue to operate commercial 
vehicles in violation of drug and alcohol testing regulations and will 
lead to increased compliance with the DOT drug and alcohol testing 
program and its goal of increasing safety by reducing the numbers of 
drivers who choose to abuse drugs or alcohol.
    FMCSA plans to publish a Notice of Proposed Rulemaking regarding 
the national drug and alcohol database in April 2011.

    Question 2. During consideration of SAFETEA-LU, I worked closely 
with my colleagues to provide consumers with additional resources to 
enforce Federal laws against unscrupulous house-hold goods moving 
companies. Specifically, provisions I worked on provided State 
Attorneys General additional authority to bring Federal consumer 
protection actions against interstate HHG carriers. While this 
authority has not been utilized much to date, I believe it is an 
important authority for States to have at their disposal to protect 
consumers in their States. Has FMCSA worked with State officials to 
help them implement this provision?
    Answer. FMCSA has had some success in coordinating with States in 
these enforcement efforts. SAFETEA-LU gave States the authority to 
enforce Federal household goods (HHG) laws and regulations. State HHG 
regulators may bring actions in either State or Federal venues pursuant 
to 49 U.S.C.  14710. State Attorneys General may bring actions in 
Federal Court pursuant to 49 U.S.C.  14711.
    To date, no States have used the provisions that permit them to 
bring consumer protection actions for the violation of Federal HHG 
statutes and regulations. Many of the States reference resource 
constraints and a preference for using State courts rather than Federal 
courts as why they are not using the SAFETEA-LU authority. 
Additionally, the State Attorneys General have indicated that there are 
statutory constraints on the use of the authority. FMCSA is currently 
engaging in substantial outreach to States in an effort to interest 
them in using their authority soon.
    Section 4213(a) of SAFETEA-LU required FMCSA to convene a working 
group consisting of Federal, State, and local enforcement officials to:

        ``[D]evelop[  ] practices and procedures to enhance the 
        Federal-State partnership in enforcement efforts, exchange of 
        information, and coordination of enforcement efforts with 
        respect to interstate transportation of household goods. . . 
        .''

    FMCSA implemented a by-product of the working group--an 
``Enforcement Assistance Outreach Plan.'' The working group produced an 
outreach plan to aid in the coordination and enforcement efforts for 
household goods related complaints. FMCSA currently hosts quarterly 
coordination meetings to address action items in the plan.
    Currently, there are at least four States that have expressed an 
interest in working with FMCSA to utilize the provisions in SAFETEA-LU. 
They are Louisiana, Ohio, Illinois, and Texas. FMCSA is actively 
engaging these States to forge a relationship and determine how best to 
implement the SAFETEA-LU provision.

    Question 2a. How effective has the ``Protect Your Move'' initiative 
at FMCSA been in enforcing consumer protection laws?
    Answer. Since 2005, the Protect Your Move Website has had over 
19,391,174 hits. This is an average of 11,138 hits a day. The website 
is extremely informative for those customers who are taking the 
initiative to be proactive in selecting a HHG mover. However, there are 
hundreds of unsuspecting consumers who are not being proactive in their 
search of a HHG mover and are victims to unscrupulous carriers. FMCSA 
is continuously working to improve our outreach efforts and currently 
developing a more user friendly Website. The Agency is also 
collaborating with State agencies to champion consumer protection. We 
are granting State consumer protection agencies user privileges to the 
Protect Your Move website to access data on rogue carriers in an effort 
to combat fraud and other types of commercial infractions. FMCSA 
believes the Protect Your Move Website to be informative and helpful in 
enforcing consumer protection laws.

    Question 2b. What additional tools or resources does FMCSA need to 
enforce consumer protection laws against unscrupulous house-hold goods 
moving companies?
    Answer. There are over 6,196 household goods carriers/brokers with 
active operating authority identified in our MCMIS database. We 
continue to believe that finding ways to leverage our limited resources 
by empowering and allowing the States to conduct enforcement of the 
Federal consumer regulations is the strategy most likely to address 
unscrupulous household goods moving companies.

    Question 3. I understand that on April 5, 2010, FMCSA developed a 
final rule to require the use of EOBRs by carriers that have violated 
the hours of service rules. What information is required to be recorded 
by the EOBRs? Is there a performance standard? Do you believe all 
motor-carriers should be equipped with EOBRs to better comply with 
Hours of Service laws? If Congress were to require EOBRs for all 
carriers, what information should we require to be recorded?
    Answer.
Summary of EOBR Final Rule
    On April 5, 2010, FMCSA published a Final Rule amending the FMCSRs 
to incorporate new performance standards for electronic on-board 
recorders (EOBRs) installed in CMVs manufactured on or after June 4, 
2012. Motor carriers that have demonstrated serious noncompliance with 
the Hours of Service (HOS) rules will be subject to mandatory 
installation of EOBRs meeting the new performance standards. If FMCSA 
determines, based on HOS records reviewed during a compliance review, 
that a motor carrier has a 10 percent or greater HOS violation rate, 
FMCSA will issue the carrier an EOBR remedial directive. The motor 
carrier will then be required to install EOBRs in all of its CMVs 
regardless of their date of manufacture and use the devices for HOS 
recordkeeping for a period of 2 years.
    FMCSA also changed the safety fitness standard to take into account 
a remedial directive when determining fitness. Additionally, to 
encourage industry-wide use of EOBRs, FMCSA revised its compliance 
review procedures to permit examination of a random sample of drivers' 
records of duty status after the initial sampling, and provides partial 
relief from HOS supporting documents requirements, if certain 
conditions are satisfied, for motor carriers that voluntarily use 
compliant EOBRs.
    Finally, because FMCSA recognizes that the potential safety risks 
associated with some motor carrier categories, such as passenger 
carriers, hazardous materials transporters, and new motor carriers 
seeking authority to conduct interstate operations in the United 
States, are such that mandatory EOBR use for such operations might be 
appropriate, the Agency will initiate a new rulemaking to consider 
expanding the scope of mandatory EOBR use beyond the remedial directive 
approach adopted as part of the new rule.
Required Information
    An EOBR must record the following information:

        (1) Name of driver and any co-driver(s), and corresponding 
        driver identification information (such as a user ID and 
        password). However, the name of the driver and any co-driver is 
        not required to be transmitted as part of the downloaded file 
        during a roadside inspection.

        (2) Duty status.

        (3) Date and time.

        (4) Location of CMV.

        (5) Distance traveled.

        (6) Name and USDOT Number of motor carrier.

        (7) 24-hour period starting time (e.g., midnight, 9 a.m., noon, 
        3 p.m.).

        (8) The multiday basis (7 or 8 days) used by the motor carrier 
        to compute cumulative duty hours and driving time.

        (9) Hours in each duty status for the 24-hour period, and total 
        hours.

        (10) Truck or tractor and trailer number.

        (11) Shipping document number(s), or name of shipper and 
        commodity.

    With regard to duty status categories, an EOBR must use the 
following duty statuses:

        (1) ``Off duty'' or ``OFF.''

        (2) ``Sleeper berth'' or ``SB'' to be used only if sleeper 
        berth is used.

        (3) ``Driving'' or ``D.''

        (4) ``On-duty not driving'' or ``ON.''

    The April 5 Final Rule provides detailed performance specifications 
for EOBRs.
Should the EOBR Mandate Be Expanded
    FMCSA has announced its intention to issue a new EOBR NPRM to 
expand the population of motor carriers that are required to use the 
devices to monitor their drivers' hours of service. The Agency has not 
determined how broad a mandate will be proposed, but the Agency will 
seek public input through a notice-and-comment rulemaking proceeding 
later this year.
Required Information Under a Congressional Mandate
    Based on the public comments and technical information FMCSA 
considered in developing its April 5 Final Rule, the Agency believes 
the data required by the rule is sufficient to ensure accurate 
information about commercial motor vehicle operators' driving time and 
the date, time and location of changes in duty status.

    Question 4. I understand that the USDOT and their Mexican 
counterparts have established a working group to potentially redevelop 
the cross-border trucking program. Can you provide the Committee with a 
status report on the working group? Will you commit to keeping members 
of the Committee up to speed with developments of any such program? 
What government agencies and outside interest groups are participating 
in the working group?
    Answer. After Congress terminated the U.S. Department of 
Transportation's (DOT's) Cross-Border Truck Demonstration Program in 
March 2009, President Obama directed DOT, the State Department, the 
U.S. Trade Representative and other relevant agencies to develop a 
solution that will ensure the highest degree of safety, satisfy our 
NAFTA obligations, facilitate the lifting of tariffs, and advance the 
economic interests of the United States. This interagency group is 
considering all viable programmatic options based on existing statutory 
authority and legal obligations and is working diligently on a proposal 
that fulfills President Obama's directive. While our work is not yet 
complete, we expect to present a proposed plan in the near future. We 
look forward to presenting this proposal to Mexico, Congress and the 
public and are hopeful that it will provide a reasonable and workable 
path toward resolving this dispute.
    Secretary LaHood and Mexican Transport Secretary Molinar agreed to 
establish a working group to negotiate the precise terms of a new 
cross-border long haul trucking program. We expect the working group to 
convene once the United States has presented Mexico with a new cross-
border long haul trucking proposal. Representatives of the U.S. 
Government and the government of Mexico will participate in the working 
group.
    DOT and our interagency partners are committed to being transparent 
in the development, implementation and oversight of any new cross-
border long-haul trucking program with Mexico.

    Question 5. Over the recess, I met with a group of Arkansas motor-
coach carriers that stated that DOT did not have the resources 
available to investigate rogue motor-coach carriers with poor safety 
records and that many motor-carriers without interstate transportation 
authority were illegally participating in such activities. They believe 
that focusing on these operators would dramatically enhance the safety 
record of motor-coach carriers. Do you believe FMCSA lacks the 
resources to investigate and prosecute rogue motor-coach operators?
    Answer. FMCSA dedicates a significant level of its resources to 
investigate the compliance of motorcoach operators. In each of the 
previous three Fiscal Years, FMCSA conducted approximately 1,300 
compliance reviews on motorcoach operators. There are approximately 
3,800 interstate, for-hire motorcoach operators. As a result, at this 
rate, over one-third of the motorcoach industry has a compliance review 
annually.

    Question 5a. How does FMCSA investigate reports of motor-carriers 
operating outside of their authorities or not in compliance with FMCSA 
requirements?
    Answer. In August 2008, FMCSA implemented a Passenger Carrier 
Prioritization System within its compliance review prioritization 
system, SafeStat, to enhance its ability to monitor the safety 
performance of passenger carrier companies. Under this revised system, 
seven groups of passenger carriers were identified as FMCSA's highest 
priorities for compliance reviews. One group includes passenger 
carriers with recent interstate operational activity while having no or 
inactive operating authority and no or inadequate insurance filing, or 
an out of service order in effect. The new SafeStat module identifies 
passenger carriers with the highest safety risk and worst compliance 
histories without regard to the size or age of the transportation 
operation.

    Question 5b. Has FMCSA reviewed the provisions in the comprehensive 
motor-coach safety enhancement bill passed by the Committee in 
December? Would you provide comments to the bill?
    Answer. FMCSA conducted a comprehensive review of Senate Bill 554 
and worked closely with Committee staff to provide technical assistance 
through briefings, conference calls, and electronic documents. In 
addition, FMCSA staff has worked in coordination with the Congressional 
Budget Office in evaluating the costs of implementing the various 
provisions of the bill.

    Question 6. Do you believe the current size and weight restrictions 
can be increased without compromising highway safety or infrastructure 
integrity? Would you comment on your views of increasing the allowable 
weight of trucks to 97,000 pounds by adding a third axle to the rear 
pair of axles?
    Answer. FMCSA is committed to working with the Office of the 
Secretary and the Federal Highway Administration (FHWA) to ensure the 
potential safety impacts of any legislative proposals concerning the 
Federal size and weight statutes are fully considered. The FHWA has 
responsibility for implementing the statutory provisions concerning 
truck size and weight and assessing the impacts of potential changes on 
the Nation's infrastructure, and the FMCSA has responsibility for 
working with the FHWA to ensure that safety impacts are considered as 
part of the analysis of any legislative proposals concerning truck size 
and weight. Both agencies work together to provide recommendations on 
truck size and weight issues.
    FMCSA acknowledges concerns about the impact that increases in 
truck size and weight limits (including the elimination of certain 
restrictions on Longer Combination Vehicles (LCVs)) would have on the 
Nation's highways. The current statutory restrictions on truck size and 
weight and LCV operations appear to strike an appropriate balance among 
safety, the efficiency of our transportation system, and minimizing 
pavement damage. Also, LCVs continue to have a place on American roads 
within the constraints of the current size and weight statutes and the 
FHWA's implementing regulations.
    With regard to the safety of operation of LCVs, the Agency is not 
aware of data or other information that would suggest that highway 
safety is compromised by LCVs within the areas in which they are 
currently allowed to operate. As with any commercial motor vehicle, 
safety depends on the driver having the necessary knowledge and 
skills--as validated by LCV drivers' commercial driver's license with 
the ``Doubles/Triples'' endorsement--and the vehicle being properly 
maintained.
    To ensure the safe operation of LCVs, the Department's FMCSA has 
regulations (49 CFR Part 380) establishing minimum requirements for LCV 
drivers and LCV driver instructors. The rule covers drivers that 
operate any combination of a truck tractor and 2 or more trailers and 
semitrailers, with a gross combination weight greater than 80,000 
pounds, and which operate on the National System of Interstate and 
Defense Highways.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 
                           Hon. Anne S. Ferro

    Question 1. How do you respond to concerns that CSA 2010 gives too 
much weight to driver behavior and not enough to mechanical defects?
    Answer. The new CSA 2010 Safety Measurement System (SMS) uses all 
safety violations discovered during roadside inspections to measure the 
relative safety performance of motor carriers. Each violation is 
weighted based on its crash risk. SMS groups these data into seven 
unsafe behavior areas named Behavior Analysis Safety Improvement 
Categories (BASICs). These are: (1) Unsafe Driving; (2) Fatigued 
Driving (Hours-of-Service); (3) Driver Fitness; (4) Controlled 
Substances/Alcohol; (5) Vehicle Maintenance; (6) Cargo-Related; and (7) 
Crash Indicator. Research has shown that driver behavior is a major 
contributing causal factor in large truck and bus crashes. FMCSA 
analysis shows that among the seven BASICs, there are three that are 
the strongest predictors of future crashes: Unsafe Driving, Fatigued 
Driving, and the Crash Indicator (past crashes).

    Question 2. When measuring a carrier's exposure or risk, FMCSA 
currently looks at the number of trucks that carrier uses, not the 
number of miles traveled. Some stakeholders argue that mileage is a 
more accurate indicator of a carrier's risk. Will FMCSA consider 
changing its current practice?
    Answer. Two of the seven CSA 2010 BASICs use power units as the 
measure of exposure in the current Safety Measurement Methodology. 
These are the Unsafe Driving BASIC and the Crash BASIC. Based on 
stakeholder feedback and lessons learned from the CSA 2010 field test, 
FMCSA is currently revisiting the exposure measure used in these two 
BASICs. The Agency's analysis to date indicates that biases are 
introduced when either power units or vehicle miles traveled are used 
as the sole measure of exposure. FMCSA is currently analyzing this 
matter to come up with the most reliable exposure measure that can be 
implemented as part of the CSA 2010 rollout later this year.

    Question 3. Last November, DOT published a comprehensive Motorcoach 
Safety Action Plan at the direction of Secretary LaHood. But it appears 
that numerous deadlines set by FMCSA and NHTSA for their agencies are 
already slipping. At FMCSA, completion of the motorcoach driver fatigue 
study has been delayed 6 months; initiation of a pre-employment 
screening study has been pushed back 6 months; the safety fitness 
determination rulemaking supporting CSA 2010 has been delayed until 
next fall; and rulemaking on State bus inspection programs appears to 
be delayed indefinitely. What are the causes of the delays? Were the 
deadlines unrealistic to begin with?
    Answer. The majority of projects and initiatives contained in the 
Motorcoach Safety Action Plan are complete or on schedule. Some of the 
initiatives are notice and comment rulemakings which must compete with 
other rulemakings for priority and attention. The rulemaking on State 
bus inspection programs is pending further action on S. 554, the 
Motorcoach Enhanced Safety Act of 2009, which includes language on this 
program. Target dates for a number of studies were extended to improve 
the quality of the study. Overall, progress implementing the Plan is on 
track.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                           Hon. Anne S. Ferro

    Question 1. In your oral testimony, you mentioned that FMCSA has an 
``open docket'' on the hours of service issue and is seeking additional 
scientific research that may be relevant for the Agency to consider as 
part of its ongoing review. What new research studies have been 
identified by FMCSA since the Agency began its latest review?
    Answer. The following is a list of scientific studies is identified 
by FMCSA since the Agency began its latest review of the hours of 
service rule:

  <bullet> Artazcoz, L., Cortes, I., Escriba-Aguir, V., Cascant, L., 
        and Villegas, R. ``Understanding the relationship of long 
        working hours with health status and health-related 
        behaviours.'' Journal of Epidemiology and Community Health. 
        2009 July;63(7):521-7.

  <bullet> Banks, S. and Dinges, D. ``Behavioral and physiological 
        consequences of sleep restriction.'' Journal of Clinical Sleep 
        Medicine 2007;3(5):519-28.

  <bullet> Balkin et al., ``Sleep Loss and Sleepiness: Current 
        Issues.'' Chest 2008; 134-653-660; DOI 10.1378/chest.08-1064.

  <bullet> Bureau of Labor Statistics, 2008 American Time Use Survey 
        database, available from the Bureau of Labor Statistics for 
        Census Code 9130, Drivers/Sales Workers and Truck Drivers.

  <bullet> Bureau of Labor Statistics. The Employment Situation--March 
        2010. USDL-10-0394. April 2, 2010. http://www.bls.gov/
        news.release/pdf/empsit.pdf, accessed 4/29/10.

  <bullet> Cappuccio, F., Taggart, F., Ngianga-Bakwin, K., Currie, A., 
        Peile, E., Stranges, S., and Miller, M. ``Meta-analysis of 
        short sleep duration and obesity in children and adults.'' 
        Sleep. 2008 May;31(5):619-26.

  <bullet> Cohen et al., ``Uncovering residual effects of chronic sleep 
        loss on human performance.'' Science Translation Medicine 2 
        14ra3(2010), DOI 10.1126/scitranslmed.3000458.

  <bullet> Dahl, S., Kaerlev, L., Jensen, A., Tuchsen, F., Hannerz, H., 
        Nielsen, P.S., and Olsen, J. ``Hospitalization for lifestyle 
        related diseases in long haul drivers compared with other truck 
        drivers and the working population at large.'' Work. 
        2009;33:345-53.

  <bullet> Di Milia, L. and Mummery, K. ``The association between job 
        related factors, short sleep and obesity.'' Industrial Health. 
        2009;47:363-8.

  <bullet> Ferrie, J., Shipley, M., Cappuccio, F., Brunner, E., Miller, 
        M., Kumari, M., and Marmot, M. ``A prospective study of change 
        in sleep duration: associations with mortality in the Whitehall 
        II cohort.'' Sleep. 2007;30(12):1659-66.

  <bullet> Flegal, K., Carroll, M., Ogden, C., et al., ``Prevalence and 
        trends in obesity among U.S. adults, 1999-2008.'' JAMA. 
        2010;303(3):235-41

  <bullet> FMCSA, Truck Driver Fatigue Management Survey, May 2006. 
        http://www.fmcsa.dot.gov/facts-research/research-technology/
        report/Truck-Driver-Fatigue-Management-Survey-Report.pdf.

  <bullet> Folkard, S. and D. A. Lombardi. ``Modeling the impact of the 
        components of long work hours on injuries and ``accidents''.'' 
        American Journal of Industrial Medicine. 49:953-963 (2006); DOI 
        10.1002/ajim320307.

  <bullet> Fu, J.S., et al. (2010) Improving Heavy-Duty Diesel Truck 
        Ergonomics to Reduce Fatigue and Improve Driver Health and 
        Performance, FMCSA Publication No. FMCSA RRR-10-040.

  <bullet> Grandner, M. and Patel, N. ``From sleep duration to 
        mortality: implications of meta-analysis and future 
        directions.'' Journal of Sleep Research. 2009;18:145-7.

  <bullet> Hamilton, M., Hamilton, D., and Zderic, T. ``Role of low 
        energy expenditure and sitting in obesity, metabolic syndrome, 
        Type 2 diabetes, and cardiovascular disease.'' Diabetes. 2007 
        November;56:2655-67.

  <bullet> Hanowski et al. ``The sleep of commercial vehicles drivers 
        under the 2003 revised hours-of-service regulations.'' Accident 
        Analysis and Prevention 39 (2007) 1140-1145. DOI:10.1016/
        j.aap.2007.02.011.

  <bullet> Hauner, H. ``Overweight--not such a big problem?'' Deutsches 
        Arzteblatt International. 2009;106(40):639-40.

  <bullet> Hayashino, Y., Fukuhara, S., Suzukamo, Y., Okamura, T., 
        Tanaka, T., and Ueshima, H. ``Relation between sleep quality 
        and quantity, quality of life, and risk of developing diabetes 
        in healthy workers in Japan: the High-risk and Population 
        Strategy for Occupational Health Promotion (HIPOP-OHP) Study.'' 
        BMC Public Health. 2007 June;7:n.p.

  <bullet> Healy, G., Dunstan, D., Salmon, J., Cerin, E., Shaw, J., 
        Zimmet, P., and Owen, N. ``Breaks in sedentary time: beneficial 
        associations with metabolic risk.'' Diabetes Care. 2008 
        April;31(4):661-6.

  <bullet> Katzmarzyk, P., Church, T., Craig, C., and Bouchard, C. 
        ``Sitting time and mortality from all causes, cardiovascular 
        disease, and cancer.'' Medicine and Science in Sports and 
        Exercise. 2009 May;41(5):998-1005.

  <bullet> Knauth, P. ``Extended Work Periods.'' Industrial Health. 
        2007;45:126-36.

  <bullet> Knutson, K.L. et al. ``The metabolic consequences of sleep 
        deprivation.'' Sleep Medicine Review, 2007 June: 11(3): 163-
        178.

  <bullet> Lauderdale, D.S. et al. ``Sleep duration: how well do self-
        reports reflect objective measures? The CARDIA Sleep Study.'' 
        Epidemiology 2008 November 19(6): 838-845.

  <bullet> Lenz, M., Richter, T., and Muhlhauser, I. ``The morbidity 
        and mortality associated with overweight and obesity in 
        adulthood.'' Deutsches Arzteblatt International. 
        2009;106(40):641-8.

  <bullet> Martin, B., Church, T., Bonnell, R., Ben-Joseph, R., and 
        Borgstadt, T. ``The impact of overweight and obesity on the 
        direct medical costs of truck drivers.'' Journal of 
        Occupational and Environmental Medicine. 2009 
        February;51(2):180-4.

  <bullet> National Institute of Diabetes and Digestive and Kidney 
        Diseases. NIH Publication Number 04-4158. ``Statistics related 
        to overweight and obesity.'' 2010 February; available at http:/
        /win.niddk.nih.gov/statistics.

  <bullet> Patel, S. and Hu, F. ``Short sleep duration and weight gain: 
        a systematic review.'' Obesity. 2008 March;16(3):643-53.

  <bullet> Rosekind, M., Gregory, K., Mallis, M., Brandt, S., Seal, B., 
        and Lerner, D. ``The cost of poor sleep: workplace productivity 
        loss and associated costs.'' Journal of Occupational and 
        Environmental Medicine. 2010 January;51(1):91-8.

  <bullet> Tamakoshi, A. and Ohno, Y. ``Self-reported sleep duration as 
        a predictor of all-cause mortality: results from the JACC 
        study, Japan.'' Sleep. 2004;27(1):51-4.

  <bullet> University of Michigan Transportation Research Institute, 
        ``Trucks Involved in Fatal Accidents Factbook 2007,'' (2010).

  <bullet> U.S. Census Bureau, 2007 Commodity Flow Survey.

  <bullet> Van Cauter, E., and Knutson, K. ``Sleep and the epidemic of 
        obesity in children and adults.'' European Journal of 
        Endocrinology. 2008;159:S59-66.

  <bullet> Van Dongen, H. and Belenky, G. ``Individual differences in 
        vulnerability to sleep loss in the work environment.'' 
        Industrial Health. 2009;47:518-26.

  <bullet> Van Dongen, H. et al., 2010

  <bullet> Violanti, J., Burchfiel, C., Hartley, T., Mnatsakanova, A., 
        Fekedulegn, D., Andrew, M., Charles, L., and Vila, B. 
        ``Atypical work hours and metabolic syndrome among police 
        officers.'' Archives of Environmental & Occupational Health 
        2009 Fall;64(3):194-201.

  <bullet> Wiegand, D. et al. ``Commercial drivers' health: A 
        naturalistic study of BMI, fatigue, and involvement in safety 
        critical events.'' Traffic Injury Prevention. 10: 573-579 
        (2009); DOI:10:1080/15389580903295277.

    Question 2. It is the Committee's understanding that testing of the 
CSA 2010 operation model will be completed in the 9 pilot States at the 
end of June 2010. Will FMCSA receive a final evaluation report on the 
effectiveness of the CSA 2010 program in those States, and how will the 
report impact the rollout of CSA 2010 to the balance of the States?
    Answer. On June 30, 2010, FMCSA will conclude its field test 
involving the nine pilot States. The Agency has contracted with the 
University of Michigan Transportation Research Institute (UMTRI) to 
provide a formal, independent evaluation of the test results and the 
effectiveness of the CSA 2010 model. The UMTRI report is due to FMCSA 
in December 2010. During the field test, FMCSA has also monitored the 
test results. Those preliminary results indicate that CSA 2010 
increases the efficiency and effectiveness of the Agency's compliance 
and enforcement program, and helps to maximize FMCSA resources as well 
as those of its State partners. As the CSA 2010 model is rolled out to 
the balance of the States, FMCSA will use the results of the UMTRI 
evaluation to improve upon the Agency's application of the model. For 
example, the Agency hopes to learn more about which specific types of 
CSA 2010 interventions work best for particular types of motor 
carriers, and the cost effectiveness of various types of interventions. 
This information will be used to improve upon the Agency's application 
of the CSA 2010 model as it is implemented throughout the country.

    Question 3. When did the agency first interpret the hours of 
service exemption for the transportation of agricultural commodities as 
only applying to a delivery from a retail store and not from a 
distribution point to an intermediate distribution point such as a 
storage facility or cooperative, and why?
    Answer. The Agency analyzed the legislative history of the Hours of 
Service agricultural exemption and formulated the interpretation 
described above in April 2005, shortly before it issued its regulatory 
guidance in Question 33 under 49 CFR 395.1 (posted at FMCSA's website).
    Question 33 under 49 CFR 395.1 describes that the Agricultural 
operations exemption applies only to the transportation of farm 
supplies (including anhydrous ammonia) from the retailer to the 
ultimate consumer. The FMCSA's interpretation is based on the 
Conference Report for the National Highway System Designation Act of 
1995, the statute that created the exemption for Agricultural 
operations. The Conference Report says the following about the House 
amendment that was adopted by the conferees:

        Subsection (a) [of Sec. 345 of the NHS Designation Act] directs 
        that waivers be granted from certain Federal motor carrier 
        regulations. Subsection (a)(1) grants an exemption from the 
        Federal hours of service regulations for drivers transporting 
        agricultural supplies or farm supplies during planting and 
        harvesting seasons operating within a 100 air mile radius of 
        the source of the commodities or the distribution point of the 
        supplies. This exemption is intended to operate in a similar 
        manner as the exemption granted 40 years ago for small 
        package[s] delivered during the Holiday season in December. 
        This exemption is limited to the planting and harvesting 
        seasons, as determined by the Governor [emphasis added].

    H.R. Rep. No. 104-345, at 103 (1995) (Conf. Rep.).
    The ``Holiday season'' exemption at 49 CFR 395.1(f) provides:

        (f) Retail store deliveries. The provisions of 395.3(a) and 
        (b) shall not apply with respect to drivers of commercial motor 
        vehicles engaged solely in making local deliveries from retail 
        stores and/or retail catalog businesses to the ultimate 
        consumer, when driving solely within a 100-air mile radius of 
        the driver's work-reporting location, during the period from 
        December 10 to December 25, both inclusive, of each year 
        [emphasis added].

    This is the source of the Agency's Guidance in Question 33 that the 
``distribution point for the farm supplies'' in 49 CFR 395.1(k) means 
``distribution from a retail distribution point of the farm supply to a 
location (farm or other location where the farm supply product would be 
used).''

    Question 4. Will FMCSA show flexibility with respect to deliveries 
of farm supplies? The entire supply chain, not just deliveries from 
retail locations, can be critical during planting and harvest seasons.
    Answer. On March 17, 2010, FMCSA issued a 90 day waiver for the 
delivery of anhydrous ammonia for the 2010 spring planting season. (The 
waiver determination was published in the Federal Register on March 22, 
2010). The Agency will review if the waiver has achieved a level of 
safety that is equivalent to, or greater than, the level that would be 
achieved absent such an exemption, based on the terms and conditions 
imposed. In addition, the Agency welcomes the opportunity to work with 
Congress and stakeholder groups to better understand the needs of the 
agricultural industry in providing products for consumers, and the 
potential impact on safety if the current agricultural exemption from 
the hours-of-service regulations were applied to the entire supply 
chain.

    Question 5. Last December, this Committee reported legislation to 
improve motorcoach safety. For example, new motorcoach entrants would 
be required to successfully complete an on-site pre-authorization 
safety audit before they could begin operating. While pre-authorization 
safety audits may not be practical for the trucking industry, which has 
thousands of new entrants each year, what more can be done before a 
carrier begins operations to ensure the carrier, its vehicles, and 
drivers are in compliance with Federal safety regulations?
    Answer. The Agency has considered the possibility of requiring a 
pre-screening examination that would ensure that a new entrant motor 
carrier has basic knowledge of the Federal Motor Carrier Safety 
Regulations. This examination would be mandatory before the carrier is 
issued a USDOT number. This examination could be developed and 
implemented via the FMCSA website, as part of the initial registration 
process.
    This approach, however, has a number of challenges that must be 
considered and overcome. For example, the Agency would have to ensure 
that: (1) the person taking the examination is an appropriate motor 
carrier officer, not a consultant or other party; (2) the prescreening 
examination is sufficient to ensure a basic level of safety knowledge; 
and (3) motor carriers do not just learn the responses to pass the 
test, but rather are applying the FMCSA regulations to establish and 
maintain safety operations.

    Question 6. Federal law makes FMCSA the Federal agency in charge of 
enforcing regulations on fraudulent practices by interstate moving 
companies, but also provides for substantial coordination between FMCSA 
and state enforcement agencies. Has FMCSA been able to effectively 
coordinate with states in these enforcement efforts?
    Answer. FMCSA has had some success in coordinating with States in 
these enforcement efforts.
    SAFETEA-LU gave States the authority to enforce Federal household 
goods laws and regulations. State household goods regulators can bring 
actions in either State or Federal venues pursuant to 49 U.S.C.  
14710. State Attorneys General can bring actions in Federal court 
pursuant to 49 U.S.C.  14711.
    To date, no States have used the provisions that permit them to 
bring consumer protection actions for the violation of Federal 
household goods statutes and regulations. Many of the States reference 
resource constraints and a preference for using State courts rather 
than Federal courts as why they are not using the SAFETEA-LU authority. 
FMCSA is currently engaging in substantial outreach to States in an 
effort to interest them in using their SAFETEA-LU authority. FMCSA is 
hopeful that States will begin to use their authority soon.
    Section 4213(a) of SAFETEA-LU required FMCSA to convene a working 
group consisting of Federal, State, and local enforcement officials to:

        ``[D]evelop[  ] practices and procedures to enhance the 
        Federal-State partnership in enforcement efforts, exchange of 
        information, and coordination of enforcement efforts with 
        respect to interstate transportation of household goods. . . 
        .''

    FMCSA has been effective in implementing a by-product of the 
working group--an ``Enforcement Assistance Outreach Plan.'' The working 
group produced an outreach plan to aid in the coordination and 
enforcement efforts for household goods related complaints. FMCSA 
currently hosts quarterly coordination meetings to address the 
following action items contained in the plan:

        1. General Communication and Information Sharing

                a. FMCSA is working with the States to provide access 
                to information on household goods carriers that will 
                facilitate enforcement actions.

        2. Information Sharing Related to Federal Laws and Regulations

                a. Prepare and share guidance documents related to 
                Federal laws and regulations with State enforcement 
                partners.

        3. Enforcement-Specific Communication and Information Sharing 
        With Partners

                a. FMCSA is developing a policy to distribute 
                enforcement information to partners; provide them with 
                access to enforcement tools and databases; alert them 
                to ongoing Federal enforcement actions and 
                investigations; encourage States to notify FMCSA of 
                actions; and work with partners to establish procedures 
                to better target and coordinate enforcement actions and 
                court filings.

    Question 7. In your view, is FMCSA the right agency to lead these 
efforts?
    Answer. Yes. Although FMCSA's primary mission is safety, the 
commercial regulations are closely related to its mission. FMCSA has 
programmatic operational capabilities necessary to effectively 
implement the household goods consumer protection program. We offer the 
benefits of a sound programmatic perspective, a national field office 
structure and staff, and the regulatory leverage that is necessary to 
effectively address household goods industry oversight. As a result, 
FMCSA offers the best available location within the Department's 
existing organizational structure to address this important consumer 
protection function.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                       Hon. Deborah A.P. Hersman

    Question 1. Four recommendations on the NTSB ``Most Wanted'' list 
are directed at FMCSA, and since 1992 the agency has been cited for 
thirteen unacceptable responses to recommendations from NTSB 
investigations. What steps has FMCSA taken in the last year to resolve 
these recommendations?
    Answer. This question necessitates a two-part answer.
    The Most Wanted List of Transportation Safety Improvements is 
comprised of issue areas that may contain one or more recommendations. 
Currently, the Most Wanted List includes four issue areas, encompassing 
nine safety recommendations directed to the FMCSA, as follows:

  <bullet> Prohibit Cell Phone Use by Motorcoach Drivers

  <bullet> Require Electronic Onboard Data Recorders to Maintain 
        Accurate Carrier Records on Driver Hours of Service

  <bullet> Improve the Safety of Motor Carrier Operations

  <bullet> Prevent Medically Unqualified Drivers from Operating 
        Commercial Vehicles

    Below are the individual recommendations associated with each issue 
area and a summary of the FMCSA's actions to date to address these 
recommendations. Please note that although some of these 
recommendations are classified ``Open--Acceptable Response,'' the 
overall issue areas may have an ``Unacceptable'' action/timeliness 
designation.

        Prohibit Cell Phone Use by Motorcoach Drivers

        H-06-27
        Issued November 30, 2006
        Added to the Most Wanted List: 2008
        Status: Open--Acceptable Response

        Publish regulations prohibiting cellular telephone use by 
        commercial driver's license holders with a passenger-carrying 
        or school bus endorsement, while driving under the authority of 
        that endorsement, except in emergencies. (Source: Investigation 
        of a Motorcoach Collision with a Bridge Overpass on the George 
        Washington Memorial Parkway in Alexandria, Virginia, on 
        November 14, 2004. [NTSB/HAR-06/04])

        Summary of Action

        The FMCSA initiated a study, conducted by the Virginia Tech 
        Transportation Institute (VTTI) using naturalistic driving 
        data, to assess the potential safety benefits of establishing a 
        Federal rule to restrict the use of cellular telephones by 
        drivers of commercial motor vehicles and to determine whether 
        adequate data exists to warrant initiating a rulemaking. VTTI's 
        portion of the study was completed in July 2009. Despite the 
        FMCSA's limited jurisdiction over school buses, the NTSB 
        encouraged the agency to include school bus operations to the 
        greatest extent possible in its study. The FMCSA also 
        considered property-carrying CMV drivers and the availability 
        of adequate data on cellular telephone-caused driving 
        distractions in the study. Additionally, the FMCSA is 
        conducting a synthesis of literature and operating safety 
        practices relating to cellular telephone use (including 
        limitations on the use of personal digital assistants) in 
        commercial vehicles. This study was expected to be completed in 
        February 2010.

        The Secretary of Transportation ordered a full departmental 
        review of motorcoach safety to create a Departmental Motorcoach 
        Safety Action Plan outlining the additional steps needed to 
        improve motorcoach safety. Released on November 16, 2009, the 
        review also considered outstanding recommendations to the U.S. 
        Department of Transportation (DOT) from the NTSB.

        On September 30 and October 1, 2009, the Secretary also 
        convened a ``Distracted Driving Summit'' to address the dangers 
        of text-messaging and other driving distractions. During the 
        summit, the Secretary announced the DOT's plan to create 
        rulemaking that would consider banning text messaging 
        altogether and restrict the use of cellular telephones by truck 
        and interstate bus operators.

        Because ``texting'' was identified as the most serious 
        distracted-driving behavior in the VTTI study mentioned above, 
        the FMCSA is currently developing a notice of proposed 
        rulemaking (NPRM) prohibiting ``text messaging'' on cellular 
        telephones and similar devices by operators of commercial motor 
        vehicles. The NPRM will also propose disqualification of school 
        bus operators convicted of violating the texting prohibition. 
        After publication of this NPRM in Spring 2010, the FMCSA 
        intends to publish a second NPRM to address broader concerns 
        regarding the use of cellular telephones and similar devices 
        (including those for hands-free use) and possible differences 
        in regulatory requirements for truck and bus drivers. Both of 
        these rulemakings will be given high priority status. A third 
        rulemaking is planned for a later date to address other 
        distracted-driving issues involving devices such as fleet 
        management systems, GPS navigation screens, and laptop 
        computers.

        The FMCSA continues to work consistently to address the issue 
        of cell phone use by CDL drivers. Although the results of the 
        naturalistic driving study are encouraging, the NTSB continues 
        to believe that CDL holders must be prohibited from using a 
        cellular telephone, even in a hands-free mode, while driving 
        under the authority of a passenger carrying or school bus 
        endorsement.

        Action Remaining

        Prohibit CDL holders from using a cellular telephone while 
        driving under the authority of a passenger-carrying or school 
        bus endorsement.

        Require Electronic Onboard Data Recorders to Maintain Accurate 
        Carrier Records on Driver Hours of Service

        H-07-41
        Issued December 17, 2007
        Added to the Most Wanted List: 2008
        Status: Open--Unacceptable Response

        Require all interstate commercial vehicle carriers to use 
        electronic onboard recorders that collect and maintain data 
        concerning driver hours of service in a valid, accurate, and 
        secure manner under all circumstances, including accident 
        conditions, to enable the carriers and their regulators to 
        monitor and assess hours-of-service compliance. (Source: 
        National Transportation Safety Board, Investigation of the 
        Rear-end Chain Reaction Collision on Interstate 94 East near 
        Chelsea, Michigan, on July 16, 2004. [NTSB/HAB-07/01])

        Summary of Action

        On January 18, 2007, the FMCSA published an NPRM on EOBRs that 
        included a proposal to establish new performance standards for 
        EOBRs. These performance standards would include requirements 
        that the new devices be ``valid'' and ``accurate'' within 
        certain defined parameters and that they be ``secure'' against 
        non-evident tampering. Also under the proposal, motor carriers 
        that have demonstrated a history of serious noncompliance (a 
        10-percent or greater violation rate) with the HOS rules would 
        be subject to mandatory installation and use of EOBRs for HOS 
        recordkeeping for a period of 2 years, unless the carrier 
        already had equipped its vehicles with recording devices that 
        met the agency's current requirements under 49 Code of Federal 
        Regulations (CFR) 395.15 and could demonstrate to the FMCSA 
        that its drivers understood how to use the devices. Under the 
        proposed rule, the FMCSA would also encourage industrywide use 
        of EOBRs by providing the following incentives for motor 
        carriers to voluntarily use EOBRs in their commercial motor 
        vehicles (CMVs): (1) revising the agency's compliance review 
        procedures to permit examination of a random sample of drivers' 
        records of duty status and (2) providing partial relief from 
        HOS supporting documents requirements, if certain conditions 
        are satisfied.

        The NTSB responded with concern that the FMCSA issued an NPRM 
        on EOBRs that would require only those carriers with a history 
        of serious HOS violations to install EOBRs in all of their 
        CMVs; thus, only an estimated 930 of the 700,000 carriers in 
        operation would be affected by this requirement within the 
        first 2 years of the rule's enforcement. The NTSB also 
        expressed its concern that the only effective way for EOBRs to 
        help stem HOS violations, which the NTSB has linked to numerous 
        fatigue-related accidents, is to mandate EOBR installation and 
        use by all operators subject to HOS regulations. EOBRs have the 
        potential to efficiently and accurately collect and verify HOS 
        data for all drivers, to establish the proper incentives and a 
        level playing field for compliance with HOS rules, and, 
        ultimately, to make our highways safer for all drivers.

        On April 10, 2010, the DOT issued a final rule on EOBRs that 
        established new performance standards and mandated that motor 
        carriers that demonstrate serious noncompliance with HOS rules 
        be required to install EOBRs for a period of 2 years. The 
        Safety Board is generally satisfied with the performance 
        standards in the rule but the NTSB is still concerned that 
        compliance reviews will be the only method used to identify 
        threshold rate violators, when only about 2 percent of all 
        carriers undergo compliance reviews annually. Furthermore, the 
        NTSB has identified flaws in the compliance review system, 
        guaranteeing that many unsafe carriers will continue to evade 
        even initial identification as an HOS violator. The NTSB has 
        documented several instances in which carriers have received 
        favorable compliance review ratings despite long and consistent 
        histories of driver- and vehicle related violations. With the 
        paper logs currently in use, it is relatively easy for drivers 
        or carriers to misrepresent HOS data. As a result, to exceed 
        HOS limits undetected, many drivers falsify their logs and 
        subsequently drive in a fatigued state. The NTSB remains 
        convinced that the only effective means of curbing the many 
        tragic fatigue-related accidents is to mandate EOBR 
        installation and use by all operators subject to HOS 
        regulations. A remedial program that relies on compliance 
        reviews and the evaluation of paper logs to identify high risk 
        carriers will have limited success.

        The DOT Motorcoach Safety Action Plan, published on November 
        16, 2009, indicated that the FMCSA is considering the 
        encouragement of industrywide use of EOBRs by providing 
        incentives for motor carriers to voluntarily use EOBRs. The 
        FMCSA is also beginning another rulemaking intended to propose 
        a more widespread mandate of EOBRs, including mandating that 
        all motorcoaches be equipped with EOBRs. Although the 
        increasing scope of the carriers that would potentially be 
        affected by EOBR rulemaking efforts is encouraging, the NTSB 
        continues to believe that a mandate for the use of EOBRs by all 
        motor carriers is necessary for the collection and maintenance 
        of accurate data on driver HOS.

        Action Remaining

        Continue efforts to require the use of EOBRs by all motor 
        carriers to improve monitoring of driver HOS.

        Improve the Safety of Motor Carrier Operations

        H-99-6
        Issued February 26, 1999
        Added to the Most Wanted List: 2000
        Status: Open--Unacceptable Response

        Change the safety fitness rating methodology so that adverse 
        vehicle and driver performance-based data alone are sufficient 
        to result in an overall unsatisfactory rating for the carrier. 
        (Source: Selective Motorcoach Issues [NTSB/SIR-99/01])

        Summary of Action

        The Motor Carrier Safety Act of 1984 directed the U.S. 
        Secretary of Transportation to establish a procedure to 
        determine how safely motor carriers operate. Currently, the 
        DOT, through the FMCSA, uses a system for determining how 
        safely a motor carrier operates that does not place sufficient 
        emphasis on driver or vehicle qualifications.

        Under the current compliance review system, when any motor 
        carrier receives an unsatisfactory rating in two of six factors 
        (general, driver, operational, vehicle, hazardous materials, or 
        accident), the carrier receives a proposed unsatisfactory 
        rating, which becomes effective according to the following time 
        frames: a passenger or hazardous-materials carrier has 45 days 
        to correct the noncompliance; freight carriers have 60 days. If 
        the carrier corrects the noncompliance to the satisfaction of 
        the FMCSA, the rating is revised to either satisfactory or 
        conditional. If the carrier does not correct the noncompliance 
        within the established timeframe, the carrier receives an out-
        of-service order and is prohibited from operation.

        The NTSB believes that if the carrier receives an adverse 
        rating (conditional or unsatisfactory) for either the vehicle 
        or driver factor, regardless of ratings received in any of the 
        other factors, the overall compliance rating should be 
        unsatisfactory.

        The FMCSA believes that its Comprehensive Safety Analysis 2010 
        Initiative (CSA 2010) will address this issue through the 
        development of new performance-based systems for determining 
        motor carrier and driver safety that emphasize preventive 
        measures, motor carrier education, and early detection of 
        unsafe driver and carrier conditions. As the FMCSA demonstrated 
        to stakeholders at an October 2008 public listening session; to 
        staff members from Congress, the General Accountability Office, 
        the Office of the Inspector General, and the NTSB at a February 
        2009 meeting; and during a December 2009 two-part webcast 
        public listening session, the FMCSA is continuing to develop 
        CSA 2010 programs to improve enforcement efficiency. The new 
        Safety Measurement System: (1) measures safety performance 
        using all roadside inspection safety-based violations, (2) 
        weights time and severity of violations based on relationship 
        to crash risk, and (3) calculates safety performance in seven 
        Behavior Analysis and Safety Improvement Categories (BASIC). 
        These BASICs include unsafe driving, fatigued driving, driver 
        fitness, drugs and alcohol, vehicle maintenance, cargo 
        securement, and crash experience. The Comprehensive 
        Intervention Process provides tools to educate carriers and 
        compel safety compliance before crashes occur.

        In February 2008, the FMCSA launched a pilot test of the CSA 
        2010 operational model in four states: Colorado, Georgia, 
        Missouri, and New Jersey. The tests in these four states 
        divided the carriers into two groups--a test group, carrying 
        out CSA 2010 interventions, and a control group, using the 
        traditional compliance reviews; additional test states are 
        being added using only CSA 2010 interventions. Preliminary 
        results indicate that nearly half of the test carriers have 
        logged onto the Comprehensive Safety Information System website 
        to view their violations data, as suggested in a warning 
        letter, and have replied to the FMCSA describing the corrective 
        actions they have taken or are initiating in response to the 
        warning. In May 2009, Minnesota and Montana were added to the 
        pilot test; Maryland and Kansas were added in fall 2009. The 
        FMCSA expects to complete the pilot test in June 2010 and to 
        implement CSA 2010 nationwide during July through December 
        2010. The FMCSA is launching an outreach effort to inform 
        carriers and drivers of the upcoming change and to encourage 
        all stakeholders to become more involved.

        On March 5, 2007, the FMCSA Administrator appointed experts 
        from the motor carrier industry, safety advocates, and safety 
        enforcement officials to serve on the Motor Carrier Safety 
        Advisory Committee (MCSAC). The MCSAC, which holds quarterly 
        public meetings, provides advice and recommendations to the 
        Administrator regarding motor carrier safety programs and motor 
        carrier safety regulations. On August 6, 2008, after 
        considering the potential safety benefits and operational 
        feasibility of the task, the MCSAC recommended that Safety 
        Recommendation H-99-6 be incorporated into CSA 2010. Based on 
        the MCSAC's recommendation, the preliminary safety fitness 
        methodology that is currently being tested, and the progress 
        that has been made with the CSA 2010 initiative, the FMCSA has 
        been preparing an NPRM to address Safety Fitness Determination, 
        the third element of CSA 2010. The NPRM was expected to be 
        published in February 2009; however, it was delayed for further 
        analysis, and subsequently has an anticipated publication date 
        of February 2011. There is as yet no proposed date for 
        publication of the final rule.

        The NTSB is concerned with the FMCSA's continued slow progress 
        in addressing this issue. Although the FMCSA has made progress 
        with CSA 2010, during the investigation of a January 2, 2008, 
        motorcoach rollover on U.S. Highway 59 near Victoria, Texas, 
        the NTSB again found that the current FMCSA safety rating 
        methodology did not provide adequate oversight of motor carrier 
        safety. The NTSB will continue to monitor the FMCSA's actions 
        to recognize the importance of driver and vehicle factors in 
        addressing motor carrier safety as the CSA 2010 pilot testing 
        continues and rulemaking is completed.

        Action Remaining

        Continue efforts to develop standards that appropriately 
        recognize the importance of vehicle and driver factors in 
        measuring the overall safety of a motor carrier's operations.

        Prevent Medically Unqualified Drivers from Operating Commercial 
        Vehicles

        H-01-17, 18, 19, 20, 21 24
        Issued September 10, 2001
        Added to the Most Wanted List: 2003
        Status: See below

        The NTSB recommended to the FMCSA in 2001 that it develop a 
        comprehensive medical oversight program that addressed the 
        following issues:

    <bullet> Establish a comprehensive medical oversight program for 
            interstate commercial drivers.

    <bullet> Ensure that examiners are qualified and know what to look 
            for.

    <bullet> Track all medical certificate applications.

    <bullet> Enhance oversight and enforcement of invalid certificates.
      Provide mechanisms for reporting medical conditions.

        (Source: Investigation of the Motorcoach Run-Off-The-Road, New 
        Orleans, Louisiana, May 9, 1999. [NTSB/HAR-01/01])

        These recommendations are grouped together and specify a 
        comprehensive oversight program, because the NTSB believes that 
        only by addressing this issue in a systematic fashion can a 
        truly effective program of oversight be developed. A piecemeal 
        approach to the problem may result in deficiencies that will 
        continue to permit unqualified drivers to operate on the 
        Nation's highways. The specific recommendations and their 
        current status are as follows:

        Develop a comprehensive medical oversight program for 
        interstate commercial drivers that contains the following 
        program elements:

    <bullet> A tracking mechanism be established that ensures that 
            every prior application by an individual for medical 
            certification is recorded and reviewed. (H-01-18) [Status: 
            Open--Unacceptable Response]

    <bullet> The review process prevents, or identifies and corrects, 
            the inappropriate issuance of medical certification. (H-01-
            21) [Status: Open--Unacceptable Response]

    <bullet> Mechanisms for reporting medical conditions to the medical 
            certification and reviewing authority and for evaluating 
            these conditions between medical certification exams; 
            individuals, health care providers, and employers are aware 
            of these mechanisms. (H-01-24) [Status: Open--Unacceptable 
            Response]

    <bullet> Individuals performing medical examinations for drivers 
            are qualified to do so and are educated about occupational 
            issues for drivers. (H-01-17) [Status: Open--Acceptable 
            Response]

    <bullet> Medical certification regulations are updated periodically 
            to permit trained examiners to clearly determine whether 
            drivers with common medical conditions should be issued a 
            medical certificate. (H-01-19) [Status: Open--Acceptable 
            Response]

    <bullet> Individuals performing examinations have specific guidance 
            and a readily identifiable source of information for 
            questions on such examinations. (H-01-20) [Status: Open--
            Acceptable Response]

        The FMCSA has taken steps toward addressing medical fitness of 
        drivers::

    <bullet> In November 2008, the FMCSA published a proposed rule that 
            would require that all medical examiners who conduct 
            medical examinations of interstate commercial motor vehicle 
            drivers complete certain training on physical qualification 
            standards, pass a test to verify an understanding of those 
            standards, and maintain competence by periodic training and 
            testing. Although the NPRM has certain deficiencies noted 
            in the NTSB's comments on the rulemaking, this rule, if 
            adopted, should help to ensure that the individuals 
            performing examinations are qualified to do so, as 
            recommended. The FMCSA expects the final rule to be 
            published in January, 2011. (H-01-17)

    <bullet> The FMCSA has hired its first medical officer, a physician 
            with occupational medical experience, to provide necessary 
            expertise to guide its efforts in the establishment of a 
            comprehensive medical oversight system.

        Unfortunately, although the FMCSA continues to work to address 
        medical issues for commercial vehicle drivers, the agency has 
        yet to take definitive action regarding the three 
        recommendations in ``Unacceptable'' status, as noted below.

    <bullet> The NPRM concerning the national registry of certified 
            medical examiners does not include the establishment of a 
            tracking mechanism for driver medical examinations, as 
            recommended in H-01-18, and the FMCSA has no other specific 
            actions underway to do so. Instead, the agency indicates 
            that it is laying the groundwork for such a mechanism in 
            future rulemaking. This important recommendation would 
            reduce the current practice of driver ``doctor shopping'' 
            from physician to physician to find one willing to sign the 
            driver's medical form.

    <bullet> Likewise, the NPRM does not require any review of 
            certificate issuance, beyond the examiner evaluating the 
            driver, to prevent or identify and correct, the 
            inappropriate issuance of medical certification, as 
            recommended in H-01-21. The FMCSA has indicated that such a 
            process will be included in the national registry program.

    <bullet> Finally, the FMCSA has not taken any action on H-01-24, 
            which suggests development of a system for reporting 
            medical conditions between examinations of which 
            individuals, health care providers, and employers would be 
            aware. The FMCSA's latest response on this topic indicated 
            that the agency continues to ``explore the feasibility'' of 
            such a system.

    To address the second part of Senator Lautenberg's question (1), 
below is synopsis material concerning the 13 recommendations to the 
FMCSA that are currently classified ``Open--Unacceptable Response.'' 
Five of these recommendations are repeated from the first portion of 
the question because they are currently on the Most Wanted List. The 
information presented in this second group of recommendations comes 
from the NTSB's most recent correspondence with the FMCSA on each 
recommendation.

        H-99-6 To U.S. DOT: Change the safety fitness rating 
        methodology so that adverse vehicle and driver performance-
        based data alone are sufficient to result in an overall 
        unsatisfactory rating for the carrier.

        The FMCSA believes that its CSA 2010 initiative will address 
        this issue through the development of new performance-based 
        systems for determining motor carrier and driver safety that 
        emphasize preventive measures, motor carrier education, and 
        early detection of unsafe driver and carrier conditions. As the 
        FMCSA demonstrated to stakeholders at an October 2008 public 
        listening session; to staff members from Congress, the 
        Government Accountability Office, the Office of the Inspector 
        General, and the NTSB at a February 2009 meeting; and during a 
        December 2009 two-part webcast public listening session, the 
        agency is continuing to develop CSA 2010 programs to improve 
        enforcement efficiency. The new Safety Measurement System: (1) 
        measures safety performance using all roadside inspection 
        safety-based violations, (2) weights time and severity of 
        violations based on relationship to crash risk, and (3) 
        calculates safety performance in seven BASICs. These BASICs 
        include unsafe driving, fatigued driving, driver fitness, drugs 
        and alcohol, vehicle maintenance, cargo securement, and crash 
        experience. The Comprehensive Intervention Process is designed 
        to provide tools to educate carriers and compel safety 
        compliance before crashes occur.

        In February 2008, the FMCSA launched a pilot test of the CSA 
        2010 operational model in Colorado, Georgia, Missouri, and New 
        Jersey. The tests in these four states are being conducted by 
        dividing the carriers into two groups--a test group, carrying 
        out CSA 2010 interventions, and a control group, using the 
        traditional compliance reviews; additional test states are 
        being added using only CSA 2010 interventions. Preliminary 
        results indicate that nearly half of the test carriers have 
        logged onto the Comprehensive Safety Information System website 
        to view their violations data, as suggested in a warning 
        letter, and have replied to the FMCSA describing the corrective 
        actions they have taken or are initiating in response to the 
        warning. In May 2009, Minnesota and Montana were added to the 
        pilot test; Maryland and Kansas were added in fall 2009. The 
        FMCSA expects to complete the pilot test in June 2010 and to 
        implement CSA 2010 nationwide during July through December 
        2010. The FMCSA is launching an outreach effort to inform 
        carriers and drivers of the upcoming change and to encourage 
        all stakeholders to become more involved.

        On March 5, 2007, the FMCSA Administrator appointed experts 
        from the motor carrier industry, safety advocates, and safety 
        enforcement officials to serve on the MCSAC. The MCSAC, which 
        holds regular quarterly public meetings, provides advice and 
        recommendations to the Administrator regarding motor carrier 
        safety programs and motor carrier safety regulations.

        On August 6, 2008, after considering the potential safety 
        benefits and operational feasibility of the task, the MCSAC 
        recommended that Safety Recommendation H-99-6 be incorporated 
        into CSA 2010. Based on the MCSAC's recommendation, the 
        preliminary safety fitness methodology that is currently being 
        tested, and the progress that has been made with the CSA 2010 
        initiative, the FMCSA has been preparing an NPRM to address 
        Safety Fitness Determination, the third element of CSA 2010. 
        The NPRM was expected to be published in February 2009; 
        however, it was subsequently delayed for further analysis and 
        has an anticipated publication date of February, 2011. There is 
        as yet no proposed date for publication of the final rule.

        The NTSB is concerned with the FMCSA's continued slow progress 
        in addressing improvements with its safety fitness rating 
        process. Although the agency has plans to begin implementing 
        this program in early 2011, until the Safety Fitness 
        Determination rulemaking is complete, the FMCSA must rely on 
        the current safety rating system, which lacks sufficient driver 
        and vehicle qualifications emphasis. As a result of our 
        investigation of a January 2, 2008, motorcoach rollover on U.S. 
        Highway 59 near Victoria, Texas, the NTSB again found that the 
        current FMCSA safety rating methodology does not provide 
        adequate oversight of motor carrier safety. Although the NTSB 
        recognizes the progress that the FMCSA has made with CSA 2010, 
        the agency has failed to institute an interim rule that would 
        make adverse vehicle and driver performance based data alone 
        sufficient to result in an overall unsatisfactory rating for a 
        carrier, while continuing to incorporate the principles of the 
        NTSB's recommendations into the FMCSA's new system being field 
        tested and evaluated in CSA 2010. Accordingly, Safety 
        Recommendation H-99-6 is classified ``Open Unacceptable 
        Response.''

        H-01-18 To FMCSA: Develop a comprehensive medical oversight 
        program for interstate commercial drivers that contains the 
        following program elements: a tracking mechanism is established 
        that ensures that every prior application by an individual for 
        medical certification is recorded and reviewed.

        Based on our investigations of accidents involving drivers with 
        serious medical conditions, the NTSB has determined that 
        serious flaws exist in the medical certification process for 
        commercial vehicle drivers. These flaws can lead to increased 
        highway fatalities and injuries for commercial vehicle drivers, 
        their passengers, and the motoring public. The NTSB issued 
        Safety Recommendations H-01-17 through -24 to the FMCSA as a 
        result of our investigation of the May 9, 1999, accident 
        involving a Custom Bus Charters motorcoach in New Orleans, 
        Louisiana.

        An NPRM published in 2008 concerning the national registry of 
        certified medical examiners does not include the establishment 
        of a tracking mechanism for driver medical examinations, as 
        recommended in H-01-18, and the FMCSA has no other specific 
        actions underway to do so. The agency indicates that it is 
        laying the groundwork for such a mechanism in future 
        rulemaking. This important recommendation would reduce the 
        current practice of driver ``doctor shopping'' from physician 
        to physician to find one who will sign the driver's medical 
        form.

        H-01-21 To FMCSA: Develop a comprehensive medical oversight 
        program for interstate commercial drivers that contains the 
        following program elements: The review process prevents, or 
        identifies and corrects, the inappropriate issuance of medical 
        certification.

        The FMCSA's NPRM does not require any review of certificate 
        issuance, beyond the examiner evaluating the driver, to 
        prevent, or identify and correct, the inappropriate issuance of 
        medical certification, as recommended in H-01-21. The FMCSA has 
        indicated that such a process will be included in the future 
        rulemaking.

        H-01-24 To FMCSA: Develop a comprehensive medical oversight 
        program for interstate commercial drivers that contains the 
        following program elements: Mechanisms for reporting medical 
        conditions to the medical certification and reviewing authority 
        and for evaluating these conditions between medical 
        certification exams are in place; individuals, health care 
        providers, and employers are aware of these mechanisms.

        The FMCSA has not yet taken any meaningful action on H-01-24, 
        which proposes development of a system for reporting medical 
        conditions between examinations of which individuals, health 
        care providers, and employers are aware. The FMCSA's latest 
        response on this topic indicated that the agency continues to 
        ``explore the feasibility'' of such a system.

        H-01-25 To FMCSA: Develop a system that records all positive 
        drug and alcohol test results and refusal determinations that 
        are conducted under the U.S. Department of Transportation 
        testing requirements, require prospective employers to query 
        the system before making a hiring decision, and require 
        certifying authorities to query the system before making a 
        certification decision.

        As a result of the NTSB's recommendation, in 2004, the FMCSA 
        completed a study of the feasibility and merits of requiring 
        medical review officers and employers to report positive test 
        results to state commercial driver's license (CDL) licensing 
        agencies. The study found that it was feasible to establish a 
        national database of positive drug test results and that it 
        should be operated by the Federal Government to ensure 
        consistency and uniformity. The FMCSA is developing rulemaking 
        to establish a National Drug and Alcohol Test Results Data 
        base, which would allow Federal and state governments to 
        identify drivers who have refused a DOT drug or alcohol test or 
        who have tested positive for drug(s) and/or alcohol under the 
        established DOT drug and alcohol testing regulations. Areas of 
        consideration for the rulemaking include the following: (1) 
        requiring Medical Review Officers to submit confirmed positive 
        controlled substances test results to the FMCSA, including 
        follow-up tests stemming from an initial positive test; (2) 
        having motor carriers submit information on refusals-to-test, 
        positive alcohol test results, and annual summaries of their 
        controlled substances and alcohol testing programs each year; 
        and (3) requiring all laboratories to submit annual reports to 
        the FMCSA. Safety Recommendation H-01-25 is currently 
        classified ``Open--Unacceptable Response'' because of the 
        FMCSA's slow response time. The recommendation to develop a 
        database of positive drug and alcohol test results and to 
        establish requirements for use of the system is now 9 years 
        old. Although the FMCSA has increased its enforcement action 
        against commercial motor vehicle drivers who have tested 
        positive for controlled substances and failed to comply with 
        the return-to-duty requirements before performing a DOT safety-
        sensitive function, and also against motor carriers that use or 
        have used a driver to perform safety-sensitive functions if the 
        motor carrier was aware or should have known that the driver 
        did not comply with return-to-duty requirements, these actions 
        will be the result of investigations and will, therefore, 
        affect only a small percentage of the driver and carrier 
        populations. The NTSB concluded that if motor carriers cannot 
        check the controlled substance testing backgrounds of 
        prospective employees, they cannot make well-informed decisions 
        when attempting to hire safe drivers.

        H-02-16 To FMCSA: Require that vehicle inspections of a motor 
        carrier's fleet be conducted during compliance reviews.

        Since 2006, the FMCSA has taken the position that its CSA 2010 
        Initiative will address this recommendation.

        H-05-3 To FMCSA: Revise the Federal Motor Carrier Safety 
        Regulations Appendix G to Subchapter B, Minimum Periodic 
        Inspection Standards, Part 10: Tires, Sections A(5) and B(7), 
        to include inspection criteria and specific language to address 
        a tire's speed rating to ensure that it is appropriate for a 
        vehicles intended use.

        The FMCSA's position is that rulemaking to amend the periodic 
        inspection standards under 49 CFR Chapter III, Subchapter B, 
        Appendix G, would be ineffective. The NTSB disagrees. At the 
        NTSB's public hearing on the Wilmer, Texas, motorcoach fire 
        accident, which killed 23 passengers, FMCSA representatives 
        explained that the FMCSA is relying on the carrier to have some 
        knowledge and understanding of the appropriate maintenance 
        practices for their vehicles in order to comply with the 
        regulations. The NTSB's investigation of the 8-fatality 
        motorcoach accident in Tallulah, Louisiana, found that the 
        current Federal Motor Carrier Safety Regulations (FMCSRs) do 
        not address the identification and appropriate use of speed-
        limited tires. The lack of specific criteria on speed-
        restricted tires overlooks an important vehicle safety factor 
        that can result in commercial vehicles intended for highway use 
        being operated with tires not suited for highway speeds. 
        Therefore, it is important that the FMCSRs be updated to offer 
        complete information regarding speed-limited tires to private 
        motor carriers of passengers, allowing the carrier to 
        understand these restrictions and have the opportunity to 
        comply. The NTSB considers that it is imperative that the motor 
        carrier be given the opportunity to understand and comply with 
        specific standards before being cited.

        H-05-4 To FMCSA: Conduct a study on the safety effectiveness of 
        the self- inspection and certification process used by motor 
        carriers to comply with annual vehicle inspection requirements 
        and take corrective action, as necessary.

        At the NTSB's public hearing on the Wilmer, Texas, motorcoach 
        fire accident, which killed 23 passengers, FMCSA 
        representatives explained that the FMCSA is relying on the 
        motor carrier to ensure that vehicles are maintained in safe 
        and proper operating condition throughout the year, not only at 
        the time of the annual inspection. The FMCSA further indicated 
        that it has not initiated a detailed study to compare the out-
        of-service rates of carriers that perform self-inspections 
        under a state program to those inspected by a third party. The 
        NTSB's investigation of the 8-fatality motorcoach accident in 
        Tallulah, Louisiana, found that the self-inspection process 
        allows motor carriers to inadvertently or knowingly pass 
        defective vehicles. Because these vehicles are certified and 
        permitted to remain in operation, current methodology does not 
        ensure an adequate level of safety, even if some vehicles are 
        eventually identified as defective in roadside inspections. By 
        mandating that vehicles undergo annual Federal or state 
        inspection, the FMCSA would increase the probability that 
        defects will be found and repaired and that vehicles will be 
        brought up to an acceptable level of maintenance at least once 
        a year.

        H-05-5 To FMCSA: Develop a method for inspecting motorcoach 
        passenger seat mounting anchorages and revise the Federal Motor 
        Carrier Safety Regulations Appendix G to Subchapter B, Minimum 
        Periodic Inspection Standards, to require inspection of these 
        anchorages.

        At the NTSB public hearing on the Wilmer, Texas, motorcoach 
        fire accident, FMCSA representatives explained that the agency 
        is relying on the carrier to have appropriate vehicle 
        maintenance practices in place in order to comply with the 
        regulations, supported by passenger reports of problem seats 
        and driver verification of seat securement during the pre-trip 
        and post-trip inspections by gripping the seatback to see if 
        the assembly moves. The NTSB's investigation of the 8-fatality 
        motorcoach accident in Tallulah, Louisiana, found that the 
        current FMCSRs do not contain procedures or criteria for the 
        inspection of seat anchorage securement in motorcoaches. 
        Because no criteria or procedures are available for the 
        inspection of motorcoach passenger seat anchorage systems, 
        improperly secured motorcoach passenger seats are not likely to 
        be identified during commercial vehicle inspections, leading to 
        an increased risk of failure under higher forces, such as occur 
        during an accident.

        H-07-3 To FMCSA: To protect the traveling public until 
        completion of the Comprehensive Safety Analysis 2010 
        Initiative, immediately issue an Interim Rule to include all 
        Federal Motor Carrier Safety Regulations in the current 
        compliance review process so that all violations of regulations 
        are reflected in the calculation of a carrier's final rating.

        The FMCSA's position has been that its CSA 2010 Initiative will 
        address this recommendation. The NTSB believes that the current 
        FMCSA compliance review process does not effectively identify 
        unsafe motor carriers and prevent them from operating. Although 
        the NTSB recognizes the progress that the FMCSA has made with 
        CSA 2010, the NTSB believes that, to maintain safety in the 
        interim, the FMCSA should focus resources toward changing the 
        current rating methodology by instituting an interim rule that 
        makes adverse vehicle and driver performance-based data alone 
        sufficient to result in an overall unsatisfactory rating for a 
        carrier, while continuing to incorporate the principles of the 
        NTSB's recommendations into the agency's new system being 
        field-tested and evaluated in CSA 2010. The FMCSA is 
        responsible for ensuring that motor carriers operate safely, 
        and temporary measures to improve the compliance review process 
        should be taken until the new rules are enacted. The FHWA (the 
        FMCSA's predecessor) set a precedent for the issuance of 
        interim rules to improve safety programs when, in 1997, the 
        agency issued an interim final rule to immediately improve the 
        safety rating methodology without prior notice and comment, 
        stating that to have done otherwise would have been contrary to 
        the public interest. Therefore, the NTSB's position is that 
        deferring action on this recommendation until completion of the 
        CSA 2010 initiative is not in the best interest of the motoring 
        public and is therefore unacceptable.

        H-07-41 To FMCSA: Require all interstate commercial vehicle 
        carriers to use electronic on-board recorders that collect and 
        maintain data concerning driver hours of service in a valid, 
        accurate, and secure manner under all circumstances, including 
        accident conditions, to enable the carriers and their 
        regulators to monitor and assess hours-of-service compliance.

        For the past 30 years, the NTSB has advocated the use of 
        onboard data recorders to increase hours-of-service (HOS) 
        compliance. We first urged mandatory use of onboard recorders 
        in our 1990 safety study, Fatigue, Alcohol, Drugs, and Medical 
        Factors in Fatal-to-the-Driver Heavy Truck Crashes, after 
        concluding that onboard recording devices could provide a 
        tamper-proof mechanism to enforce the HOS regulations. As a 
        result of our investigation of a July 16, 2004, multiple-
        vehicle accident near Chelsea, Michigan, the NTSB issued Safety 
        Recommendation H-07-41 to the FMCSA on December 17, 2007.

        On April 10, 2010, the DOT issued a final rule on EOBRs that 
        established new performance standards and mandated that motor 
        carriers that demonstrate serious noncompliance with HOS rules 
        be required to install EOBRs for a period of 2 years. The 
        Safety Board is generally satisfied with the performance 
        standards in the rule but the NTSB is still concerned that 
        compliance reviews will be the only method used to identify 
        threshold rate violators, when only about 2 percent of all 
        carriers undergo compliance reviews annually. Furthermore, the 
        NTSB has identified flaws in the compliance review system, 
        guaranteeing that many unsafe carriers will continue to evade 
        even initial identification as an HOS violator. The NTSB has 
        documented several instances in which carriers have received 
        favorable compliance review ratings despite long and consistent 
        histories of driver- and vehicle related violations. With the 
        paper logs currently in use, it is relatively easy for drivers 
        or carriers to misrepresent HOS data. As a result, to exceed 
        HOS limits undetected, many drivers falsify their logs and 
        subsequently drive in a fatigued state. The NTSB remains 
        convinced that the only effective means of curbing the many 
        tragic fatigue-related accidents is to mandate EOBR 
        installation and use by all operators subject to HOS 
        regulations. A remedial program that relies on compliance 
        reviews and the evaluation of paper logs to identify high risk 
        carriers will have limited success.

        In the Motorcoach Safety Action Plan, the FMCSA indicates that 
        it is considering the encouragement of industrywide use of 
        EOBRs by providing incentives for motor carriers to voluntarily 
        use EOBRs. The FMCSA is also beginning rulemaking intended to 
        propose a more widespread mandate for EOBRs, including 
        mandating that all motorcoaches be equipped with EOBRs.

        The NTSB has stated that the only effective way for EOBRs to 
        help stem HOS violations, which the NTSB has linked to numerous 
        fatigue-related accidents, is to mandate EOBR installation and 
        use by all operators subject to HOS regulations. EOBRs have the 
        potential to efficiently and accurately collect and verify HOS 
        for all drivers, to establish the proper incentives and a level 
        playing field for compliance with HOS rules, and, ultimately, 
        to make our highways safer for all drivers.

        H-07-42 To FMCSA: As an interim measure and until industry-wide 
        use of electronic on-board recorders is mandated, as 
        recommended in Safety Recommendation H-07-41, prevent log 
        tampering and submission of false paper logs by requiring motor 
        carriers to create and maintain audit control systems that 
        include, at a minimum, the retention of all original and 
        corrected paper logs and the use of bound and sequentially 
        numbered logs.

        The NTSB has documented several instances in which carriers 
        have received favorable compliance review ratings despite long 
        and consistent histories of driver- and vehicle-related 
        violations, most recently in our investigation of the Wilmer, 
        Texas, motorcoach fire that resulted in the deaths of 23 
        people.

        The NTSB remains convinced that the only effective way to help 
        stem HOS violations, which we have linked to numerous fatigue-
        related accidents, is to mandate EOBR installation and use by 
        all operators subject to HOS regulations. According to the 
        FMCSA's March 2006 Report to Congress on the Large Truck Crash 
        Causation Study, 13 percent of large truck drivers involved in 
        study crashes were believed to be fatigued. In our 1995 safety 
        study, Factors That Affect Fatigue in Heavy Truck Accidents, 
        the NTSB found that the incidence of driver fatigue is 
        underrepresented in the Fatality Analysis Reporting System 
        database. Law enforcement reporting of the role of fatigue in 
        accidents is low because of the difficulty of proving that it 
        is causal to the accident; an officer is more likely to cite a 
        symptom of fatigue--inattention, excessive speed, illegal lane 
        maneuver, following too closely, etc.--because these are easier 
        violations to prove. Because fatigue is extremely difficult to 
        detect, fatigue-related accidents continue to plague our 
        Nation's highways. EOBRs hold the potential to efficiently and 
        accurately collect and verify HOS for all drivers, to establish 
        the proper incentives and a level playing field for compliance 
        with HOS rules, and, ultimately, to make our highways safer for 
        all drivers.

        A universal mandate would help improve the FMCSA's oversight of 
        the current logbook system. As long as the FMCSA continues to 
        accept the use of paper logbooks without an audit system to 
        verify the accuracy of a driver's entries, drivers will 
        continue to tamper with and falsify their records. Until a 
        universal EOBR requirement is effective, the NTSB recommends 
        that an interim measure be implemented to monitor driver 
        records of duty status.

        H-08-13 To FMCSA: Develop and implement a plan to deploy 
        technologies in commercial vehicles to reduce the occurrence of 
        fatigue-related accidents.

        The NTSB is concerned that the FMCSA is attempting to develop a 
        universal technology solution to reduce the occurrence of 
        fatigue-related accidents rather than interim measures that may 
        be currently available. Although there are currently no 
        commercially available fatigue detection products that could be 
        used under both daytime and nighttime driving conditions, a 
        recently published FMCSA review of activities underway to 
        develop unobtrusive, in-vehicle, real-time, drowsy driver 
        detection and alertness systems discussed at least five 
        separate systems that are capable of functioning under a 
        variety of conditions, both day and night. In addition to 
        passenger-carrying operations, a substantial proportion of 
        commercial transportation occurs at night. Given the increased 
        fatigue risks inherent in nighttime operations, it is 
        reasonable to believe that even a system that functions only at 
        night could provide a substantial safety benefit as a stopgap 
        measure until a universal system is available. Sleep 
        deprivation and circadian desynchronization can cause drivers 
        to be susceptible to fatigue even when they are complying with 
        HOS limits. The NTSB continues to believe that the FMCSA should 
        consider the deployment of nighttime-based technologies during 
        the ongoing development of in-vehicle technologies to reduce 
        fatigue-related accidents.

    Question 2. Has the Department of Transportation done enough to 
combat distracted driving in commercial motor vehicles?
    Answer. The NTSB believes that more can be done. Driver 
distractions are probably one of the least understood and imprecisely 
documented causes of traffic accidents involving many different 
accident scenarios and we have addressed several of them in our 
recommendations. Recent interest in the effects of using cell phones 
and other electronic devices has prompted numerous studies, and the 
explosive growth of texting while driving has prompted several states 
and the Federal Government to restrict such activity.
    Most would agree that texting while driving is unsafe. In fact, 
Virginia Tech has shown that texting while driving increases the risk 
of an accident by 23 times. However, the problem is much bigger than 
texting. If you dial a phone number or reach for the phone while you 
are driving, you are taking your eyes off the road. You may be able to 
do this and get away with it hundreds or even thousands of times, but 
one day, you will look down at your cell phone at just the wrong moment 
and become an accident statistic. When the driver of an 80,000-pound 
tractor-trailer or a motorcoach carrying 55 passengers looks away from 
the road at the wrong instant, the results can be catastrophic.
    The NTSB investigated a passenger car accident in February 2002 in 
Largo, Maryland, in which an inexperienced 20-year-old driver lost 
control of her high-profile, short-wheelbase vehicle on the Capitol 
Beltway. She was following her boyfriend and talking to him on her cell 
phone. She lost sight of his speeding vehicle and, as she was 
attempting to catch up with him, she lost control of her vehicle and 
crossed over the median, striking a minivan and killing all four of its 
occupants and herself. The cause of the accident was a combination of 
inexperience, unfamiliarity with the vehicle, speed, and distraction 
caused by use of a handheld wireless telephone. As a result, the NTSB 
recommended that the states prohibit holders of learner's permits and 
intermediate licenses from using wireless communication devices while 
driving, and that they add driver distraction codes to traffic accident 
investigation forms. Specifically, the NTSB issued the following 
recommendations to 33 states:

        Enact legislation to prohibit holders of learner's permits and 
        intermediate licenses from using interactive wireless 
        communication devices while driving. (H-03-8)

        Add driver distraction codes, including codes for interactive 
        wireless communication device use, to your traffic accident 
        investigation forms. (H-03-9)

    In 2004, we investigated an accident in Alexandria, Virginia, in 
which an experienced motorcoach driver, who was having a heated 
conversation on his hands-free cell phone, failed to move to the center 
lane and struck the underside of an arched stone bridge on the George 
Washington Parkway. Our investigation found that the driver had 
numerous cues to change lanes at the appropriate time. In fact, the 
driver was familiar with the road and was following another bus that 
had moved to the center lane. Yet, this driver did not notice the well-
marked signage as he approached the arched stone bridge. The accident 
was clearly caused by this driver's cognitive distraction, due to his 
conversation on his cell phone. The NTSB recommended that the FMCSA and 
the 50 states enact laws to prohibit cell phone use by commercial 
drivers while driving a passenger-carrying commercial vehicle or school 
bus. We also recommended that motorcoach associations, school bus 
organizations, and unions develop formal policies to prohibit cell 
phone use by commercial drivers, except in emergencies, as follows:

        To the FMCSA and the 50 states: Publish regulations (or enact 
        legislation) to prohibit cellular telephone use by commercial 
        driver's license holders with a passenger-carrying or school 
        bus endorsement, while driving under the authority of that 
        endorsement, except in emergencies. (H-06-27 and -28)

        To motorcoach associations, school bus organizations, and 
        unions: Develop formal policies prohibiting cellular telephone 
        use by commercial driver's license holders with a passenger-
        carrying or school bus endorsement, while driving under the 
        authority of that endorsement, except in emergencies. (H-06-29)

    Last fall, we participated in the DOT Distracted Driving Summit, 
which addressed the dangers of text-messaging and other driving 
distractions. During the summit, Secretary LaHood announced a plan to 
initiate rulemaking that would consider banning texting altogether and 
would restrict texting by truck and interstate bus operators. A notice 
of proposed rulemaking to ban texting by commercial vehicle drivers was 
issued on April 1, 2010. While a ban on texting is definitely a step in 
the right safety direction, it does not satisfy our recommendation to 
prohibit the use of cellular telephones by drivers of passenger-
carrying motorcoaches or school buses. In fact, the NTSB feels so 
strongly about these recommendations that they are both on the Board's 
Most Wanted List of Transportation Safety Improvements.
    Another potential area for reducing distracted driving accident 
lies in technology. For example, collision warning systems and adaptive 
cruise control could alert a distracted driver of an impending 
emergency situation. Since 1995, as part of its Special Investigation 
of Collision Warning Technology, the NTSB has advocated the 
installation of such systems to prevent accidents. In 2001, as part of 
another study on Technology for the Prevention of Rear-End Collisions, 
the NTSB investigated nine commercial vehicle rear-end collisions in 
which 20 people died and 181 were injured. Common to all nine accidents 
was the rear following vehicle driver's degraded perception of traffic 
conditions ahead. Therefore, the NTSB recommended that NHTSA take the 
following action:

        Complete rulemaking on adaptive cruise control and collision 
        warning system performance standards for new commercial 
        vehicles. At a minimum, these standards should address obstacle 
        detection distance, timing of alerts, and human factors 
        guidelines, such as the mode and type of warning. (H-01-6 and -
        7)

    In 2003, a multivehicle accident occurred on near Hampshire, 
Illinois, in which a tractor-trailer failed to slow for the stopped or 
slow-moving traffic on the approach to the Interstate 90 toll plaza. 
The tractor-trailer driver was distracted and rear-ended a specialty 
bus, killing 8 passengers and injuring 12. As a result, the NTSB 
reiterated recommendations H-01-6 and -7.
    In 2007, these important safety recommendations were added to the 
Board's Most Wanted List. These recommendations were again reiterated 
following the Board's 2008 report on a 4-fatality motorcoach and 
tractor-trailer accident in, Osseo, Wisconsin, a 7-fatality tractor-
trailer/sedan/school bus collision in Lake Butler, Florida, and the 14-
fatality motorcoach rollover accident in Turrell, Arkansas.
    NHTSA is currently in the process of evaluating forward collision 
warning systems in field tests to evaluate several human factors 
considerations related to integrating safety warning systems in both 
heavy and light vehicles.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                       Hon. Deborah A.P. Hersman

    Question 1. Last year I introduced S. 1113, the Safe Roads Act, to 
establish a national drug and alcohol testing database for employers to 
better select qualified drivers and avoid hiring employees with a drug 
or alcohol background.
    Under this law, the FMCSA would require medical review officers, 
employers, and other service agents to report positive results from 
FMCSA required drug or alcohol tests to the database and clearinghouse. 
Employers would be required to check the database prior to hiring a 
prospective employee. If a prospective employee has a positive result, 
an employer would not be allowed to hire the prospect unless he/she has 
not violated the requirements of the testing program or he/she has 
fully completed a return-to-duty program as required by the testing 
program. This law will also require privacy protections and employee 
rights of action. Does the NTSB support the establishment of a drug and 
alcohol test result clearinghouse? Do you believe the CSA 2010 should 
accommodate such a database?
    Answer. The NTSB strongly supports the both the establishment of a 
drug and alcohol test result clearinghouse and the inclusion of such a 
database in the FMCSA's CSA 2010 initiative. The NTSB has supported 
this initiative since investigating the 1999 Mother's Day motorcoach 
accident in New Orleans, Louisiana. In this accident, the motorcoach 
driver lost consciousness while driving on an interstate highway, left 
the roadway, and crashed into an embankment, killing 22 passengers and 
injuring 21.
    By way of background, the driver had multiple known serious medical 
conditions, including kidney failure and congestive heart failure, and 
he was receiving intravenous therapy for 3-4 hours a day, 6 days a 
week. Additionally, when the driver submitted his application to the 
motor carrier, he did not mention previous positions he had held with 
two other motor carriers where he had been dismissed for testing 
positive for marijuana. He explained the gaps in his employment record 
by stating that he was a musician in a brass band during those times. 
His employer sent requests for information to the two previous 
employers, both of whom were authorized by the bus driver to provide 
the information. However, neither company responded. Before being hired 
by his current employer, the driver took a preemployment drug test; he 
subsequently had three random drug tests during his tenure, all with 
negative results.
    Three problems are evident from the events described above. First, 
the driver was able to avoid negative scrutiny from his current 
employer by omitting parts of his employment history. Second, his 
current employer did not receive a response from any of the former 
employers it contacted. Third, no enforcement mechanism or incentive 
exists to compel previous employers to comply with information 
requests.
    Today, it is still possible for drivers to hide positive drug test 
results in the manner of the New Orleans driver. Title 49 CFR 391.21 
requires drivers to provide carriers with the names and addresses of 
employers from their previous 3 years of employment, including their 
employment dates and reasons for leaving. However, drivers are unlikely 
to provide such history when it might limit their opportunities for 
employment. Additionally, enforcing this requirement is difficult 
because the only way to detect a false employment history would be to 
obtain employment information from someone other than the driver.
    Because employees are unlikely to divulge positive drug test 
results and because prospective employers may not have sufficient 
employment history or the authority to obtain information from previous 
employers regarding positive drug tests, the results of tests for 
controlled substances performed under the DOT testing guidelines, even 
when positive, are often not available to prospective employers, making 
it difficult for them to make well-informed hiring decisions.
    Drivers who own and operate their own commercial vehicles (owner-
operators) are required by regulation to comply with all the 
requirements stipulated for both drivers and employers. Owner-operators 
are thus in the precarious position of overseeing their own substance 
abuse programs. No Federal requirements exist for reporting drivers who 
have tested positive for controlled substances to any regulatory or 
certifying authority. Therefore, the only entity with information 
regarding a positive test is the employer, who, if an owner-operator, 
may also be the individual being tested. Such an arrangement requires 
owner-operators who are abusing controlled substances to remove 
themselves from driving if they test positive for such substances. It 
seems highly unlikely that those owner-operators who are not complying 
with the regulations regarding the use of controlled substances will 
comply with other sections of the drug testing regulations.
    Therefore, the NTSB concluded that the current Federal drug testing 
regulations cannot adequately identify owner-operators who abuse 
controlled substances. A database that records positive drug and 
alcohol test results and refusal determinations for all commercial 
drivers would provide an effective way for both employers and 
certifying authorities to verify and evaluate the drug test history of 
all commercial drivers. Such a database would allow employers to make 
better-informed hiring decisions and would allow certifying authorities 
to determine whether a driver has a potentially disqualifying medical 
condition regarding substance abuse. Therefore, the NTSB made the 
following recommendation to the FMCSA:

        Develop a system that records all positive drug and alcohol 
        test results and refusal determinations that are conducted 
        under the U.S. Department of Transportation testing 
        requirements, require prospective employers to query the system 
        before making a hiring decision, and require certifying 
        authorities to query the system before making a certification 
        decision. (H-01-25)

    Question 2. I understand that on April 5, 2010, the FMCSA developed 
a final rule to require the use of EOBRs by carriers that have violated 
the hours of service rules. What is the NTSB's view of the new EOBR 
rule?
    Answer. For the past 30 years, the NTSB has advocated the use of 
onboard data recorders to increase HOS compliance. The NTSB first 
proposed the use of automatic onboard recorders for commercial vehicle 
HOS compliance in 1977. In 1990, the NTSB recommended that they be 
required on all commercial vehicles. Although the final rule on EOBRs 
is an improvement over what had been proposed in 2007, it still falls 
short of industrywide implementation and will not lead to significant 
improvements in HOS compliance.
    In the final rule, the primary purpose of EOBRs is remedial. The 
FMCSA has improved the process described in the NPRM and adopted a more 
stringent approach, whereby motor carriers with a 10-percent violation 
rate of any 49 CFR Part 385, Appendix C, HOS regulation in any single 
compliance review--rather than two consecutive compliance reviews, as 
proposed in the NPRM--would be required to equip their fleets for 2 
years with EOBRs that meet the parameters described in the final rule 
or be prohibited from operating. The FMCSA estimated that the directive 
proposed in the NPRM would have resulted in the annual issuance of 465 
remedial directives to install EOBRs; it estimates that the final rule 
will result in the annual issuance of 5,419 remedial directives, 
affecting 104,428 power units.
    The NTSB is still concerned that compliance reviews will be the 
only method used to identify threshold rate violators, when only about 
2 percent of all carriers undergo compliance reviews annually. 
Furthermore, the NTSB has identified flaws in the compliance review 
system, guaranteeing that many unsafe carriers will continue to evade 
even initial identification as an HOS violator. The NTSB has documented 
several instances in which carriers have received favorable compliance 
review ratings despite long and consistent histories of driver- and 
vehicle-related violations. With the paper logs currently in use, it is 
relatively easy for drivers or carriers to misrepresent HOS data. As a 
result, to exceed HOS limits undetected, many drivers falsify their 
logs and subsequently drive in a fatigued state. The NTSB remains 
convinced that the only effective means of curbing the many tragic 
fatigue-related accidents is to mandate EOBR installation and use by 
all operators subject to HOS regulations. A remedial program that 
relies on compliance reviews and the evaluation of paper logs to 
identify high-risk carriers will have limited success.
    It is the NTSB's position that using EOBRs as a form of remediation 
or punishment undermines the goal of achieving voluntary industrywide 
acceptance and runs counter to the intent of the NTSB's previously 
issued safety recommendations and continued support of recording 
technologies. The FMCSA lists several incentives that it hopes will 
promote the voluntary installation and use of EOBRs. Among these 
incentives are new compliance review procedures and exemptions for 
certain supporting documentation requirements. The NTSB is in favor of 
any incentive that fosters the use of EOBRs without undermining safety; 
however, we remain skeptical as to whether the incentives currently 
proposed will be strong enough to override the financial motivation 
some carriers and drivers have for continuing to circumvent the HOS 
regulations and not use EOBRs.
    The NTSB understands that the FMCSA is considering publication of a 
separate NPRM in the near future, initiating a new rulemaking to expand 
the scope of EOBR use beyond what has been set forth in this final 
rule. The FMCSA did not propose a timeline for this action, and the 
NTSB would like to encourage publication of the notice mandating 
industrywide implementation of EOBRs as soon as possible.
    The NTSB has urged the FMCSA to continue its work in evaluating 
regulatory options for expanding the use of EOBRs by all carriers. The 
NTSB believes that it is past time to act and that the use of EOBRs 
should be mandatory throughout the industry, as is the case in most of 
Europe.

    Question 2a. What information should be required to be recorded by 
the EOBRs? What should be a minimum performance standard?
    Answer. With respect to performance-oriented standards for EOBR 
technology, the NTSB is generally satisfied with the FMCSA's final 
rule. The FMCSA's decision to require that onboard recording devices be 
integrally synchronized to the engine was especially well received and 
should help ensure the accuracy of electronic records of duty status. 
However, the NTSB is disappointed that the final rule does not include 
further standards for EOBR damage resistance and data survivability 
beyond those for other electronic components used in trucks and buses 
and encourages the FMCSA to revisit this issue in subsequent EOBR 
rulemaking.

    Question 2b. Should all motor-carriers be equipped with EOBRs to 
better comply with Hours of Service laws?
    Answer. The NTSB supports mandatory EOBR implementation by all 
motor carriers. Although the NTSB does not agree with the FMCSA's 
rationale for not implementing an industrywide mandate at this time, 
the NTSB understands that the FMCSA plans to publish a separate notice 
in the near future initiating a new rulemaking to consider expanding 
the scope of EOBR use beyond what has been set forth in the final rule. 
The FMCSA did not propose a timeline for this action, and the NTSB has 
encouraged the FMCSA to publish an NPRM mandating the industrywide 
implementation of EOBRs as soon as possible.
    By way of background, the NTSB supports EOBR use by all motor 
carriers because it believes that compliance with HOS laws can help 
reduce the number of fatigue-related accidents. As you know, fatigue-
related accidents continue to plague our Nation's highways because, 
unlike alcohol or drugs, fatigue is extremely difficult to detect. In 
fact, fatigue is probably the most underreported causal factor in 
highway accidents. Electronic on-board recorders have the potential to 
efficiently and accurately collect and verify the hours of service for 
all commercial drivers. Mandatory use of EOBRs will also establish the 
proper incentives and create a level playing field for compliance with 
HOS rules that will ultimately make our highways safer for all drivers.

    Question 3. Do you believe the current size and weight restrictions 
can be increased without compromising highway safety or infrastructure 
integrity? Would you comment on your views of increasing the allowable 
weight of trucks to 97,000 pounds by adding a third axle to the rear 
pair of axles?
    Answer. The NTSB has not evaluated the safety implications, nor has 
it taken an official position, on adding a third axle to tractor-
trailers and increasing the weight limit to 97,000 pounds. Most of our 
recent recommendations have focused on oversize and overweight vehicles 
that require a special permit. In fact, we are currently reviewing an 
accident that occurred last Friday, June 11, 2010, involving the lead 
escort vehicle for an oversize load traveling on Interstate 74 near the 
village of St. Joseph, Illinois. Oversize and overweight ``permitted'' 
loads require special handling and procedures and the NTSB has made 
associated recommendations from accidents that occurred in Glendale, 
California, in 2000 and Intercession City, Florida, in 1993. Again, 
these accidents involved very specialized vehicles, traveling on 
specified routes, and they required special considerations and 
oversight.
    The NTSB has not made specific recommendations on a general 
increase in the current size and weight restrictions. However, many 
safety implications should be considered. For example, the NTSB has 
numerous outstanding recommendations to the FMCSA, NHTSA, and the FHWA 
that involve heavy commercial vehicles, and perhaps some of those 
issues should be addressed prior to allowing larger and heaver trucks 
on the road. For instance, concerning braking and stopping distances, 
larger and heavier vehicles are likely to have longer stopping 
distances, and the NTSB has made several recommendations involving 
truck brakes and maintenance. For example, our investigation into a 
tractor-trailer with bad brakes that collided with a school bus in 
Mountainburg, Arkansas, in 2001 illustrated the importance of truck 
brake maintenance. Those recommendations to the FMCSA included the 
following:

        Revise 49 CFR 396.13, Driver Inspection, to require minimum 
        pre-trip inspection procedures for determining brake 
        adjustment. (H-02-15)

        Require that vehicle inspections of a motor carrier's fleet be 
        conducted during compliance reviews. (H-02-16)

        Revise 49 CFR 396.25, Qualifications of Brake Inspectors, to 
        require certification after testing as a prerequisite for 
        qualification and specify, at a minimum, formal training in 
        brake maintenance and inspection. (H-02-17)

        During compliance reviews, rate companies as unsatisfactory in 
        the vehicle factor category if the mechanics and drivers 
        responsible for maintaining brake systems are not qualified 
        brake inspectors. (H-02-18)

    Another example includes the NTSB's investigation of a 2003 runaway 
truck accident in Glendale, Pennsylvania, that was caused by brake 
failure and poor maintenance. The Board recommended that the FMCSA:

        Work with the Commercial Vehicle Safety Alliance to develop and 
        add to the North American Standard Inspection training 
        materials a module that emphasizes that manually adjusting 
        automatic slack adjusters is dangerous and should not be done, 
        except during installation or in an emergency to move the 
        vehicle to a repair facility, because manual adjustment of this 
        brake component: (1) fails to address the true reason why the 
        brakes are not maintaining adjustment, giving the operator a 
        false sense of security about the effectiveness of the brakes, 
        which are likely to go out of adjustment again soon, and (2) 
        causes abnormal wear to the internal adjusting mechanism for 
        most automatic slack adjusters, which may lead to failure of 
        this brake component. (H-06-1)

    In general, the NTSB considers that the FMCSA's methodology for 
identifying unsafe motor carriers is lacking in several areas, but 
specifically, we have reiterated a recommendation to recognize the 
importance of vehicle maintenance when evaluating the adequacy of a 
motor carrier's operations. That longstanding recommendation to FMCSA 
is as follows:

        Change the safety fitness rating methodology so that adverse 
        vehicle and driver performance-based data alone are sufficient 
        to result in an overall unsatisfactory rating for the carrier. 
        (H-99-6)

    This recommendation has been reiterated in several accident 
investigation reports and has been on our Most Wanted List for over a 
decade. Therefore, until the FMCSA has adequate procedures in place to 
monitor motor carrier vehicle maintenance, it seems unlikely that the 
Board would support an increase in truck size and weight.
    Likewise, the Board is very concerned with fatigued truck and bus 
drivers, and for the last 30 years has made recommendations for the 
FMCSA to require EOBRs for HOS compliance. This issue was added to our 
Most Wanted List in 2008. It was most recently reiterated in a report 
of a 9-fatality motorcoach accident in Mexican Hat, Utah. That 
recommendation to the FMCSA states:

        Require all interstate commercial vehicle carriers to use 
        electronic on-board recorders for hours of service. (H-07-41)

    In addition, as a result of three fatigue-related accidents that 
occurred in Osseo, Wisconsin; Lake Butler, Florida; and Turrell, 
Arkansas, the NTSB issued a report in 2008 with the following new 
recommendations to the FMCSA:

        Develop and implement a plan to deploy technologies in 
        commercial vehicles to reduce the occurrence of fatigue-related 
        accidents. (H-08-13)

        Develop and use a methodology that will continually assess the 
        effectiveness of the fatigue management plans implemented by 
        motor carriers. (H-08-14)

    Before larger and heavier trucks, with potentially longer stopping 
distances, are allowed on the road, we believe that NHTSA should 
consider implementing some of the NTSB's recommendations concerning new 
technologies that could help prevent large truck and bus accidents. 
Those include the implementation of collision warning systems, adaptive 
cruise control with active braking, and electronic stability control. 
Again, the Most Wanted List contains some of these longstanding 
recommendations to NHTSA, including the following:

        Complete rulemaking on adaptive cruise control and collision 
        warning system performance standards for new commercial 
        vehicles. At a minimum, these standards should address obstacle 
        detection, timing of alerts, and human factors guidelines, such 
        as the mode and type of warning. (H-01-6)

        Determine whether equipping commercial vehicles with collision 
        warning systems with active braking and electronic stability 
        control systems will reduce commercial vehicle accidents. If 
        these technologies are determined to be effective in reducing 
        accidents, require their use on commercial vehicles. (H-08-15)

    Finally, it goes without saying that increasing truck size and 
weight will have implications affecting the highway infrastructure, its 
bridges, and general roadway deterioration. The NTSB's investigation of 
the Minneapolis bridge collapse showed that a design flaw in that 
bridge caused the collapse, but the report also acknowledged the 
overall deterioration of the Nation's infrastructure. Similarly, the 
NTSB's recent investigation into a motorcoach accident in Sherman, 
Texas, illustrated that bridge barriers on many existing bridges are 
not adequate to redirect large buses and trucks. Therefore, any 
proposal to increase the size and weight of trucks should take into 
consideration the adequacy of our highway infrastructure to accommodate 
those vehicles. The recommendation from the Sherman accident to the 
FHWA is as follows:

        Establish, in conjunction with the American Association of 
        State Highway and Transportation Officials, performance and 
        selection guidelines for bridge owners to use to develop 
        objective warrants for high-performance Test Level Four, Five, 
        and Six bridge railings applicable to new construction and 
        rehabilitation projects where railing replacement is determined 
        to be appropriate. (H-09-17)
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                       Hon. Deborah A.P. Hersman

    Question 1. In your testimony, you state that the NTSB has 
recommended that event data recorders (EDRs) be required in all newly 
manufactured light duty vehicles. You also state that school buses and 
motorcoaches should be required to record specific vehicle parameters. 
While many vehicles have these recorders, they are still not required 
by NHTSA. Today I introduced legislation, S. 3271 the Vehicle Safety 
Improvements Act, which would require that all vehicles, including 
medium and heavy-duty vehicles, have an EDR. What are the benefits of 
having event data recorders (EDRs) in vehicles?
    Answer. An EDR is a device or function that records a vehicle's 
dynamic, time-series data just before a crash (vehicle speed versus 
time) or during a crash (change in velocity versus time). Intended for 
retrieval after the crash event, EDR data can provide critical safety 
system performance information. To enhance crash testing with real-
world data, it is important that data from motorcoach crashes be 
available for use in postaccident analysis, forensics, and design 
evaluation.
    EDRs are a proven technology. They record critical vehicle 
movements and driver inputs that greatly help in accident 
reconstruction and future accident prevention initiatives. That is why 
since 1997, the NTSB has issued six recommendations and participated in 
and/or hosted five public forums on the use of data recording devices 
in highway transportation.
    Although the NTSB has been advocating the installation of EDRs for 
decades, the importance of such devices has just now become apparent to 
members of the general public, as they wrestle with the issue of 
unattended acceleration. It is just this type of device that would have 
assisted in determining whether the Toyota unintended acceleration 
problem was caused by mechanical or human error. NHTSA has maintained 
that use of these devices should be voluntary, but the NTSB considers 
that they should be mandatory. In fact, we investigated an accident 
involving pedal misapplication in 2003 in a Santa Monica, California, 
farmers market that caused 10 fatalities and 63 injuries. As a result, 
we recommended that NHTSA take the following action:

        Once standards for event data recorders are developed, require 
        their installation in all newly manufactured light-duty 
        vehicles. (H-04-26)

    In addition, the NTSB has advocated the use of EDRs in school buses 
and motorcoaches since 1999. Most recently, we reiterated these 
recommendations in the report of the 2008 7-fatality motorcoach 
accident in Atlanta, Georgia, in which a motorcoach carrying Bluffton 
University students launched off a highway overpass, falling to the 
roadway below.
    That accident illustrated how the lack of valuable crash data 
continues to restrict accident investigations. In that case, data 
concerning the exact vehicle speed, status of the cruise control and 
high beams, throttle position, and driver steering and brake inputs, as 
well as several other parameters, could not be precisely determined 
based on physical evidence. The NTSB's investigation into the cause of 
passenger injuries and the points of ejection was severely limited 
because insufficient data were available from which to calculate 
reliable crash pulses. An EDR would have provided vehicle dynamics 
information throughout the accident sequence. Crash pulses and/or Delta 
V are often used to calculate passenger occupant kinematics, help 
evaluate injury exposure, and help evaluate passenger protection safety 
devices and systems. Using these data, investigators can predict 
potential injury mechanisms and the effects of various design elements 
on occupant protection systems.

    Question 1a. Could requiring that all medium and heavy-duty 
vehicles also have EDRs lead to vehicle safety improvements?
    As mentioned above, EDRs provide many benefits beyond just 
determining the cause of a crash, especially in the areas of 
crashworthiness and occupant kinematics research. That is why the NTSB 
made the following recommendations in 1999, and we reiterated them as a 
result of the Atlanta, Georgia, accident:

        Require that all school buses and motorcoaches manufactured 
        after January 1, 2003, be equipped with on-board recording 
        systems that record vehicle parameters, including, at a 
        minimum, lateral acceleration, longitudinal acceleration, 
        vertical acceleration, heading, vehicle speed, engine speed, 
        driver's seat belt status, braking input, steering input, gear 
        selection, turn signal status (left/right), brake light status 
        (on/off), head/tail light status (on/off), passenger door 
        status (open/closed), emergency door status (open/closed), 
        hazard light status (on/off), brake system status (normal/
        warning), and flashing red light status (on/off) (school buses 
        only). For those buses so equipped, the following should also 
        be recorded: status of additional seat belts, airbag deployment 
        criteria, airbag deployment time, and airbag deployment energy. 
        The on-board recording system should record data at a sampling 
        rate that is sufficient to define vehicle dynamics and should 
        be capable of preserving data in the event of a vehicle crash 
        or an electrical power loss. In addition, the on-board 
        recording system should be mounted to the bus body, not the 
        chassis, to ensure that the data necessary for defining bus 
        body motion are recorded. (H-99-53 and -54)

    In recent years, NHTSA has made progress in developing EDR data 
standards for light vehicles, which include passenger cars, 
multipurpose passenger vehicles, light trucks, and vans with a gross 
vehicle weight rating of 8,500 pounds or less. In August 2006, NHTSA 
published a final rule that standardizes the information EDRs collect, 
making EDR data retrieval easier, and that addresses the survivability 
requirements for EDRs based on crash testing. The final rule was 
amended on January 14, 2008, in response to numerous petitions for 
reconsideration. Based on this revised rule, compliance dates have been 
changed to September 1, 2012, for most light vehicles, and to September 
1, 2013, for vehicles manufactured in two or more stages. The new rule, 
however, does not address vehicles over 8,500 pounds. Thus, it would 
not apply to buses or motorcoaches.
    In its comments on the proposed rule, the NTSB highlighted its 
concerns that limiting the EDR requirement to vehicles weighing less 
than 8,500 pounds will exclude vehicles involved in crashes for which 
data from EDRs would be especially beneficial. The NTSB has previously 
recommended that school buses and motorcoaches be equipped with EDRs, 
and NHTSA indicated in its NPRM that it will address heavy vehicles 
later. The NTSB believes that this rulemaking for light vehicles should 
have applied to all vehicles weighing 10,000 pounds or less and that 
heavy-vehicle rulemaking should apply to all vehicles with a gross 
vehicle weight rating of 10,001 pounds or more. Thus, no vehicles would 
be excluded from EDR requirements.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                       Hon. Deborah A.P. Hersman

    Question. Last December, this Committee reported legislation to 
improve motorcoach safety. For example, new motorcoach entrants would 
be required to successfully complete an on-site pre-authorization 
safety audit before they could begin operating. While pre-authorization 
safety audits may not be practical for the trucking industry, which has 
thousands of new entrants each year, what more can be done before a 
carrier begins operations to ensure the carrier, its vehicles, and 
drivers are in compliance with Federal safety regulations? What other 
recommendations do you have for improving FMCSA's new entrant program?
    Answer. The Committee's initiative last December which emphasized 
that FMCSA review a carrier's fitness before they are allowed to engage 
in interstate commerce is precisely what the NTSB wants and has asked 
for in its recommendations for both passenger and freight operations. 
The fact that there are numerous new entrant applications each year 
should not be a deterrent. In fact, it is an even greater reason to 
establish a program that reviews these applications prior to engaging 
in interstate commerce. Otherwise, we are allowing thousands of rookie 
operators on the road. Some will certainly be unsafe and thus raise the 
risk of accidents for themselves and the traffic around them. 
Intervening as soon as possible before their vehicles move onto the 
highway reduces those risks.
    An example of the danger of allowing a motor carrier to conduct 
business before being evaluated on their knowledge of the FMCSRs is 
found in the NTSB's investigation of an accident that occurred in 2002 
near Loraine, Texas, in which the Safety Board made recommendations to 
the FMCSA to establish a program to evaluate new entrants prior to 
operating. At the time of this accident, FMCSA had essentially no 
program to review or follow-up on new entrant motor carriers. This 
accident involved the collision of a motorcoach with a tractor-
semitrailer and resulted in 3 fatalities and 30 injuries. In this case, 
our investigation revealed that when the trucking company owner, who 
had no previous experience running a motor carrier operation, submitted 
his application to FMCSA, he lied about his knowledge of the 
regulations, about having systems in place to comply with the 
regulations, and about a drug conviction for possession of large 
amounts of marijuana the year prior to his application. He also did not 
maintain any records on his drivers or vehicles, did not have a company 
drug and alcohol program, and did not conduct background checks of his 
drivers. Further, he knowingly dispatched the accident driver, who did 
not have a commercial driver's license or medical certificate.
    As a result of the NTSB's recommendation from this accident, 
Congress required the FMCSA to establish a new entrant audit program. 
Subsequently, the FMCSA developed the New Entrant Safety Assurance 
Program in 2003 under which a new motor carrier, operating in 
interstate commerce, is subject to an 18-month safety monitoring period 
and receives a safety audit sometime after its first 3 months of 
operation but before it completes 18 months of operation. 
Unfortunately, this program included very little screening prior to 
allowing motor carriers to engage in interstate commerce. Since it 
relies on evaluating the performance of the carrier during this 18-
month safety monitoring period, it essentially allows new entrants to 
engage in interstate commerce without proving their safety fitness.
    The current application process relies on the motor carrier to read 
the material and to do what is required. The FMCSA has no way of 
determining whether a motor carrier is complying with the FMCSRs until 
the safety audit occurs, up to 18 months after the motor carrier begins 
operations. In other countries and territories, the new applicant 
process is more stringent. In British Columbia, a new motor carrier 
must describe the types of systems that are in place and the records 
that will be kept. In all member countries of the European Union, a new 
motor carrier must take an examination to ensure that he knows the 
rules and regulations. In the United Kingdom, the new motor carrier 
must inform the licensing agency of its maintenance program and 
capabilities and is inspected within 9 months.
    In the U.S. motor carrier certification process, no such checks are 
in place. The FMCSA does not verify that the motor carrier understands 
or has complied with the regulations. While many new motor carriers do 
put safety management systems in place to comply with the FMCSRs, the 
NTSB is concerned that some carriers will fail to do so. The 
application form for a new entrant only requires the carrier to check 
``yes'' or ``no'' boxes to verify that he understood the rules and 
regulations. The NTSB believes that the FMCSA's New Entrant Safety 
Assurance Program lacks meaningful safeguards to ensure that a motor 
carrier is aware of, understands, and has a safety management system in 
place to comply with the FMCSRs prior to beginning operations. Thus the 
Safety Board's recommendation (below), issued to FMCSA after the 
Loraine accident, remains valid.

        Require all new motor carriers seeking operating authority to 
        demonstrate their safety fitness prior to obtaining new entrant 
        operating authority by, at a minimum: (1) passing an 
        examination demonstrating their knowledge of the Federal Motor 
        Carrier Safety Regulations; (2) submitting a comprehensive plan 
        documenting that the motor carrier has management systems in 
        place to ensure compliance with the Federal Motor Carrier 
        Safety Regulations; and (3) passing a Federal Motor Carrier 
        Safety Administration safety audit, including vehicle 
        inspections. (H-03-02)

    This concept of evaluating new entrants prior to allowing them to 
engage in interstate commerce was echoed by FMCSA's Motor Carrier 
Safety Advisory Committee in September of 2009. The Committee stated:

        ``Currently, a new entrant may engage in interstate commerce 
        before the Federal Motor Carrier Safety Administration (FMCSA) 
        conducts any kind of safety assessment (whether a roadside 
        inspection, safety audit, or compliance review). The Committee 
        believes that the process for granting new entrant motor 
        carriers permission to engage in interstate operations should 
        emphasize safety by improving the knowledge, capabilities, and 
        commitment of applicants on the front end.''

    Another area of concern is when unscrupulous motor carriers use the 
new entrant program to evade an enforcement action or an out-of-service 
order by going out of business and then reincarnating themselves, as if 
they are a brand new motor carrier. The NTSB found that this had 
occurred with a motor carrier involved in an accident in 2008, when a 
motorcoach ran off a bridge and rolled over in Sherman, Texas, killing 
17 passengers. After losing its authority to operate because of an 
unsatisfactory compliance review rating, the motor carrier applied for 
operating authority under a new name as a new entrant. Although the 
application was still in the review process, the carrier began 
operating under the new carrier name.
    The Sherman accident prompted the FMCSA to develop a vetting 
process as part of its New Applicant Screening Program, under which the 
agency compares information on new applications against information on 
companies previously granted authority. Using this system, the FMCSA is 
potentially able to identify carriers who are attempting to reincarnate 
themselves.
    The Sherman accident also prompted the GAO to study FMCSA's new 
entrant program. The GAO report, published in July 2009, found that 
roughly 9 percent of the carriers, which FMCSA had previously placed 
out of service, attempted to reincarnate themselves as new entrants. 
GAO also acknowledged that their conservative methodology in 
identifying these reincarnated carriers likely underestimates the 
problem.
    The NTSB's final report on the Sherman, Texas, accident concluded 
that the FMCSA's program for identifying reincarnated carriers would 
benefit from a process that evaluated how effective the screening 
program was in identifying reincarnated carriers. Therefore, we asked 
them to evaluate the effectiveness of the new program by issuing the 
following recommendation to the FMCSA:

        Develop an evaluation component to determine the effectiveness 
        of its New Applicant Screening Program. (H-09-21)

    In 2008, the NTSB investigated an accident in which the driver fell 
asleep and the motorcoach overturned in Victoria, Texas, killing one 
person. The Safety Board discovered that FMCSA lacked sufficient 
authority to deny or revoke operating authority from a carrier who 
failed to disclose a relationship with a prior carrier. The NTSB 
concluded that some motor carriers are circumventing the legitimate 
corporate succession processes by reapplying for FMCSA interstate 
operating authority without declaring previous relationships with 
carriers under enforcement actions.
    As a result, the NTSB issued a recommendation to the FMCSA that 
asks the agency to develop methods to identify reincarnated carriers 
that fail to disclose previous transportation operations and to seek 
authority to deny or revoke their operating authority:

        Seek statutory authority to deny or revoke operating authority 
        for commercial interstate motor carriers found to have 
        applications for operating authority in which the applicant 
        failed to disclose any prior operating relationship with 
        another motor carrier, operating as another motor carrier, or 
        being previously assigned a U.S. Department of Transportation 
        number. (H-09-34)

    Also in its Victoria accident investigation, the NTSB identified 
motor carriers that owned and operated vehicles that did not meet the 
requirements of the Federal Motor Vehicle Safety Standards (FMVSS). As 
such, the NTSB asked the FMCSA to require motor carriers to declare on 
their operating authority application that they will only use FMVSS 
compliant vehicles. Further, the NTSB asked the FMCSA to seek 
legislation allowing the FMCSA to put out of service any company that 
uses non-FMVSS compliant vehicles, i.e.:

        Require that passenger motor carriers certify on their OP-1(P) 
        forms (Application for Motor Passenger Carrier Authority) and 
        initial MCS-150 form (Motor Carrier Identification Report 
        [Application for USDOT Number]) and subsequent required 
        biennial submissions that all vehicles operated, owned, or 
        leased per trip or per term met the FMVSSs in effect at the 
        time of manufacture. (H-09-40)

        Seek statutory authority to suspend, revoke, or withdraw a 
        motor carrier's operating authority upon discovering the 
        carrier is operating any non-FMVSS-compliant passenger-carrying 
        commercial motor vehicles, a violation of the FMVSS-compliant 
        certification requested in Safety Recommendation H-09-40. (H-
        09-41)

    Finally, a recurring theme in many of the NTSB's investigations is 
vehicle maintenance, and, in fact, all of the above accidents contained 
vehicle issues of some sort. Our report on a 2001 collision between a 
school bus and a tractor-semitrailer near Mountainburg, AR, in which 3 
students were killed, highlighted the ease with which carriers avoid 
vehicle inspections. As a result, the Safety Board recommended that the 
FMCSA:

        Require that vehicle inspection of a motor carrier's fleet be 
        conducted during compliance reviews. (H-02-16)

    None of the above recommendations have been fully implemented by 
FMCSA. However, the NTSB believes that all of them would help 
contribute to improved vigilance in reviewing and granting operating 
authority to new motor carriers.
    In summary, there are very few professions where you get to 
practice that occupation prior to being licensed or taking some kind of 
test. Still, the NTSB recognizes that predicting how safe a motor 
carrier will be in the future is difficult. Nevertheless, the risks to 
the public from unsafe motor carriers are too high. As our 
recommendations indicate, the NTSB believes more can be done to ensure 
that only safe, knowledgeable companies are allowed to operate on our 
Nation's highways.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                         Francis (Buzzy) France

    Question. Most truck drivers are paid by the mile, which tempts 
drivers to drive longer than what is permitted under the Hours of 
Service regulations, especially if they are delayed at ports and 
loading facilities. As we work to reauthorize the Federal Motor Carrier 
Safety Administration, what additional steps should the Committee take 
to reduce this incentive?
    Answer. There are many components to the issue of driver 
compensation, both economic and safety. CVSA supports the idea of a 
study to look further into the issue as we do the current GAO study of 
driver detention time. The guiding principle for CVSA in looking at 
driver compensation is the impact it has on safety. CVSA will look 
closely at the safety issues raised in the study when it is completed 
and make further comments at that time.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                         Francis (Buzzy) France

    Question 1. Last year I introduced S. 1113, the Safe Roads Act, to 
establish a national drug and alcohol testing database for employers to 
better select qualified drivers and avoid hiring employees with a drug 
or alcohol background.
    Under this law, the FMCSA would require medical review officers, 
employers, and other service agents to report positive results from 
FMCSA required drug or alcohol tests to the database and clearing 
house. Employers would be required to check the database prior to 
hiring a prospective employee. If a prospective employee has a positive 
result, an employer would not be allowed to hire the prospect unless 
he/she has not violated the requirements of the testing program or he/
she has not violated the requirements of the testing program or he/she 
has fully completed a return-to-duty program as required by the testing 
program. This law will also require privacy protections and employee 
rights of action. Do you support the establishment of a drug and 
alcohol test result clearinghouse?
    Answer. Yes.

    Question 1a. Does FMCSA have the authority to establish such a 
clearinghouse without Congressional guidance?
    Answer. We believe there is a need for Congress to provide FMCSA 
with additional authority to establish the clearinghouse.

    Question 1b. Should a drug clearinghouse be a part of CSA 2010?
    Answer. A drug and alcohol clearinghouse should be established 
irrespective of CSA 2010. However, drug and alcohol driver violations 
will be an important factor in implementing CSA 2010. The clearinghouse 
will help provide driver data that is important to the new rating 
system to be established under CSA 2010.

    Question 2. I understand that on April 5, 2010, FMCSA developed a 
final rule to require the use of EOBR's by carriers that have violated 
the hours of service rules. Do you believe all motor carriers should be 
equipped with EOBRs to better comply with Hours of Service laws?
    Answer. Yes. We do. However, it is critically important that the 
implementing rule should contain important technical considerations, 
such as interoperability, data security, driver identification, 
tampering, uniformity, standard interface for law enforcement, and 
proper certification for EOBR devices.

    Question 2a. If Congress were to require EOBRs for all carriers, 
what information would we require to be recorded?
    Answer. CVSA's comments filed with respect to the original EOBR 
rulemaking are attached. They carefully detail what information should 
be required and how to obtain this information as accurately as 
possible. In addition, as FMCSA's rulemaking on this issue has evolved, 
CVSA has been working with a broad partnership to help provide guidance 
to achieve uniform performance standards for EOBR's. The purpose and 
statement of objectives of this partnership is attached.

    Question 3. Do you believe the current size and weight restrictions 
can be increased without compromising highway safety or infrastructure 
integrity?
    Answer. CVSA does not support enacting any legislative or 
regulatory changes to truck size and weight until such time as we have 
a more uniform, methodical and science-based approach to evaluating the 
safety, infrastructure and environmental costs and benefits. CVSA has 
adopted a comprehensive size and weight policy in anticipation of 
consideration of this issue relative to the upcoming surface 
transportation bill. This is attached along with a letter sent to 
Secretary of Transportation LaHood in which we ask the Secretary to 
apply our criteria for any pilot program that might allow size and 
weight standards above the current limitations.

    Question 3a. Would you comment on your views of increasing the 
allowable weight of trucks to 97,000 pounds by adding a third axle to 
the rear pair of axles?
    Answer. We would not support increasing the allowable weight under 
these circumstances until a pilot study has been conducted according to 
the criteria spelled out in our size and weight policy that 
demonstrates that highway safety would not be compromised.
                                 ______
                                 
                   Commercial Vehicle Safety Alliance

                               Before the
                      Department of Transportation
              Federal Motor Carrier Safety Administration
_______________________________________________________________________
                      Docket No. FMCSA-2004-18940
     Electronic On-Board Recorders for Hours-of-Service Compliance
_______________________________________________________________________
                    Comments submitted on behalf of
                   Commercial Vehicle Safety Alliance
                             April 11, 2007

The Commercial Vehicle Safety Alliance
    The Commercial Vehicle Safety Alliance (Established in 1982) works 
to improve commercial vehicle safety and security on the highways by 
bringing Federal, state, provincial and local truck and bus regulatory, 
safety and enforcement agencies together with industry representatives 
in the United States, Canada, and Mexico. Every state in the United 
States, all Canadian provinces, the country of Mexico, and all U.S. 
Territories and Possessions are CVSA Members. Nearly 350 industry 
companies and organizations are CVSA Associate Members.
Background
    Since 2000, the regulations regarding commercial driver hours of 
service (HOS) have been through a series of formal agency actions, as 
well as being challenged on the outside from special interest groups 
and the D.C. United Stated Circuit Court of Appeals. Countless hours 
have been devoted to this subject, both internal to the agency and by 
the public.
    We believe the implementation of Electronic Onboard Recorders 
(EOBRs) for compliance with HOS regulations holds great promise for 
helping improve compliance with HOS regulations and ultimately 
providing a positive impact on safety and reducing crashes related to 
driver fatigue and other work-related injuries. We also believe that 
the wide-scale adoption of EOBRs will also help to curb the challenges 
that currently exist with the limited resources available at the state 
and Federal levels for overseeing the motor carrier industry. With 
nearly 50,000 new motor carriers entering the business each year in the 
United States, the implementation of proven safety technologies serves 
to assist the law enforcement community in focusing its attention on 
high-risk drivers, vehicles and motor carriers.
Key Points
    As identified by FMCSA, the intent of the EOBR NPRM is to:

        1. Improve CMV safety;

        2. Increase use of EOBRs within the motor carrier industry: and

        3. Improve HOS compliance.

    The FMCSA approach has three components:

        1. A new performance-oriented standard for EOBR technology;

        2. Use of EOBRs to remediate regulatory noncompliance; and

        3. Incentives to promote EOBR use.

    CVSA believes that the approach FMCSA has taken with this NPRM will 
not measurably impact on the 3 objectives of the NPRM. The universe of 
motor carriers required to install EOBRs is a small fraction of the 
motor carrier population as a whole. Additionally, we also believe that 
their voluntary adoption, even with the incentives offered, will not 
occur in large numbers.
Safety
    Given the fact that hours of service (HOS) compliance continues to 
be a major problem area for many motor carriers, and large truck 
crashes related to fatigue are significant, we firmly believe that in 
order to have a substantial impact on safety and HOS compliance EOBRs 
must be universally used in the motor carrier industry. We believe that 
a more prudent and effective option for dealing with the habitual HOS 
offenders is stronger enforcement rather than requiring the 
installation of EOBRs. HOS non-compliance is indicative of a systemic 
management problem within the motor carrier's operation, and the mere 
installation of EOBRs will not serve to correct this problem. The 
resources expended by government to monitor the motor carriers subject 
to mandatory EOBR use will be substantial and in our view, the benefits 
will not outweigh the costs.
Level Playing Field
    In our view the NPRM will do little to help deploy EOBRs in large 
quantities. Most carriers already using these systems are doing them 
primarily to help better manage their drivers and not necessarily for 
HOS compliance. HOS compliance [to many of them] is a secondary benefit 
of these devices. We do not believe this thinking will change much with 
the implementation of this NPRM. Most carriers will view this as a cost 
item (and a legal liability) that will put them at a competitive 
disadvantage with their peers, therefore making them reluctant to 
voluntarily invest in these devices. The EOBR vendors will not put much 
capital outlay into the development and deployment of these systems 
since there is not a clear market for them. Additionally, given the 
minimal number of devices that will likely penetrate the market, the 
benefit of economies of scale will not be realized, therefore not 
putting much pricing pressure or competition in the marketplace. This 
will likely result in most of the devices not being an attractive 
purchasing option for many small to medium sized fleets, or for those 
fleets operating on thin margins. Ultimately, in our view the NPRM will 
not enable a level playing field for the motor carrier industry as a 
whole, which will cause most fleets to opt not to purchase an EOBR.
Technology
    As FMCSA indicates in the NPRM, technology has come a long way in 
recent years and is capable of performing many more functions than what 
would be needed to monitor and manage HOS compliance. We caution the 
Agency to make sure to limit the performance requirements for EOBR 
devices to just those areas necessary for HOS compliance. This will 
help to keep costs down, and also help to ensure that the display, 
evaluation and back office system functionality that will be needed for 
enforcement to monitor and evaluate compliance will be made easier and 
it will minimize the liability exposure to the industry.
    We believe the Agency needs to put more explicit focus and emphasis 
on standardizing the performance specifications regarding tamperproof 
requirements, information gathering and display, editing and error 
recording and reporting, and as well as communication accuracy, 
timeliness and redundancy. We are appreciative of the fact that FMCSA 
has made GPS a performance requirement, as this will provide some 
measure of assistance in accuracy and redundancy. We also appreciate 
the agency requiring parallel data streams and making sure that the 
original data is kept intact, this should help law enforcement when 
reviewing records and during the driver interview process. However, we 
still strongly believe there must be a tamperproof requirement. To 
assist the agency on this particular issue, FMCSA may want to review 
the Information Technology Security Evaluation process Europe has in 
place with regards to EOBRs.
    A related issue is one of FMCSA's identified seven performance 
requirements--identification of the driver and ensuring the EOBR is 
able to attach the driver to his/her appropriate hours of service. In 
our view this issue is critical and fundamental to helping minimize 
falsification and errors/inaccuracies. Although we support providing 
flexibility to motor carriers and technology providers on this point, 
we strongly believe that FMCSA needs to specify a minimum performance 
requirement, to include outlining standardized and explicit test 
procedures and expectations. This would be part of the EOBR 
certification program (see recommendation section). The EOBR must be 
able to correctly identify the driver/employee in all duty status 
stages of his/her hours of service and be able to accurately tie the 
employee to the vehicle, cargo and motor carrier at all times. This is 
especially important for leased drivers and owner/operators.
    The NPRM discusses the notion of permitting EOBR devices that are 
not integrally synchronized with the vehicle. While we fully understand 
that cell phone and other like technologies are available that use 
hours of service applications, at this point in time we are not 
supportive of permitting them to be used as EOBRs. We are not convinced 
that these technologies will effectively minimize the opportunity for 
falsification and drivers taking ghost runs. However, as you will see 
below in our recommendations, we do believe that these types of devices 
are in need of further study to understand how in the future they may 
be used in this capacity. We are sensitive to the fact that cell phone 
and like technologies are pervasive in the industry and tend to be on 
the lower cost end of EOBR devices. We do not want to dismiss out of 
hand the fact that once they (and the performance specifications) are 
more fully outlined and understood they possibly could be used as an 
EOBR.
    As for the recording interval, we support the 1 minute increments. 
We also support the +/- 1 percent location accuracy. We believe that 
EOBRs must use standardized data formats and communications protocols. 
We also firmly believe there must be a standardized display using the 
graph-grid format, and that non-compliance must be easily identified.
    FMCSA may not want to explicitly identify the different types of 
communications technologies that are able to be used in the application 
of EOBRs, since they are so rapidly changing and evolving. The more 
important aspects related to the data in our view are the security 
aspects as well as the content and timeliness of the information 
availability, and not necessarily the method of communication.
Enforcement
    The NPRM upon implementation will likely make it difficult for 
enforcement officers. The problem with EOBRs today is that there is no 
standardization in terms of how the information is made available for 
officers to evaluate compliance, how errors and modifications to 
records are recorded and reported, nor is there a rigorous 
certification program to ensure they are operating correctly. The 
combination of grandfathering existing devices, providing the 2 year 
window for voluntary adoption of non-complaint 395.16 devices, and the 
likely limited penetration of EOBRs will continue to create 
difficulties for enforcement with understanding and accurately 
evaluating the operation of all the different device types. We also 
believe that the option of using devices not integrally synchronized 
with the vehicle presents its own set of challenges for enforcement 
that are not yet fully understood. We also strongly believe that EOBRs 
must be made tamperproof. Although the NPRM does make an attempt to 
correct some of these concerns in the performance specifications, we do 
not believe it goes far enough to minimize tampering or to make sure 
that officers will feel comfortable with using the devices.
    Law enforcement needs the capability to be able to print HOS 
records at roadside to more effectively review HOS compliance and 
collect evidence. Although we support having EOBRs providing the 
functionality to print out the HOS records, we think a more prudent and 
cost effective approach is to equip certified inspectors/officers with 
the appropriate technologies and printing device to be able to do this 
themselves. This will help those officers who do not currently use 
laptop or hand held computers (or the software to read the EOBR data 
file). Ultimately, this approach will also serve to assist in having 
more roadside inspections completed (and uploaded) electronically, 
since many inspectors are still completing inspections on paper.
    As for access to the HOS data, we agree with FMCSA that EOBRs must 
not require the officer to have to enter the cab of the vehicle. If 
electronic files are going to be made available for download, they must 
adhere to common, uniform and strict standards. In addition, the 
officers must be able to read the data on their (for those who have) 
laptops or hand held computers. However, we do have concerns with the 
possibility of these files introducing a virus or otherwise damaging 
the operating system or software.
Recommendations
    We believe that in order to meet the intent of the NPRM, EOBRs must 
be made mandatory for all commercial vehicles. Most of the developed 
and even some undeveloped countries in the world already have this 
requirement for commercial motor vehicles and have had positive results 
on safety.
    FMCSA should work with NHTSA to make these devices standard OEM 
equipment. Aftermarket/retrofit installations should only be permitted 
if they meet the OEM equipment standards. In order to assist the 
manufacturing community and to help minimize the cost impacts to the 
industry, we would suggest that the requirement would be put in place 
at a point in the future, somewhere on the order to 3-5 years after the 
final rule is published. We believe existing devices should be 
grandfathered into this new requirement ONLY if they are able to meet 
the new OEM standard specifications. We also believe the existing AOBRD 
regulations in 395.15 should be sunsetted. Those drivers operating 
existing vehicles (those built prior to the new OEM requirement) or 
using EOBR devices not compliant with the new standard would be 
required to retrofit their vehicles within 3 years to meet the OEM 
equipment standards. The paper-based logging system would no longer be 
permitted.
    In the interim, we would suggest that FMCSA conduct several field 
operational tests of different device types (to include those not 
integrally synchronized with the vehicle) to understand what the 
optimum performance requirements should be, as well as to more fully 
evaluate their impact on safety. One option for this test could be to 
use the motor carrier population the Agency has suggested in the NPRM 
that would be subject to a remedial directive and be required to have 
the EOBRs installed--those carriers FMCSA has determined, based on HOS 
records reviewed during each of two compliance reviews conducted within 
a 2-year period, that the motor carrier has a 10 percent or greater 
violation rate (``pattern violation'') for any regulation in proposed 
Appendix C to Part 385. Theoretically, once EOBRs are installed on the 
habitual offenders' vehicles, they should realize a significant 
improvement in safety, both in HOS compliance and in fatigue related 
crashes. Another option to consider for the test phase, which is our 
preferred option, is to tie EOBR application (for the test phase) to 
SafeStat and ISS scores. This approach will broaden the pool of 
candidates and will likely also serve as a more representative sample. 
We believe that by taking into account BOTH SafeStat and ISS scores, 
carriers with demonstrated performance problems, as well as those with 
no history can be part of the pool to be evaluated. If the test is 
properly carried out and administered, it should effectively 
demonstrate how to positively impact HOS compliance for carriers on 
both ends of the scale--those who are uninformed about the hours of 
service regulations those who are habitual violators.
    EOBRs must use standardized data formats and have a standardized 
interface for law enforcement so that training, compliance evaluation 
and monitoring is effective and simplified.
    We also recommend that FMCSA (and NHTSA) create a more rigorous 
certification program for EOBRs that is administered by a 3rd party, 
and to also create an advisory board that would serve to create and 
maintain an approved EOBR list. This advisory group could operate 
similarly to those groups who are involved with speed measuring 
instruments and breath alcohol testing devices. Wherever possible, EOBR 
design and performance specifications should use accepted industry 
standards that are verifiable and certifiable.
    It is our belief that moving forward with a mandatory requirement 
will help on all fronts. It will provide some certainty and competition 
in the manufacturing community and likely result in more ``hardened'' 
and user friendly systems, help keep costs down for the motor carrier 
industry through economies of scale, and will assist the enforcement 
community since there will be stringent and uniform standards. It also 
will provide adequate lead time for both industry and enforcement to 
ramp up their operations and provide for training, as well as budget 
planning for the procurement of these devices and the development of 
back office systems to accept and manage the data output.

Summary
    We believe that in order to enable significant positive changes to 
hours of service compliance there needs to be universal adoption of 
EOBR technology. However, it is critically important the performance 
specifications for these devices, and the oversight of those producing 
and using them is done in such a manner that enables them to be user 
friendly for law enforcement and that there is credibility and 
confidence in the accuracy of the data.
    We appreciate FMCSA confronting this difficult issue and attempting 
to address it. Hours of service continues to be a challenging area for 
many motor carriers to make significant strides in improving 
compliance. There must be a multi-faceted approach in terms of finding 
solutions, and the status quo is just not acceptable. We believe that 
the implementation of EOBRs is one of the important elements of such an 
approach.
                                 ______
                                 
                     Electronic Logging Partnership
Purpose
    The purpose of the electronic logging partnership is to promote the 
use of technology for recording commercial driver hours of service 
throughout North America that will improve regulatory compliance and 
save lives.

Principles
    The partnership aims to ensure that any future laws and/or 
regulations mandating electronic logging devices for hours of service 
compliance shall be fully interoperable, tamperproof and easy to use by 
drivers, motor carriers and enforcement. In addition, to the extent 
possible, existing investments in onboard telematics and safety 
management systems that can meet the E-LOG system requirements should 
be preserved and leveraged.
    The partnership supports future regulations that will:

  <bullet> Standardize the user interfaces (unique and secure driver 
        ID, data access, transportability and format for law 
        enforcement), the drivers' data transfer when drivers change 
        trucks or buses (use of standard portable data carrier), the 
        data download and storage requirements and the interface(s) to 
        other onboard telematics;

  <bullet> Require devices to be integrally synchronized with the 
        vehicle;

  <bullet> Define and require a standard security level for the devices 
        to be tamperproof (using a methodology endorsed by NIST such as 
        Common Criteria); and

  <bullet> Require that all devices be certified by a nationally 
        recognized, independent organization.

    Absent these key provisions, any future mandate would result in the 
use of devices that are not standardized, are not interoperable with 
systems from various vendors, provide unreliable data and would impede 
industry and law enforcement efforts to ensure hours of service 
compliance and improve safety.

Key Considerations
  <bullet> Standardized enforcement approach--A standard law 
        enforcement interface with electronic logging systems must be 
        specified to ensure secure, efficient, and uniform driver hours 
        of service inspection processes and data integrity.

  <bullet> Apply new controls to meet challenges inherent with 
        mandate--As the new FMCSA regulatory approach extends 
        electronic logging to carriers with poor compliance, there will 
        be new challenges. To assure system integrity and a level 
        playing field, e-log system standards need to add stronger 
        controls, including: secure unique national driver ID, secure 
        portable driver data records, tamperproof devices integrally 
        synchronized with the vehicle, verifiable independent 
        certification, secure and controlled processes for system 
        installation and support.

  <bullet> Preserve existing investments in safety management systems--
        Today's electronic driver logs have proven effective in 
        achieving significant compliance and safety results. Any update 
        to requirements for electronic logging systems should also 
        include standards for interoperability and integration with on-
        board, wireless systems for safety and fleet management that 
        support carriers in proactive safety management.

Implementation
    In the event a universal mandate is not able to take effect in a 
timely manner, consideration should be given in the interim to 
accelerating industry-wide implementation of electronic logging devices 
by providing:

  <bullet> Financial incentives such as tax credits for the early 
        adoption of compliant systems;

  <bullet> Relief from some supporting document or ``paperwork'' 
        requirements; and/or

  <bullet> Alternative compliance options for carriers to maintain 
        accountability and provide efficiencies for those demonstrating 
        and maintaining superior safety performance.
                                 ______
                                 

                 CVSA DOT Reauthorization Policy Issues
                     Issue #12--Truck Size & Weight
Problem
    There has been no significant change in Federal size and weight law 
since 1982 except for the 1991 freeze on longer combination vehicles. 
However, since 1982 there have been many changes in freight movement 
that are also related to truck size and weight such as significant 
growth in freight traffic, changes in freight characteristics and 
movement patterns, just-in-time delivery, global economics and trade, 
intermodalism, economic deregulation, enhanced safety and enforcement 
programs and truck equipment advances. In addition, there has been a 
tremendous movement in the adoption of technology (in industry and 
government), data availability and analytical capabilities and 
performance-based program development and delivery. Given the above, as 
well the current landscape, it is clear that we need a more 
comprehensive approach in the United States to truck size and weight 
policy.

Background
    The enforcement of truck size and weight limitations has been a 
long-standing obligation of the states, performed in conjunction and 
with the assistance of the Federal Highway Administration (FHWA). 
Traditionally, the enforcement aspects of truck size and weight have 
been viewed through the prism of infrastructure protection and 
preservation. While CVSA supports this belief and view, we also believe 
more emphasis needs to be placed on the safety performance of vehicles, 
drivers and motor carriers who operate larger vehicles--and more 
specifically and importantly--those who choose to violate the law and 
operate vehicles in excess of the size and weight limitations.
    Without question we understand the need to protect and maintain our 
Nation's highway infrastructure--and want to continue our compliance 
and enforcement efforts in this regard. However, we are also committed 
to compliance and enforcement efforts that not only ensure the 
protection of our infrastructure, but also ensure the safety of those 
vehicles and drivers traveling on our highways.
    One of the largest challenges with existing truck size and weight 
policies and regulations is the lack of uniformity from state to state, 
and sometimes even within states. The problem that exists today is due 
to the fact that we have had a patchwork of regulations, exemptions and 
permit programs for decades. We cannot allow this to continue. This 
often times translates into challenges for enforcement, and it 
certainly makes life more difficult for industry to maintain 
compliance. Many of these programs have varying requirements associated 
with them. As an example, some states require pilot car escorts with 
certain types of loads. Some states require law enforcement officials 
to escort the load. Some states do not require escorts. We are 
encouraged of the efforts of AASHTO, SASHTO and WASHTO with respect to 
trying to standardize pilot car escort policies among the states. FHWA 
should continue to support this effort and any resulting impacts to the 
states from recommended changes should be supported by Federal funds.
    From 2006 through 2008, there were 911,101 commercial vehicle size 
and weight violations cited by roadside inspectors. These data were for 
those situations where a driver/vehicle inspection report was completed 
and uploaded to the MCMIS database. This number represents 13.41 
percent of the total number of violations cited during driver 
inspections over this time period and ranks number 2 on the list in 
terms of the most often cited violations.

Solution(s)
    1. CVSA does not support enacting any significant legislative or 
regulatory changes to truck size and weight until such time as we have 
a more uniform, methodical and science-based approach to evaluating the 
safety, infrastructure and environmental costs and benefits.
    2. There needs to be a stronger Federal role in facilitating a 
framework for research, policy and performance based regulations and 
the enforcement for truck size & weight operations on the Interstate 
portion of the National Highway System.
    3. U.S. DOT needs to evaluate and determine the safety nexus to 
truck size and weight. Having this will help the state enforcement 
agencies make their case for receiving their full measure of support 
and resources (state and Federal funding) from the state Departments of 
Transportation to carry out their enforcement efforts. While a number 
of state enforcement agencies do receive the FHWA funding and support 
through their state DOTs for this effort, others have difficulty in 
making the necessary agency linkages for such funding support. As a 
final point related to resource issues, one of the major cost items for 
size and weight enforcement is labor. We are hopeful that as efforts 
move ahead to reauthorize the Federal truck size and weight program 
that this will be taken into consideration concerning the state 
enforcement agency's funding needs.
    4. We MUST gain a better understanding of the true impacts that 
truck size and weight have to all aspects of our transportation system. 
We also need to further examine the various oversize/overweight 
exemptions and permit programs to evaluate their costs and benefits. 
The more variety there is in regulations and permit programs, the more 
difficult the task for enforcement to monitor compliance, initiate 
effective enforcement actions and levy appropriate sanctions.
    5. Except under extreme circumstances, states and municipalities 
should not be permitted to provide exemptions or exceptions for inter 
OR intrastate operations on this portion of the National Highway 
Network. If the National Network weight threshold were to be increased, 
states would be pressured to allow for increases to the state roadway 
network. The state roads (and bridges) are not built to the same 
standards and therefore could not adequately support the increased 
loading. This would present a risk to both the condition of the 
infrastructure as well as to safety.
    6. More study needs to be completed on the non-interstate portions 
of the National Highway System because there are similar infrastructure 
and safety concerns on these sections of roadway. In fact, the large 
truck-related crash data seems to indicate that are larger proportion 
of fatality crashes occurring on non-interstates. Many of our member 
enforcement agencies are seeing increases in truck size and weight 
violations on these sections of roadways.
    7. CVSA supports the recommendation referenced in Transportation 
Research Board Special Report No. 267: Regulation of Weights, Lengths, 
and Widths of Commercial Motor Vehicles which discusses the creation of 
a Commercial Traffic Effects Institute (CTEI). The work that would fall 
under the mandate of this organization would help guide and develop a 
more comprehensive, rational and equitable national freight policy that 
will aid decisionmakers in making more sound and objective judgments 
with regards to truck size and weight issues. It will also aid in 
establishing more transparency and accountability throughout the 
system.
    8. CVSA supports a federally supervised, state-administered, 
performance-based oversize and overweight permit program for the 
operation of heavier and larger vehicles on the public highways.
    9. CVSA believes there is merit to the idea of establishing (in 
certain locations and circumstances) dedicated truckways for commercial 
vehicle operations. As previously mentioned, since many large truck 
crashes are multi-vehicle crashes involving smaller vehicles and the 
fact that many crashes occur off the interstate system, we believe the 
notion of dedicated highway facilities for trucks is worth further 
exploration.
    10. If Congress were to consider any increase in truck size and 
weight, there MUST be at the minimum an equivalent level of safety 
established. In particular, there are several specific safety issues 
that would concern us with respect to increasing sizes and weights:

        a. The potential increases in stopping distances that would 
        likely result, and how the performance of other vehicle 
        components will be affected;

        b. How size and weight increases to carrying capacity will 
        impact performance as it relates to manufacturer weight ratings 
        (i.e., we do not want people overloading vehicles further than 
        what they were designed for);

        c. We already have issues and compliance problems today with 
        load securement, and there continues to be a large number of 
        crashes related to this issue--how would size and weight 
        increases impact on this;

        d. Adding axles--while in concept this is helpful to spread the 
        load to more locations, but in practical terms we have concerns 
        (today) with air axles (i.e., putting not enough air or too 
        much air as it hampers vehicle stability and performance) and 
        lift axles that have the potential of being exacerbated with an 
        increase to truck sizes and weights; and

        e. While we are not experts on the infrastructure-related 
        issues, we wonder what the impact of increasing truck sizes and 
        weight would have on the bridges in our country. It is well 
        documented that many of our bridges are in need of significant 
        maintenance and upgrade, and the obvious question arises as to 
        whether increasing truck sizes and weights will add to these 
        concerns.

        f. In addition to the safety issues above, there MUST be 
        adequate resources made available to the enforcement agencies 
        so they are able to monitor compliance and take enforcement 
        action when warranted.

    11. With respect to the ``pilot study'' recommendation provided for 
in TRB Special Report 267, we suggest the following factors be 
considered for the program if that recommendation is to be pursued:

        a. Make sure the sample is science-based and that (to the 
        extent possible) the results can be shown to be statistically 
        significant;

        b. Motor carriers, drivers and vehicles participating in the 
        pilot study must abide by the Federal Motor Carrier Safety 
        Regulations;

        c. States participating in the study need to be fully compliant 
        with the Federal Motor Carrier Safety Regulations;

        d. Select companies with a proven track record of superior 
        safety performance;

                i. Must have a Satisfactory U.S. DOT Safety Rating;

                ii. Cannot be a SafeStat category A-D carrier; and

                iii. Must maintain their crash rate per 100 million 
                miles, and their vehicle and driver out-of-service 
                rates in the top 25 percent of the national average as 
                indicated in the Motor Carrier Management Information 
                System.

        e. Ensure there is a control group in order to help assess and 
        measure the efficacy of the vehicle configuration(s) and 
        performance;

        f. Ensure that the drivers are trained, tested and competent at 
        operating the vehicles they will be driving and have clean 
        driving records;

        g. Ensure that the drivers are operating the vehicles on 
        sections or roadways that they are familiar with;

        h. Make sure the vehicle size and weight configuration(s) do 
        not put additional stress on the bridge structures than the 
        current bridge formula allows;

        i. Employ computer modeling and validation testing of vehicle 
        configuration(s) prior to initiating the pilot vehicle(s) into 
        operation on the roadways;

        j. Consider the establishment of truck-only lanes and/or time 
        of day restrictions to confine the use of heavier trucks to 
        these lanes and limit their interaction with smaller vehicles;

        k. Require that the vehicles install all 4 of the truck 
        technologies contemplated in The Commercial Motor Vehicle 
        Advanced Safety Technology Tax Act of 2009 (H.R. 2024): 
        collision warning systems, lane departure warning systems, 
        vehicle stability systems and brake monitoring systems;

        l. Provide consideration for time of day operational 
        limitations;

        m. Require vehicle monitoring systems to record and measure 
        performance data;

        n. Instrument vehicles and roadways to measure impacts on the 
        infrastructure;

        o. Require periodic vehicle inspections to evaluate the impacts 
        on the condition of performance of the vehicles;

        p. Consider limitations on length or travel and/or adjustments 
        to driver hours of service requirements to minimize the 
        potential for fatigued operators;

        q. Consider allowing the vehicles only on sections of roadway 
        that are major freight corridors;

        r. The Federal Government should be charged with creating and 
        managing the performance standards, evaluating performance and 
        establishing Federal sanctions for non-compliance, while the 
        state governmental agencies should be charged with 
        administration and enforcement of the program;

        s. Evaluate the compliance and enforcement resources necessary 
        to adequately monitor compliance in the event the result(s) of 
        the pilot would become national standard(s); and

        t. Conduct a comprehensive cost-benefit evaluation and to build 
        what works from the pilot studies into national performance-
        based standards.
                                 ______
                                 
                         Commercial Vehicle Safety Alliance
                                                    January 5, 2010
Hon. Raymond LaHood,
Secretary of Transportation,
U.S. Department of Transportation,
Washington, DC.

Dear Secretary LaHood:

    The Commercial Vehicle Safety Alliance (CVSA) has reviewed Section 
194 of the Department of Transportation's 2010 Appropriations Bill that 
provides for truck size and weight exemptions on sections of the 
Interstate Highway System in Maine and Vermont. Even though the bill 
provides for the exemptions to be granted under a 1-year pilot program, 
we have some concerns, as well as some suggestions for your 
consideration. We are hopeful that you will consider these issues as 
soon as possible since the exemptions became effective the day the 
President signed the bill.
    In particular, the legislative language in Section 194 and the 
accompanying report language provide little or no criteria as to how 
the pilot program is to be carried out except directing you--in 
conjunction with the two states--to study the impact of this pilot 
program on safety, road durability, commerce, and energy use. We 
presume that you will assemble a team from the Federal Highway 
Administration to work with the impacted states in administering this 
pilot, although the bill does not specify such action. We would also 
suggest that you consider adding representatives from FMCSA as a part 
of your review.
    We are enclosing a copy of CVSA's comprehensive truck size and 
weight policy and urge you and your team to review it. In particular, 
we would like to point out the provisions contained in item 11 of our 
policy. It includes 20 separate recommendations which we believe are 
necessary criteria with respect to safety for any pilot program 
regarding truck size and weight. We would like to take this opportunity 
to point out several key items:

  <bullet> Motor carriers must be selected to participate in the pilot 
        based on a proven track record of superior safety performance; 
        and

  <bullet> States participating in the pilot must be fully compliant 
        with Federal Motor Carrier Safety Regulations (FMCSR). As you 
        may know, Maine receives 50 percent of its annual Motor Carrier 
        Safety Assistance Program (MCSAP) Federal funding from FMCSA 
        because it provides exemptions from commercial driver hours-of-
        service regulations for all motor carriers operating within 100 
        air miles from their place of business, along with other 
        inconsistencies that have caused an incompatibility issue 
        between Maine Law and the FMCSR. We believe as a condition for 
        participating in the pilot, Maine should revoke this exemption 
        and become fully compliant.

    We are hopeful the size and weight issues raised in Section 194 are 
a catalyst for a much more comprehensive analysis of the United States' 
overall truck size and weight policy. The current situation allows for 
a checkerboard of differing regulations and exemptions that make 
enforcement difficult and also compromises highway safety.
    We believe--if constructed and evaluated properly--comprehensive 
and well thought out truck size and weight pilot programs have the 
opportunity to provide the necessary data for evaluating safety, 
infrastructure and environmental costs and benefits. Having this 
information is tantamount before we even consider changes to existing 
laws to allow for higher size and weight limitations. We believe having 
this data will also allow us to evaluate the current system in the 
United States and possibly make some changes so it can be more 
effectively managed based on performance and not politics.
    We look forward to working on this issue with you and your team, 
and would be more than happy to meet with you to discuss it in more 
detail.
            Sincerely,
                                        Stephen A. Keppler,
                                        Interim Executive Director.
Enclosure
Cc: Administrator Anne S. Ferro, Federal Motor Carrier Safety 
            Administration
Administrator Victor Mendez, Federal Highway Administration
Colonel Patrick J. Fleming, Maine State Police
Commissioner David Cole, Maine Department of Transportation
Commissioner Anne H. Jordan, Maine Department of Public Safety
Commissioner Robert Ide, Vermont Department of Motor Vehicles
Francis (Buzzy) France, Maryland State Police; CVSA President
Captain Gary Albus, Texas Department of Public Safety; CVSA Size & 
            Weight Committee Chairman
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                          Jacqueline S. Gillan

    Question. Most truck drivers are paid by the mile, which tempts 
drivers to drive longer than what is permitted under the Hours of 
Service regulations, especially if they are delayed at ports and 
loading facilities. As we work to reauthorize the Federal Motor Carrier 
Safety Administration, what additional steps should the Committee take 
to reduce this incentive?
    Answer. Congress should bring the trucking industry under the Fair 
Labor Standards Act to incentivize industry payment by the hour as well 
as require overtime pay for hours worked beyond a normal work week. 
Congress could also give the Secretary of Transportation authority to 
regulate the practices of shippers at loading and unloading facilities 
to ensure that time delays in delivering freight, which have a negative 
effect on drivers' hours of service, are kept to a minimum. In 
addition, commercial driver working and driving hours must be verified 
through universal, mandatory installation and use of electronic on-
board recorders (EOBRs) that are highly secured against tampering and 
fraud. Enforcement authorities should have unimpeded access to the data 
stored in EOBRs to ensure compliance with the limits and other 
requirements of commercial driver hours of service. It is crucial that 
EOBRs record vehicle speed and not just real-time location and hours 
behind the wheel in order to reduce commercial driver speeding to make 
unrealistic pick-up and delivery schedules forced by dispatchers, 
consignors, and receivers. To date, the U.S. Department of 
Transportation has explicitly deleted speed recording as part of the 
data acquisition of EOBRs.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                          Jacqueline S. Gillan

    Question 1. Last year I introduced S. 1113, the Safe Roads Act, to 
establish a national drug and alcohol testing database for employers to 
better select qualified drivers and avoid hiring employees with a drug 
or alcohol background.
    Under this law, the Federal Motor Carrier Safety Administration 
(FMCSA) would require medical review officers, employers, and other 
service agents to report positive results from FMCSA required drug or 
alcohol tests to the database and clearinghouse. Employers would be 
required to check the database prior to hiring a prospective employee. 
If a prospective employee has a positive result, an employer would not 
be allowed to hire the prospect unless he/she has not violated the 
requirements of the testing program or he/she has fully completed a 
return-to-duty program as required by the testing program. This law 
will also require privacy protections and employee rights of action. Do 
you support the establishment of a drug and alcohol test result 
clearinghouse?
    Answer. Advocates for Highway and Auto Safety strongly supports 
this legislation that is badly needed to prevent commercial drivers who 
have violated drug and alcohol requirements, including testing 
requirements, from gaining or keeping commercial licenses to drive 
large trucks and motorcoaches.

    Question 1a. Does FMCSA have the authority to establish such a 
clearinghouse without Congressional guidance?
    Answer. It appears that under prior legislation the Secretary of 
Transportation may have authority to include drug and alcohol test 
results in the commercial driver's license information system (CDLIS) 
established under Section 31309, Title 49, United States Code. That 
section requires the Secretary to establish and maintain a 
clearinghouse and depository for information about commercial drivers 
licensing, including disqualification of operators, and requires the 
system to be coordinated with alcohol and controlled substances testing 
activities conducted under Section 31306, Title 49, United States Code. 
To date the Secretary has not seen fit to include a drug and alcohol 
testing database function in the CDLIS clearinghouse and therefore, 
legislation requiring the Secretary to follow through on this 
initiative is necessary and appropriate.

    Question 1b. Should a drug clearinghouse be part of CSA 2010?
    Answer. The results of a drug clearinghouse reporting of drug and 
alcohol test results for each commercial driver should become part of 
FMCSA's new algorithm and protocol for quantifying and scoring driver 
safety, especially in light of the agency's insistence on emphasizing 
driver quality under CSA2010 as a primary consideration in reducing 
truck and motorcoach crash risk.

    Question 2. I understand that on April 5, 2010, FMCSA developed a 
final rule to require the use of EOBRs by carriers that have violated 
the hours of service rules. Do you believe all motor-carriers should be 
equipped with EOBRs to better comply with Hours of Service laws?
    Answer. Advocates regards the mandatory, universal installation and 
use of EOBRs as crucial to stopping the epidemic of hours of service 
violations that produce fatigued, sleep-deprived commercial drivers 
pushed by unrealistic schedules so that they are at very high risk of 
serious injury and fatal crashes. Having law enforcement officials try 
to determine hours of service compliance based on paper logbooks (known 
as ``comic'' books), gas, toll and other receipts is like having a 
police officer try to determine whether a driver is illegally impaired 
without the use of a breathalyzer.
    The rule published on April 5, 2010, 75 FR 17208 et seq., is 
limited in scope because it is focused only on requiring EOBRs for 
those motor carriers in violation of the current hours of service rule 
(HOS). Although in this final rule FMCSA has increased the stringency 
of its enforcement approach, the agency only predicts that about 5,700 
motor carriers out of approximately 700,000 registered interstate truck 
and motorcoach companies--less than 1 percent--will annually be cited 
for HOS non-compliance and be required to install and use EOBRs. This 
rule is clearly insufficient, and Advocates supports Federal 
legislation mandating FMCA to issue a rule resulting in a universal 
mandate--no exceptions, no exemptions and no excuses.
    Safety groups, leaders in the House and Senate and the National 
Transportation Safety Board all support a requirement for EOBRs on all 
motor carriers. Over 15 years ago, Congress directed action by the U.S. 
Department of Transportation. The recent rule will not have a dramatic 
impact on truck and bus safety.

    Question 2a. If Congress were to require EOBRs for all carriers, 
what information should we require to be recorded?
    Answer. 1. Time spent behind the wheel. One of the major flaws of 
the April 5, 2010 final rule on EOBRs is that the U.S. Department of 
Transportation allows an EOBR to turn off after a vehicle does not move 
for only a few minutes. This will permit drivers to spend extra, 
unrecorded hours at the wheels of their trucks when they move 
intermittently either in traffic or to reach loading and unloading 
docks. This practice will allow drivers to far exceed the current shift 
limitation of 11 consecutive hours of driving.
    2. Real time, moment-to-moment vehicle location through the use of 
Global Positioning Satellite (GPS) technology that is an integral part 
of EOBRs. Having real-time information on truck location is crucial in 
order to curtail drivers' use of alternate, illegal routes to evade 
fixed weigh stations when they are operating illegally overweight. 
Drivers often use diversionary routes that have load-posted bridges 
whose weight limits are badly exceeded, leading to dramatic reductions 
in bridge service lives and increasing the potential for catastrophic 
collapse. Drivers also use illegal routes that are not allowed for 
transporting placarded quantities of hazardous materials (hazmat). In 
addition, given the safety and security implications of hazmat cargo on 
large trucks accessing prohibited routes, motor carrier officials and 
enforcement authorities must be able to track in real-time the actual 
routing used by large trucks transporting hazmat. However, U.S. DOT 
regulation on EOBRs only requires hourly confirmation of vehicle 
location.
    3. Speed data. The April 5, 2010, final rule requiring EOBRs to be 
installed and used on motor carriers violating hours of service 
requirements explicitly deletes the collection of truck and motorcoach 
speed data. Advocates strongly opposes this policy. Even drivers 
complying with hours of service requirements will often speed to make 
scheduled pickups and deliveries. This places truck drivers and 
everyone sharing the road with them at an increased risk of crashes 
that will be more severe. Enforcement of speed limits through 
collection of EOBR speed data is crucial not only to reduce large truck 
crash risk but also to help change the freight transportation culture 
that currently intimidates drivers to speed in carrying cargo.
    4. Fail-safe driver identification. EOBRs must have unambiguous, 
total reliability in identifying and authorizing the driver that 
operates a truck or motorcoach with an EOBR. More than 20 years ago, 
long before the terrorist attack on September 11, 2001, Congress 
required the U.S. DOT to develop a unique biometric identifier to 
ensure the identification of operators of commercial vehicles, but DOT 
did not fulfill that mandate. In connection with this, EOBRs must also 
be controlled by regulations ensuring their tamperproof condition and 
total security when serviced by authorized personnel.

    Question 3. Do you believe the current size and weight restrictions 
can be increased without compromising highway safety or infrastructure 
integrity?
    Answer. No. Advocates does not believe that any increase in gross 
and axle weights of large trucks is safety-neutral in its consequences. 
Larger trucks are more dangerous and jeopardize safety. Recent studies 
by the Transportation Research Board and the National Cooperative 
Highway Research Program of the National Academy of Sciences have not 
shown any acceptable safety impacts of larger, heavier trucks. These 
studies have also shown that trucks in the 100,000-pound range rapidly 
increase pavement damage on lower-class roads and dramatically 
accelerate the deterioration of bridges that results in severely 
reduced bridge service lives. Money diverted to the repeated repair of 
destroyed pavement and damaged bridges diverts scarce funds from being 
applied to improving the safety of our Nation's infrastructure. Also, 
in many cases, reductions in bridge service lives can lead to load 
posting bridges for lower weights and raise the chances of catastrophic 
bridge collapses. Any increases in the weights of large trucks will 
quickly produce an even more staggering backlog of unmet highway 
pavement repair and bridge reconstruction needs for which the U.S., at 
the present time, has no Federal funding to support the enormous cost 
of state maintenance and rehabilitation needs.
    The state of Wyoming and the Federal Highway Administration (FHWA) 
also have shown the detrimental effects of increasing the weights and 
number of trucks on our highways, which is no longer acceptable in 
light of the predicted increase in damage to our roads. Wyoming and 
FHWA have authored a major report showing that the benefits of 
transferring a substantial amount of truck freight to rail movement 
will result in major benefits to Wyoming and other western states by 
reducing the rate and extent of road damage. Feasibility of a Next-
Generation, Intermodal Rail-Truck Transport System for the Western I-80 
Corridor: Engineering, Economic, Environmental, Safety and Security 
Policy Considerations--Final Report, FHWA-WY-06/05, Nov. 2006 (FHWA/
Wyoming Truck-to-Rail Study). These substantial benefits were 
calculated for road pavement alone without a separate benefit-cost 
analysis for bridge protection. The authors believe that additional 
quantification of bridge protection benefits from heavy truck loads 
would produce even more substantial benefits if freight transfers from 
large trucks to rail could be implemented in the near future. As the 
authors point out in an initial paragraph,

        Although it is considered by some inappropriate for public 
        officials to favor one mode of freight transport over another, 
        benefits aside, the fact is that costs borne by the public 
        (pavement wear, congestion, safety, emissions) from freight 
        transport on highways are much greater than costs borne by the 
        public from freight transport on rails.

    FHWA/Wyoming Truck-to-Rail Study at v.
    The truck freight to rail concept also comprises truck drivers 
riding in trains along with their rigs, which the authors believe will 
significantly reduce commercial driver fatigue and sleep deprivation, 
thereby lowering large truck crash risks. In addition, reducing truck 
tonnage on major highways like I-80 is a safety measure because it will 
reduce exposure by other motorists sharing the road with big trucks to 
the risk of severe and fatal crashes.

    Question 3a. Would you comment on your views of increasing the 
allowable weight of trucks to 97,000 pounds by adding a third axle to 
the rear pair of axles?
    Answer. The dangerous safety impacts of larger, heavier trucks with 
6 axles can be severe, and conducting an experiment with the safety of 
the U.S. people on their roads and bridges by allowing 97,000-100,000-
pound trucks is not acceptable. Everything we know about larger, 
heavier trucks and their adverse safety and infrastructure effects 
militates against their use. No heavier, larger trucks allowed by 
Congress or the states have ever resulted in fewer trucks, contrary to 
claims made by trucking and shipping interests. Past census data on the 
growth of tractor-trailer combinations alone for the preceding 35 
years, for example, proves that each time Congress has increased truck 
size and weight limits, the result has been more bigger, heavier trucks 
than ever before. Since large, heavy trucks are heavily subsidized by 
owners and operators of small passenger vehicles, bigger, heavier 
trucks increase the disparity in the equitable distribution of user fee 
responsibility by forcing small passenger vehicle owners and operators 
to shoulder an even larger share of the highway cost burden.
    In addition, bigger, heavier trucks will cause even more rapid 
decay of our roads and bridges at a time when both the Federal 
Government and the states are unable to raise highway funds to repair 
an already badly deteriorated highway system. Larger, heavier trucks 
would also further undermine the Nation's major need for a balanced, 
multi-modal system of transporting freight, as has been recognized in 
pending House legislation for surface transportation re-authorization, 
in the U.S. DOT April 2010 Draft Strategic Plan, and in the recent 
Congressionally-mandated report, Transportation for Tomorrow, that has 
documented the severely imbalanced freight transportation system and 
the radical underpayment of appropriate user fees by the trucking 
industry. Finally, the FHWA/Wyoming Truck-to-Rail Study discussed in 
the answer to the previous question underscores the importance of a 
major, initial effort to transfer truck freight to freight rail 
movement to gain multiple payoffs in improved safety and infrastructure 
protection, reduced congestion and emissions, and fuel conservation. In 
short, the motoring public will pay with their lives and their wallets 
if Congress permits longer and heavier trucks on our roads and bridges.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                          Jacqueline S. Gillan

    Question 1. In your testimony, you commented that a truck driver's 
risk of being involved in a fatigue-related fatal crash increases after 
the eighth hour of driving. Are you aware of any empirical data showing 
how many fatigue-related fatal truck crashes occur in hours 1-8, and 
how many occur in hours 9-11, or even beyond the 11th hours?
    Answer: Several studies have been conducted showing that the 
relative risk of a crash begins to rise exponentially after the 8th 
hour of driving, and that the number of fatal crashes increase in the 
later hours of driving in relation to the number of truck drivers 
operating their trucks. The greatest risk of a fatal crash occurs in 
the 11th hour of driving within legal driving time limits, as 
demonstrated in the study conducted by Paul Jovanis for the Federal 
Motor Carrier Safety Administration (FMCSA): P. Jovanis, et al., 
Factors Affecting Motor Carrier Crash Risk--Final Report, FMCSA, Sept. 
30, 2005. That study found that the crash risk for truck drivers in the 
last hour of a now legal 11-hour day behind the wheel is more than 
three times higher than during the first hour. In addition, another 
study conducted for FMCSA by the University of Michigan Transportation 
Research Institute (UMTRI) found that crash risk increased 
exponentially as hours of driving increase: K. Campbell and M. Belzer, 
Hours of Service Regulatory Evaluation Analytical Support--Task 1: 
Baseline Risk Estimates and Carrier Experience, FMCSA, 2000. Also see, 
K. Campbell, Estimates of the Prevalence and Risk of Fatigue in Fatal 
Accidents Involving Medium and Heavy Trucks, FMCSA, 2003, which reached 
the same conclusion using data from the Trucks in Fatal Accidents 
(TIFA) system.

    Question 2. What empirical data can you provide the Committee to 
demonstrate that truck drivers are driving many more hours per week 
under the current hours of service rule?
    Answer: The most prominent source are the findings of the Insurance 
Institute for Highway Safety (IIHS) surveys conducted before and after 
the amendment of the hours of service regulation that permitted very 
large increases in both the number of hours of work over 7 or 8 
calendar days, and in the number of driving hours of 25-28 percent over 
7 or 8 calendar days. A. McCartt, L. Helinga, M. Solomon, Work 
Schedules Before and After 2004 Hours of Service Rule Change and 
Predictors of Reported Rule Violations in 2004: Survey of Long-Distance 
Truck Drivers, International Truck and Bus Safety and Security 
Symposium, November 14-16, 2005. A substantial percentage of drivers 
surveyed worked and drove longer hours, both per shift and per tour of 
duty, and a substantial percentage were driving more miles per tour of 
duty. In addition, the surveys found that drivers also admitted that 
they sometimes or often violated the new 14 hours duty ceiling per 
shift (11 hours maximum driving plus 3 hours additional work time). The 
study was supplemented later in 2006 in an issue of the IIHS 
publication, Status Report, which found that:

  <bullet> Nearly one in 5 truck drivers in 2005 drove longer per day 
        than before the rule took effect in January 2004.

  <bullet> The proportion of drivers that reported falling asleep at 
        the wheel at least once during the previous month rose from 13 
        percent in 2003 to 21 percent in 2005.

    Status Report 41:6, Oct. 7, 2006, at 6.
    In addition, the FMCSA itself has pointed out that drivers are 
increasingly making use of the 11th hour of driving and, therefore, 
driving more hours than under the previous hours of service rule. The 
FMCSA pointed out in the HOS Interim Final Rule that in 2005, just 17 
percent of driving periods analyzed involved the 11th hour of driving 
but 2 years later, in the agency's 2007 survey, the number of driving 
periods in which the 11th hour of driving was used had jumped to 27 
percent, an increase of over 50 percent in the number of driving 
periods that involved driving the 11th hour. 72 FR 71247, 71265 (Dec. 
17, 2007).

    Question 3. What studies have been completed on (1) increasing the 
current 80,000-pound gross weight limit on the Interstate System, and 
(2) Longer Combination Vehicles? What have been the studies' 
conclusions with respect to the safety relative to vehicles currently 
on the road?
    Answer: One of the most prominent studies on the safety of longer, 
heavier trucks is the major 2002 Transportation Research Board (TRB) 
truck safety study addressing the implications of longer, heavier 
combination trucks conducted in 2002: Regulation of Weights, Lengths, 
and Widths of Commercial Motor Vehicle, Transportation Research Board 
Special Report 267 (Special Report), National Research Council, 2002. 
That study was produced by a panel of internationally known truck and 
highway safety experts who reviewed every existing study on larger, 
heavier trucks, including longer combination vehicles (LCVs), and 
reached the following conclusions:

  <bullet> The Committee producing the Special Report could not 
        demonstrate any equivalent or superior safety benefits of 
        heavier truck configurations, including B Train doubles, which 
        are LCVs, and six-axle semi-trailer combinations at weights 
        similar to those currently being championed in draft 
        legislation.

  <bullet> The Committee emphasized repeatedly that virtually nothing 
        is known about the relationship between specific design 
        configurations, crash risk, and truck handling and stability to 
        support heavier, longer combination trucks.

  <bullet> The Committee pointed out in several places that using 
        safety performance standards for allowing bigger, heavier 
        trucks without specific weight or size limits have no current 
        operational evidence for their claimed superior effects on 
        safety, including their ability to control the potentially 
        adverse safety impacts of longer, heavier combination trucks.

  <bullet> The Committee asserted that even improved models for 
        analyzing the costs of operating trucks of different designs, 
        including bigger, heavier trucks, provide only general, 
        imprecise indications of how institutions, markets, and 
        technology would react to any regulatory changes allowing 
        commercial motor vehicles of increased sizes and weights.

  <bullet> The Committee stated that the use of bigger, heavier trucks 
        could actually produce an increase in the number of trucks on 
        the road due to the economic stimulus triggered by the use of 
        trucks that can carry both higher weights and increased freight 
        volume in their trailers.

    Studies conducted to date by the U.S. Department of Transportation 
(DOT) on the safety implications of LCVs, such as the Western 
Uniformity Scenario Analysis (Analysis), April 2004, resulted in the 
U.S. DOT opposing legislated large truck size and weight increases, 
including the use of special exemptions in Federal law for increasing 
the sizes and weights of large trucks:

  <bullet> U.S. DOT stated in the Analysis that it does not support 
        heavy commercial motor vehicle size and weight increases in 
        general and specifically does not support piecemeal weight law 
        changes such as Maine's use of extra-heavy trucks on I-95.

  <bullet> U.S. DOT also stressed that the Maine weight exemptions 
        actually contribute little to overall trucking industry 
        productivity.

  <bullet> U.S. DOT stated in the Analysis that size and weight 
        exemptions may have unintended safety and highway 
        infrastructure consequences.

  <bullet> U.S. DOT determined that increases in truck sizes and 
        weights, such as those achieved through piecemeal exemptions, 
        reduce the chances for more comprehensive, planned solutions 
        that would have greater benefits for all Americans and 
        businesses.

    Similarly, the Federal Highway Administration stated, in background 
research for the 1997 Comprehensive Truck Size and Weight Study, that 
making existing trucks heavier increases crash risk due to poorer 
braking and more rollover crashes.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                            David J. Osiecki

    Question. Most truck drivers are paid by the mile, which tempts 
drivers to drive longer than what is permitted under the Hours of 
Service regulations, especially if they are delayed at ports and 
loading facilities. As we work to reauthorize the Federal Motor Carrier 
Safety Administration, what additional steps should the Committee take 
to reduce this incentive?
    Answer. The Committee should consider taking appropriate steps to 
collect facts and data on the most common pay methods, including 
`hybrid' methods of pay (e.g., a combination of methods depending upon 
the nature of the work), employed in the trucking industry and the 
percentage of drivers paid under each of these methods. The Committee 
could also identify and review existing scientific or case studies that 
may have tried to investigate whether different driver pay methods have 
resulted in the temptations suggested in the question. ATA supports 
facts and data driven policymaking, in lieu of decisions made based on 
perceptions and theories. At this time, we are aware of only one 
carrier-specific case study on driver pay, and it attempted to answer 
broader safety questions than what are contemplated in the question 
posed here. In short, this case study found that the amount of pay, and 
not the method of pay, had an effect on driver safety.
    ATA is also aware of an ongoing GAO study, initiated this year at 
the request of Chairman Oberstar and Rep. DeFazio, looking at the size 
and scope of the driver detention issue, and whether delays at shippers 
or receivers have an effect on a driver's compliance with the hours of 
service regulations. ATA is pleased to provide the name of the GAO 
project leader upon request.
    Lastly, greater use of electronic on-board recorders in the 
trucking industry will make enforcement of the hours of service rules 
easier and potentially more effective, no matter what might tempt a 
driver to violate hours of service rules.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                            David J. Osiecki

    Question 1. Last year I introduced S. 1113, the Safe Roads Act, to 
establish a national drug and alcohol testing database for employers to 
better select qualified drivers and avoid hiring employees with a drug 
or alcohol background.
    Under this law, the FMCSA would require medical review officers, 
employers, and other service agents to report positive results from 
FMCSA required drug or alcohol tests to the database and clearinghouse. 
Employers would be required to check the database prior to hiring a 
prospective employee. If a prospective employee has a positive result, 
an employer would not be allowed to hire the prospect unless he/she has 
not violated the requirements of the testing program or he/she has 
fully completed a return-to-duty program as required by the testing 
program. This law will also require privacy protections and employee 
rights of action. Do you support the establishment of a drug and 
alcohol test result clearinghouse?
    Answer. Yes. ATA has been actively promoting the creation of a drug 
and alcohol test results clearinghouse since 1999.

    Question 1a. Does FMCSA have the authority to establish such a 
clearinghouse without Congressional guidance?
    Answer. While ATA believes FMCSA could reasonably argue it has 
authority under 49 U.S.C. Chapters 311 and 313 to establish such a 
clearinghouse, ATA also believes Congress should explicitly provide 
authority, direction and a timeline for the Agency to complete a 
rulemaking establishing a clearinghouse.

    Question 1b. Should a drug clearinghouse be part of CSA 2010?
    Answer. Yes.

    Question 2. I understand that on April 5, 2010, FMCSA developed a 
final rule to require the use of EOBRs by carriers that have violated 
the hours of service rules. Do you believe all motor-carriers should be 
equipped with EOBRs to better comply with Hours of Service laws?
    Answer. ATA does not currently support a requirement for all motor 
carriers to equip their vehicles with EOBRs. ATA supports cost-
beneficial laws and regulations that have a firm basis in sound 
research and data analysis. Neither the industry nor FMCSA has been 
able to establish, through research or data analysis, that such a 
requirement would be cost-beneficial. The lack of such an analysis on 
EOBRs stands in stark contrast to the March 2004 study and report to 
Congress on the feasibility, merits and cost-effectiveness of 
establishing a national drug and alcohol test results clearinghouse.

    Question 2a. If Congress were to require EOBRs for all carriers, 
what information should we require to be recorded?
    Answer. Congress should review and consider the information 
requirements currently contained in 49 C.F.R. Section 395.8(d)(1) 
through (11).

    Question 3. Do you believe the current size and weight restrictions 
can be increased without compromising highway safety or infrastructure 
integrity?
    Answer. Forty-eight states currently authorize the operation of 
trucks which exceed Federal size and/or weight limits. In some cases, 
these higher limits precede establishment of Interstate Highway weight 
limits in 1956. Over the years, many U.S. and international studies 
have been conducted to determine the safety and infrastructure impacts 
of these vehicles. Based on the preponderance of the evidence, as well 
as carriers' own experience, we believe that responsibly expanding the 
operation of trucks with greater size and weight limits than currently 
allowed under Federal law would improve highway safety, lower energy 
use and emissions and reduce freight costs, without compromising 
infrastructure integrity.

    Question 3a. Would you comment on your views of increasing the 
allowable weight of trucks to 97,000 pounds by adding a third axle to 
the rear pair of axles?
    Answer. ATA supports giving states the authority to allow the 
operation of 6-axle trucks with a gross weight of 97,000 pounds, with 
appropriate Federal oversight. The additional axle will result in lower 
pavement maintenance costs and ensures that stopping distance is 
similar to the trucks they replace. We are not aware of any safety 
issues with this vehicle. In fact, the greater carrying capacity of 
this truck will reduce vehicle miles traveled, thus lowering crash 
exposure. Reducing truck vehicle miles also lowers emissions and energy 
use. Furthermore, use of this vehicle will help to level the playing 
field for certain industries with high freight transportation costs 
that compete with companies in countries that already allow higher 
weight limits than is currently authorized by Federal law in the U.S.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                              Todd Spencer

    Question. Most truck drivers are paid by the mile, which tempts 
drivers to drive longer than what is permitted under the Hours of 
Service regulations, especially if they are delayed at ports and 
loading facilities. As we work to reauthorize the Federal Motor Carrier 
Safety Administration, what additional steps should the Committee take 
to reduce this incentive?
    Answer. Under current Hours-of-Service (HOS) regulations, the daily 
14-hour clock begins to tick for a truck driver when the driver 
performs any on-duty activity, including those duties related to 
loading and unloading. The Committee is correct, unlike other 
industrialized nations throughout the world, most U.S. based drivers 
are not compensated by the hour, but by miles driven. This means that 
under current practices, many U.S. drivers are forced to give away 
countless hours each week waiting to be loaded or unloaded, manually 
sorting and stacking freight, or physically loading or unloading the 
freight themselves. This egregious practice is a major contributor to 
driver fatigue, HOS violations, and the overall deterioration of 
highway safety.
    It's estimated that truck drivers in the U.S. spend as much as 40 
hours per week at shipping docks waiting to for their truck's cargo to 
be loaded or unloaded. It is common for a driver to pull into a 
shipping or receiving facility with no idea of whether he or she will 
be there for 2 hours or 10. In certain industries, it isn't unusual for 
drivers to wait up to 24 hours before taking a load. During this 
waiting time, it is nearly impossible for a driver to rest. Often, the 
driver must wait in line or be ``on call'' ready to take the load and 
make the ``just-in-time'' delivery. Excessive ``detention time'' alone 
not only costs the trucking industry approximately $3 billion dollars 
annually, but the value of this inefficiency doubles to over $6 billion 
annually when both motor carrier and societal costs such as 
environmental, safety, and mobility costs are included. \1\ In addition 
to the monetary cost, in research conducted by the DOT, excessive 
detention is often cited as a contributor to fatigue and HOS 
violations. Because a driver's time is not accounted for by shippers, 
drivers are put in the compromising position of having to choose 
between meeting scheduling demands or complying with certain safety 
rules such as the Federal Hours-of-Service (HOS) regulations. Research 
shows, that often, because of economic necessity and the structure of 
the industry, drivers feel pressured to not keep an accurate log book 
or to drive while fatigued. \2\ In one research forum conducted by 
FMCSA, it was noted that long waiting lines at shipper facilities were 
identified by carriers and safety advocates as one way ``shippers can 
undermine commercial vehicle safety.'' \3\ In a separate, more 
comprehensive study, it was noted that ``the need for drivers to load 
or unload their own vehicles can often impede timely completion of a 
run and force the driver into excess hours in order to make delivery. 
Similarly, delays in accessing the unloading point can result in 
drivers feeling a need to make up for lost time.'' The same study also 
reported that certain timely goods ``hot freight'' can cause drivers to 
``see no alternative other than speeding or exceeding the HOS 
regulations in order to make timely delivery.'' (Carriers 1998)
---------------------------------------------------------------------------
    \1\ U.S. Department of Transportation-Federal Motor Carrier 
Security Administration (2007). The Motor Carrier Efficiency Study 
2007: Annual Report to Congress, 2007
    \2\ U.S. Department of Transportation- Federal Highway 
Administration-Office of Motor Carriers (1998), A Qualitative 
Assessment of the Role of Shippers and others in Driver Compliance with 
Federal Safety Regulations.
    \3\ U.S. Department of Transportation--Federal Motor Carrier 
Security Administration--Office of Research and Technology (2003) 
Results from 2003 Stakeholder Forums.
---------------------------------------------------------------------------
    So what is the solution to shippers/receivers having the power to 
detain drivers excessively in the loading and unloading process? 
Simple. Make a driver's time worth something of value in the supply 
chain. In the interest of promoting safe trucking practices, as well as 
the overall efficiency of goods movement in the U.S., the loading and 
unloading process in this Nation must be changed. According to one DOT 
study, waiting for freight to be loaded/unloaded can ``impede a 
driver's ability to effectively meet schedules and lead to violation of 
HOS, driver fatigue and loss of income by all parties involved*'' As of 
now, a driver's time is free and although he is ``on the clock,'' 
shippers do not value this time. Although compensation for excessive 
dentition time was standard for a time in the trucking industry prior 
to deregulation and compensation for ``demurrage'' is still practiced 
in other freight modes, as of now, shippers have no incentive to 
improve the efficiency of loading and unloading trucks at their 
facilities. If the time spent by drivers waiting to be loaded or 
unloaded is contemplated and if compensation for excessive detention 
time begins to be negotiated, the trucking industry and the American 
public will benefit from efficient freight movement and dramatically 
improved highway safety.

     Response to Written Questions Submitted by Hon. Mark Pryor to 
                              Todd Spencer

    Question 1. Last year I introduced S. 1113, the Safe Roads Act, to 
establish a national drug and alcohol testing database for employers to 
better select qualified drivers and avoid hiring employees with a drug 
or alcohol background.
    Under this law, the FMCSA would require medical review officers, 
employers, and other service agents to report positive results from 
FMCSA required drug or alcohol tests to the database and clearinghouse. 
Employers would be required to check the database prior to hiring a 
prospective employee. If a prospective employee has a positive result, 
an employer would not be allowed to hire the prospect unless he/she has 
not violated the requirements of the testing program or he/she has 
fully completed a return-to-duty program as required by the testing 
program. This law will also require privacy protections and employee 
rights of action. Do you support the establishment of a drug and 
alcohol test result clearinghouse?
    Answer. OOIDA believes that drug and alcohol testing for commercial 
motor vehicle operators has played an important role in raising the 
level of safety on our Nation's highways. However, there are problems 
with existing regulations, procedures and enforcement that should be 
addressed to ensure that testing programs are effectively employed 
while also mindful of the significant harm that may be caused to a 
trucker's life and livelihood by errant administration.
    OOIDA fully supports the goal of striving to make the trucking 
industry free of drug and alcohol abuse. However, we have privacy, 
operational, security, and oversight related concerns with the 
establishment and administration of a national clearinghouse for 
positive drug and alcohol testing results. We realize that your 
legislation goes to great lengths to address those concerns however we 
remain uncomfortable with how provisions of the legislation may be 
implemented by government agencies. If the operational, security and 
logistical oversight complications are not adequately addressed when 
the proposal is being implemented, the potential to negatively impact 
drivers far beyond the scope of those who abuse drugs and alcohol 
exists. We would be happy to continue working with you to address the 
concerns of the professionals we represent.
    Question 1a. Does FMCSA have the authority to establish such a 
clearinghouse without Congressional guidance?
    Answer. While FMCSA does have the ability to make changes to its 
drug and alcohol testing policies our understanding is that the agency 
does not have the legal authority to establish a clearinghouse.

    Question 1b. Should a drug clearinghouse be part of CSA 2010?
    Answer. We do not believe that a drug and alcohol testing 
clearinghouse should be a part of the CSA 2010 initiative.

    Question 2. I understand that on April 5, 2010, FMCSA developed a 
final rule to require the use of EOBRs by carriers that have violated 
the hours of service rules. Do you believe all motor-carriers should be 
equipped with EOBRs to better comply with Hours of Service laws? If 
Congress were to require EOBRs for all carriers, what information 
should we require to be recorded?
    Answer. From our perspective EOBRs are not safety devices, they are 
recordkeeping tools that are subject to the same shortcomings as paper 
logbooks. We have seen no evidence that using EOBRs for HOS enforcement 
purposes will result in better safety performances or in a reduction of 
accidents. We cannot see a justification in burdening the trucking 
industry with the significant financial and personal privacy costs of a 
universal EOBR mandate especially considering the industry is 
predominately made up of small businesses.

    Question 3. Do you believe the current size and weight restrictions 
can be increased without compromising highway safety or infrastructure 
integrity? Would you comment on your views of increasing the allowable 
weight of trucks to 97,000 pounds by adding a third axle to the rear 
pair of axles?
    Answer. Our members know from firsthand experience that further 
increases in sizes and weights of commercial motor vehicles can 
endanger highway users and hasten the deterioration of our Nation's 
roads and bridges. Increasing allowable vehicle weights from 80,000 
pounds to 97,000 pounds may be described by some in the private sector 
as a minor change, but could have a dramatic impact on the safety and 
structural integrity of some Federal aid highways.
    Generally speaking stability, mobility and maneuverability are 
substantially reduced on bigger and heavier trucks. The larger and 
heavier the vehicle, the more problems it has interacting with other 
vehicles on the highway. We firmly believe that increases to current 
standards could seriously jeopardize the safety of both automobile and 
commercial truck drivers.
    Specifically, the 97,000 pounds gross weight on 6 axles 
configuration presents a serious handling issue due to the fact that 
adding a third axle to the trailer will increase the maximum allowable 
trailer weight to 51,000 pounds, compared to 34,000 to 40,000 pounds 
now. The trailer weight would then exceed the allowable weight of 
46,000 pounds on the tractor creating a dangerous kinetic force that 
could easily push the tractor out of control when attempting to stop on 
icy, snowy and wet road surfaces. Add to that descending a steep 
mountain grade in the same conditions and even an experienced driver 
will surely be challenged to keep the vehicle under control.
    In addition to the well discussed impact that heavier trucks have 
on our Nation's deteriorating infrastructure, additional axle 
combinations that are necessary to accommodate heavier loads will 
increase the damage to road surfaces related to ``scuffing''--this is a 
phenomenon associated with certain axle configurations where the 
vehicle's tires drag across the road surface when turning. Scuffing is 
most prevalent in configurations where a trailer is equipped with a 
group of three or more axles. Scuffing is especially damaging in hot 
weather, a condition under which one can actually see the pavement 
buckle and roll up under stress.
    Increases to allowable weight standards will also hasten the 
deterioration of trucking equipment. While these issues may not be of 
great concern to large corporate motor carriers who turnover their 
equipment on a regular basis, it would correspond to significant cost 
increases for the small business truckers that comprise the vast 
majority of the U.S. trucking industry. Furthermore, the increased wear 
on equipment is not only a costly issue, but also represents another 
serious safety concern.
    Also as the weight of vehicles increase, the number of highways and 
bridges that are designed to accommodate them become fewer. If trucks 
weights are increased, many routes as well as pickup and delivery 
points would become totally inaccessible without substantial, costly 
upgrades to accommodate vehicles larger or heavier than currently 
allowed under the Federal rules--the already limited number of viable 
routes available to commercial motor vehicles would further be 
diminished. Efficiency in the trucking industry would be lost, not 
gained.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
